<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman

 C. W. BILL YOUNG, Florida          DAVID R. OBEY, Wisconsin
 HENRY BONILLA, Texas               STENY H. HOYER, Maryland
 ERNEST J. ISTOOK, Jr., Oklahoma    NANCY PELOSI, California
 DAN MILLER, Florida                NITA M. LOWEY, New York
 JAY DICKEY, Arkansas               ROSA L. DeLAURO, Connecticut
 ROGER F. WICKER, Mississippi       JESSE L. JACKSON, Jr., Illinois
 ANNE M. NORTHUP, Kentucky          
 RANDY ``DUKE'' CUNNINGHAM,         
California                          

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

           S. Anthony McCann, Carol Murphy, Susan Ross Firth,
             and Francine Mack-Salvador, Subcommittee Staff

                                ________

                                 PART 7B



                 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                   INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations

                                ________


                     U.S. GOVERNMENT PRINTING OFFICE
 64-781                     WASHINGTON : 2000

                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi           ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,             Alabama
Washington                              MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,             LUCILLE ROYBAL-ALLARD, California
California                              SAM FARR, California
 TODD TIAHRT, Kansas                    JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                   CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                       ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky              
 ROBERT B. ADERHOLT, Alabama            
 JO ANN EMERSON, Missouri               
 JOHN E. SUNUNU, New Hampshire          
 KAY GRANGER, Texas                     
 JOHN E. PETERSON, Pennsylvania         
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                            Tuesday, April 4, 2000.

                             MARCH OF DIMES

                                WITNESS

ANNA ELEANOR ROOSEVELT, VICE CHAIR, MARCH OF DIMES; BOARD OF TRUSTEES 
    AND CHAIR OF THE NATIONAL PUBLIC AFFAIRS COMMITTEE
    Mr. Porter. The subcommittee will come to order. This is a 
public witness hearing on the budget for the Departments of 
Labor, Health and Human Services, and related agencies for the 
budget of the fiscal year 2001. And we are now in our eighth 
session of public witnesses of 10. We have a total of 140 
witnesses who have testified. We will complete 210 witnesses 
before we are finished.
    Each witness is allowed 5 minutes. Unfortunately, we are 
going to have to keep you all on the clock and we keep 
ourselves on the clock, I might add, when the subcommittee has 
questions, and when you hear the timer beep, I would ask you to 
wrap up whatever thoughts you are in the process of delivering 
and observe the 5-minute rule.
    I have to remind witnesses of provisions of the House rule. 
In addition to their written statement, nongovernmental 
witnesses must submit a curriculum vitae and a statement of 
Federal grant or contract funds that they or any entity they 
represent have received. If you have any question about the 
applicability of this provision or questions as to how to 
comply with the rules, please contact the subcommittee staff.
    Finally, before beginning, I want to recognize that we have 
with us four members of the House of Commons of Great Britain, 
members of the Science and Technology Committee, Dr. Michael 
Clark, Dr. Ian Gibson, Dr. Ashok Kumar and Dr. Desmond Turner, 
all members of Parliament, and they have several members of 
their committee staff and representatives of the British 
Embassy with us as well, and we welcome each one of them and 
are delighted to have them sit in this afternoon.
    The bells that have just rung indicate a series of votes. 
There are three votes, and we are going to have to delay the 
beginning of this hearing for those three votes unfortunately, 
and I would ask that all of you relax. It will probably take 
about 25 or 30 minutes, and we will stand in recess. Sorry.
    [Vote break.]
    Mr. Porter. Subcommittee will come to order. We begin our 
witnesses this afternoon with Anna Eleanor Roosevelt, vice 
chair of the March of Dimes and board of trustees and chair of 
the National Public Affairs Committee testifying in behalf of 
the March of Dimes. Ms. Roosevelt, it is nice to see you.
    Ms. Roosevelt. Thank you, Mr. Chairman. Mr. Chairman and 
member of the subcommittee, I am Anna Eleanor Roosevelt, vice 
chair of the March of Dimes, board of trustees and chair of the 
Public Affairs Committee. The March of Dimes is a national, 
voluntary, health agency founded in 1938 by my grandfather, 
Franklin Delano Roosevelt, to find a scientific prevention of 
the threat of polio to the public. Today, the foundation works 
to improve the health of babies by preventing birth defects and 
infant mortality.
    The March of Dimes supports the goal of doubling the 
funding for the National Institutes of Health and endorses a 15 
percent increase in NIH funding for fiscal year 2001. Among the 
individual institutes, the foundation is especially interested 
in the following three issues. The first, the National 
Institute of Child Health and Human Development should be given 
the resources it needs to expand its research on birth defects 
and developmental biology, such as testing a new treatment for 
autism and increasing its research on fragile X, the most 
common inherited cause of mental retardation. The March of 
Dimes supports the institute's professional judgment budget, 
which would bring total NICHD funding to just over 
$1,000,000,000.
    Secondly, the March of Dimes recommends funding the 
National Human Genome Research Institute at the professional 
judgment budget level to accelerate groundbreaking work at the 
institute.
    Third, the foundation recommends an appropriation of 
50,000,000 for the pediatric research initiative to make 
pediatric research a priority.
    For over 30 years, the CBC has been involved in the 
prevention of birth defects. Increased funding has allowed CDC 
to expand its funding of surveillance, research and prevention 
initiatives. The foundation's goal is full funding for the 
Birth Defects Prevention Act of 1998 which is authorized at 
40,000,000.
    Surveillance is needed to identify birth defects and to 
determine where and how often they occur. The recent Pew 
Environmental Health Commission report graded each State on its 
monitoring efforts. Only eight States received a grade of A. 
The tracking systems in the remaining States need improvement.
    CDC offers financial and technical assistance to States to 
initiate or improve their systems. In 1999, 36 States applied 
for assistance, but due to limited resources, CDC was able to 
fund only 18 States. Mr. Chairman, I understand our home State 
of Illinois is interested in obtaining CDC support for its 
surveillance program. The March of Dimes recommends additional 
funding of at least 2,000,000 to expand assistance for State-
based birth defect surveillance.
    Establishment of the eight centers for birth defects 
research and prevention in 1996 significantly expanded CDC's 
capacity to conduct research into the causes of birth defects. 
Increased funding would enable the centers to collect 
additional information on genetic and environmental causes of 
birth defects, increasing dramatically our understanding of the 
cause of birth defects. The March of Dimes recommends an 
additional 8,000,000 to expand the work of the eight centers, 
as well as 110,000,000 to support critical data collection and 
analysis done by the National Center for Health Statistics.
    The goal of surveillance and research is to develop and 
implement strategies to prevent birth defects. As you may be 
aware, neural tube defects, or NTDs, are among the most 
serious, costly and preventable birth defects. Up to 70 percent 
of NTDs can be prevented if all women consume folic acid daily 
beginning before pregnancy. Last year's budget contained a 
modest increase in CDC funding to help educate the public about 
folic acid. However, an effective public education campaign 
requires substantially more resources. Therefore, the 
foundation recommends an increase of 18,000,000 to enable CDC 
to effectively promote this life-saving intervention.
    Finally, the foundation encourages the subcommittee to 
commit the funds needed to eradicate polio worldwide. I know 
you share our view that we have an obligation as a world leader 
to complete the work begun so long ago by my grandfather. We 
have the opportunity to protect children around the world from 
polio, and we cannot afford to fail.
    And finally, we support additional funding to upgrade CDC's 
buildings and facilities. Failure to address the serious 
deficiencies in laboratories and other facilities ultimately 
compromises the work of this vital public health agency.
    The foundation encourages members of the subcommittee to 
reaffirm your support of health care for mothers, infants and 
children. In particular, we urge you to increase funding of the 
maternal and child health block grant which serves 20 million 
women and children each year. The program complements Medicaid 
and the State children's health insurance program by providing 
wrap-around services and accessible care in underserved areas.
    Thank you for allowing me to testify on the programs of 
highest priorities to the March of Dimes.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Ms. Roosevelt, thank you for your testimony. 
You have hit many very, very important priorities. I have to 
say that your grandfather and my father were both victims of 
polio. My father was crippled at age 18 months and walked all 
of his life with a brace on his leg, and the leadership of your 
family, including your own leadership, which is just wonderful 
in this effort through the March of Dimes, is I think, very, 
very important. I served as a community chairman in my hometown 
of Edmonston for the March of Dimes way back in the sixties and 
it was important then.
    Now that it is focused on birth defects, this is my 
question, are all defective genes, therefore, considered birth 
defects since we are beginning to discover where you have genes 
that can cause disease?
    Ms. Roosevelt. I think the March of Dimes is actively 
engaged in supporting research to find those causes and also we 
fund Vector Research to understand how we can introduce therapy 
to prevent birth defects. Staff could probably expand on this, 
but I feel that we as a board seek to use our funding in the 
most economical and strategic way so that those research 
projects that are going to lead to real results are those that 
we seek to fund, but we are looking to get to the bottom of all 
of the infections.
    Mr. Porter. There are a number of physicians who feel all 
disease is gene-based, that they will, in the future, be able 
to track a defective gene that may, with other factors, be a 
cause of disease and therefore birth defects, would cover all 
of that, if that is the definition.
    Ms. Roosevelt. Well, if that's the definition, not being a 
scientist, I am not going to give that definition.
    Mr. Porter. I think it is wonderful that the March of Dimes 
has taken on this kind of broad responsibility and perhaps be 
at the very heart of where the problems with human health lie.
    Ms. Roosevelt. Well, in the model of our earliest project 
with polio, we fund both the kinds of on-the-ground grassroots 
programs that make a difference in people's lives today, and 
also we fund research which is going to change lives in the 
future.
    Mr. Porter. Well, we will do our very best to provide the 
increase for NIH and NICHD that you have suggested. We will 
certainly do our best to complete the work in respect to 
elimination of polio worldwide, and we are very cognizant of 
the problem at CDC for their facilities, which don't quite go 
back to the time your grandfather was President, but pretty 
close. Thank you very much for testifying.
    Ms. Roosevelt. Thank you, Mr. Chairman.
                              ----------                              

                                            Tuesday, April 4, 2000.

   AMERICAN ACADEMY OF PHYSICAL MEDICINE AND REHABILITATION AND THE 
                  ASSOCIATION OF ACADEMIC PHYSIATRISTS


                                WITNESS

HENRY B. BETTS, M.D.
    Mr. Porter. Dr. Henry B. Betts, a psychiatrist and Chairman 
of the Rehabilitation Institute Foundation and past Medical 
Director,President, CEO of the Rehabilitation Institute of 
Chicago, testifying in behalf of the American Academy of Physical 
Medicine and Rehabilitation and the Association of Academic 
Physiatrists.
    Dr. Betts, it is wonderful to see you.
    Dr. Betts. Thank you.
    Mr. Porter. It is always wonderful to see you.
    Dr. Betts. Glad to be here. You would think that Anna and I 
pieced this together, of which we did not because I am here 
indeed speaking for the Association of Academic--it is 
``physiatrics,'' I am not a psychiatrist.
    Mr. Porter. I misstated that.
    Dr. Betts. But it is the Association of Academic 
Physiatrists and the American Academy of American of Physical 
Medicine and Rehabilitation, and I am a physiatrist, and I am 
here to speak about the appropriation for NIH, which involves 
research, as does Anna's organization, and the NIDRR, and it 
refers to the Assistive Technology Act, and as you may imagine, 
I suppose not many people come to you asking to have cuts in 
the budget. Our suggestions are some increases beyond what has 
been suggested in those areas NIH, NIDRR and in the Assistive 
Technology Act.
    I was not from Illinois. I moved to Illinois from New York 
having trained with Howard Rusk in New York and moved to 
Illinois when the Rehabilitation Institute was just a little 
warehouse, and as you know, it then has grown now to be the 
largest one in the country, and I became the medical director 
and the Chairman of the Department of Physical Medicine and 
Rehabilitation at Northwestern University Medical School and 
then the President and CEO. And certainly, Illinois was the 
right choice for me. I never knew anybody there, but it was 
very vigorous and very constructive, and certainly, you know, 
Illinois had played a particular role relative to people with 
disability for a long time before the time that I was there. We 
train 7,000 people a year, so we feel we have had an impact 
too, and do more research than anybody else.
    But really, Illinois before that had shown an interest and 
I think it was the only State in the country that included 
rights for the disabled in their constitution when it was 
revised, and I knew it was the first city, Chicago was the 
first city that included a Department for the disabled in it, 
and the University of Illinois was the first and only place for 
a long time that was accessible to people with disabilities. 
When I was a resident in New York, if anybody wanted to go to 
college they had to go to Illinois.
    So I think it is fair to say that tradition is very strong, 
and I also wanted to point out that in the 35 years or whatever 
it is that I have been there, I don't know that I have seen 
anybody who has shown more sensitivity to these issues than you 
have. Perhaps it is based on your experience in your family. I 
don't know. But I mean nobody has been more attentive and more 
relentless in their consideration of the disabled in things 
that we needed and wanted to do here in Washington than you 
have and around not just polio, but I mean, you have been very 
sensitive about spinal cord injury and brain injury and post 
polio, yes, and also what can occur with the elderly.
    You know, most people I guess are going to get elderly in 
this country, and almost all elderly people get disabled. So 
you have reached--you run the gamut of consideration of 
disabilities, not just one, all the disabilities, and you have 
worked through the system here in relation to looking at those 
people.
    When I built the rehabilitation there in Chicago, I had no 
idea how to build anything, but I had a huge, huge practice and 
I learned about the patients a lot, and so in building the 
institute, anything I have done is simply based on what I heard 
from those patients, and it seems to me that is pretty well 
what you have done. You have just listened to the voices and 
gone on from there. It seems like a very logical--I don't know 
how you came about it, but anyway it seemed like a very 
logical, sensible progression. You were listening somewhere.
    So I think that is a wonderful thing for Illinois and a 
wonderful thing for people with disability, and so Illinois 
should be proud of that. We are. I can't speak for all of 
Illinois, but I can for a lot.
    Now, I wanted to remind you too that although things seem 
much better for the disabled, people shouldn't forget the very 
grisly past that has occurred. When I was in medical school in 
Virginia, which was a perfectly nice place, we sent everybody 
who had a disability to a place called the home for the 
incurables. When I interned in Cincinnati and this was not in 
the 1800s, we put people in boxes of saw dust when they had 
brain injury or spinal cord injury. We didn't give them any 
treatment at all.
    Martin Luther, that nice man who founded Protestantism, 
said if a baby was disabled that the baby should be beaten so 
that the mother wouldn't bring another one to the church, and 
in the Catholic church it was written that if you were, I don't 
know, any number of things, hook-nosed, hunchback, had a limp, 
you couldn't go to the altar. And the Nazis, you know, did 
euthanasia to people with disability, and in this country 30 
States had laws for sterilizing the retarded, the mentally ill 
and, for whatever reason, homosexuals and drunks, and that was 
up until the middle of this century.
    So the background of the way the disabled have been treated 
has been bad to say the least. In many societies they were 
killed.
    Now in this country right now there have been three dramas. 
A lot has been done that is good, and in three minutes I can't 
cover that, but there are several dramas that lead up to what I 
think is a necessity to proceed strongly in these areas of the 
NIH and the NIDRR and the assistive technology. One is the 
Americans with Disabilities Act, one is the formation of a 
center in the NIH for the disabled, for rehabilitation, which 
is new, was never done before. The other is the CDC had done a 
study on the prevention of disabled. When you treat disability, 
you can't help but feel, I mean the more people you treat, the 
more you think gosh, this really didn't need to happen. Why 
didn't they wear a seat belt? Why did they drink and drive? Why 
did they get in a car with someone who was drunk?
    And the other thing that has been extraordinarily 
significant is the rise of the independent living movement 
because that has made up of people who have a disability, they 
understand the issues of the disabled, they have moved ahead 
forcefully and they have achieved an independence for 
themselves and other ways of doingthat, and hearing from them 
is very significant, extremely significant.
    So I think that you need more research. We need to improve 
that. We need to improve rehabilitation. We need a cure. We 
need to educate because disability is relative to the whole 
society. The society doesn't want the disabled people, you 
know, they are not going to get anywhere, and you have to 
improve accessibility and you have to get jobs.
    So that is the background, and I think it is important to 
recognize that this is not just a group tucked away somewhere. 
I mean this is us. They are us. You know, as people get more--
people are going to have their lives saved in accidents and 
they will be alive to have a disability. More people are going 
to get old, and essentially, all people get some kind of a 
disability, all elderly people. So it is extremely important to 
provide for this new world. I mean even the baby boomers are 
going to get disabled, who feel immune to everything, and they 
are going to demand, they are going to demand that something 
more be done than is being done now. Right now, the disabled 
are still excluded. 75 percent do not have jobs. There have not 
been enough research to see how it can be prevented and cured 
and rehabilitation could be better. There are a lot of things 
that have not been done. So I feel in order to bring about the 
quality of life that's needed, there needs to be consideration 
of all the things I suggested are in the written document which 
has been turned over to the committee.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Well, Henry, no one has been a greater advocate 
for the disabled or on the cutting edge of science for 
improving treatment and the lives of the disabled than you, and 
any suggestions you have in this area we are going to listen to 
very seriously and try to match them. I would say one thing, 
and that is the word physiatrist is still confusing. I looked 
at this and it is written correctly on my staff's sheet, and I 
said, gee, I didn't know Henry was a psychiatrist as well as an 
orthopedic surgeon. You have got to do something about this 
word. Thank you very much.
    Dr. Betts. People I have known 35 years have no idea. I say 
``physiatrist,'' they don't know what it is. It ought to be 
eliminated.
    Mr. Porter. I look at the word, it just looks too close to 
psychiatrist. I am sorry.
    Dr. Betts. It is always crossed out and psychiatrist is 
written in. It should be rehabilitationist.
    Mr. Porter. I think so. Thank you very much, Dr. Betts.
                              ----------                              

                                            Tuesday, April 4, 2000.

                AMERICAN ACADEMY OF PEDIATRIC DENTISTRY


                                WITNESS

DR. HEBER SIMMONS, JR.
    Mr. Porter. Dr. Heber Simmons, Jr., practicing Pediatric 
Dentist and congressional liaison for the American Academy of 
Pediatric Dentistry testifying in behalf of the Academy and the 
Chair recognizes Mr. Wicker.
    Mr. Wicker. Well, thank you very much, Mr. Chairman. There 
are many things that I could say about Dr. Heber Simmons are 
noteworthy, but I will just say a few. The first thing I would 
mention, Mr. Chairman, is that his parents had the good 
judgment to make certain that he was born in Tupelo, 
Mississippi, which is my hometown. He also spent a number of 
his formative years running up and down the red clay hills and 
hollows and kudzu-covered gullies of Pontotoc County, 
Mississippi, which is where I was born.
    But he later went on to the University of Mississippi, got 
his dentistry education at the University of Tennessee, and for 
38 years, Mr. Chairman, has been a practicing dentist and 
pediatric dentist in Jackson, Mississippi. He has a real 
interest in the children of America and in the field of 
pediatric dentistry and making sure that we have enough trained 
providers out there to take care of this growing need, and as 
you can see from our agenda today, he comes to us as 
congressional liaison for the American Academy of Pediatric 
Dentistry and he is a great friend.
    Mr. Porter. Thank you, Mr. Wicker. Dr. Simmons, please 
proceed.
    Dr. Simmons. Thank you, Mr. Porter, and thank you for those 
kind remarks, Roger. I appreciate that. As Roger said, I am the 
congressional liaison for the American Academy of Pediatric 
Dentistry which is located in Chicago, as a matter of fact, and 
represents the 3,800 pediatric dentists of this country, and we 
thank you for the opportunity to testify today.
    As Roger also said, I have practiced pediatric dentistry in 
Jackson, Mississippi, for the past 38 years, so I see on a 
firsthand basis the problems that children are facing everyday, 
and contrary to popular opinion, tooth decay or caries has not 
disappeared. Rather, it remains the most common chronic 
childhood disease today. I have met with a number of the 
members of Congress and their staffs over the past three years 
on my monthly trips to Washington and have often presented the 
Academy's red book, and that is the red notebook that you have 
in front of you there, which we brought extra copies.
    The pictures in this book are disturbing but they clearly 
show the problem that exists today. This is not what you expect 
to see in our country. Children with a baby bottle decay and 
early child caries have infection, pain and suffering. The 
photographs clearly demonstrated that we have not conquered 
decay in certain segments of our population, and we need your 
help to solve the problem. We are not here today to ask you to 
start any new programs. We are not trying to build a 
bureaucracy. We are simply trying to find answers with the 
tools that are available today. In short, we are trying to take 
care of the kids.
    Eighty percent of all of the dental problems in children 
are found in that 25 percent from the lowest income groups, 
children eligible for Medicaid and S-CHIP. This translates into 
at least 4 to 5 million children in this country with severe 
dental needs. If these children have dental pain, they cannot 
pay attention in school. If a person is hurting, everything 
else takes a backseat. A child cannot be considered healthy 
unless he or she has good oral health.
    The same blood that goes by an infected or an abscess tooth 
goes by everything in that child's body, from their brain to 
their heart to their little toes. Please help us take care of 
these children. We want to fix Medicaid, maximize dental care 
and S-CHIP and attack the problems outlined in the upcoming 
Surgeon General's report on oral health.
    You have been sensitive to the needs of our Nation's 
children in this past, and this year you have a unique 
opportunity to help kids with oral disease by supporting HRSA's 
Oral Health Initiative and the health profession training 
programs and dentistry of Title VII. The Academy recommends 
that you fund the Oral Health Initiative at $20,000,000. The 
increased funding will expand current programs that address 
early childhood caries, increase sealant and fluoride programs, 
train nondental personnel to identify pregnant women with poor 
dental health, and help States who have no dental directors. 
The funding would also be used to expand the centers for 
leadership and pediatric dentistry and education and the 
dentists who participate in this program will become national 
leaders in the field.
    The dental schools and teaching hospitals around the 
country are looking for ways to expand pediatric dentistry 
training and service. We recognize we are facing a crisis. We 
know the situation will just get worse. There will not be 
enough graduating dentists to replace retiring pediatric 
dentists in the next 10 years. This will leave the children 
with the most severe level of oral disease without a specialist 
to care for them. It will also mean that faculty positions will 
not be filled. However, with your help, we can begin to address 
this situation.
    The good news is there is a strong interest among students 
to pursue this career. Last year there were over 330 applicants 
for the 197 open pediatric dentistry slots, and in response to 
that demand 19 schools and teaching hospitals applied for Title 
VII funding to increase new pediatric dental residencies. 
Unfortunately, we expect only four or five to be funded. 
Therefore, Mr. Chairman, the Academy requests that you increase 
the funding for the Title VII dental residencies to a minimum 
of $9,000,000 for the fiscal year 2001.
    I conclude by asking you to act boldly this year to meet 
the oral health care needs of our children. These programs and 
requests are fully supported by our academy, the American 
Dental Association, the American Association of Dental Schools 
as well as numerous other child advocacy groups. Oral health 
can no longer be an afterthought, a second thought or a no 
thought.
    This initiative is long overdue, and the time to act is 
now. If we have the resources and money to help people around 
the world with their problems, we certainly can find enough to 
help our own children with such a basic and important health 
care need. Please help us take care of the children.
    Thank you for allowing me to talk with you today and I will 
be pleased to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. We commend you for your efficient testimony. 
Dr. Simmons, I heard a statistic recently that I want to verify 
with you, but I think it was that 38 percent of the people of 
the United States do not have fluoridated water. Does that 
sound about right?
    Dr. Simmons. Approximately correct.
    Mr. Porter. So while we obviously recognize that poverty 
and the lack of good dental care is a factor, how much of these 
pediatric dental problems that are detailed so clearly in your 
photographs and in the book you provided come from simply not 
having the starting point, which is fluoridated water, so that 
large number of caries that develop otherwise might be 
prevented?
    Dr. Simmons. Mr. Porter, it would be hard to assess any 
certain facts to that, but you have to understand that water 
fluoridation, community fluoridation is one of the tools we 
have, and it is the most effective tool we have in cutting down 
decay.
    Mr. Porter. Excuse me, but why don't we just tell people 
they have to fluoridate their water?
    Dr. Simmons. I wonder that myself, but it would be a great 
thing to do, but that is a very hard thing to do, obviously.
    Mr. Porter. I know there are certain people who reject on 
religious grounds, but it seems to me this is established 
medicine that obviously works.
    Dr. Simmons. Absolutely, and it does work. I know in my own 
community of Jackson, once we fluoridated the water supply, the 
decay rate took a nose dive. That is what we are trying to do. 
We are really trying to help these kids so that they don't have 
decay. When you see these children that have mouths full of 
decay and all of these problems, it has to hurt you in the 
heart and especially these kids that cannot afford adequate 
care, and that is what we need to help. That is the group that 
needs the help.
    Mr. Porter. Your testimony was excellent, sir. We will do 
our very best to go where you want us to go.
    Mr. Wicker. Mr. Chairman, if I could just ask a question or 
two. You alluded, Mr. Chairman, to this red book, and it is 
very hard for every member of this subcommittee to get here for 
these public witness hearings, but I want to assure you, Dr. 
Simmons, I am going to make sure that every member of this 
subcommittee gets the copy of this red book that you provided 
because the pictures are just shocking, and it is amazing to 
think that this could happen in the United States of America. 
Where were these pictures taken?
    Dr. Simmons. Those pictures were taken in the State of 
Pennsylvania, and those pictures were taken during a one week 
period in Dr. Ross Mesmer's office in Scranton, Pennsylvania, 
during a one week, five-day period, and these were the actual 
patients he saw during that time frame.
    Mr. Wicker. It is just amazing. I would assume that 
children are more susceptible to this.
    Dr. Simmons. Well, they are. You have to realize, Mr. 
Wicker, when you are talking about children in pediatric care 
that primary teeth really have enamel, that is only about half 
as thick as it is on permanent teeth, and even then the enamel 
is not as dense. So children can get in trouble very, very 
fast, and this is one of the reasons that we say that you just 
have to take care of those kids. That's all there is to it.
    Mr. Wicker. I thank you for your testimony. We will make 
sure everybody gets the book.
    Dr. Simmons. I thank you for the opportunity to be here 
today.
    Mr. Porter. Thank you, Dr. Simmons.
                              ----------                              

                                            Tuesday, April 4, 2000.

                     MUSEUM OF SCIENCE AND INDUSTRY


                                WITNESS

DAVID MOSENA, PRESIDENT, MUSEUM OF SCIENCE AND INDUSTRY
    Mr. Porter. David Mosena, President, Museum of Science and 
Industry, Chicago, Illinois, testifying in behalf of the 
museum. David, it is good to see you.
    Mr. Mosena. Good to see you, Mr. Chairman. Mr. Chairman, 
thank you, and members of the committee, thank you for the 
opportunity to testify before you one last time. The Museum of 
Science and Industry joins countless institutions and 
Chicagoans in expressing our deep appreciation for your service 
in Congress.
    Your leadership has led to national advances in a variety 
of areas from education and employment skills to health, 
scientific research and services to underprivileged population 
and communities, to name just a few. You have assisted the 
museum in serving as a national resource for public education 
on a variety of topics, ranging from the first ever exhibit on 
AIDS to the preservation of a national treasure, the captured 
World War II submarine, the U505. You have also supported our 
efforts to bring to the public eye global accomplishments 
related to women's health, the physical sciences, molecular 
biology and disease research. In doing so, you have helped the 
museum create memorable moments for our audiences so that a 
visit to our campus might inspire curiosity and strengthen a 
commitment to lifelong learning.
    Our programs help visitors realize that everyone has the 
potential for a scientific mind and critical thinking, and that 
there are many ways to explore and to understand science. The 
Museum of Science and Industry is visited by nearly 2 million 
people every year, and it is the largest science museum in the 
Western hemisphere. We conduct an extensive range of 
educational programming for students, host more than 400,000 
children in school groups each year, and continue to offer free 
admission to visitors on Thursday. In fact, Mr. Chairman, half 
of all the museum visitors that come to our site come in free.
    We continually maintain and upgrade our visitor 
experiences, plan for new memorable moments that reflect 
current and future technologies and enhance and expand our 
educational programming. Our goal is to impact every visitor 
generating interest in, knowledge of and appreciation for 
science and technology through inquiry-based, informal, hands-
on learning.
    We work in close collaboration with school systems to 
integrate components of our exhibits and programs into their 
curricula in order to reinforce mutually desired learning 
outcomes that support national and State science and math 
objectives, and we thank the subcommittee for the support you 
provided us last year through the Department of Education's 
Stars School program, which will enable us to reach beyond our 
walls to bring science activities to students who might not 
ordinarily visit the museum, especially disadvantaged children 
and youth.
    The museum plans to continue our legacy of providing unique 
learning experiences with the development of a new 
manufacturing learning center. Like the museum as a whole, the 
manufacturing learning center is premised on the notion that a 
technologically literate public is a fundamental prerequisite 
for global competition. By preserving automation as a motive 
for a more skilled workforce, rather than as a substitute for 
labor, the manufacturing learning center will inspire millions 
to take a fresh look at the opportunities technology offers in 
the new century.
    In closing, Mr. Chairman, we are grateful for your and the 
subcommittee's recognition that science museums are highly 
credible organizations in our respective communities. We are 
looked to by schools and by families for accurate information 
on complicated and sometimes controversial scientific topics, 
and we have the unique ability to present our visitors with 
complex information in compelling and entertaining ways. Your 
support of our mission is vital and we are deeply appreciative.
    Mr. Chairman, your representation and stewardship in 
Congress will be very much missed. We hope you will remain a 
friend of the museum. We wish you continued success with your 
future endeavors.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. David, thank you for those very kind words. The 
museum is really a national treasure, and anybody who hasn't 
been there should really go to see it. It is amazing. One of 
the things that worries me a great deal about our future is 
here we have an economy that is driven by technology very 
highly and not just information technology, but a great deal of 
different kinds of technologies, and yet we find our kids in 
this country either aren't getting a very good science and 
mathematics education or they are not attracted to science 
careers to develop the technologies that will keep this economy 
growing and keep our leadership in the world.
    And I believe largely we have benefited because our society 
of freedom and opportunity, put it that way, attracts some of 
the best minds from all over the world, and yet we are not 
doing a very good job with our kids. And one of the things that 
impresses me most about the museum is that it takes kids at a 
very impressive and formative age and gets them excited about 
science and technology, like nothing else perhaps can do.
    And so I just think what the museum does is very, very 
important work. It also captures the imagination of us older 
people as well, but for children especially I think it is very, 
very compelling and important for them.
    Mr. Mosena. Well, lifelong learning is important to us, but 
I think the thing that makes our jobs most rewarding is seeing 
those 7-, 8-, 9-, 10-, 11-year-old kids really get excited 
about something, inspired about something that didn't quite 
click in the classroom. We don't teach them the facts, but then 
they go back with that inspiration and apply themselves 
differently, and we get letters from parents that testify to 
that that makes our job worthwhile.
    Mr. Porter. If we don't keep this economy growing, we can't 
depend upon the whole world. We have got to get kids interested 
in careers in science and you are doing that, and I think it is 
just wonderful. Thank you for coming to testify.
    Mr. Mosena. Thank you, Mr. Chairman.
                              ----------                              

                                            Tuesday, April 4, 2000.

                AMERICAN SOCIETY FOR CLINICAL NUTRITION


                                WITNESS

DR. RICHARD RIVLIN, DIRECTOR OF THE CLINICAL NUTRITION RESEARCH UNIT AT 
    MEMORIAL SLOAN-KETTERING CANCER CENTER
    Mr. Porter. Dr. Richard Rivlin, director of the Clinical 
Nutrition Research unit at Memoral Sloan-Kettering Cancer 
Center, testifying in behalf of the American Society for 
Clinical Nutrition.
    Dr. Rivlin.
    Dr. Rivlin. Mr. Chairman, I am, as you pointed out Richard 
Rivlin, and I am here as the past president of the American 
Society for Clinical Nutrition and chair of its public affairs 
committee. I am testifying on behalf of that society, which is 
the leading scientific organization concerned with nutrition 
and its relationship to disease and disability.
    I want to thank you and the committee for the opportunity 
to testify again and for all your important efforts over the 
years onbehalf of NIH and CDC, particularly their programs 
related to nutrition.
    Mr. Chairman, the American Society of Clinical Nutrition, 
as well as many other scientific organizations in medicine, 
believe and are convinced that the nutritional status of 
Americans today represents a health problem of really very 
significant proportions, but due to the efforts of your 
committee and Congress, we now have some national and State 
programs to deal with this national problem.
    We are here to ask you again for your assistance in 
providing adequate financing for those programs, which are not 
supported sufficiently in the President's budget request. 
Specifically we request a 15 percent increase for NIH and for 
all of its nutrition programs and 30,000,000 for CDC prevention 
programs in nutrition and physical activity. $30,000,000 may 
seem like a lot. It does to me, but it represents approximately 
1 percent of the total CDC budget of $2,900,000,000 billion.
    Poor nutrition and lack of physical activity result in 
approximately 300,000 preventable deaths a year and is 
secondary only to tobacco as a cause of mortality. To quote a 
former President of the American Heart Association, Americans 
are heavier than ever and physical activity and good nutrition 
must become national priorities. It is fair to say that recent 
studies show that 50 percent of American adults are overweight 
and a third are obese, which means greatly overweight.
    In the last 30 years, and this is really the crux of the 
problem, the number of children aged 6 to 17 who are overweight 
or obese has doubled, it has doubled. And obesity also 
disproportionately affects minorities. It affects the poor, and 
the astonishing statistic is that two thirds of minority women 
in the United States are overweight or obese. Mr. Chairman, 
obesity is an epidemic that must be stopped, an epidemic that 
we must intervene, we must intervene on this now.
    We want to note your support for the initiative or our 
support for your initiative with the CDC and NICHD to make 
young children aware of the importance of nutrition and 
physical activity to their health. We really must start in the 
schools, and I am fond of quoting Shakespeare, ``the child is 
father to the man.''
    The disease of obesity is really associated with most of 
our major diseases, heart disease, cancer, hypertension, stroke 
and obesity and diabetes. Obesity is a major risk factor for 
type 2 diabetes, and this used to be seen only in adults. Now 
we are seeing this in adolescents and minority populations. The 
CDC estimates that it is a full 30 percent of coronary heart 
disease deaths are attributable to obesity and cholesterol 
problems, and in fact, a third of all cancer deaths are 
attributed to dietary risk factors.
    We also have evidence that weight gain may increase the 
risk for certain cancers and worsen the prognosis once these 
cancers develop, and prevention of excess weight gain is an 
important method of cancer prevention for the population as a 
whole.
    So Mr. Chairman, there are a number of very important 
nutrition programs being undertaken by NIH which have expanded 
to greatly increase the needs and the ability of public health 
programs to meet the issue of poor nutrition and obesity and 
chronic disease.
    First, the American Society for Clinical Nutrition supports 
the expansion of the 10 current nutrition academic awards 
sponsored by the National Heart, Lung and Blood Institutes to 
other nutrition-focused institutes. These programs support 
physicians doing clinical research in areas of nutrition such 
as obesity, and we greatly need scientists in the field of 
nutrition, and we need them for basic research as well as 
teaching. So we ask your support for at least one nutrition 
academic award at each medical school in this country, and 
this, of course, should be extended to dental schools and to 
schools of osteopathic medicine, one person focusing on 
nutrition at each of these health education schools.
    Secondly, Congress should support fully the NIDDK clinical 
trial involving three institutes and the CDC to study the 
health outcomes of weight loss, and this trial will look at the 
relationship of obesity to diabetes. Additional funds would 
greatly assist in launching the Obesity Prevention Research 
Institute of NIDDK.
    Third, NIDDK should conduct further studies related to the 
role of specific nutrients such as folic acid and the 
metabolism of homocysteine in gene expression. This is a whole 
new set of risk factors that relate to heart disease that is 
really not entirely different from that of cholesterol, where 
nutrition really could do a great deal.
    And fourth, I have been privileged since 1980 to serve as 
the program director of an NCI-funded clinical nutrition 
research unit at Memorial Sloan-Kettering Cancer Center in New 
York, and there are many exciting recent developments on 
understanding how dietary nutrients can prevent cancer and 
delay its spread, and our society urges continuation of the 
present clinical nutrition research units and creation of 
additional specialized units that foster basic science, 
clinical science interactions in nutrition and cancer 
prevention. Nutritional factors, Mr. Chairman, are involved in 
virtually every stage of cancer development, from the first 
abnormal cell to the development of metastasis, and we need 
more funding for research on dietary factors, particularly 
concerned with prevention and management of patients at high 
risk for colon, breast, prostate, lung and other cancers. These 
are the ones that are most closely allied with diet.
    And fifth, increased funding is necessary to expand 
research for the study of immune enhancing and disease 
modulating nutrients which could affect such critical diseases 
in trauma as cancer, AIDS and head injury.
    And finally, Mr. Chairman, we are concerned that the 
revision being implemented by NIH to its peer review system 
will lessen the likelihood of basic and clinical research 
applications in nutrition being appropriately reviewed. We urge 
that nutrition remain an IRG descriptor under any new proposed 
system.
    I might add that the emphasis on nutrition and obesity is 
an excellent example of the interaction between NIH and CDC. 
NIH does the research and CDC is responsible for 
implementation, and we certainly support the funds that will 
develop further programs in this area. So we urge the 
subcommittee to increase funding for the CDC nutrition and 
physical activity program which supports State health 
Departments at 30,000,000 in fiscal 2001, and thiswould enable 
additional States to begin obesity demonstration programs.
    In summary, Mr. Chairman, we have an extraordinary 
opportunity to improve the health of our Nation by supporting 
NIH and CDC programs that utilize diet and nutrition to prevent 
important disease, heart disease, cancer, hypertension and 
diabetes in particular, and I need to emphasize that these 
diseases disproportionately afflict the poor and minority 
populations in the United States. We hope that you will 
continue and increase your past support for NIH and CDC 
nutrition programs, and I am very appreciative of the 
opportunity to speak again before this committee on this very 
important topic.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Rivlin, thank you for your testimony. I 
might say that one gets the opinion looking at what has 
happened with obesity in our country that somehow the American 
people think they can do what they please with their health and 
somehow all this research will save them in the end from 
themselves. We really do need to take the knowledge that we 
have and translate it into behavior, and the initiative that I 
have been working on with CDC and NICHD and HRSA and SAMHSA and 
others is not to go to the schools where we already have 
programs to educate kids but to get them--this is probably an 
oxymoron--but to get them where their attention really is, 
which is probably on the television screen someplace or on the 
Internet someplace, but find out where we can reach them with 
the message in prime time that will change their behavior at an 
early age and perhaps their parents as well.
    I think a lot of our kids get into the habit of eating 
massive amounts of fast food because their parents are very 
busy and don't prepare them normal meals, and that is where 
they fill in and pretty soon that is a health habit and it is 
the wrong health habit, but this effort is to try to use the 
marketing talents that are so good in the United States to get 
kids and their parents at a time in life where we can really 
try to change their behaviors. So we appreciate your comments 
on that matter as well. Thank you for your testimony.
    Dr. Rivlin. We greatly appreciate your initiative and 
effort in that area, and I might say that the secret to weight 
reduction is that there is no secret.
    Mr. Porter. You simply have to do it.
    Dr. Rivlin. It is a continuous effort of diet and physical 
activity. We need to begin very young. It needs to be a 
lifetime habit, and I think that the real issue is that there 
is simply too many calories that are being consumed, and we are 
becoming increasingly a sedentary Nation. So I think you grasp 
the important points here, and the committee has been very 
helpful over the years in emphasizing this, and I think 
additional support is needed to expand and continue these 
important programs.
    Mr. Porter. The messages that I would envision have to do 
with yes, with SIDs, yes, with getting vaccinations, yes with 
not using tobacco and alcohol at young age and the like, but 
mainly have to do with exercise and nutrition because those 
things can really change a lot of health outcomes if we get 
kids started right.
    Dr. Rivlin. That is right. And we are all enthusiastic 
about these elite athletes who can run a marathon in an 
incredible number of minutes, but what is really more 
impressive is getting regular people to exercise modestly, and 
the greatest improvement in health is not from someone who goes 
20 to 22 miles a day, but someone who goes from no exercise at 
all to a little exercise. So emphasizing that for everyone I 
think is a very important priority.
    Mr. Porter. Thank you, Dr. Rivlin.
                                            Tuesday, April 4, 2000.

                             LATEX ALLERGY


                                WITNESS

JAMES M. CLARK, PRIVATE CITIZEN
    Mr. Porter. James M. Clark, private citizen, testifying in 
respect to latex allergies. Mr. Clark, welcome. You are from 
River Forest, Illinois?
    Mr. Clark. Yeah.
    Mr. Porter. That is good.
    Mr. Clark. Good afternoon. My name is James Clark. I am a 
fourth grader at Lincoln School in River Forest, Illinois. I 
would like to thank Chairman John Porter of my home State of 
Illinois for honoring my request to testify today before this 
subcommittee of Congress. I would like to thank all the 
representatives on this subcommittee for considering my request 
for medical research money to be directed to studying the 
cause, prevention and possible cures for latex allergy.
    I have the disease latex allergy. Because of latex allergy, 
I do not have access to safe medical care. If I am touched by 
or if I touch natural rubber latex or breathe latex protein, I 
may have an allergic reaction. The exposure to latex may result 
in skin rashes, hives, flushing, itching, nasal, eye or sinus 
symptoms, asthma, shock and death. As of March 1999, the FDA 
has received reports of 20 deaths due to natural rubber latex, 
five of those deaths directly related to latex gloves. Since 
the early 1990s, the FDA has received over 2,000 adverse event 
reports describing allergic reactions to medical gloves 
containing natural rubber latex.
    At present there is no treatment or a cure for latex 
allergy. The only treatment I have is avoidance.
    Most ambulances and hospital emergency rooms in America use 
latex gloves which could kill me. Even if emergency services 
have nonlatex gloves and nonlatex medical supplies available, 
if their glove of first choice is latex, they may injure me 
because they may not know I have latex allergy until it is too 
late because they and their rigs are contaminated with latex 
protein.
    The American College of Allergy, Asthma and Immunology has 
declared latex allergy to be at epidemic proportions and that 
more than 6 percent of the population or 18 million Americans 
may have evidence of latex sensitivity. The NIOSH alert and 
OSHA technical information bulletin both contain clear, strong 
guidelines regarding the use of natural rubber latex in medical 
and nonmedical settings. This information needs to reach the 
public.
    I need your help. Latex allergy is presently a life 
threatening, nontreatable disease. I need to know I can call 
911 or go to an emergency room anywhere in America safely. 
Latex free products should be set for emergency medical 
service, firefighters and law enforcement.
    I need to know the food I eat has not been touched and 
contaminated by disposable latex grates. Trace amounts of food 
allergens such as peanut and seafood have killed food allergic 
people. I believe trace amounts of latex protein transferred to 
food pose a similar threat to latex allergic individuals. The 
FDA needs to be encouraged to examine and rule on the use of 
single-use disposable natural rubber latex as a source of an 
unacceptable, indirect food additive.
    Today I am asking for Federal funding for much-needed 
medical research to study the causes and possible cures for 
latex allergy. Funding is also needed that supports national, 
educational and awareness campaigns to increase public 
awareness of latex allergy. These initiatives will heighten 
awareness that latex allergy may develop in people who have 
frequent and/or intimate exposure to natural rubber latex.
    At high risk are workers with occupational exposure to 
natural rubber latex. Most importantly, these initiatives will 
protect both children and consumers. Please help those of us 
with this disease and help prevent others from the increased 
risk of sensitization by appropriating significant funds for 
latex allergy research.
    Thank you again for the opportunity to speak to you today 
on this very important public health issue. My mother and I 
will be happy to try and answer any questions you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Well, you did a wonderful job in testifying. 
James, you are the first patient that has come to testify on 
this. We have had medical workers who come in contact with 
latex and find the same problem but not patients. How old were 
you when you found out you had this allergy?
    Mr. Clark. Around seven or so.
    Mr. Porter. Around seven. And is this in the family, Ms. 
Clark, or is it just----
    Ms. Clark. No, it is not. We are not sure.
    Mr. Porter. Just one child?
    Ms. Clark. I have two other children and they are fine. He 
has food allergies, peanut and seafood, and then he had banana 
and melon and kiwi, and they think they share similar DNC 
structures to the rubber plant and may have developed from the 
food allergies. Many people with latex allergy go on to develop 
food allergies.
    Mr. Porter. It is interesting. And has anybody suggested 
that this may have a genetic base, although it wouldn't seem so 
if it is not somewhere in the family, would it?
    Ms. Clark. That is why we need more research, but 
government and a lot of government, NIOSH alert and the OSHA T 
I B and many medical papers draw a strong correlation between 
occupational exposure and acquiring the disease.
    Mr. Porter. James, we are going to do what you want to us 
to do. We are going to tell NIH they should do some more 
research in this area. Thank you for testifying. You did a 
great job.
                              ----------                              

                                            Tuesday, April 4, 2000.

            NATIONAL COALITION FOR HEART AND STROKE RESEARCH


                                WITNESS

JACK OWEN WOOD
    Mr. Porter. Jack Owen Wood, testifying in behalf of the 
National Coalition for Heart and Stroke Research.
    Mr. Wood. Thank you, Chairman Porter. I am here to solicit 
your support for more aggressive Federal funding for research 
into prevention and treatment of the sister diseases, stroke 
and heart disease.
    I am here representing the National Coalition for Heart and 
Stroke Research. The Coalition consists of 14 organizations, 
representing more than five million volunteers and members 
united in support for increased funding for heart and stroke 
research. Strokes and heart attacks are occurring at an 
alarming rate now and the trend tends to be upward.
    Today, I will deal primarily with one man's personal 
experience with stroke and its functional and financial costs. 
As you may have guessed from my scooter to the right and my 
flaccid left arm I am that man.
    I was born in 1937, raised in Vicksburg, Mississippi, 
earned an engineering degree at Mississippi State University, 
and currently reside in Port Orchard, Washington. I worked for 
the Boeing Company in Seattle, am a former director of the 
Washington State Energy Office as a loan executive, served as 
director of cost and revenue analysis and as a forecasting 
manager for a major northwest area natural gas utility until 
May 1st, 1995.
    However, on May 1st, 1995, I experienced a major disabling 
stroke that disabled me and cost me my job, and at the age of 
57, I was stricken and severely disabled by my stroke. Two 
years later, I experienced a triple bypass heart operation. You 
might say I have been there and done that for both major 
cardiovascular diseases, heart and stroke, so I am an expert.
    This past year, I was offered an exciting and rewarding 
opportunity. I was asked to lead the Jack Wood Stroke Victor 
Tour sponsored and funded by the American Heart Association. 
That tour consisted of traveling to the four northwest States 
and meeting personally with every northwest congressional 
representative on their home turf in Washington, Oregon, Idaho, 
Montana and Alaska. In each meeting I was joined by local 
people, stroke survivors and their families and medical 
professionals. I told my personal story and then asked them to 
join the Congressional Heart Stroke Coalition and to support 
increased Federal funding for heart and stroke research.
    I am proud to say that I traveled to 18 communities and met 
personally with 28 members of our northwest congressional 
delegations or their staff. Nearly half of our congressional 
delegations are now members of the Congressional Heart and 
Stroke Coalition.
    I know your interest is greater than the physical impact of 
my stroke. Your concern must include the financial impact, not 
only on me, but on our country from the increased health care 
costs and lost productivity and its many implications.
    I have confronted the difficult and somewhat painful task 
of calculating that cost to me and my government. Besides being 
a man whose stroke took his ability to pick up and play with 
his grandchildren, his livelihood and his marriage, I remain an 
engineer and statistician at heart, an analyst at heart. I 
could not resist calculating and telling that part of my story. 
But remember please as I tell this story, that it is not unlike 
that of thousands and millions of victims that are stroke 
survivors today in this country.
    People stricken in their prime earning years who in a 
matter of moments and seemingly without warning are transformed 
from contributor and provider to receiver and patient. My 
analysis is on the final page of my written testimony. I would 
like to highlight three figures that I feel will sum up my data 
and would be important to you.
    I estimate that my stroke at age 57 reduced my earnings 
before retirement age 65 by over $600,000 personally; cost the 
Federal Government in lost income and other taxes, early 
Medicare payments and social security disability payments over 
$320,000; cost my HMO over $150,000 to respond to and treat my 
stroke. I emphasize one man, one stroke, $1,000,000 in society 
costs.
    I invite you to calculate the total cost as a Nation for 
the 600,000 strokes that occur each year. Strokes are on the 
rise and are occurring more frequently in younger people. When 
my stroke hit me I denied it. It took me two days after my 
stroke to acknowledge it and to seek help. So education is one 
of the keys. Because of research into new treatments, however, 
we now have a drug calledTPA. If administered within three 
hours of the onset of a thrombolytic stroke can sometimes prevent and 
lessen the disabling effects of a thrombolytic stroke, and had there 
been TPA available, I most certainly would not be sitting here 
appealing for this funding now, and my disabilities would then lessen.
    My stroke occurred May 1st, 1995. TPA was introduced and 
approved by the FDA January of 1996, 6 months on the clock and 
that is what it cost me. What is even more painful to me is my 
impending stroke could have been detected and prevented. We 
need to develop easier and less expensive diagnostic techniques 
so that effective diagnostics can be given routinely as part of 
regular health exams and it must be covered through insurance. 
It is the only cost effective path.
    I hope my story and estimate of the cost of my stroke 
convinces you that taking on stroke and heart disease through 
increased research and leading to better prevention, diagnosis 
and treatment is fiscally responsible. The human and financial 
costs otherwise are astronomical.
    Thank you for the opportunity to come before you, for your 
past support of research and especially for your recent 
decision to eliminate, at least for now, the restrictions on 
Medicare reimbursement for rehabilitation services which are so 
essential to those who have experienced a stroke. Please 
continue and broaden that support.
    Thank you, Chairman Porter, for your strong support for 
NIH. You will be missed as you enter a new phase of your life 
when you leave Congress. Thank you, sir, and I will stand for 
any questions you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Wood. I think you are exactly 
right that the cost to our society of stroke and heart disease 
are absolutely huge, and the research that we can do to 
overcome the effects of both are very, very cost effective for 
our society, and the investment is well worth it and will be 
paid back thousands of times over in dollars, and, of course, 
in terms of human health and human lives, incalculable 
obviously. Thank you for your testimony.
    Mr. Wood. Thank you, sir.
    Mr. Porter. The subcommittee will stand in recess for this 
vote.
    [Vote break.]
                              ----------                              Tuesday, April 4, 2000

                                            Tuesday, April 4, 2000.

                         MATHEMATICS EDUCATION


                                WITNESS

DAVID KLEIN, PRIVATE CITIZEN
    Mr. Porter. Subcommittee will come to order. That was the 
last vote for today. However, we have completed seven witnesses 
and it is now 4:20. We have 23 witnesses total today. So we 
have got 16 to go. And I have to admit, I have been talking to 
each of the witnesses. I am going to have to not ask questions, 
ask each witness to stay within their five minute time limit, 
and I apologize for that if we to have any possibility at 
finishing at a reasonable time today. So I am told that one of 
our witnesses has an airplane to catch and so I am going to 
call on David Klein, a private citizen and professor of 
mathematics at California State University in Northridge to 
testify in his own behalf, and I don't know the subject.
    Mr. Klein. Mathematics education. Thank you for the 
opportunity to testify today.
    Last October, the U.S. Department of Education released a 
report to the Nation's 16 school districts. The report 
designated 10 mathematics programs for K through 12 as 
exemplary or promising. The following month I sent an open 
letter coauthored with mathematicians Richard Askey, who is 
here and will testify, R. James Milgram, and Hung-Hsi Wu, along 
with more than 200 other cosigners to education Secretary 
Richard Riley urging him to withdraw the Department of 
Education's recommendations.
    Among the endorsers in my letter are many of the Nation's 
most accomplished scientists and mathematicians. Department 
heads at many universities including Cal Tech, Harvard, 
Stanford and Yale, along with two former presidents of the 
Mathematical Association of America also added their names in 
support. Seven noble laureates and winners of the Fields Medal, 
the highest award in mathematics, also endorsed. In addition, 
several prominent State and national education leaders cosigned 
our open letter. Why?
    The 10 so-called exemplary and promising math programs 
recommended by the Department of Education for our children 
include some of the worst math books available. The programs I 
have examined radically deemphasize basic skills in arithmetic 
and algebra. Uncontrolled calculator use is rampant. One can 
draw a parallel between the philosophy that underlies the 
failed whole language learning approach to reading and the 
Department of Education's agenda for mathematics.
    The effects of this philosophy in Los Angeles have been 
devastating. According to a recent Los Angeles Times article, 
60 percent of the eighth graders in Los Angeles unified school 
district, it is estimated, do not yet know their multiplication 
tables.
    Proponents of these water-downed programs believe that they 
are appropriate for minority students and women. For example, 
Jack Price, one of the expert panel members for the Department 
of Education said on a radio show in 1996, said that minority 
groups and women do not learn math the same way as white males. 
He stated, ``women have a tendency to learn better in a 
collaborative effort when they are doing inductive reasoning.'' 
This was in contrast to the way white males learn math.
    According to Jack Price, ``males learn better deductively 
in a competitive environment.'' This misguided view of women 
and minorities is consistent with the Department of Education's 
math books. They rely heavily on superficial repetitive 
patterns to draw conclusions rather than logical deduction 
which is the core of mathematics.
    It is true that the National Council of Teachers of 
Mathematics, or NCTM has endorsed the Department of Education's 
list of math books, and the National Science Foundation has 
spent millions of dollars to develop and promote several of 
them, but these organizations represent surprisingly narrow 
interests, and there is a revolving door between them.
    Steven Leinwand, cochair of the expert panel, was also a 
member of the advisory boards for two programs found to be 
exemplary by his expert panel. He also serves on the board of 
directors of the NCTM.
    Expert panel member Jack Price, who I just quoted, is a 
former President of the NCTM.
    Luther Williams, who as assistant director of the National 
Science Foundation, approved the funding of several of the 
recommended curricula also served on the expert panel that 
evaluated them.
    Glenda Lappan, the current President of the NCTM, is a 
coauthor of the so called exemplary program, connected 
mathematics, which her organization the NCTM endorses.
    These facts suggest obvious conflicts of interest. 
According to the official minutes of the Department of 
Education's Expert Panel, the panel members were themselves 
aware of the conflict.
    I quote from the November, 1996, minutes of the second 
meeting of the Expert Panel:
    ``Some members expressed their concern about serving as 
chair, because their organizations develop products that may be 
reviewed by the panel, and they were concerned about conflict 
of interest. The panel agreed that if conflict of interest were 
an issue, it would not matter whether one served as chair or 
simply as a member. The panel agreed that whoever served as 
panel chair ought to be able to act independently of his or her 
own interests.''.
    I urge the distinguished members of the Appropriations 
Committee to investigate the possibility of conflict of 
interest within the Expert Panel of the Department of 
Education.
    I also urge the distinguished members of this committee not 
to allocate funds to promote mathematics programs premised on 
the misguided notion that women and minority groups need a 
different and inferior kind of mathematics, thank you.
    Mr. Porter. Thank you, Mr. Klein, for your testimony.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                  DIGESTIVE DISEASE NATIONAL COALITION


                               WITNESSES

MAURICE CERULLI, M.D., PRESIDENT, DIGESTIVE DISEASE NATIONAL COALITION
NANCY NORTON, CHAIRMAN, DIGESTIVE DISEASE NATIONAL COALITION, AND 
    FOUNDER/PRESIDENT, INTERNATIONAL FOUNDATION FOR FUNCTIONAL 
    GASTROINTESTINAL DISORDERS
    Mr. Porter. Next is Dr. Maurice Cerulli, President of the 
Digestive Disease National Coalition, accompanied by Nancy 
Norton, Chairman of the Digestive Disease National Coalition 
and Founder and President of the International Foundation for 
Functional Gastrointestinal Disorders, testifying in behalf of 
the Coalition.
    Dr. Cerulli. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today to discuss the Federal 
Government's support for digestive disease research and 
prevention programs at the NIDDK, the NIAID and the CDC.
    I am Dr. Maurice Cerulli, a practicing gastroenterologist 
at the Brooklyn Hospital Center and the President of the 
Digestive Disease National Coalition. Founded in 1978, the DDNC 
is a voluntary organization comprised of 22 professional and 
patient organizations.
    The Coalition has as its goal the improvement of the health 
of the millions of Americans who suffer from both acute and 
chronic digestive disorders. These diseases are responsible for 
50 million doctor visits, 10 million hospitalizations, 230 
million days of restricted activity and about 200,000 deaths. 
The human suffering cannot be quantified. The estimates of 
fiscal costs approach $100,000,000,000 per year.
    I testified last year. I would like to thank the committee 
for facilitating the funding for endoscopic research. The NIH 
funded an ADHF project to link up to 100 endoscopy units on-
line to evaluate outcomes of endoscopic therapy.
    In the past, the NIH funded the National Polyp Study, which 
proved that therapy and surveillance can reduce the incidence 
of colorectal cancer by 90 percent. We request further funding 
and studies to better define the link between esophageal reflux 
in cancer as well as reflux-induced asthma.
    Thank you for increasing the support for colorectal cancer 
education from $2,500,000 to $3,000,000 for this fiscal year. 
However, we see that a successful program such as breast cancer 
prevention requires over $150,000,000 per year. We request 
$2,000,000 additionally if possible.
    Thank you for continued funding for hepatitis C research. 
It is the most common blood-borne illness, infecting 4 million 
Americans.
    Thank you for continued support of research in inflammatory 
bowel disease which is helping to unlock the complexities of 
immune mechanisms in these diseases.
    I now have the distinct privilege to introduce Mrs. Nancy 
Norton, the Chair of the DDNC. Ms. Norton will further discuss 
our concerns about irritable bowel syndrome.
    Ms. Norton. Mr. Chairman, thank you for the support 
provided by this committee in past years. The NIDDK has been 
able to make important advances in understanding and treatment 
of digestive diseases and improve the quality of life of many 
digestive disease patients.
    One digestive disease that concerns us greatly is irritable 
bowel syndrome, a disorder that affects an estimated 35 million 
Americans. IBS is a chronic complex of symptoms that include 
severe abdominal pain, constipation, diarrhea and fecal 
soiling. These common dysfunctions strike people from all walks 
of life and result in significant toll of human suffering and 
disability.
    Symptoms may intrude at any time. IBS is unpredictable. One 
can wake up in the morning feeling fine and within a short time 
encounter abdominal pain and cramping to the point of being 
doubled over and unable to function. The unpredictable bowel 
symptoms may make it next to impossible to leave home. One 
becomes reluctant to eat for fear that just eating a meal will 
trigger symptoms all over again. IBS impacts every aspect of a 
person's life.
    While there is much we don't understand about the causes 
and treatment of IBS, we do know that IBS is chronic. IBS is 
present in all ages and sociodemographic groups and is seen in 
both sexes. However, it is reported more by women than men. It 
is the most common gastrointestinal diagnosis among 
gastroenterology practices in the U.S., it is the leading cause 
of worker absenteeism, and it costs the U.S. health care system 
an estimated $8,000,000,000 annually.
    Mr. Chairman and members of the subcommittee, much more can 
still be done to address the needs of the nearly 35 million 
Americans suffering from irritable bowel syndrome and other 
functional gastrointestinal disorders. We do understand the 
difficult budgetary constraints that this committee is 
operating under at the present time. Yet we hope that you will 
consider carefully the tremendous benefits to be gained by 
supporting a strong research and educational program for 
irritable bowel syndrome at the NIDDK.
    Mr. Chairman, on behalf of the millions of digestive 
disease sufferers, we appreciate your consideration of the 
views of the International Foundation for Functional 
Gastrointestinal Disorders and the Digestive Disease National 
Coalition. Mr. Chairman, we have enjoyed working with you 
through the years. Thank you for your support.
    Mr. Porter. Thank you, Dr. Cerulli, and Ms. Norton.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                AMERICAN DENTAL HYGIENISTS' ASSOCIATION


                                WITNESS

STANLEY B. PECK, EXECUTIVE DIRECTOR, AMERICAN DENTAL HYGIENISTS' 
    ASSOCIATION, CHICAGO, ILLINOIS
    Mr. Porter. Stanley B. Peck, Executive Director, American 
Dental Hygienists' Association in Chicago, Illinois, testifying 
on behalf of the Association.
    Mr. Peck. Thank you, Mr. Chairman.
    This is the third time in the last 4 years I have had the 
opportunity to appear before you; and I, too, would like to 
extend my best wishes to you on your future activities and also 
thank you for the wonderful work that you have done over these 
years as chairman of this subcommittee. We will certainly miss 
you.
    On behalf of the American Dental Hygienists' Association, 
thank you for the opportunity to testify regarding funding for 
the Department of Health and Human Services and in particular 
funding for the National Institute of Dental and Cranial Facial 
Research and for HRSA's Oral Health Initiative. I am Stan Peck, 
ADHA's Executive Director.
    Headquartered in Chicago, we represent the more than 
100,000 dental hygienists across the country. Dental hygienists 
are preventive oral health professionals licensed in each of 
the 50 States who are committed to improving the Nation's oral 
health, a fundamental part of total health.
    Despite recent advances, oral diseases are still among the 
most common chronic health care problems in the United States. 
Tooth decay is the Nation's most pervasive childhood disease. 
The Institute of Medicine estimates that 50 percent of 
Americans do not receive regular oral health care. This lack of 
access to oral health care, despite the fact that, one, tooth 
decay is an infectious, transmissible disease; two, the three 
most common oral diseases--dental caries, gingivitis and 
periodontitis--are proven to be preventable with the provision 
of regular oral health care; and, three, the impact of oral 
disease extends well beyond the oral cavity. Research is 
increasingly demonstrating that the presence of periodontal or 
gum disease is linked to such life-threatening conditions as 
cardiovascular disease, stroke and pre-term deliveries. For 
example, pregnant women with periodontal disease are seven 
times more likely to deliver pre-term low birthweight infants.
    Clearly, the Nation's oral health must be further improved, 
and history shows that research at NIDCR has yielded 
significant advancements. NIDCR's work has also helped curb 
increases in oral health care costs. Americans save nearly 
$4,000,000,000 annually because of advances in dental research. 
ADHA joins with other groups in the oral health community to 
recommend $331,000,000 for NIDCR.
    We are pleased to see the increasing recognition of the 
importance of oral health to total health. The Surgeon General 
will shortly publish the first-ever Surgeon General's Report on 
Oral Health, and HRSA has developed an Oral Health Initiative. 
The goals are, one, to work toward the elimination of 
disparities in oral health status; and, two, to improve access 
to oral health services. Much work needs to be done in both 
areas.
    With respect to disparities in oral health status, tooth 
decay still affects more than half of all children by second 
grade and tooth decay is disproportionately distributed among 
our Nation's children, with 80 percent of cavities occurring in 
25 percent of the children. Not surprisingly, this 
disproportionate share of tooth decay is found in children of 
low income and minority status.
    With respect to access to oral health services, HHS reports 
that, despite the provision for oral health benefits under 
EPSDT, only one in 15 Medicaid children actually receive 
preventive oral health services in a given year. We urge a 
minium of $20 million for HRSA's Oral Health Initiative so that 
access to oral health services for Medicaid and SCHIP children 
will improve and disparities in oral health status will be 
lessened.
    Many of the dental and nondental groups also support this 
important effort. Attached to my testimony is a joint letter in 
support of the Oral Health Initiative signed by the American 
Academy of Pediatrics, the March of Dimes, the National 
Education Association and approximately 30 national 
organizations.
    ADHA would also like to recommend a budget of $15,000,000 
for the Division of Oral Health at CDC.
    ADHA joins the Allied Health Roundtable in supporting the 
important work of Title VII of the Public Health Service Act 
and recommends $10,000,000 for Allied Health Project Grants.
    With respect to OSHA, ADHA supports promulgation of an 
effective ergonomic standard.
    Finally, ADHA urges passage of legislation that would give 
the FDA authority to regulate tobacco products. With the recent 
Supreme Court decision, congressional action is greatly needed 
to protect the Nation's children from the preventable harms of 
tobacco which, as the Supreme Court noted, it poses the single 
most significant threat to public health in the United States.
    In closing the members of the American Dental Hygienists' 
Association appreciate the important contributions your 
subcommittee has made in improving the quality and availability 
of oral health services throughout the country. ADHA is 
committed to working with this subcommittee and all Members of 
Congress to improve the Nation's oral health, a vital part of 
total health. Thank you.
    Mr. Porter. Thank you very much, Mr. Peck.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                         HELEN KELLER WORLDWIDE


                                WITNESS

JOYCE PHILLIPS AUSTIN, MEMBER, BOARD OF TRUSTEES, HELEN KELLER 
    WORLDWIDE
    Mr. Porter. Joyce Phillips Austin, member, board of 
trustees, Helen Keller Worldwide, testifying on behalf of Helen 
Keller Worldwide.
    Ms. Austin. Mr. Chairman, thank you for the opportunity to 
speak to the committee on behalf of Helen Keller Worldwide. I 
am here as a member of the board of trustees of Helen Keller 
Worldwide to inform the committee about the alarming issue of 
poor adolescent vision and its effect on student performance. 
Accompanying me is Ms. Meredith Tilp, Vice President of Helen 
Keller Worldwide for the ChildSight program.
    First, let me thank you and the committee for supporting 
the ChildSight program. The funding recommended by the 
committee last year will make a major difference in providing 
assistance to thousands of adolescents with poor vision.
    Helen Keller Worldwide, previously known as Helen Keller 
International, is a United States-based private voluntary 
organization once guided by and now dedicated to the spirit of 
Helen Keller.
    Helen Keller Worldwide's ChildSight program is committed to 
alleviating the burden to education of poor adolescent vision. 
ChildSight's mission is to improve the vision and educational 
performance of junior high school students who live in urban 
and rural poverty. There are estimated to be 7 million junior 
high school students living at or below the poverty line that 
are in need of vision screening. Of those, approximately 2 
million students require corrective eyeglasses.
    Twenty-five percent of all adolescent in the age group 11 
to 14 are negatively affected from this dramatic change in 
their vision. Many of these children cannot afford eyeglasses, 
and they are the children sitting in classrooms who cannot see 
the blackboard clearly and have problems reading the pages in 
their books. Helen Keller Worldwide has created a simple, cost-
effective program to address these unmet needs.
    The ChildSight program, created in 1995, assists poor 
children, the families of these children, as well as 
overburdened school districts by providing vision screening 
services, an eye doctor's examination and free prescription 
eyeglasses for junior high school students. All of this is 
provided directly in the school.
    Here are several of the types of classes that are provided 
to the students. Companies such as Guess Jeans have donated 
covers for the eyeglasses. There are also several pictures of 
students with their glasses. As of January, 2000, we have 
screened over 100,000 junior high school students in 212 
schools across the country. Over 17,000 children who might not 
have otherwise received corrective eyeglasses have received 
brand new prescription eyeglasses to assist them in their 
learning activities.
    ChildSight is currently operating in five cities in the 
United States. With the additional funds provided by the 
committee last year, ChildSight will open new programs in six 
additional cities.
    Mr. Chairman, I visited the ChildSight program in the South 
Bronx. In 1 week, 1,000 students were screened and 25 percent 
of the children needed eyeglasses. They received those glasses 
the very day that they were screened.
    Also, I want to tell the committee that, following the work 
of the ChildSight program in Los Angeles, 80 percent of the 
teachers witnessed an improvement in their students' grades.
    We are off to a very good start, Mr. Chairman, but there is 
more to be done. I ask the committee to continue to support the 
ChildSight program by recommending at least $2,000,000 in the 
fiscal year 2001 bill for the expansion of services and for the 
launch of additional locations. Mr. Chairman, it is my hope 
that the committee will join Helen Keller Worldwide as we seek 
to provide low-cost solutions to the wide-ranging problem of 
poor vision in the classroom. The children of the United States 
deserve the greatest opportunity to learn. Thank you for your 
consideration.
    Mr. Porter. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                         JOSLIN DIABETES CENTER


                                WITNESS

GORDON C. WEIR, M.D., CHIEF OF SECTION ON ISLET TRANSPLANTATION AND 
    CELL BIOLOGY, AND FORMER MEDICAL DIRECTOR OF THE JOSLIN DIABETES 
    CENTER IN BOSTON, MASSACHUSETTS
    Mr. Porter. Dr. Gordon C. Weir, Chief of Section on Islet 
Transplantation and Cell Biology, and Former Medical Director 
of the Joslin Diabetes Center in Boston, Massachusetts, 
testifying on behalf of the Center.
    Dr. Weir. I am here today to request for full funding of 
the first year recommendations of the report issued by the 
congressionally mandated Diabetes Research Working Group.
    The Diabetes Research Working Group was established by this 
subcommittee and its Senate counterpart through the fiscal year 
1999 Conference Agreement. The charge to the Diabetes Research 
Group was for the development of a comprehensive plan for all 
NIH-funded diabetes research efforts, including the 
recommendations for future diabetes research initiatives and 
directives, and this weighty book is the full report.
    The Conference Agreement language specifically instructed 
the working group to include overall cost estimates to 
accomplish its recommendations in the final research plan. The 
final report was provided to the Appropriations Committee in 
mid-1999. Fiscal year 2001 will be the first year that Congress 
can act on these funding recommendations.
    The chairman of the Diabetes Research Working Group, Dr. C. 
Ronald Kahn, a distinguished researcher, is the former research 
director and now president of the Joslin Diabetes Center in 
Boston. He would have been here today in my place except that 
he is out of the country.
    Fiscal year 1999 base funding for the categories addressed 
in the working group's report totaled $442,000,000. The working 
group recommended an increment for the first year that is 
considerably above this, to reach a total of $827,000,000.
    On November 16, 1999, in the closing days of the first 
session of the 106th Congress, the House resolution was 
considered and approved by the House 414 to zero. Every member 
of this subcommittee and every member of the full 
Appropriations Committee voted yea. A similar resolution passed 
the Senate 93 to zero.
    In voting for this resolution, you collectively and 
individually approved the principles underlying the 
recommendations. The sense was of the House of Representatives 
that the Federal Government has a responsibility to follow 
through with recommendations of the research working group.
    Now, with regard to the specific proposals, we realize that 
the funding constraints present a significant obstacle to 
reaching the diabetes research group's recommendations for 
2001. If the committee is unable to increase the research 
recommendations to that level of approximately $350,000,000 
that would be the increase, we felt that there was perhaps 
other goals that could be accomplished. And while we still 
request the full increase, we have four particular categories 
that we think might merit specific priority, which would total 
$79,000,000.
    Basically, these four include, one, the creation of new 
comprehensive diabetes research centers to provide enhanced 
infrastructure support and enhance the effectiveness of 
existing diabetes centers. This would cost $6,000,000.
    The second of the four is to create new regional centers 
with advanced technologies required for metabolic and 
functional imaging studies such as nuclear magnetic resonance, 
positron emission tomography, such as PET scans and related 
technologies. There are a number of other technologies that 
could be extremely helpful, and this might cost $5,000,000.
    The third of four is to focus on the problem of 
autoimmunity which causes type 1 diabetes in the first place 
and the beta cell. Specifically, that is to look into the 
immunological basis that causes type 1 diabetes; two, to 
advance the islet cell transplantation as a potential 
treatment; and, finally, to develop methods to stimulate beta 
cell growth and regeneration. We estimate an increase of 
$30,000,000 would be extremely helpful.
    The fourth and final suggestion is focused more on type 2 
diabetes, and there is a lot of basic science here, cell 
signaling and cell regulation, and that would allow dissection 
of the hormones signaling pathways that are really important 
for what causes type 2 diabetes in the first place. There are 
problems with insulin not working properly and insulin 
secretion, and those need a great deal more work. The last 
component is to work on the complications. This last piece 
might be helped by an increase of $38,000,000.
    Thank you, Mr. Chairman, for this opportunity to present 
our views and recommendations.
    Mr. Porter. Thank you, Dr. Weir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                        AMERICAN CANCER SOCIETY


                                WITNESS

MARILYN K. CARPENTER, VOLUNTEER AND COORDINATING COMMITTEE 
    REPRESENTATIVE, AMERICAN CANCER SOCIETY'S REACH TO RECOVERY 
    PROGRAM, SAN DIEGO, CALIFORNIA
    Mr. Porter. Next is Marilyn K. Carpenter, testifying on 
behalf of the American Cancer Society.
    Ms. Carpenter. My name is Marilyn Carpenter, and I live in 
Del Mar, California, and I am appearing on behalf of the 
American Cancer Society and all cancer patients and survivors 
throughout the country.
    I feel a tremendous responsibility today because I speak 
for so many, each with their own unique story of how cancer 
invaded and forever changed their lives. On behalf of the 
Society, I would like to pay tribute to you, Chairman Porter, 
for being an advocate of biomedical research and for your years 
of service to the citizens of this country. Congress and the 
American people will miss you.
    Nationwide, more than 2 million survivors and others 
impacted by cancer contribute their time and resources to the 
American Cancer Society in every community. I am one of those 
volunteers and a survivor.
    When I was 43, I was told I had cancer. I had discovered 
the lump 2 years earlier but was misdiagnosed. The day that the 
doctor finally confirmed the diagnosis, he spent a long time 
talking to me about numerous issues and options, but I cannot 
tell you anything he said because I only heard one word, the C 
word. It really got my attention, and I felt like it was an 
immediate death sentence.
    I had a wonderfully supportive family and friends, but I 
was only interested in talking to someone who had been there. 
The only person I knew was my mother, who was still recovering 
from the ravages of multiple surgery, chemotherapy and 
radiation for breast and ovarian cancer, and since she blamed 
herself for giving me this disease, it didn't seem fair to rely 
on her for support at this time.
    I read every book on cancer that I could find, especially 
stories of other people's cancer experience. So these people 
that I never laid eyes on became my treasured friends as we 
shared a very dreaded and unwanted yet compelling camaraderie.
    To my amazement, some of these people were still alive, and 
that gave me hope. However, my life as a happy and ordinary and 
productive person seemed to vaporize, and my new life as a near 
cancer patient had commenced.
    Thankfully, I forged ahead and made decisions and underwent 
the lengthy treatment. I have been cancer free for 12 years. I 
have developed profound respect for the moment. I stay 
extremely active and am currently training to run my 20th 
marathon.
    For the last 6 years, I have been a volunteer for the 
American Cancer Society's Reach to Recovery program. We provide 
support and information throughout the continuum of one's 
cancer experience, and this one-on-one contact provides me an 
opportunity to share my perspective and, much more importantly, 
to listen. I can't make things any better for these people, and 
I certainly can't make the cancer go away, but I can relate in 
a very personal sense.
    The point is that everyone handles this disease in their 
own clumsy and naive manner. But one thing is a constant and an 
absolute. We could all use a little help. That is why I am here 
today, as an advocate for others whose lives have been shaken 
and, unfortunately, taken by this disease, to ask for your 
investment.
    I am struck by a couple of observations in the cancer 
arena. I am astounded and eternally grateful for all of the 
progress that we have made on so many fronts. Yet I am 
overwhelmed by the number of extremely young people that I see 
being diagnosed. I am concerned that too many of our youth are 
becoming addicted to tobacco products, and I am frustrated that 
we are not making the most of early detection and prevention 
programs in the entire cancer arena. But, unfortunately, I only 
have questions and concerns.
    However, under the leadership of the committee, our Nation 
possesses an enviable opportunity to get close to providing 
critical answers, the answers to causation, prevention and 
possibly even a cure. But we must act now.
    On behalf of the Society I urge the committee to make the 
following commitments:
    First, we must sustain and expand the proven research 
programs that enable us to pursue a path of scientific 
excellence and discovery, while at the same time putting that 
research into practice.
    Second, we must assure that one group of people is neither 
more vulnerable nor susceptible to cancer than another.
    Next, we must focus on prevention and early detection and 
improve data collection and surveillance. In real terms, this 
means Congress should continue the doubling of the NIH budget, 
fully fund the bypass budget for NCI and emphasize cancer 
prevention and control programs at the CDC.
    I thank you for your past support for research medicine and 
other tools that are truly making a difference, and I believe 
we can win the fight.
    With your permission, Mr. Chairman, I am appending my 
statement with additional information about key priorities, and 
I thank you sincerely for your time.
    Mr. Porter. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                      AMERICAN NURSES ASSOCIATION


                                WITNESS

MARY E. FOLEY, RN, MS, PRESIDENT, AMERICAN NURSES ASSOCIATION
    Mr. Porter. Mary E. Foley, RN, MS, President of the 
American Nurses Association, testifying on behalf of the 
Association.
    Ms. Foley. I am president of the American Nurses 
Association, the only full-service professional association 
representing the Nation's registered nurses through its 53 
State and territorial nurse associations and our new Federal 
nursing association.
    In my written testimony, we have addressed a number of 
programs we believe to be important to nurses and health care 
in our Nation, including programs related to workplace health 
and safety. ANA recommends appropriate funding for the 
Department of Labor and their related agencies to ensure a safe 
and fair workplace.
    This afternoon, I will focus my remarks on funding for 
nursing education and research.
    The subcommittee continues to recognize the important role 
nursing plays in the delivery of health care services and has 
funded programs which not only prepare nurses to serve in a 
variety of roles but also help to develop innovative practice 
models that provide better access to care in rural and inner 
city areas. We acknowledge the committee's support and believe 
that our shared goal of ensuring the Nation of an adequate 
supply of well-educated nurses will reaffirm the need for 
increased funding of these programs.
    Mr. Chairman, changes in our health care system have been 
influenced by many factors, including an older and more diverse 
population, ongoing advances in medical technology, the 
increasing levels of acuity in our hospitalized patients, the 
shift from inpatient care to outpatient and community based 
settings, and the strain placed on resources by long-term care 
needs such as cancer, chronic disease in children and the 
elderly and HIV/AIDS. These changes have increased the 
intensity of nursing care required. Hospitals have almost 
become large intensive care units, and patients are sicker when 
discharged to homes or long-term care settings.
    The Institute of Medicine study released in January, 1996, 
concluded that these trends in health care have important 
implications for the preparation of nurses. The study 
recommended the expanded use of registered nurses with advanced 
practice preparation to provide clinical leadership and cost-
effective care in all practice settings. However, today we are 
experiencing a shortage of nurses with the necessary 
competence, skills and experience to meet current patient 
demand; and we are seeing early signals of a numeric shortage 
that has been predicted to occur in less than 10 years in our 
overall supply of nurses.
    According to a survey done by the American Association of 
Organization Executives, in cooperation with ANA, hospitals are 
finding it difficult to recruit and retain qualified registered 
nurses, especially in the specialized areas such as intensive 
and critical care and the surgical arena. The American 
Association of Colleges of Nursing is also reporting a decline 
in the enrollment in the bachelor's degree programs. All of 
these facts are compounded by the aging of the nursing work 
force, whose average age is now 44; and so we have a 
significant challenge at a time when increased patient acuity, 
increased technology and the growing demand for ambulatory and 
primary care call for a more highly trained and autonomous 
nurse.
    Today, we are requesting fiscal year 2001 funding of 
$78,000,000 for nurse education programs, a 15 percent increase 
over the current figure. Federal support for nursing education 
and Title VIII of the Public Health Service Act is essential 
for curriculum development and other programs to change the 
focus of nurse education from acute care settings to the 
preparation of more nurses who are able to function in the 
community and in the home settings to meet the growing demands. 
It also aims to increase the number of minority nurses 
available, to provide culturally competent, linguistically 
appropriate health care services to the underserved 
communities.
    Our second priority is funding for the National Institute 
of Nursing Research at NIH. ANA supports funding NINR at 
$110,000,000 for fiscal year 2001. Again, we applaud the 
subcommittee's commitment to advancing behavioral science 
research. Nursing research is an integral part of the 
effectiveness of nursing care, and the studies that we are 
doing now offer the clear prospect of improving health, 
reducing morbidity and mortality and lowering the cost and the 
demand for health care. Research on diabetes in minority 
populations will build on NINR research related to self-
management and other behavioral aspects of diabetes treatment 
to determine culturally effective methods to successfully 
monitor and manage their disease.
    We appreciate the opportunity to comment on funding for 
nursing education and research programs and thank you for your 
continued support.
    Mr. Porter. Thank you very much, Ms. Foley. I want to 
commend all of our witnesses who have stayed within the 5 
minutes. We appreciate it.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                      METROPOLITAN FAMILY SERVICES


                                WITNESS

RICHARD JONES, PH.D., PRESIDENT, METROPOLITAN FAMILY SERVICES
    Mr. Porter. Dr. Richard Jones, testifying on behalf of 
Metropolitan Family Services.
    Mr. Jones. Thank you, Mr. Chairman, for providing 
Metropolitan Family Services with an opportunity to present 
testimony before your subcommittee.
    I serve as the president of Metropolitan Family Services, 
the oldest and largest family service agency in Illinois and 
incorporated in 1857. We have grown considerably and now 
provide a comprehensive array of direct services to more than 
125,000 families each year through our neighborhood family 
centers throughout Chicago.
    Over the years, we have developed a broad continuum of 
programs to serve entire families, including counseling, legal 
services to the poor, financial counseling and supportive 
services to older adults and their caregivers. As the needs of 
our families change in response to society's cultural, economic 
and public policy transformations, Metropolitan Family Services 
meets these needs, and I am here to take the opportunity to 
update the subcommittee on our ongoing efforts to be both 
innovative and effective in our programming.
    First, we are pleased that in fiscal year 1999 we were 
awarded a Centers for Disease Control grant to initiative the 
South Chicago United for Nonviolence Prevention Project. This 
program is a coordinated community response to violence 
prevention that will address intimate partner and youth-related 
forms of violence on the south side of Chicago.
    In designing the South Chicago Project, Metropolitan Family 
Services utilized its experience in working with local 
residents, service providers, business, religious and civic 
leaders to develop a model program to define violence-related 
problems and mold solutions that are more likely to create 
genuine systematic change. Mr. Chairman, the South Chicago 
Project is allowing Metropolitan Family Services to address 
violence and prevention of violence in a comprehensive, 
community-wide manner.
    With regard to early childhood education, for more than 25 
years we have worked hand in hand with metropolitan Chicago's 
public schools, providing services to support student 
achievement and readiness to learn, improve attendance, reduce 
violence and increase parent involvement. We have offered peer 
mentoring, tutoring in violence prevention, drug-free 
programming, family-school community collaborations, parent 
training and inservices for educators and an innovative program 
called Jumpstart.
    I am very pleased to report that teachers have found that 
their Jumpstart students have developed stronger skills for 
appropriate verbalization of emotions, and there is a reduced 
level of fighting among students. The teachers also indicate 
their Jumpstart students are less withdrawn and shy and more 
confident and expressive and more able to learn.
    Finally, as the subcommittee is aware, our Nation's baby 
boomers are aging, and senior citizens continue to be America's 
fastest growing population group. Today, nearly one in every 
four households is involved in family caregiving to elderly 
relatives or friends, and this trend will become more propound, 
making it essential that we identify best practices for 
community and home-based care and to disseminate the results 
for duplication across the Nation. Few have prepared themselves 
for taking responsibility for the older adult's finances, 
physical and mental well-being and safety, and all too often 
caregivers suffer depression, become overwhelmed and 
subsequently make bad decisions. A recent study reports that 
older spousal caregivers suffer significantly higher than 
average mortality risks and are much more likely to suffer 
depression.
    Metropolitan Family Services believes that a conscious 
effort should be directed toward the development of innovative, 
community-based programs which support families in caring for 
their senior members. Community education programs could 
provide families with a basic level of knowledge about the 
developmental needs of seniors, financial literacy and what 
resources are available to help in the process. Consultation 
programs would provide families with an individualized 
assessment of their situation, help them develop a caregiving 
plan and provide ongoing counseling as they implement the plan.
    Because many family caregivers have never been involved 
with a social service organization and may not identify 
themselves as people who would do so, outreach strategies 
should encompass a variety of methods including traditional 
outreach through community institutions, strategic outreach 
targeting houses of worship and the media. Metropolitan Family 
Services ask that the subcommittee direct the Administration on 
Aging to work with community-based organizations to create 
long-term care systems that recognize the role of the family in 
caring for elder relatives.
    Mr. Chairman, thank you for this opportunity to present 
testimony, and let me and my organization be among the many to 
wish you all of the best.
    Mr. Porter. Dr. Jones, thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

          ASSOCIATION OF SCHOOLS OF ALLIED HEALTH PROFESSIONS


                                WITNESS

JOHN E. TRUFANT, DEAN AND VICE PRESIDENT, RUSH UNIVERSITY OF RUSH-
    PRESBYTERIAN-ST. LUKE'S MEDICAL CENTER, CHICAGO, ILLINOIS, AND 
    PRESIDENT OF ASSOCIATION OF SCHOOLS OF ALLIED HEALTH PROFESSIONS
    Mr. Porter. Dr. John E. Trufant.
    Dr. Trufant. It is an honor to be here today. I am John 
Trufant, President of the Association of Schools of Allied 
Health Professions, a not-for-profit organization representing 
111 higher education institutions and hundreds of individual 
members.
    The term ``allied health'' is used to classify more than 
100 professions that provide numerous health care services, 
from primary care to the most advanced tertiary care services. 
We work in every health care setting and include professional 
groups such as physical and occupational therapists, clinical 
laboratory technologists, speech pathologists and audiologists, 
dental hygienists, respiratory care therapists and others. 
While some practice independently, we are generally engaged as 
members of the health care team with our medicine and nursing 
colleagues.
    Our Association believes that the Federal Government has a 
central role to play in assuring that the Nation has an 
adequate supply of competently prepared faculty and 
practitioners in the allied health professions. Significant 
shortages of both currently exist.
    On behalf of my allied health colleagues around the Nation, 
I would like to express our enormous appreciation for the 
Federal funds which have been awarded for Section 755 Allied 
Health Grants and Other Disciplines Program under Title VII of 
the Public Health Service Act. This funding has made it 
possible to carry out numerous endeavors.
    Unfortunately, of the more than 900 applications received 
by the U.S. Public Health Service during the last decade, funds 
have been available to support only 10 percent of these 
proposals. The appropriation for the current fiscal year is 
$7,355,000, of which $5,553,000 is appropriated for allied 
health.
    Mr. Chairman, a summary of what has been accomplished by my 
allied health colleagues as justification for our request to 
increase the overall amount to $10,000,000 in fiscal year 2001 
appears in my statement that will be in the record.
    You will find these achievements demonstrate rather 
convincingly that not only have the goals and objectives of 
Section 755 been met, they have been exceeded, thereby 
advancing important goals established by Congress to increase 
the number of underrepresented minorities in the health 
professions, enhance the quality of health care provided to the 
aged, promote greater interdisciplinary initiatives and add to 
the number of practitioners who provide services in rural 
areas. So much more remains to be done.
    The National Commission on Allied Health, which was 
established under Public Law 102408, recommended the necessity 
of further congressional action for the following: Support 
allied health research, service and training demonstrations to 
test high-quality, lower cost allied health efforts as a 
substitute for more expensive forms of medical and 
institutional services; and support strengthening and expanding 
interdisciplinary and core curricula and clinical practice 
programs to meet workforce needs of the evolving health care 
system.
    We endorse these recommendations and urge congressional 
support of $10,000,000 to achieve the recommendations specified 
in the legislation that authorized Section 755.
    Currently allied health's only designated source of Federal 
funding under Title VII is the Section 755 grants. I would like 
to close, Mr. Chairman, by noting that even though the Nation 
has approximately 2.3 million allied health professionals, only 
a minuscule percentage of Labor and Health and Human Services 
appropriations is directed to allied health. Because of its 
comprehensive and diverse nature, allied health should receive 
much greater attention when funding decisions are made. It is 
inconceivable that any federally supported initiative that 
purports to address broad health challenges would exclude 
allied health, this vital and largest segment of the Nation's 
health care workforce.
    Again, I would like to thank the members of the committee 
and especially you for this opportunity to testify today.
    Mr. Porter. Dr. Trufant, thank you for your testimony.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                  ASSOCIATION OF AMERICAN UNIVERSITIES


                                WITNESS

VIRGINIA HINSHAW, SENIOR RESEARCH OFFICER AND DEAN OF THE GRADUATE 
    SCHOOL, UNIVERSITY OF WISCONSIN-MADISON, AND PRESIDENT, ASSOCIATION 
    OF GRADUATE SCHOOLS OF THE ASSOCIATION OF AMERICAN UNIVERSITIES
    Mr. Porter. Dr. Virginia Hinshaw.
    Dr. Hinshaw. Mr. Chairman, I am here today to provide 
several different perspectives on research.
    For over 25 years, I have conducted research on influenza 
viruses, primarily supported by NIH. Now as senior research 
officer and dean of the graduate school, I recognize the 
critical nature of NIH funding for major research institutions 
like the University of Wisconsin-Madison. I know you have been 
hearing from many folks advocating further increases in NIH 
funding, and I wanted to add my support to that request on 
behalf of research institutions and also on behalf of numerous 
organizations, including the Association of American 
Universities.
    I do want to say that it is a great time to be in research. 
There is so much we can do, and there is so much that needs to 
be done. On a daily basis, our faculty are translating NIH-
sponsored grants into findings that improve human health and 
well-being; and there are many exciting new areas such as 
genomics, nanotechnology, biomedical engineering and many more. 
Many of these are interdisciplinary; and, as a biologist, I 
know that the physical sciences form the basis for the 
biological sciences.
    For example, lasers evolved from math and physics research 
on light waves. New physicians use lasers every day to remove 
cataracts in outpatient surgery with rapid recovery. So we hope 
that NIH, along with other science agencies, will have the 
resources needed to continue such progress together.
    Past investments in biomedical research have paid off, both 
for human health and for the American economy. For example, 
recombinant DNA research in the 1970s formed the basis for the 
biotechnology industry involving multi-billion dollars today. 
Now we are engaged in the human genome project. These results 
will lead to the next revolution and also provide new 
approaches to preventing, treating and curing disease.
    Cancer treatments enabled many of us to be here today, 
including myself. I am a breast cancer survivor and thriver, 
and so I have a strong interest in advancing our interest in 
cancer. Like you, I hope that our grandchildren will be free of 
these health risks, and I know that that will happen only 
through research.
    I do have to mention that research is not an investment 
with guaranteed outcomes. We are seeking unknown answers to 
questions. The ``re'' in research means that we search and then 
we search again to be sure that we are on the right path.
    We need your steadfast support to conduct the ``re'' in 
research. This subcommittee has a great goal of doubling NIH 
funding, and institutions I represent here today as well as my 
faculty colleagues and myself are tremendously grateful to you, 
Mr. Chairman, for your efforts over many years and certainly 
over the increases in the last 2 fiscal years. These increases 
are already enabling researchers to investigate more innovative 
ideas and also encouraging graduate students to once against 
seek biomedical research as a promising career choice. We need 
to keep the momentum going, instead of reverting to the boom-
and-bust cycles of the past.
    I heard the question, are there enough good research ideas 
to justify these increases? The answer is definitely yes. The 
transfer of research findings from the benchmark to the bedside 
is a daily reality, but we do need to renovate outdated 
facilities, a major problem for universities, and be able to 
use new technologies. All are critical and connected 
priorities.
    Let me conclude with a few words about the Federal student 
aid programs. Students are our future. The subcommittee has 
funded a number of student aid programs such as Federal Work 
Study, enabling needy students to access higher education 
without accumulating excessive debt. We need to support our 
future researchers with Title VII. Also, Title VI enables us to 
participate in the today's global community.
    Today, as I ask for your support, I want to assure you that 
research institutions recognize our responsibilities in 
receiving such support. We are, and we will continue to be, 
accountable and responsible in this government-university 
partnership. We recognize that you have a tough job in finding 
the funds for these efforts, but investing in basic research is 
vital to the long-range health and economic well-being of this 
Nation and our world.
    I thank you for your efforts, and I wish you continued 
success in funding research which makes our world a better 
place. Thank you.
    Mr. Porter. Thank you, Dr. Hinshaw.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                    COMMITTEE FOR EDUCATION FUNDING


                                WITNESS

ELLIN J. NOLAN, PRESIDENT, COMMITTEE FOR EDUCATION FUNDING, AND 
    WASHINGTON REPRESENTATIVE, COALITION OF HIGHER EDUCATION ASSISTANCE 
    ORGANIZATIONS
    Mr. Porter. Next is Ellin Nolan. Ms. Nolan.
    Ms. Nolan. Mr. Chairman, I am Ellin Nolan, President of the 
Committee for Education Funding, a nonpartisan coalition of 
over 90 organizations.
    Let me begin by recognizing your outstanding record in 
support of education that you have earned during your 22 years 
in Congress. We will miss your positive leadership in seeking 
to make education a top budget priority.
    Today, in reviewing the need for a substantial increase in 
education funding, I will emphasize three points:
    First, there is a growing national sense of urgency about 
education. This pressure on schools, on teachers, students and 
families will not subside without more resources. The public, 
according to information as recent as today's Washington Post, 
believes that education is the top priority and approves 
increased spending for education at the Federal level. Third, 
the Federal budget is in surplus, the economy is booming and 
investing more in education will help to reduce the debt and 
keep Social Security solvent by better preparing this and the 
next generation of workers.
    As we begin the new century, schools face a host of 
challenges--rising enrollments, teacher shortages, unsafe 
facilities, advancing technology and the mounting need for 
universal access to postsecondary education. For K-12, record 
enrollments are projected through 2006. The number of children 
who struggle with English has doubled since 1979, while the 
number of kids served by special education has risen by 51 
percent. Higher education enrollments have reached 14.6 
million, a jump of 12 percent in the last decade. This rate of 
growth is expected to continue and is one we all wish to 
encourage.
    Despite a much-needed and appreciated increase of 
$12,000,000,000 in education funding over the past 4 years, we 
have not kept pace with growing needs. Between 1980 and 1998 
the Federal share of spending for elementary and secondary 
education declined from 11.9 to 7.6 percent. For higher 
education, the decline was from 18 to 14 percent.
    An even greater concern is that the purchasing power of 
Federal programs has declined significantly since 1980. For 
example, the value of the Pell Grant is only about 75 percent 
of what it was at that time. College Work Study has declined in 
value by 25 percent and Perkins loan capital contributions by 
76 percent. Since 1980, teacher professional development and 
other school improvement programs have declined in value by 11 
percent, voc ed by 22 and impact aid by 27 percent.
    The reality is that, while the number of students, the 
needs of students and the challenges facing schools have all 
increased, the Federal investment has failed to keep pace. In 
sharp contrast, the American economy has never known such 
sustained growth. We enjoy the highest standard of living in 
the world. American schools, from preschool through graduate 
education, have played an essential role in the success. The 
expansion of the middle class and the technological 
achievements that have improved our quality of life are a 
direct result of this national commitment to education.
    Increasing our investment in education is the surest way to 
enhance these accomplishments in the future. The public agrees. 
Polls tell us that increasing spending on education is the most 
popular use for the budget surplus.
    This year's budget request from the administration 
establishes a strong foundation on which to build education 
funding to address these pressing challenges. CEF endorses the 
recommendations for increased investment.
    CEF also encourages the committee to increase support for 
those education programs which have been held back, not from 
poor design but from inadequate funding. For example, IDEA 
funding falls short of the commitment to pay 40 percent of the 
excess cost of special education. The Title I program provides 
one-third of the funds authorized for eligible children. Making 
college truly affordable for the lowest income student requires 
a larger Pell Grant plus substantial increases in TRIO support 
services and campus-based programs.
    Of all Federal agencies, education ranks last in resources 
devoted to research. The House budget resolution provides a 
welcome $2,000,000,000 for IDEA but, unfortunately, only $200 
million to increase all other education and related programs. 
We recognize the pressure this creates by putting education in 
competition with other vital priorities of your subcommittee, 
most importantly, health research and services. CEF will 
continue to work hard for an adequate allocation to accommodate 
important new investments in both these areas.
    There have been many occasions in our Nation's history 
when, for the good of the country and to improve our future, 
Congress has set ambitious goals that require dramatic budget 
increases. The public supported you, and Congress found the 
necessary resources. CEF urges you to continue the trend of the 
past several years and increase the Federal investment in 
education by at least 15 percent in fiscal year 2001.
    Thank you for the support for students, families and 
schools that you have provided in the past and I know will 
continue.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                   NATIONAL CRIME PREVENTION COUNCIL


                                WITNESS

JOHN A. CALHOUN, PRESIDENT AND CEO, NATIONAL CRIME PREVENTION COUNCIL
    Mr. Porter. Mr. Calhoun, President and CEO, National Crime 
Prevention Council.
    Mr. Calhoun. Thank you, Mr. Chairman.
    I speak today on the National Youth Safety Corps, which 
gives us a wonderful opportunity to engage the services of kids 
in helping to prevent crime in their schools and communities 
and helping schools do their essential job which is teaching 
and providing a context in which learning can occur.
    I am President of the National Crime Prevention Council, 
and we are involved very deeply in helping to build 
neighborhoods and communities which not only reduce crime but 
don't, indeed, produce crime. We operate in tough 
neighborhoods. We operate in entire cities. And you probably 
recognize us most through our involvement with the icon 
McGruff, take a bite out of crime. Among our strategies is to 
involve youth.
    Tanika Riley, a 10-year-old girl in the Robert Taylor Homes 
in Chicago, one of our projects, her gift is song. Her project 
was to sing to the elderly walled in by crime. Her mother 
doesn't look much older than my 21-year-old daughter. She 
sleeps in a bathtub. She winds her way through a gauntlet of 
gangs on her way to school. When she received her very small 
check to do her safety and community improvement project, she 
said, thank you for allowing me the opportunity to make my 
community better.
    Similarly, in New York, at PS 163 we were testing the 
concept of driving the involvement down to younger ages. Second 
graders were being harassed by the homeless. One said, let's 
feed them. Another said, they need love. It is not enough, so 
let's put love notes in the bags along with the sandwiches. And 
the homeless became advocates and escorted the kids on their 
way to and from the subway.
    We must have the wit and the wisdom to tap the better 
angels of youth. We are asking kids to be part of the social 
contract. In psychological terms, it is bonding. In community 
terms, it is getting real work done. Unfortunately, the names 
Harris and Klebold will be forever known. But will this country 
remember the name of Aaron Hansey, the young man who attempted 
desperately to save his teacher's life in the bullet-strewn 
hall of Colombine?
    Our Youth Safety Corps work which you supported last year, 
for which we ask continued and extended support, rests on the 
foundation of youth involvement, having kids be part of the 
social contract. We have created the Corps in collaboration 
with the U.S. Department of Education to recruit, train and 
mobilize a diverse team of students, administrators and parents 
and community organizations for involvement in America's 
schools, to have them be part of the partnership.
    So many of the policies around the obscenity of school 
violence are based on fear. That is very understandable. We 
have to bring kids in as part of that whole strategy--tangible 
outcomes, students capable of applying problem-solving 
techniques, greater student involvement in community service 
projects, students learning leadership, student participation 
in governance and finally evaluation, results that will be 
shared with schools across America.
    So I thank you again, Mr. Chairman, for your commitments 
and your tenacity.
    Mr. Porter. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                      NATIONAL LEAGUE FOR NURSING


                                WITNESS

EILEEN ZUNGOLO, ED.D., RN, FAAN, PROFESSOR AND DEAN, SCHOOL OF NURSING, 
    BOUVE COLLEGE OF HEALTH SCIENCES, NORTHEASTERN UNIVERSITY, BOSTON, 
    MASSACHUSETTS; AND PRESIDENT-ELECT, NATIONAL LEAGUE FOR NURSING
    Mr. Porter. Eileen Zungolo.
    Ms. Zungolo. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak with you today, and I am in awe of all of 
the applications for concern that have been brought to your 
attention today.
    The mission of the National League for Nursing is the 
advancement of nursing education that prepares the nursing 
workforce to meet the needs of the diverse population in the 
ever-changing health care environment. The present health care 
environment impacts everyone in our country who seeks or is 
concerned about quality health care services.
    As the largest single group of health care providers, 
nurses are especially sensitive to the myriad issues 
surrounding health care financing as well as being a primary 
group affected when there are changes in reimbursement and 
other economic variables. Nursing education has been extremely 
vulnerable during the turbulent changes in health care that has 
characterized the 1990s. The coming of the new century has 
highlighted significant problems on the horizon for our Nation 
with regard to nursing services that have origins in the 
funding base for nursing education.
    While nursing has long been an occupation group subject to 
rather severe swings in supply and demand, the current gap 
between the need for nurses and the ability of nursing 
education to produce them is widening at a rapid pace. The 
escalating shortfall of nurses available to fill vacant 
positions is a reflection of a different dynamic than merely a 
shortage. That dynamic is predicated on extraordinary advances 
in all of health sciences, exploding developments in technology 
and unprecedented changes in the health care environment.
    All of these factors have led to radical changes in the 
responsibility of all nurses, thereby creating a need for more 
breadth and depth in the skill set of the nursing workforce. In 
the not-too-distant past, a blood pressure cuff was considered 
high tech, and intravenous therapy was an extraordinary 
measure. Today, blood pressures are taken by machines in local 
grocery stores, and families routinely start and monitor 
intravenous therapy in their homes. What remains for 
professional nurses to undertake in the provision of nursing 
services entails a vast spectrum in our acute care facilities 
and our community-based services.
    The preparation of professional nurses to function within 
these extensively expanded responsibilities and roles has 
changed exponentially as well. Educational programs in nursing 
are among the most expensive for educational institutions to 
operate. The rigorous requirements promulgated at the State 
licensing level and endorsed by various professional 
organizations in nursing require low student-faculty ratios, 
intense time allocation in clinical learning settings and 
extensive faculty contact with students. All of these elements 
increase the cost to produce each graduate.
    In addition to the expenses these factors add to the 
academic setting, there are currently serious problems in the 
provision of quality clinical learning opportunities for 
nursing students. The radical changes in the health care 
environment have placed extraordinary demands on clinical 
agencies that have historically fostered student nurse learning 
through clinical experiences.
    As a dean of a school of nursing I can report without 
exaggeration that each week my students are denied access to a 
clinical learning site because that site cannot support the 
added cost of having students in the agency. That cost may 
emanate from the time investment in organizing the student 
placement but increasingly concern that the presence of 
students will negatively impact the capacity of the staff to 
generate income.
    I support the emphasis that was placed by my colleague from 
the ANA in advocating that the Nurse Education Act be given a 
top priority for Federal support. Specifically, we also endorse 
a 15 percent increase in fiscal year 2001.
    Be sure, however, that this increase will not meet the 
need. One look at the extent of the problems areas, and this 
claim becomes crystal clear. There are acute needs for support 
at all levels of nursing education.
    A critical shortage of nurses prepared for the doctoral 
level to fill facility positions becomes more urgent annually. 
My colleague mentioned that the average age of a staff nurse is 
44. The average age of a faculty member in nursing is 52, which 
means that within 10 years we will probably have a complete 
turnover in our academic leadership.
    At the same time, escalating costs are mandating that less 
expensive ways be discovered to educate nurses, either through 
simulated learning opportunities or innovative clinical 
partnerships. Both of these approaches require an infusion of 
funds to get them started. Scholarships to help men and women 
become interested in careers a nursing continues to be a 
priority.
    Responding to the health care needs of a diverse population 
requires that the workforce and nursing be representative in 
that diversity. To achieve that goal, incentives in the form of 
scholarship and stipends need to be provided to talented 
minorities as well as to individuals who are economically 
disadvantaged. We also support an increase in funding for 
scholarship for disadvantaged students. Only through supports 
of this nature will nursing be able to assist the people of our 
country achieve their health goals and receive quality nursing 
services through the spectrum of care.
    Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Ms. Zungolo, is your school of nursing a 2-year 
or a 4-year program?
    Ms. Zungolo. Actually mine is 5 because it incorporates 
cooperative education. So within Northeastern's model, students 
actually work 2 years as well as have 3 years of academic 
training, but it leads to a bachelors degree.
    Mr. Porter. This is an issue today, is it not, between 2-
year and 4-year programs? We have a 2-year program in one of 
the colleges in my district, and they are very worried that 
they are going to be left behind, as you just described, the 
technologies and the need for greater education and more 
responsibilities of nurses increases.
    Ms. Zungolo. Well, I think when Mary Foley, the President 
of the ANA, talked about the different kind of skill mix that 
is needed, I think there will continue to be a great need and a 
place for individuals who graduate from associate degree 
programs, but I don't believe that they will have the capacity 
within their education to be able to really assume the highest 
levels of responsibility that we see nurses with more 
preparation achieve. But there would continue to be a place for 
these.
    Mr. Porter. Can you be an RN with a 2-year degree?
    Ms. Zungolo. Yes, assuming that you pass the licensing exam 
which is different in each State. The education doesn't grant a 
license.
    Mr. Porter. So from your title, you can't tell whether an 
individual necessarily received 4 years of education or 5 years 
of education or 2 years of education?
    Ms. Zungolo. From their license, you can't tell, but 
usually, depending on their education, they may advance to a 
different level of titling within an organization where they 
work.
    Mr. Porter. You bum up against a point in your nursing 
career where you need more education to go on beyond that, is 
that what you are saying?
    Ms. Zungolo. Yes, sir.
    Mr. Porter. All right. Thank you very much. Thank you for 
your testimony.
                              ----------                              

                                            Tuesday, April 4, 2000.

     NATIONAL ASSOCIATION OF NUTRITION AND AGING SERVICES PROGRAMS


                                WITNESS

MARY PODRABSKY, RD, PRESIDENT
    Mr. Porter. Mary Podrabsky, RD, President, National 
Association of Nutrition and Aging Services Programs, 
testifying in behalf of the Association.
    Ms. Podrabsky. Chairman Porter, thank you very much for the 
opportunity to come before you and testify today. My name is 
Mary Podrabsky, and it may not be a household name, but the 
programs that I come to speak to you about certainly are. They 
are the nutrition programs of the Older Americans Act, and 
every day in every congressional district, over a million meals 
are served, either through a congregate nutrition setting, 
typically in a senior center or through the home-delivered 
program, or better known as the Meals on Wheels Program, and 
these are programs funded through Older Americans Act.
    I testify today as president of the National Association of 
Nutrition and Aging Services Programs, and we are a membership 
organization that represents providers of the meals in all of 
those congressional districts and throughout the country.
    NANASP asks specifically for the subcommittee to provide at 
least a 10 percent increase for the two nutrition programs and 
for all programs of the Older Americans Act. I would point out 
that this position is also endorsed by the leadership Council 
of Aging Organizations of which NANASP is a member.
    We contend that in its 35th anniversary year, the Older 
Americans Act programs be finally recognized for what they are. 
They are cost-saving investments which truly preserve the 
independence and dignity of seniors throughout the country.
    Consider, for example, that, on average, nutrition program 
participants have between two and three diagnosed chronic 
health care conditions for which nutrition is either a primary 
or a supportive form of treatment. Consider that 33 percent of 
congregate nutrition participants and fifty percent of home 
delivered meal participants have incomes below the DHHS poverty 
threshold, and that is as compared to 15 percent in the general 
population.
    Consider that although the age of eligibility is 60, the 
average age in a congregate meal program is 76, and in the 
home-delivered meals program, it is 78.
    Consider also that many of the seniors that are 
participating in these programs are deemed at risk of being 
institutionalized.
    And then, if you will, consider one final statistic. Many 
of the seniors have been participants for over 15 years in 
these programs. That means the intervention of this service 
worked. It let them remain in their communities or their homes 
and out of more costly nursing homes or other long-term care 
facilities. The savings have truly been tremendous.
    Specifically we urge this 10 percent increase for following 
reasons. First the Congregate Nutrition Program has received 
only the equivalent of a 2.7 percent increase over the past 5 
years. By contrast, the rate of inflation, according to the CPI 
for that same time period, has been about 7.5 percent. While 
the home-delivered meals program did receive an increase last 
year, the need for this program has completely outstripped the 
resources and its funding capacity.
    Secondly, under the terms of the so-called transfer 
authority of the Older Americans Act, funding for congregate 
nutrition was actually reduced by $73,900,000 in FY 1999. This 
is a 19 percent pure reduction in its funding. This has been 
the pattern ever since the transfer authority was established 
in the early 1980s.
    Congregate nutrition funds are used to supplement funding 
for Title IIIB supportive services and Title IIIC2 home 
delivered meals programs. These funds have not been replaced by 
other sources. So the net result of these successive transfers 
and the inadequate funding is a severe and very chronic funding 
crisis which continues a downward spiral of reduced meal 
service days and site closures throughout the country.
    The need for home delivered meals continues to rise as more 
and more seniors are able to remain independent and at home 
with just a little bit of support. In a recent NANASP member 
survey, 34 percent of those responding indicated that they had 
waiting lists for home delivered meal, and that is consistent 
with a couple of other studies that were conducted on that same 
topic. For those awaiting service, the wait can take anywhere 
from a few weeks to 2 years. Oftentimes this forces frail 
seniors prematurely into an institution or assisted living 
setting outside of their own home, and we maintain that no one 
should have to move out of their home simply because they can't 
shop or prepare their own nutritious meals.
    We with NANASP know that the Older Americans Act is more 
than just the nutrition programs. Our Nation is aging, and we 
believe that the Older Americans Act, to fulfill its mission of 
providing coordinated home- and community-based services for 
seniors must have the resources to keep up with the growing 
demand and the needs of an increasingly diverse aging 
population. That is why our request today is for the entire 
Older Americans Act to get the necessary 10 percent across the 
board to keep it strong.
    Finally, in support of the 22 million American families 
charged with caregiver responsibilities, we ask that you 
support the New National Family Caregiver Support Program and 
approve the full 125,000,000 proposed by the President for this 
new and critical program.
    On behalf of NANASP, the dedicated service providers, the 
volunteers and participants who make up our nutrition programs, 
we sincerely thank you for the opportunity to testify today. 
Your past support and recognition of these programs is well-
known and also appreciated.
    Mr. Porter. Thank you, Ms. Podrabsky.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                            Tuesday, April 4, 2000.

                DEPARTMENT OF EDUCATION RESEARCH BUDGET


                                WITNESS

RICHARD ASKEY, PRIVATE CITIZEN
    Mr. Porter. Richard Askey, private citizen, the John Bascom 
professor of mathematics at the University of Wisconsin at 
Madison, testifying, I believe, on mathematics.
    Mr. Askey. Actually on the Department of Education research 
budget and how that affects mathematics and what I would 
recommend for that.
    I thank you for this opportunity to appear here Mr. 
Chairman. I am a member of the mathematical sciences education 
board, the American Mathematical Society Committee on 
Education, but I appear here not as a representative of these 
organizations but as a concerned mathematician, teacher and 
grandparent to support research programs in the fiscal year 
2001 budget of the Department of Education.
    If properly focused, these could have an invaluable impact 
on the education of our students, and as you remarked earlier 
in connection with the museums in Chicago on the future of our 
country.
    Based on results from the third international math and 
science studies, little progress, if any, has been made toward 
the national goal of being first in the world in mathematics 
education by the year 2000. One of the most important reasons 
for this is our failure in teacher education. After the third 
international math and science studies and also the second 
international math and science studies, people asked the 
question do our teachers, have they studied enough mathematics 
to teach it effectively. This was measured by the number of 
courses that they had taken, and they had taken as many or more 
courses than teachers in most other countries. Unfortunately, 
the number of courses is not the crucial thing. The actual 
knowledge is the important thing.
    It has been known in the mathematics education community, 
and somewhat by a few other people, that the knowledge base is 
far too slight, but nothing has really happened to bring this 
to the attention of many people until the publication of a new 
book, knowing and teaching elementary mathematics by Liping Ma. 
One question that was asked of U.S. teachers in the late 1980s 
was asked by Ma of teachers in Shanghai and the results were 
recorded in this book. There were four questions actually, and 
I am going to tell you about one of them.
    Take 1\3/4\ divided by \1/2\, do the calculation and then 
make up a word problem, the story problem that would illustrate 
that. About half of the U.S. teachers in a relatively large 
sample of which Ma used a small portion to illustrate were able 
to do the calculation correctly, but only about five percent 
were able to make up a correct story problem.
    Ma had come over from Shanghai and was involved in coding 
the results of this and was shocked by the knowledge, and she 
thought that the teachers that she had had and the ones that 
she had worked with had a better knowledge. So her thesis was 
to go back to Shanghai and ask these questions of 72 teachers, 
some in goodschools, some in average schools, some in poor 
schools. All of them did the calculation correctly and 65 of the 72 
made up a correct story problem.
    To find out where they had learned this knowledge, she went 
back to education schools. They all could do the calculation 
correctly, and 85 percent made up a correct story problem. Then 
she went back to ninth grade which was the last year in 
ordinary school before they went to normal school. All the 
students could do the calculation correctly and 40 percent made 
up a correct story problem.
    Now, we have known that our teachers had a knowledge 
deficit in mathematics. What we hadn't known is that this is 
not essential. There are countries where this doesn't happen. 
If the Department of Education had had an international group 
that was looking at education in other countries as they once 
did, we might have found out some of these pieces of 
information earlier.
    One of the things Liping Ma does in this book is to 
highlight the knowledge packets that the teachers had in some 
important areas of elementary school mathematics. Research 
could further that and give us the knowledge packets in other 
areas that our teachers have to have if they are going to do an 
adequate job.
    Couple of other things that could come from having an 
international group. We were surprised in Timms that while 25 
percent of our students had had algebra in eighth grade, the 
students in almost every other country, all of them had had 
algebra in eighth grade. We shouldn't have been surprised 
because the Bureau of Education had a report in 1915 that 
pointed this out and recommended that we start teaching algebra 
in 7th or 8th grade as was done in other countries. The 
argument was that was a small fraction of students and a larger 
fraction here, but now in 8th grade it is basically everybody 
in developed countries and the high school graduation rate in 
the United States is among the lowest in the world, and we are 
still far below what other countries have.
    We need to look at what is going on in other countries, and 
the Department of Education does not have the resources there 
to do this adequately.
    We need to teach for mastery rather than the spiral 
curriculum as is done in countries that have good mathematics 
education programs. We should have translations of curricula in 
other countries. I have translations of the Japanese curriculum 
from 10 years ago. I must have given out 200 copies of that. 
The Department of Education should have provided and made this 
available to people in the country, so we could see what other 
countries are doing at different ages.
    Another shortage in the Department of Education is the lack 
of content specialists. Again, they had this once and with the 
increase in size of the Department of Education, about 1965 
most of the content specialists left because they weren't 
interested in being grants people. We need a group there that 
really knows mathematics and some of the other subjects.
    The expert panel review was mentioned earlier. 96 people 
were trained for that. Only three of those 96 people had ever 
published a research paper in mathematics. I was one of the 
three, and I was asked at the last minute to be on that.
    Mathematical content needs to be looked at by 
mathematicians. Mathematicians are not the only people who 
should be involved in school mathematics programs, but 
mathematical content should be looked at by mathematicians. 
When you look at the reviews by the forty people that reviewed 
the programs that were listed as promising or exemplary, there 
wasn't a single review that mentioned an error in any of the 
programs, and there are errors in many of the programs. 
Programs could still be promising and have some errors but the 
errors need to be pointed out and mathematicians would have 
noticed that. They need to have content specialists at the 
Department of Education.
    The New York Times education columnist Richard Rostein had 
an article last Wednesday, and he was talking about two 
different views of how teachers should be educated. Chester 
Finn recommended a major and then graduate work in education. 
Linda Darling Hammond was recommending education schools. And 
Rostein said fifth grade teachers don't need calculus. They 
need psychology and learning theory. They don't need more 
content. They don't need calculus and that is a red herring. 
Nobody is proposing that for fifth grade teachers. What they 
need is a deep knowledge of fractions and they don't have it. 
Good research showing this might help education columnists for 
The New York Times to the fact that our teachers don't have the 
subject matter knowledge that they need.
    Mr. Chairman, thank you for this opportunity to appear 
here. I would like--I didn't know whether it was appropriate or 
not, but since somebody else gave you pictures of something, I 
would like to leave a copy of Liping Ma's book for the 
committee.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. I would appreciate that. That's wonderful. Let 
me say, Mr. Askey, that first of all, one gets the judgment or 
at least the thought that we are awfully indulgent of ourselves 
and our children, that we don't set standards and have worked 
toward those standards, and it is not just mathematics. It is 
in a lot of areas, but the mathematics worries us a lot because 
we are such a technologically dependent society, and as I said 
much earlier in the day, we seem to get a lot of those foreign 
students who do so well in their own countries, then they 
immigrate to our country and thank God for them because we are 
not doing so well among our own people.
    Have you ever heard of a group called the First in the 
World Consortium?
    Mr. Askey. Yes.
    Mr. Porter. You have?
    Mr. Askey. Yes.
    Mr. Porter. It exists in my district. Is that the one we 
are talking about?
    Mr. Askey. I talked to John McConnell who used to be 
chairman of the math department of Brookfield South.
    Mr. Porter. This is, to me, a very, very serious problem 
about our whole future, and I think you are very wise in 
pointing out that we are not doing the right things, and the 
previous testimony from your colleague, we are not doing the 
right things, particularly in mathematics and science 
education. Thank you for your testimony.
    Mr. Askey. Thank you for the opportunity.
                              ----------                              

                                            Tuesday, April 4, 2000.

     NATIONAL ASSOCIATION FOR EQUAL OPPORTUNITY IN HIGHER EDUCATION


                                WITNESS

HENRY PONDER, CEO AND PRESIDENT, NATIONAL ASSOCIATION FOR EQUAL 
    OPPORTUNITY IN HIGHER EDUCATION
    Mr. Porter. Last but not least, Dr. Henry Ponder, CEO and 
President, National Association for Equal Opportunity in Higher 
Education, testifying in behalf of the Association.
    Mr. Ponder. Mr. Chairman, I am Henry Ponder, President and 
CEO of the National Association for Equal Opportunity in Higher 
Education. I want to thank you for allowing me to appear before 
you today as you consider funding priorities relevant to your 
subcommittees's appropriations bill. I must confess, however, 
if I had known I am the presenter you needed to end this 
hearing, I would have volunteered sooner.
    NAFEO is the national umbrella organization representing 
the Nation's 118 predominantly and historically black colleges 
and universities. NAFEO institutions historically are 
responsible for educating the vast majority of African 
Americans. Today while NAFEO institutions enroll approximately 
18 percent of all African American college students, they 
confer about 40 percent of all bachelors degrees awarded to 
African Americans nationally.
    Although there were significant increases NAFEO supports 
additional funding in the areas identified by the Student 
Assistance Alliance. Because students attending HBCUs rely so 
heavily on the Federal student assistant financial programs, 
NAFEO fully supports increased proposes for Pell Grants, SSIG, 
SEOG, TRIO, work-study and several other student aid programs.
    This year NAFEO will be supporting four initiatives. The 
primary capacity building initiative that NAFEO is championing 
this year is the establishment of an HBCU technical assistance 
and resource center. There are many issues that are germane to 
institutions of higher education that have large minority 
student populations generally, and HBCU specifically. They 
range from disproportionately high student, low default rates, 
significant financial aid needs and student retention issues.
    Currently, there is no national center that can document 
these accomplishments or assist these institutions with the 
multiplicity of unique challenges and obstacles they have faced 
and still must face in carrying out their mission.
    The establishment of an HBCU TARC would allow information 
to be shared among schools through a central source. 
Additionally, the TARC would be able to conduct research. There 
is a significant need for a TARC that focuses on the 
development of a knowledge base for policies, programs and 
practices that will simultaneously increase the number of 
African Americans graduating from college as well as improving 
the quality of education received by African Americans at all 
learning levels.
    Providing $5,000,000 in the Office of Education Research 
and Improvement, OERI, account or in the higher education 
account to establish and operate a technical assistance and 
resource center in consultation and cooperation with the 
Department of Education will enable HBCUs to make better use of 
resources provided to the institutions and their students as 
well as conduct extensive research in efforts to find ways to 
collectively improve the ability of these institutions to 
continue their exemplary service to the Nation.
    The knowledge that will inevitably be gained from the 
research and uniform exchange of information can be used to 
help HBCUs and other institutions of higher education assist 
African American students. The proposed center would provide 
technical assistance and conduct research for HBCUs in order 
to, one, further reduce student loan default rates; two, 
bolster admissions and increase graduation rates among HBCU 
students; three, utilize Title IIIB funding in the most 
effective and cost efficient manner in order to ensure strong 
academic programs, faculties and facilities; four, provide 
assistance in grantwriting training to enhance HBCU efforts to 
attract Federal research resources; and five, to monitor and 
track trends related to State funding, test scores and student 
recruitment and retention.
    Second priority, NAFEO recommends that undergraduate 
funding for Title IIIB be increased to $175,000,000, 
$26,250,000 above last year's request, and $6,000,000 above the 
administration's request. Adoption of this recommendation will 
raise the minimum grant to $1,000,000 for the majority of 
participating HBCUs. Also, it will allow these schools to 
address emerging challenges related to student access and 
attainment, faculty development, facility and technology 
improvement as well as endowment building.
    Third priority, NAFEO recommends increases for the Title 
IIIB, section 326 program strengthening historically black 
institutions. NAFEO's recommendation of 40 million is 
consistent with the administration's and raises the funding 
level from the $31,000,000 provided last year. This 
recommendation will allow HBCUs to address the undersupply of 
African American Ph.D.s in the sciences, in engineering fields 
and professional degrees in law and medicine.
    Finally, NAFEO also recommends $40,000,000 in funding for 
the establishment of a dual degree program for minority serving 
institutions, which will provide competitive grants to a 
consortia of MSIs and research universities in an effort to 
enable students and MSIs to earn dual degrees.
    Mr. Chairman, we add our accolades to you for a job well 
done in the service of your country and humanity. We wish you 
good health, long life, success and happiness in your future 
endeavors. Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Ponder, thank you for those very kind 
words. Thank you for your testimony and thank you particularly 
for your patience. I know this is an honor you would rather not 
have had, but two gentlemen that were ahead of you requested 
they be moved ahead so they could catch airplanes, but thank 
you so much for your testimony today. We will do our best.
    Thank you.
    The subcommittee stands in recess until 10:00 a.m. 
tomorrow.
                                          Wednesday, April 5, 2000.
    Mr. Young. Good morning. The subcommittee will come to 
order.
    I will fill in until Chairman Porter arrives from a 
previous engagement that he had this morning.
    The subcommittee is now in the ninth session of public 
witness hearings. Each day includes two sessions, one in the 
morning from 10:00 to 12:00 and one in the afternoon from 2:00 
to 4:00. A total of 163 witnesses have testified limiting their 
opening statement to 5 minutes. In order to keep on schedule, I 
would ask that everyone strictly adhere to the 5-minute time 
limit. We do have a timer and it will beep when the 5 minutes 
is up. Then I would ask that you conclude your statement, and 
that it would be a summary of your statement. If you would like 
to have a more extensive statement, we would be glad to accept 
that in writing for the record.
    As we begin the hearing, I want to remind witnesses of two 
provisions in the rules of the House. In addition to the 
written statement, non-governmental witnesses must submit a 
curriculum vitae and a statement of Federal grant or contract 
funds they or the entity they represent have received. If there 
are any questions concerning the applicability of this 
provision or question on how to comply, please contact the 
subcommittee staff.
    In order to accommodate as many members of the public as 
possible, we have scheduled over 20 witnesses for each session 
and are still not able to hear from all who wanted to testify. 
Overall, we will hear from over 200 witnesses in this segment 
alone. As a result, it will be important to enforce the rule 
limiting testimony to 5 minutes very strictly. And I would ask 
that as you testify you keep this limitation in mind in 
consideration for the other witnesses that follow.
                              ----------                              

                                          Wednesday, April 5, 2000.

                            FLORIDA PROJECTS

                               WITNESSES

SANDRA FREAR, PRESIDENT, GREATER FLORIDA CHAPTER, LUPUS FOUNDATION OF 
    AMERICA
TOM GALLAGHER, COMMISSIONER, FLORIDA DEPARTMENT OF EDUCATION
CHARLES S. MAHAN, DEAN, COLLEGE OF PUBLIC HEALTH, UNIVERSITY OF SOUTH 
    FLORIDA AND DIRECTOR, THE LAWTON AND RHEA CHILES CENTER FOR HEALTHY 
    MOTHERS AND BABIES
RICHARD S. WEISMAN, MEMBER OF THE BOARD OF DIRECTORS, AMERICAN 
    ASSOCIATION OF POISON CONTROL, ASSOCIATE PROFESSOR OF PEDIATRICS, 
    UNIVERSITY OF MIAMI SCHOOL OF MEDICINE, AND DIRECTOR, FLORIDA 
    POISON INFORMATION CENTER, MIAMI, FLORIDA
JOHN MUDD, STUDENT, UNIVERSITY OF SOUTH FLORIDA, TAMPA, FLORIDA
    Mr. Young. On our first panel today, I am very happy to 
have our colleague from Florida, Ms. Carrie Meek, a very 
distinguished Member of the United States Congress, who would 
be testifying relative the Lupus Foundation, and Sandy Frear, 
an old friend of mine from my district and my constituent, who 
has also been appointed to represent the Lupus Foundation.
    Also in the first panel will be Dr. Charles Mahan, dean of 
the College of Public Health, University of South Florida, and 
director of the Lawton and Rhea Chiles Center for Healthy 
Mothers and Babies. Dr. Richard Weisman is a member of the 
Board of Directors of the American Association of Poison 
Control, associate professor of Pediatrics at the University of 
Miami School of Medicine, and the director of the Florida 
Poison Information Center in Miami.
    John Mudd is a student at the University of South Florida 
in Tampa, who is here to represent juvenile diabetes.
    Mr. Tom Gallagher is my very important guest here. He is 
the commissioner of the Florida Department of Education and is 
very busy in his own right, but was willing to come at our 
invitation today to represent the Florida Department of 
Education.
    Mr. Chairman, that is our first panel and I have just 
introduced all of them. Thank you for letting me fill in for 
you while you were about your appointed rounds this morning.
    Mr. Porter. I would welcome all of our witnesses this 
morning.
    Tom, are you going to start?
    Mr. Gallagher. I would be happy to start.
    Mr. Porter. I guess Carrie's going to start.
    Ms. Meek. Thank you, Mr. Chairman.
    I am happy to see our committee chairman here of 
Appropriations and to say to you how grateful we are in the 
Lupus Network for all that you have done over the years to 
further the cause of trying to end this dreadful disease.
    I am not here to make a long statement. I am going to 
submit my statement for the record. But I am here to introduce 
to the panel and to the people in this room a young lady who 
has dedicated her life to the cause of preventing and curing 
this dreadful disease of lupus, which strikes people in their 
very young lives and causes them all kinds of hurt and harm.
    This committee has been helpful through the years, with the 
National Institutes of Health, to assist in this fight against 
lupus. But it's really going to take a stronger effort. We have 
a bill here this year--we have had it for 2 or 3 years--in 
trying to have the Congress go on record with its intent to 
fight this disease. We have the Lupus Research and Care 
Amendments Act of 1999. Sandy came all the way here today--and 
she is a victim of this dread disease--to plead to this 
committee how important it is that you pass this piece of 
legislation, you assist in the way you see fit, which is 
usually in the appropriations process.
    Sandy Frear is president of the Florida chapter of the 
Lupus Foundation of America. She is a friend of mine of long 
years. She is a true star in the fight against lupus.
    I think the committee knows that this disease, as it is 
know, affects over 1.4 million Americans. A lot of people don't 
realize that. It affects and devastates the lives of more than 
AIDS and some of the other terrible diseases in this country.
    I know that the committee wants to hear from Sandy, but I 
wanted you to know that she is here and we couldn't have a 
better person giving the cause. Despite having lupus herself, 
Sandy has been relentless in her efforts to increase public 
awareness about lupus.
    Mr. Chairman, it is my great honor and privilege to 
introduce Sandy Frear. She is also a strong constituent of our 
chairman. And I'm also happy to be here today to welcome an old 
colleague of mine, the commissioner of education that you just 
introduced. I am happy to be here with Tom Gallagher as well.
    Sandy.
    Ms. Frear. Thank you.
    Good morning, Mr. Chairman and subcommittee members. I am 
appearing before you today as one of at least 1.4 million 
Americans who have lupus, most of whom are women. Lupus is an 
autoimmune disease that causes the immune system to attack the 
body's own tissue.
    Lupus touches the lives of millions of Americans. We 
recognize the important work that the National Institutes of 
Health--and in particular, the National Institute of Arthritis 
and Musculoskeletal and Skin Diseases--are doing to solve the 
mysteries of lupus and other autoimmune diseases.
    I want to thank the members of this subcommittee, 
especially Chairman Young and Chairman Porter, for their 
continued commitment to double funding for medical research 
conducted through the National Institutes of Health by fiscal 
year 2003. The Lupus foundation of American appreciates the 
large increases appropriated to the NIH for the last 2 years. 
An additional 15 percent increase in fiscal year 2001 will keep 
the NIH on track to double within a 5-year period.
    However, Mr. Chairman, a 15 percent increase for lupus-
related medical research would not adequately address current 
scientific opportunities. Additional funding would allow the 
NIH to support more research projects that seek to identify a 
cause and cure for lupus. The Lupus Foundation of American 
urges this subcommittee to appropriate an additional 
$30,000,000 to allow scientists to pursue these exciting 
opportunities.
    Lupus is a mysterious disease. For unknown reasons, the 
immune system loses its ability to distinguish between the 
body's own cells and a foreign invader, such as a virus or 
bacteria. Consequently, the immune system produces antibodies 
that attack the body's own cells. This causes extreme pain, 
fevers, overwhelming fatigue, skin rashes, nose and mouth 
ulcers, and a host of other devastating symptoms. Lupus 
destroys the quality of life for many of its victims.
    The disease can severely damage the kidneys, heart, lungs, 
and other vital organs. This makes lupus the classic autoimmune 
disease, disabling one in five people, often at a very young 
age. In most cases, lupus strikes women during their child-
bearing years, between the ages of 15 and 44. This is one of 
the most devastating realities of lupus. It destroys the 
quality of life during a time when young women should be 
enjoying their best health. And tragically, every year, 
thousands of us die from complications of this disease.
    At the present time, there is no cure for lupus, nor do 
researchers fully understand what causes the disease. They 
believe lupus has an underlying genetic basis and some type of 
environmental trigger that causes disease activity, called 
flares.
    We do not know why lupus alternates between periods of 
remission and periods of activity. We do not know why the 
disease can remain mild in some individuals and become life-
threatening in others. But what we do know, Mr. Chairman, is 
that lupus has a devastating impact on its victims and their 
families.
    At this time, I would like to tell you my story.
    I was diagnosed with lupus about 10 years ago, after many 
years of being sick and going to several different doctors. I 
continued to work for two and a half more years after being 
diagnosed, but my disease continued to get words. Eventually, I 
had to choose to quit work. I started taking prednisone, which 
is a corticosteroid with dangerous side effects. Since starting 
this drug, I have gained over 80 pounds. I don't look at all 
like the person I used to be. In the past 3 years, I have been 
very ill with my lupus. I have been hospitalized at least 10 
times and last year I had pneumonia five times. I now have 
liver and heart problems as well, on top of all the other 
problems.
    Since last November I have been on a chemotherapy program 
to try and slow down the progression of my disease and 
hopefully get it under control. This disease has changed 
everything in my life, my hopes, my dreams. I can't work at a 
job I loved, I can't do the things I have always loved to do 
like swim, bike-ride, and go camping. I have lost friends along 
the way because it's very hard for them to relate to my 
sickness while outwardly I look and inside I am sick.
    Lupus is not an equal opportunity disease, 90 percent of 
the victims of lupus are women. We believe hormonal factors may 
explain this fact. However, this is an area that desperately 
needs more study.
    Lupus is known to be more common among women of color. It 
is two to three times more likely to affect African-Americans, 
Hispanics, Asians, and Native Americans than Caucasian women. 
The disease appears to be even more serious among African-
American women.
    Approximately 20 percent of lupus cases begin in childhood 
and these diseases are more severe. Children with lupus have 
far more kidney problems and organ-threatening conditions than 
adults with the disease.
    At the present time, there is no single test that can test 
a person for lupus. The disease is particularly difficult to 
diagnose because symptoms mimic other serious illnesses.
    As I have indicated, after a diagnosis, lupus patients must 
face a series of economic, psychological, and medical 
challenges. These often include the inability to obtain health 
or life insurance, the inability to obtain or hold meaningful 
employment, and frequently, the disintegration of a marriage or 
support network. Lupus patients are frustrated that the disease 
remains incurable.
    As you can tell from my story, Mr. Chairman, lupus is not 
an easy disease to treat or to live with. Along with other 
lupus patients, I must rely on the Federal Government to 
support our research.
    I urge the Congress to keep the NIH budget on the path to 
double over a 5-year period and to appropriate an additional 
$30,000,000 for lupus research. I know these funds can be used 
effectively to support quality research so that lupus patients 
like myself can live without pain, suffering, and the fear of 
dying.
    I would be happy to answer any questions.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Ms. Frear.
    Tom Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Florida, as you know, is one of the fastest growing States 
in the country. Close to 42,000 new students will enter Florida 
schools next fall. These students will join nearly 2.3 million 
students already enrolled in pre-K through 12 in Florida's 67 
school districts. The districts are very diverse in both size 
and demographics, ranging from Miami-Dade County with more than 
200,000 students to rural and smaller districts approaching 
only 1,000 students.
    However, all districts are sharing a common need, as all 
are encountering teacher shortages. This shortage can be 
attributed to a variety of factors: increased enrollment 
through higher birth rates and immigration, converging teacher 
retirements, and class size reduction efforts. These all 
compound the problem.
    In 1998 and 1999, the number of instructional staff in 
Florida was 144,324. While this number was an increase from the 
previous year, the demand for teachers still exceeded the 
supply. Each year, 6,500 students graduate from the 29 Florida 
colleges and universities with State-approved teacher 
preparation programs. Florida actually hires 10,000 new 
teachers each year. Thus, the unmet need for new teachers is 
approximately 3,500 per year.
    Florida's teacher recruitment efforts, like most States, 
have used relatively traditional means. We currently have a 
toll-free line and an annual job fair. We sponsor selected out-
of-State job fairs for district recruiters, encourage districts 
to develop models for alternate paths to certification, and 
sponsor the Future Educators Pre-Collegiate Program. Thus far, 
these activities have not proved successful in meeting our 
annual teacher shortages.
    Florida has turned to technology to bridge the gap between 
the supply and demand for teachers. We are in the process of 
developing TeacherNet, an on-line teacher recruitment and 
support system. This system will enable teachers to submit 
applications on-line, provide documentation of their 
credentials and skills through electronic portfolios, and even 
interview via the Internet.
    In addition, an on-line support system designed to target 
the needs of prospective and new teachers will be a component 
of the system. This on-line support will include resources to 
orient teachers to the teaching profession in Florida, lesson 
plans that are catalogued according to our State standards, 
parent involvement strategies for all grade levels, a grade 
book system to facilitate administrative tasks for teachers, 
and telementoring through the use of a cadre of master 
teachers.
    TeacherNet will be developed in phases. When fully 
developed, it will also provide professional development 
resources to teachers throughout our State. One goal is that 
TeacherNet will be a model for other States and, once fully 
developed, we would be pleased to provide guidance to other 
States in replicating the model. The need for developing 
alternate delivery systems to provide just-in-time training has 
been extensively cited in professional research materials.
    In Florida we are in the process of developing the 
infrastructure for a coordinated system of staff development. 
As part of this system, we are planning to develop on-line 
staff development offerings to provide introductory training 
for teachers at no cost and available at any time. In fact, we 
just completed a CD-ROM-based English for Speakers of Other 
Languages--ESOL--course for those teachers needing the 18 hours 
of ESOL training. The benefit is physical education, music, and 
art teachers who are required to have this training won't have 
to be pulled from their classrooms to meet this requirement.
    Recent policy changes have resulted in an accountability 
system for the quality of professional development in our 
State. At present, our school districts must have approved 
systems that meet established criteria. One of the criteria is 
that all instruction personnel are required to have individual 
professional development plans that reflect their performance 
appraisal data and student data. Successful professional 
development is measured in terms of results seen in student 
gains.
    Incentive programs are sometimes effective tools to recruit 
high-quality teachers in targeted areas. I have proposed one 
such incentive program that is designed to address teacher 
shortages in the areas of math and science. This program would 
provide a one-time $5,000 incentive bonus to teachers who meet 
the requirements for adding math or science to their teaching 
certificates and then teach those areas.
    In teacher retention, we know that teacher recruitment and 
retention go hand-in-hand. In order to maintain the supply of 
high-performing teachers, we need to provide financial 
recognition programs. The average salary paid to a Florida 
public school teacher in the school year 1998-1999 was $35,916. 
In Florida, as in other States, teacher salaries are based on 
years of experience and highest degree held. We must go beyond 
these traditional salary criteria.
    We started with the Excellent Teaching Program, which has 
been in place for 2 years and was created to provide monetary 
incentives and bonuses for teaching excellence. This is yet 
another way to recognize and reward teachers while keeping 
their expertise in the classroom. The Department of Education 
distributes to school districts funds to support an annual 
bonus and fee subsidy for those teachers eligible to 
participate in the National Board Professional Teaching 
Standards Certification Program.
    The annual bonus is equal to 10 percent of the prior fiscal 
year's State-wide average. At present, $1,800 per eligible 
participant is distributed to school districts as a fee subsidy 
for participating in the nationally certified program. This fee 
subsidy will be increased in the coming year to $2,070 to 
eligible participant. Since the program's adoption, 586 Florida 
teachers have been awarded the prestigious national board 
certification.
    The next step in retaining quality teachers is the Mentor 
Teacher program. I am asking the Florida Legislature to support 
a multiple-career path program for teachers to be piloted in up 
to 400 schools in the year 2001-2002. Each pilot school would 
receive $50,000 to design their program. Five levels of 
employment are featured in this program, affording 
opportunities for career advancement from education 
paraprofessionals to the highest level of mentor teachers. 
Mentor teachers would oversee instruction of students assigned 
to their unit, provide direct assistance to educational team 
members, provide on-site staff development, and model exemplary 
teaching strategies. The intent of the program is to provide an 
advancement route for teachers so they don't have to leave the 
classroom.
    The average pay for a mentor teacher would be probably 
$60,000 a year, so it would also allow teachers to stay in the 
classroom and make additional money.
    The President's proposed initiatives for teacher 
recruitment, preparation, and professional development offer 
opportunities to States for securing additional support. 
Teacher Quality Enhancement Grants provide recruitment support 
at both the State and local levels for innovative programs. The 
Glenn Commission targets math and science which, as I 
mentioned, are critical shortage areas in Florida. These grant 
programs, coupled with the loan forgiveness and Pell Grant 
programs, do fill in some of the financial gaps in addressing 
this problem.
    But States must be afforded the flexibility to access and 
use these grants with no restrictions. Without flexibility and 
the creativity that comes with it, we will be doomed to the 
same tired strategies of the past. The Federal Government could 
go one step further by sponsoring a national summit focusing on 
recruitment issues that would include a State exchange of 
ideas, solutions, and innovative programs.
    In closing, recruiting, preparing, and recognizing high-
performing teachers in a State with critical shortages is a 
challenge. While there are no quick fixes that can remedy the 
situation overnight, I believe the ideas presented today--
TeacherNet, creating model programs for alternate paths to 
certification, establishing a Teacher Mentor Program--will 
chart the course for success. We acknowledge and appreciate the 
Federal support we receive, such as Goals 200 funds and 
competitive grant programs like Preparing Tomorrow's Teachers 
to Use Technology Program. Grant opportunities enable us to 
provide more support to critical initiatives.
    We know how important accountability measures are, 
especially where dollars are concerned. In Florida, we have a 
comprehensive accountability system that is based on 
performance outcomes. This ensures that any funds received will 
support initiatives that are directly linked to student 
learning gains.
    Finally, allow me to express my appreciation for the 
opportunity to share a model effort Florida is undertaking to 
address an issue endemic to schools and States throughout the 
country. Increased Federal resources cannot solve the problem 
of critical teacher shortages with ties that bind the States 
and local agencies. Instead, the problem must be addressed at 
local and State levels with flexible and creative solutions.
    Thank you very much, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Commissioner.
    The subcommittee is pleased to welcome another of our 
Florida colleagues, Congressman Jim Davis of Tampa, who is here 
to support the testimony of our next witness, Dr. Charles S. 
Mahan.
    Mr. Mahan. Good morning, Chairman Young and Chairman 
Porter. We all thank you for your tremendous support of health 
research and public health in the past and in the present.
    Recent expansions of Medicaid and Healthy Start and the 
Child Health Insurance Program by the Federal Government have 
helped reduce financial barriers to care, but that is only on 
paper. Hundreds of thousands of women and children are not 
accessing the programs, even though they are eligible for them, 
because of many organizational, cultural, communication 
problems that lead to patient dissatisfaction, decreased 
utilization, and most importantly poor health outcomes.
    Why should we care if people use this program? Because some 
people would say that if you don't use it, you don't have to 
pay for it and it saves the Federal Government money. But each 
person that uses preventative services probably saves the 
Federal Government $10 for every dollar spent. Most death and 
disability in young children and infants is due to low birth 
weight. Low birth weight in the United States has not changed 
for 60 years. We are the only country where that is true. As a 
matter of fact, lately, it has been going up.
    The death rate of mothers in pregnancy has not changed for 
the last 20 years and has been going up in some States 
recently, such as Florida, so that we have had to reestablish 
our Maternal Death Committees.
    The drops we have experienced in infant mortality have 
primarily been due to drugs and machines and technology that 
are saving very tiny babies, often at the cost of $25,000 a 
day. But for a mere $200 a year, we can provide pregnancy 
spacing services and prenatal services that again will save an 
enormous amount of money. Also, the provision of these services 
would help people access the March of Dimes Program for women 
taking folic acid so that pregnancy outcomes and birth defects 
would be decreased. If we could reduce the number of women who 
still come late or never come for prenatal care, we would have 
much superior birth outcomes and save billions of dollars in 
high-risk baby care.
    Why are we still having care access issues if we have all 
these programs in place? There are a number of reasons. My 
research and experience for the last 35 years in health care 
have found that the access problems for mothers and children 
are related to an issue that infects the American health 
industry more pervasively than any other service industry, and 
that is poor customer service leading to deep dissatisfaction 
with care.
    This has especially shown to be true for families with 
children with special health care needs. This is a serious 
issue with both public and private health care providers, since 
the majority of Medicaid patients are now seen in the private 
sector.
    Studies that we did in the late 1980s across Florida on 
women who delivered with no prenatal care found that each of 
them had tried an average of five times to get into care and 
encountered so many multiple customer service barriers that 
they finally gave up. Recent reviews of the scientific 
literature by one of our professors found an even bigger 
problem was that women would often make it into care and then 
never come back because of the experience they had had. Some of 
these are probably peoples' perceptions of how they were 
treated, but perception is 80 percent of customer service and 
customer satisfaction.
    What can be done to remedy this problem? Customer service 
is a science that is rarely taught to those of us who are 
health care providers. In my experience, most doctors, nurses, 
and other health care team members are quick and anxious to 
correct customer service problems once they are shown in their 
own population to be an issue through focus groups or other 
prevention marketing techniques.
    In the year 2000, with technical and financial help from 
the Centers for Disease Control and Prevention and HRSA of HHS, 
the Chiles Center, along with the Walt Disney Company, the 
Disney Institute, and a number of other partner organizations 
will launch a national multi-site research and training 
initiative called Friendly Access aimed at improving the 
quality of service in the delivery of health care for America's 
vulnerable populations. One of our major partners in this is 
the National Perinatal Association.
    A large part of the health provider system of Indianapolis, 
Indiana elected to be the first site and their second team of 
45 people just went through the initial training in Orlando. 
They will go back home and use various methods to try to 
improve customer service and customer satisfaction in their 
community.
    This has been an idea that has caught on quickly, one that 
many of our colleagues around the country understand, and we 
have six more communities in six other States that have 
volunteered to be some of the pioneer groups in this program. 
This is a 20-year project that we hope eventually will involve 
200 communities across the United States.
    The next Congress will have to deal with a health care 
crisis and I hope that when we are dealing with that we will 
think about the issues of access and customer satisfaction when 
we craft our new ideas and new proposals.
    Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Dr. Mahan.
    Dr. Weisman.
    Mr. Weisman. Mr. Chairman, my name is Dr. Richard Weisman. 
I am a member of the Board of Directors of the American 
Association of Poison Control as well as an associate professor 
of Pediatrics at the University of Miami School of Medicine.
    Poisoning is the third most common form of unintentional 
death in the United States. In any given year, there will be 
between 2 million and 4 million poisonings. Sixty percent of 
these exposures will involve children under the age of six who 
are exposed to toxins in their home. Poisoning accounts for 
285,000 hospitalizations, 1.2 million days of acute hospital 
care, and 13,000 fatalities yearly. The total direct costs 
associated with poisoning exceed $3,000,000,000 annually. That 
is more than we spend on gunshot wounds, burns, and drownings 
in a year.
    Poison control centers are our Nation's primary defense 
against injury and deaths from poisoning. Twenty-four hours a 
day, the general public as well as health care practitioners 
contact their local poison centers for help in diagnosing and 
treating victims of poisoning. These poisonings involve 
everything from aspirin overdoses and food poisoning to snake 
bites. With correct diagnosis and treatment, medical outcomes 
are improved and fatalities drastically reduced. Rapid 
assessment and treatment translates into countless lives being 
saved.
    In 1999 alone, our Nation's poison centers were consulted 
about more than 2 million poisonings by residents who were 
victims of exposures usually in or around the home. Most often 
these calls were from a mom or dad or someone else providing 
child care. With poison center assistance, 70 percent of these 
poisonings were managed safely at home. Since a call to the 
poison center is much less expensive than a trip to the 
emergency department, this results in dramatic cost savings to 
the health care systems and to taxpayers.
    A 1995 study conducted by the Department of Health and 
Human Services and published in a peer-reviewed journal showed 
that poison centers reduced such medical spending by up to 
$400,000,000 annually. But the cost savings from poison centers 
could be even greater.
    Barriers in communication exist because there are over 100 
different telephone numbers instead of one standard, national 
recognized, and easily remembered telephone number. Today, if 
you dial the number for a poison center that does not operate 
in your area, you will hear: ``You have reached a non-working 
number from your area code.'' To the parent of a 2-year-old 
child who has just swallowed someone else's prescription, this 
can be devastating.
    Despite their success, poison control centers struggle to 
exist. Most centers are funded by a fragile patchwork of State, 
local, and private moneys. Since centers do not generate 
revenue, they have become easy targets when sponsoring 
hospitals and State legislatures trim their budgets. The result 
is more catastrophic than such well-intentioned administrators 
can imagine. The cost of poisoning increases up to five-fold 
and is shifted onto the public sector. The medical community 
loses a training environment. Parent education programs, which 
help prevent unintentional poisonings in the first place, 
suffer. Budget cuts reduce poison center manpower and the 
volume of calls exceeds the already overtaxed poison centers. A 
child's chance of surviving a poisoning is dramatically 
reduced.
    We now have a remarkable opportunity to change history and 
provide for the health and safety of our children. The Poison 
Control Center Enhancement and Awareness Act was passed by the 
Senate by unanimous consent in August. This past February, the 
Act passed in the House by a vote of 384 to 17, and the 
President signed it into law that week.
    If the authorized $27,600,000 per year is appropriated, the 
funding will stabilize poison centers. The funding will 
dramatically improve poison center access by creating a single 
easy to advertise, easy to remember telephone number. The 
appropriations will allow every United States resident to 
immediately obtain quality poison center services and will save 
money by dramatically reducing the number of unnecessary 
ambulance transports and emergency department visits.
    For patients with significant poisonings, the appropriation 
will provide access for our emergency departments to the 
Nation's most highly trained and skilled toxicologists. The 
result will be a reduction in injury, illness, and death due to 
poisoning. When the diagnosis is made early, definitive therapy 
will be started promptly, reducing the cost of the 
hospitalization. In the study commissioned by HHS in 1995, it 
was shown that for every dollar invested, a $7 reduction in 
health care costs could be appreciated.
    Mr. Chairman, providing the full appropriation for the 
Poison Control Center Enhancement and Awareness Act is a good 
investment in the health of our Nation. We have the opportunity 
to turn the tide against one of the most common forms of injury 
in the United States, unintentional poisoning. We hope that you 
will carefully review this important issue and provide the 
funding necessary for our Nation's poison control centers.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Dr. Weisman.
    John Mudd.
    Mr. Mudd. Mr. Chairman and members of the committee, thank 
you for giving me this opportunity to address you today on the 
subject of diabetes.
    I am John Mudd and I am currently a student at the 
University of South Florida in Tampa, Florida. I am an alumnus 
of St. Petersburg Junior College. I hold several leadership at 
USF, including Chair of the Rules Committee in the Student 
Senate, President of the College of Arts and Sciences Student 
Council, among other things.
    With all of my community, leadership, and service 
involvement, it may come as a surprise to you and others that I 
am a type one juvenile diabetic and have been since 13 months--
one year of age. Diabetes is not noticeable to others. The 
experts will tell you that many people have it but do not know 
it. Perhaps this is why diabetes has been called the silent 
killer. It is indeed a silent killer.
    I can recall back to when I was in eighth grade and I had 
awakened in a classroom while a friend of mine was forcing me 
to drink orange juice. I had little recollection of what had 
happened that day and still don't know what occurred within the 
time frame of around 30 to 45 minutes beforehand. I could have 
overexerted myself in P.E. class, maybe I didn't have enough to 
eat--I really don't know as far as what caused it exactly, but 
I do know that an insulin reaction similar to this can lead to 
more dangerous things such as brain damage or death.
    Diabetes is a disease that does not care what damage it 
does to the human body. The disease has no care or conscience 
that it may cause someone to go into a coma and die from very 
high blood glucose levels. And it has no care that it could do 
the same thing by causing low blood glucose levels. It doesn't 
have a conscience like you and me, Mr. Chairman. It doesn't 
care what damage it does.
    Since 1959, the number of Americans diagnoses with diabetes 
has increased nearly 700 percent. Even more alarming is that 
since 1987 the death rate due to diabetes has increased by 30 
percent. During the same time, the proportion of the NIH budget 
dedicated to diabetes has decreased more than 30 percent. 
Friends, it is time to reverse this trend.
    I said ``friends'' because I thought there would be more 
people here. Sorry. [Laughter.]
    Mr. Mudd. It is because of every diabetic's personal war 
with this disease that I am here today to ask you to continue 
to increase funding for and express the strong sentiment of the 
committee that the NIH follow its own allocation criteria and 
fully fund and implement the Diabetes Research Working Group--
DRWG--Research Plan.
    Mr. Chairman, I am not alone in this cause. Last fall, I 
took part in the American Diabetes Association's Petition for a 
Cure and I, with the help of my fellow students, collected over 
1,500 signatures from people at the University of South Florida 
who reside in either Hillsborough, Pinellas, or another 
neighboring county. One person from Tampa collected over 23,000 
signatures and the American Diabetes Association collected 3.2 
million signatures, which you are probably familiar with them 
presenting at a rally a couple of weeks ago.
    Let me give you an idea of what these 3.2 million 
signatures truly represent. One out of every 85 Americans. Mr. 
Chairman, 3.2 million is six times greater than the number of 
votes received by Representatives Hastert, Armey, delay, 
Gephardt, and Bonior in the 1998 election. Also, 3.2 million is 
greater than the combined population of Cincinnati, Atlanta, 
Sacramento, Kansas City, Miami, Boston, and Seattle. That's a 
lot of cities and a lot of people. These 3.2 million signatures 
are a clear demonstration of the widespread public support that 
exists for increasing Federal funding for diabetes research and 
the need to find a cure.
    Diabetes is a disease that hits home for many of us. As I 
canvassed my university campus on foot to gather signatures 
supporting the cause, I found people either had diabetes or had 
family members or friends or people that were close to them 
that had diabetes. One man told me about his wife and how she 
is always thirsty and doesn't hold food down very well and is 
undergoing tests to see if she had diabetes. A young African-
American woman told me about her mother's trials with diabetes, 
trials I do not believe she should have to endure. Nor should 
anyone else.
    Diabetes hits even closer to home for others. Apparently 
people became aware of my petition and began sending me e-
mails. One woman, Sharen Haber of Tampa--her daughter, Audrey, 
15, has not yet had a blood sugar level reading of under 200 
using insulin and 70 to 120 is normal. She also said that the 
girl is tired, emotionally scared, and hurt. This is not how a 
young girl should be forced to spend her youth. And I had to go 
through the same thing. I probably went through worse things 
because of diabetes, but I only have 5 minutes, so I can't tell 
you about all of them.
    It is consistently high blood glucose readings such as 
these that cause the terrible complications of diabetes. Audrey 
is not alone in her personal battle with diabetes as a young 
person.
    I received another e-mail from another mother from 
Indiana--I am in Florida and I am getting stuff from people in 
Indiana--and she told me that her daughter, Cambria Lee 
Hollingsworth, is 12 years old. She was 11 when she was 
diagnosed and is now 12. Her mother told me a chilling story of 
how hard it was to diagnose her daughter, how she lost 18 
pounds in the process while they were still diagnosing her with 
diabetes. She could not eat solid food, was running a constant 
fever, had a yeast infection in her throat--can you imagine 
that in her throat, like a fungus growing in your throat--and 
was so fatigued she could hardly get up out of bed. Apparently, 
Cambria had developed diabetic ketoacidosis, according to her 
mother. It is sad to see such suffering take place within our 
borders.
    I, too, have had diabetes since my youth. I have had it 
since 13 months of age. For 20 some years, I have had diabetes. 
Statistically, I should have gone blind or lost my legs by now 
because when I was younger I really didn't take care of it. 
Somehow I have managed to overcome the trials and the troubles. 
But I have had many hardships because of it.
    Mr. Chairman, I hear our political leaders from President 
Clinton to members of the legislative branch so often invoke 
America's youth as the future of our Nation when talking about 
a policy proposal, whether it be for an education tax credit or 
a balanced budget. Let's do it for the children, or the 
children are our future--whatever the issue. Well, diabetes is 
on the rise in our Nation's youth, and there's a little girl in 
Tampa, Florida and a 12-year-old from Crown Point, Indiana 
whose life now won't be quite the same because of it and they 
are not alone. Much of the joy in my youth was robbed by 
diabetes.
    According to studies, some 15 years will be robbed from my 
life because of it. Diabetes is a growing plague negatively 
affecting our Nation. Already the CDC calls diabetes the 
epidemic of our time. And the number of people with diabetes is 
expected to double between 1995 and 2025.
    In Ronald Reagan's inaugural address he said, ``Government 
is not the solution to our problems, Government is the 
problem.'' And when Government fails to do what is needed to 
find a cure for this disease, it is not part of the solution 
but part of the problem. Spending Federal tax dollars on 
medical research is a legitimate function of our Government. 
But Congress must provide careful oversight to secure that 
these monies are spent appropriately. The price of letting NIH 
bureaucrats allocate scarce research dollars to diseases that 
have a lesser impact on the health of our Nation and to ignore 
their own stated allocated criteria is part of the problem.
    The DRWG was established by Congress and appointed by the 
NIH. Their report calls diabetes spending trivial when compared 
to the impact of the disease on our society. I ask you, Mr. 
Chairman, to continue to increase funding and to express the 
committee's strong sentiment that NIH follow its own allocation 
criteria and fully fund the DRWG. If not for me and the vast 
number of people with diabetes across the Nation, please do it 
for Audrey Haber, the 15-year-old girl from Tampa, Florida and 
Cambria Hollingsworth, the 12-year-old girl from Crown Point, 
Indiana so that perhaps they may regain the hope and optimism 
of their youth that is now at risk of being lost.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Mudd.
    We were pleased to be joined by Mr. Young and our 
colleagues, Carrie Meek and Jim Davis for this all-Florida 
panel. We appreciate the testimony of each of our witnesses and 
we will do our best to respond to the issues that they raised.
    Thank you all very much.
                              ----------                              

                                          Wednesday, April 5, 2000.

                    ACCESS COMMUNITY HEALTH NETWORK


                                WITNESS

C. MICHAEL SAVAGE, CHIEF EXECUTIVE OFFICE, ACCESS COMMUNITY HEALTH 
    NETWORK, CHICAGO, ILLINOIS
    Mr. Porter. Our next witness is C. Michael Savage, chief 
executive officer, Access Community Health Network, Chicago, 
Illinois, testifying on behalf of the Network.
    Mr. Savage. Good morning.
    Thank you, Mr. Chairman, for providing Access Community 
Health Network, formerly known as Sinai Family Health Centers, 
with the opportunity to present testimony before your 
subcommittee again this year.
    I serve as the chief executive officer of Access, the 
largest network of community health centers in the midwest. Our 
mission is to provide high-quality, cost-effective, primary and 
preventative health care throughout Chicago. A community-based 
Board of Directors, the majority of whom are patients, 
neighborhood residents, and local community leaders, provides 
tireless leadership and ensures that we become an integral part 
of each community we serve.
    Born out of Mount Sinai Hospital in the 1980s, Access was 
awarded Federally Qualified Health Center status in 1991 and 
earlier this spring we change our name in recognition of our 
independent community-based health network status. In our 9-
year history, our network has experienced significant growth to 
its current size of 21 clinics. This year we expect to provide 
approximately 180,000 patient visits to roughly 60,000 
patients.
    Access has facilities in 17 of Chicago's poorest 
neighborhoods serving the indigent, unemployed, or working poor 
regardless of their ability to pay. In addition to providing 
treatment for illnesses and episodic conditions, we emphasize 
continuity of care through outreach, primary health care, 
preventive care, health education, and health management for 
families and individuals through their lives.
    As you know, community health centers fill a critical void 
by providing care to approximately 11 million persons not 
presently served by other providers, and for those who could 
not otherwise afford primary health care. Recently in Chicago, 
due to changes in welfare laws and an improved economy, 
Medicaid enrollment has decreased significantly. Unfortunately, 
many individuals who are now working are ineligible for 
Medicaid, even though they are working in low-wage jobs with 
little or no benefits. Access and other community health 
centers provide vital health services for those individuals who 
may be working, but cannot afford to buy private health 
insurance.
    With the rising enrollment of uninsured patients and fewer 
who are covered by Medicaid, Access, like other community 
health centers throughout the country, is receiving decreased 
Medicaid reimbursement. Even though we have reengineered our 
service delivery system, increased provider productivity, and 
instituted other changes such as facility consolidations to 
reduce encounter costs, Access and other health centers 
continue to be squeezed financially by these reduced levels of 
reimbursement and increased numbers of uninsured patients.
    In fact, last year we saw our free care increase by 
$1,350,000 while our community health center grant was 
increased by $96,000.
    Nonetheless, we are extremely pleased that Congress 
provided the Consolidated Health Center Program with an 
increase of $94,000,000 in fiscal year 2000. Access again 
strongly supports the National Association of Community Health 
Centers' request for an additional $150,000,000 for America's 
health centers in fiscal year 2001.
    Addressing the needs of infants and their mothers continues 
to be a priority for Access. We also strongly support the 
National Healthy Start Association's request for $105 million 
for the Healthy Start Program. This funding is critical in 
reducing infant mortality, low birth weight, and racial 
disparities in perinatal outcomes.
    Through a CDC Racial and Ethnic Approaches to Community 
Health--REACH--grant that we were recently awarded, we have 
organized a coalition that will promote early breast and 
cervical cancer detection to low-income African-American and 
Hispanic women living in Chicago. Along with Access, the 
coalition includes 12 leadership churches and religious 
organizations providing outreach to 370 African-American and 
Latino churches in the city and suburbs.
    While Access provides the primary staff support with 
expertise in community health and health education, the 
religious leaders are organizing events which will offer health 
education and links to clinical screening and early detection 
services, as well as planning media activities. We ask that the 
subcommittee direct the CDC to continue to work with community-
based organizations to resolve health disparities in minority 
communities through enhanced health education and promotion, as 
well as access to clinical screenings.
    Access has also developed innovative programming to address 
some of the specific health care needs faced by elderly living 
in Chicago's poorest communities. In addition to a general 
increase in health care problems as they grow older, seniors 
often find that poverty and crime act as barriers to seeking 
and receiving adequate health care, allowing illnesses to go 
undiagnosed and untreated until they have developed into severe 
health threats.
    Our response to the problems faced by the inner-city 
elderly is our Senior Outreach Program. This innovative program 
consists of a physician, two outreach workers, and a van driver 
who visit senior residents in their homes and other community 
settings and link them to ongoing health care. We appreciate 
the subcommittee's past support of this program and ask that 
the committee again encourage the Administration on Aging to 
continue to expand and support the Senior Outreach Program.
    In closing, Mr. Chairman, Access Community Health network 
is grateful for your strong support of community health centers 
in general and our efforts in particular over the years.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you very much, Mr. Savage.
                              ----------                              

                                          Wednesday, April 5, 2000.

                    NATIONAL FEDERATION OF THE BLIND


                                WITNESS

JAMES GASHEL, DIRECTOR OF GOVERNMENTAL AFFAIRS, NATIONAL FEDERATION OF 
    THE BLIND
    Mr. Porter. Ms. Northup.
    Ms. Northup. Thank you, Mr. Chairman.
    Mr. Chairman, next we have Mr. James Gashel with the 
National Federation of the Blind.
    Good morning, Mr. Gashel.
    Mr. Gashel is head of Government Affairs for the National 
Federation of the Blind. He has held that post since 1974 to 
present.
    As we know, the National Federation of the Blind, which is 
in all our districts and around this country, keeps us all 
aware of how Federal programs impact the blind. Mr. Gashel is 
so knowledgeable about how Social Security, Supplementary 
Social Security Income, vocational rehabilitation--how all 
those things affect the blind community, and what we do to 
those programs, and how to make sure that they work for our 
blind community.
    Mr. Chairman, I have said before, in my district, we have 
the highest percentage of residents who are blind and I am very 
aware of what the Federation of the Blind means to this 
community.
    Welcome, Mr. Gashel.
    Mr. Gashel. Thank you very much.
    Thank you, Mr. Chairman, and thank you, Congresswoman 
Northup.
    I am here to talk today about an appropriation for the 
Institute of Museum and Library Services because the lack of 
access to information is really one of the most serious 
consequences of being blind. I know this from personal 
experience.
    Particularly, I am going to talk today about access to 
newspapers, and I mean newspapers for blind people. I know that 
sounds a bit unusual, but the technology to make this possible 
really does work.
    We all complain about the media, but having the news 
reported and available is really essential in a free society--
absolutely essential in a free society--and blind people are 
part of this society. So access to newspapers should be 
provided when it's reasonably feasible to do it. It hasn't been 
feasible, but the technology to make it feasible is now at 
hand.
    Converting standard printed matter, which all of you read, 
into audio or braille format is labor-intensive, time-
consuming, and very costly. This is why things like newspapers 
which are used and discarded usually within the course of a day 
have really not been reproduced and circulated to blind people 
by conventional methods. Newspapers require something that is 
much more rapid and automatic for daily distribution.
    The technology is called Newsline. The power of this system 
is absolutely phenomenal. Newsline means presentation of the 
full text of many, many daily newspapers presented on the 
telephone. Rather than the print text displayed on a computer 
screen, the articles are spoken. So having a speaker phone is a 
good idea, but it is not required.
    Incidentally, I have asked that a card be distributed to 
all the members of the subcommittee so you can sit in your 
office and try Newsline. It works very well, and you will be 
calling the numbers in the Washington, D.C. area for this. I 
hope you try it.
    Newsline is totally electronic. My written statement 
includes a list of the participating newspapers. These papers, 
such as the Chicago Tribune--just to pick one--forward their 
electronic files to Newsline early each morning. Then by 
approximately 6:00 a.m., the current day's edition of the 
newspaper is available on the telephone throughout the country 
and can be reached just by dialing in.
    When we started Newsline as a pilot project 6 years ago, we 
started it with USA Today in the Washington, D.C. area. Now 
major areas of 32 States and Toronto, Canada are served with 
Newsline. A map which shows the areas State by State that are 
served is also a part of my written statement.
    Funds to establish Newsline sites--there are presently 72 
sites--have come from Federal, State, local, and private 
sources, particularly private sources. Annual operation of a 
local Newsline site costs about $20,000. This cost is borne by 
each local site and paid for from a variety of sources. The 
real need, however, is expansion. This will not happen, in my 
judgment, unless Federal support through the Institute of 
Museum and Library Services is provided to pay start-up costs, 
not to pay ongoing.
    Our goal is to bring Newsline into every State and into 
some portion of every single congressional district in fiscal 
year 2001. We propose this as a one-time establishment effort. 
The Institute of Museum and Library Services is the appropriate 
agency to administer the funds and oversee the expansion of 
Newsline. Our request is for $4,000,000 to be added to the 
Institute's Office of Library Services appropriations, 
specifying the sum for Newsline expansion. This office 
administers the Library Services and Technology Act, which has 
general authority for projects such as Newsline. The 
authorizing language emphasizes support for projects to reach 
unserved and underserved populations using technology. This 
definitely refers to Newsline.
    This is a truly wonderful service, Mr. Chairman. And 
speaking personally as a daily user of the service, I can tell 
you that it helps to bring blind people in the mainstream of 
community and national life. As you know, we are spending 
millions of dollars in our country to help to spread the 
benefits of our modern information technology. With the help of 
this committee and the congress, Mr. Chairman, blind people 
will not be excluded from this.
    On behalf of the National Federation of the Blind, I thank 
you very much.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Mr. Gashel, can I ask you a question or two?
    Mr. Gashel. Yes, sir, absolutely.
    Mr. Porter. When you call into the Newsline number--and we 
have the cards. Thank you for that. We will try that.
    When you read a newspaper, you often read the first 
paragraph of an article and want to go on to the next one. Is 
there an electronic way that you can move through the process 
of reading the newspaper and skip over the things you don't 
want to read or don't want to read thoroughly?
    Mr. Gashel. Absolutely. That's the beauty of Newsline. Just 
hit the three key and you go right to the next article. Hit the 
three key again and you will go to the next article. Hit it 
again and you go to the next article. You can be reading the 
sports page one second, and you can be into the national news 
the next second.
    Mr. Porter. You may have everyone wanting to read the 
morning paper from their bed in the morning.
    Mr. Gashel. Maybe you can help us figure out a way to bring 
a lot of users into Newsline. [Laughter.]
    Mr. Porter. Is there a cost to the user?
    Mr. Gashel. There is no cost to the user. We raised private 
funds to help provide this service on a continuing basis. And 
this is viewed as a free library service.
    Blind people have an information deficit. So we are talking 
about a 70 percent unemployment rate among blind people. We are 
trying to provide services which help to bring blind people 
into the mainstream. So at this point there is no charge to the 
individual.
    Mr. Porter. And does the Institute know about this? And are 
they aboard to support this?
    Mr. Gashel. I could not testify as to whether or not they 
are aboard to support it, but I think they clearly will be.
    Mr. Porter. They were here just yesterday. If I had known, 
I would have asked them.
    Mr. Gashel. In fact, I am talking about details on this 
with them this afternoon.
    Let me just say that a number of the Newsline sites across 
the country, especially in California and Illinois--Illinois is 
really the model. They have about 13 sites all over the State 
and they are funded through the public library systems, which 
receives money through the Institute.
    Mr. Porter. That is truly wonderful.
    Ms. Northup.
    Ms. Northup. Thank you.
    I just also want to add my voice to this. I actually had a 
group of constituents that were up here earlier in the year 
that are well aware of it, that use it, and are really excited 
about what this means to the blind community.
    Mr. Porter. Thank you, Mr. Gashel.
    Mr. Gashel. Thank you very much.
    Ms. Northup.
                                          Wednesday, April 5, 2000.

                        UNIVERSITY OF LOUISVILLE


                                 WITNESS

ROBERT M. GREENE, DIRECTOR, UNIVERSITY OF LOUISVILLE BIRTH DEFECTS 
    CENTER, PROFESSOR AND CHAIR, DEPARTMENT OF MOLECULAR, CELLULAR, AND 
    CRANIOFACIAL BIOLOGY SCHOOL OF DENTISTRY, UNIVERSITY OF LOUISVILLE, 
    LOUISVILLE, KENTUCKY
    Ms. Northup. Thank you.
    I think next on the agenda is Dr. Robert Greene, who is the 
director of the University of Louisville Birth Defects Center 
and the Department Chair, Department of Molecular, Cellular, 
and Craniofacial Biology.
    Mr. Greene got his B.A. degree from Syracuse University, he 
got his Ph.D. from the University of Virginia School of 
Medicine. He has held previous positions at Thomas Jefferson 
University, the University of Virginia, and has been a staff 
fellow and post-doctoral fellow at the NIH in Bethesda. His 
research, Mr. Chairman, is well known and he has been supported 
by both the National Institutes of Health and the Environmental 
Protection Agency. He currently sits on several editorial 
boards of magazines relating to orthodontics and craniofacial 
biology, and he serves on research study sections and is a 
current member of many professional organizations dealing with 
genetics and developmental biology.
    He is very well respected in Louisville. We are thrilled to 
have him at the university and we are blessed that he is here 
today.
    Mr. Greene. Thank you.
    Thank you, Mr. Chairman.
    I am, as you have just heard, the director of the Birth 
Defects Center at the University of Louisville. I am pleased to 
have this opportunity to address you this morning, share with 
you information about what I see as a critical health care need 
in this country, and to solicit your help in providing 
increased support for research into the causes and treatment of 
children born with birth defects.
    A pediatrician who practiced in the 1950s would really not 
recognize children's health care landscape today. Babies born 3 
months too soon and weighing less than a pound and a half 
survive. Diseases that often killed or crippled children like 
polio and bacterial meningitis, are so rare that many 
physicians have never treated them. Fetuses are now operated on 
for life-threatening disorders. Expectant mothers are treated 
with vitamins to prevent certain birth defects.
    Whenever I view a developing embryo, I am amazed at 
nature's handiwork, that despite all the biological 
complexities involved, most babies that are born are normal. 
Nevertheless, 250,000 babies born in the United States each 
year, 7 percent of all newborns, have some mental or physical 
birth defect that is evident either at birth or detected later 
on.
    Birth defects are the single leading cause of infant 
mortality, directly responsible for one out of every five 
infant deaths. In this country, which can boast of having 
perhaps the best health care system in the world, there is a 
baby born with a birth defect every 3 minutes. As hard as that 
is to believe, it is true. Despite ongoing research, the causes 
of over 70 percent of these birth defects is unknown.
    The magnitude of this health care issue is indeed 
staggering. On an average day in the United States, about 
11,000 babies are born. Of these, over 400 are born with a 
malformation. Nearly 900 are born with low birth weight. In the 
State of Kentucky, nearly one-fourth of all infant deaths are 
due to congenital malformations. This is one of the highest 
rates in the Nation.
    Using one type of birth defect as an example, in this 
country, a baby is born with a facial cleft every hour of every 
day of the year. This results in 8,000 to 9,000 babies born 
every year with a cleft lip or a cleft palate.
    In addition to causing significant physical and emotional 
suffering to affected children and their families, the economic 
costs associated with treatment and care of children with birth 
defects is staggering. The March of Dimes estimates that the 
lifetime costs associated with congenital anomalies for infants 
born with birth defects this year alone will total $10 billion.
    Thus, a critical challenge for biomedical research is to 
improve the diagnosis and treatment of birth defects as well as 
effect their prevention. We seek to provide all children with 
the opportunity to have a healthy and productive life, 
unhampered by malformation or disability.
    In pursuit of this mission, the University of Louisville 
Birth Defects Center seeks, through basic research, to enable 
prenatal molecular diagnosis of maternal genetic susceptibility 
to potential fetal hazards such as exposure to tobacco, 
alcohol, and certain medications as well as post-conception 
diagnosis of existing embryonic defects. Early diagnosis of 
such genetic susceptibilities alone should reduce the number of 
infants born with fetal alcohol syndrome or with tobacco-
induced growth retardation.
    In April of 1998, Congress enacted legislation, the Birth 
Defects Prevention Act, and in 1999 the CDC was given 
appropriations to establish Centers for Birth Defects Research 
and Prevention. These centers have been established in seven 
States. In addition, 18 State health departments currently have 
received funding to establish or improve their birth defects 
surveillance systems.
    While data collected by these centers and registries will 
provide valuable information, research conducted at birth 
defects research centers, such as the one at the University of 
Louisville, will not only provide detailed understanding of the 
molecular genetic causes of birth defects, but will provide the 
scientific basis to allow us to intervene and protect families 
and children from such tragedies. The opportunity really exists 
to make a difference.
    We therefore respectfully request that this committee 
consider additional funding to increase the number of birth 
defects research centers to allow programs like the one at the 
University of Louisville to expand the work that is currently 
underway in this critical area.
    In closing, I would like to thank the members of the 
committee for this opportunity to convey to you some of my 
excitement, some of my gratification in working in an area 
where we strive to give every baby a health start in life. As 
you can imagine, the potential positive impact on the health of 
babies and children in Kentucky--indeed nationwide--is 
potentially enormous.
    Thank you for your attention. I would be happy to answer 
any questions you may have.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Greene, you might be interested that Anna 
Eleanor Roosevelt, the chairman of the March of Dimes, was here 
yesterday and gave basically the same message: more money for 
the centers.
    Mr. Greene. Well, we are on the same page. I think if you 
met with Representative Northup this morning and indicated that 
one walk-through of a neonatal intensive care unit is all that 
it takes to make this very real. These are helpless little 
infants that really need our help. I am just delighted to be in 
an area where we really--hopefully--can make a big difference.
    Mr. Porter. Thank you for coming to testify.
    Ms. Northup. Mr. Chairman?
    Mr. Porter. Ms. Northup.
    Ms. Northup. Mr. Chairman, if I could just add to these 
comments, I remember years ago reading where a lot of head 
injury research took place in China because of the bike riders 
and people that were in cars. There were a lot of injuries. I 
am sorry to tell you that in Kentucky the use of tobacco is 
overwhelming. We have the highest State use of any State in the 
country, and we are trying to change that.
    But mainly because of the growing of tobacco and the 
culture that celebrates that and the prosperity that it brought 
to our State, smoking was a patriotic thing to do in Kentucky. 
So it is not surprising that many women smoke cigarettes while 
they are pregnant. Therefore, the prenatal damage--the fact 
that there are birth defects at a much higher rate in 
Kentucky--that is really not surprising.
    But what we have is a center that is established to survey 
that damage and look at the causes to try to intervene through 
education in a much more effective way than we have been able 
to do in the past. So not only is it important nationally, but 
in what other State would it be more important that we do that 
than where there is a much higher rate of disability and the 
ability to impact that and intervene?
    Mr. Porter. Thank you, Ms. Northup.
    Thank you, Dr. Greene.
    Mr. Greene. Thank you.
    Mr. Porter. Ms. Northup.
                              ----------                              

                                          Wednesday, April 5, 2000.

              AMERICAN PRINTING HOUSE FOR THE BLIND, INC.


                               WITNESSES

TUCK TINSLEY, III, PRESIDENT, AMERICAN PRINTING HOUSE FOR THE BLIND
ALICE POST, MANAGER, INSTRUCTIONAL RESOURCES MATERIALS CENTER, 
    SPRINGFIELD, ILLINOIS, AND EX OFFICIO TRUSTEE, AMERICAN PRINTING 
    HOUSE FOR THE BLIND
    Ms. Northup. Thank you.
    Just briefly I would like to welcome Tuck Tinsley from the 
American Printing House for the Blind. He is a good friend and 
I have introduced him at great length before. But he is here 
actually to introduce Alice Post, who is an ex officio member 
of the American Printing House.
    Welcome, Tuck. We are glad to have you.
    Mr. Tinsley. Thank you, Representative Northup.
    It's a real pleasure to appear before you today. And I do 
want to say how blessed we are in Kentucky to have 
Representative Northup representing us and all the work she has 
done for the visually impaired.
    My role here is very briefly two-fold. First is to thank 
the chairman for his wonderful support during his tenure as 
chairman. And I realize that you are retiring at the end of 
this session and on behalf of all the visually impaired 
children and those providing services, thank you for all you 
have done during your tenure, Mr. Chairman. We wish you the 
best in all endeavors after you leave Congress.
    Secondly, I would like to introduce Alice Post, who is the 
manager of the Instructional Resource Materials Center. Alice 
and her sister have, for 33 years, run the provisional services 
to the visually impaired in Illinois. It is a real pleasure for 
me to introduce Alice at this time.
    Ms. Post. Thank you, President Tinsley.
    Good morning, Chairman John Porter, Representative Ann 
Northup, distinguished members of this committee, and others. I 
have traveled here to Washington, D.C. today from Springfield, 
Illinois for the express purpose of commending you, 
Representative John Porter, and the distinguished members of 
this committee for understanding and responding to the special 
education needs of students who are legally blind. As chairman 
of this committee, Representative Porter, you have been willing 
to take the time to study the need and to realize the major 
role that the American Printing House for the Blind--known as 
APH--located in Louisville, Kentucky plays in the education of 
students who are legally blind nationwide.
    The Illinois Instructional Materials Center operates out of 
the Springfield Public School District 186 on a grant that is 
awarded by the State Board of Education from a special line 
item in the State Legislature. Critical funding is also 
provided through the Federal Quota Allotment from the American 
Printing House for the Blind. Without this funding to purchase 
textbooks and large type textbooks, tangible aids, equipment, 
and innovative teaching devices from APH, we would be unable to 
meet the educational needs of our students.
    The new teaching strategies implemented in the last few 
years, such as whole language programs and expanded mathematics 
and science programs, have greatly increased the amount of 
specially adapted materials needed for each child. In years 
past, a student would need the text and perhaps a workbook and 
an activity book. Now there may be as many as 20 books for one 
student in one class.
    During your tenure, Representative Porter, as chairman of 
this subcommittee, the appropriation has increased from 
$6,680,000 in fiscal year 1995 to $10,126,000 in fiscal year 
2000. This increase has expanded educational opportunities and 
made a tremendous difference in the lives of thousands of 
students who are legally blind across this country.
    I received an e-mail from Don Putonski, the ex officio 
trustee for APH from New Jersey, when he learned I was to 
appear before this auspicious subcommittee. He wrote, ``Blind 
and visually impaired students would have very little if it 
weren't for the American Printing House all these years.''
    Increased spending for APH has directly resulted in: 
production of a significantly higher number of new products 
each year, from only 10 in 1996 to 41 in 1999; improvements in 
the timely delivery of educational materials and establishment 
of the Accessible Textbook Initiative and Collaboration, which 
is intended to ensure that blind and visually impaired students 
receive textbooks in an accessible media at the time they are 
needed; increased per capita funding for educational materials 
from a low of $105.02 in fiscal year 1997 to $141.06 in fiscal 
year 2000; and spurred the expansion of the LOUIS on-line 
resource catalog and order system, a speech-accessible database 
of materials for people who are blind or visually impaired 
which now contains location information on over 145,000 books 
available through 200 agencies across the country. We use this 
system daily at the Illinois Instructional Materials Center, 
sometimes for hours sourcing materials.
    Let me share with you one 9-year-old boy's reaction to the 
recently produced Basic Tactile Anatomy Atlas. This totally 
blind boy had been having a lot of problems with burping, so 
when he go his hands on that atlas, he exclaimed, ``Wow, is 
this what the stomach really looks like?'' I didn't know it was 
shaped like that. He was absolutely thrilled with the esophagus 
and he followed the alimentary canal all the way to the end and 
I am not going to tell you what he said when he got there. 
[Laughter.]
    Ms. Post. Yes, Representative John Porter from the 10th 
congressional district in northern suburban Illinois, you have 
caused many parents and teachers to smile and have hope when a 
legally blind child has been introduced to a new educational 
tool or device developed with increased funding for the 
American Printing House for the Blind. For example, children 
with low vision are thrilled when they discover how to 
interpret what they see with such devices as the new mini-light 
box. Truly, Representative Porter and members of this committee 
are responsible for shedding light in darkness.
    On behalf of all students who are legally blind and their 
parents, I thank you, Representative John Porter, Ms. Anne 
Northup, and distinguished members of this committee. I thank 
you and express personal pride that we in Illinois can claim 
you, John Porter, as our very own.
    Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Ms. Post and Dr. Tinsley, I appreciate all 
those very kind comments, but as a matter of fact, without the 
advocacy of Anne Northup, none of this would have happened. So 
you can thank Ms. Northup for her leadership and forceful 
advocacy on behalf of the Printing House for the Blind.
    Ms. Post. Thank you very much, Ms. Anne Northup. We truly 
appreciate it.
    Mr. Porter. Thank you both very much.
                              ----------                              

                                          Wednesday, April 5, 2000.

         FOUNDATION FOR ICHTHYOSIS AND RELATED SKIN TYPES, INC.


                               WITNESSES

ELIZABETH GRAY, ON BEHALF OF THE FOUNDATION FOR ICHTHYOSIS AND RELATED 
    SKIN TYPES, INC., LANSDALE, PENNSYLVANIA
MATTHEW GRAY, ON BEHALF OF THE FOUNDATION FOR ICHTHYOSIS AND RELATED 
    SKIN TYPES, INC., LANSDALE, PENNSYLVANIA
    Mr. Porter. Elizabeth Gray and Matthew Gray, her son, 
testifying on behalf of the Foundation for Ichthyosis and 
Related Skin Types, Inc.
    Ms. Gray. Good morning.
    Mr. Chairman and members of the subcommittee, I thank you 
very much for this opportunity to testify relating to skin 
disease research. I am a member of the Board of Directors for 
the Foundation for Ichthyosis and Related Skin Types, but I am 
here today primarily as Matt's mom.
    Matt is 9 years old and is the author of Matt's Message for 
Kids, which is an Internet-based story that talks about what it 
is like to be a child with ichthyosis. And he will tell you a 
little bit himself in a moment what it is like.
    I would like to begin by thanking you for your strong 
support over the years. Because of that support, we have a 
national registry for ichthyosis and tremendous progress has 
been made in the area of human genetics and gene therapy.
    Ichthyosis is a family of genetic skin diseases 
characterized by dry, thickened, scaling skin. There is no cure 
and there are no effective treatments. In its more severe 
forms, ichthyosis is a chronic, disabling disease. People with 
ichthyosis have difficulty in employability, social acceptance, 
and psychological well-being. Personal care of the skin can 
take several hours a day, making it difficult for people with 
ichthyosis to participate in normal activities.
    Ichthyosis often affects much more than the skin. For 
example, Matt also suffers from low muscle tone, which is very 
common. It has made it hard for him to learn to walk, to learn 
to write, and even to learn to read because his eye muscles are 
also weak. Getting Matt to the level of functioning you see 
today has required a considerable investment of time and effort 
for our entire family.
    Overheating is another common problem. For Matt, this means 
that he cannot play sports. He cannot play outside at all on a 
very hot day. If he is playing with his friends or in gym 
class, he has to take a break, maybe splash some water on his 
face, and cool down.
    Nutritional and growth problems are also very common. 
Although Matt's skin is thicker than normal, it is less 
effective in preventing water and calorie loss, which makes it 
harder for him to grow. Just this past fall, he finally reached 
the very bottom rung of the growth chart for boys his age. We 
were very excited. But he still requires a special chair so he 
can reach his schoolwork in the classroom.
    On the other hand, Matt is very lucky compared to a lot of 
people with ichthyosis. There are people who, because of 
ichthyosis, are mentally retarded, or if you touch their skin 
it blisters. Sometimes they are hospitalized frequently with 
infections because the skin is not protecting foreign bodies 
from entering the body. With Matt, we have not had to deal with 
these issues.
    We have also been fortunate in that we live in a small 
community and people there are used to Matt and they do not 
point and stare or talk to us about using sunscreen or any of 
those things. Matt has lots of friends. He is also very 
confident and outgoing, and you can hear that for yourself. He 
is going to talk to you for a couple of minutes.
    Mr. Gray. Hi. I was born with dry skin. I use lots of 
lotions and eye drops and ear drops. It hurts when I comb my 
hair. I cannot play most sports because I will get too hot. 
Sometimes I get up extra early to do my lotions before school 
and after school. I also do my lotions at school and before I 
go to bed.
    On weekends, I take long soaks and scrub my body with a 
pumice stone. Once in second grade I skipped my lotion for a 
week and my hands started to get cracked in between my fingers.
    Sometimes people stare or ask what happened or say I got a 
lot of sun. It's hard to have dry skin and I wish there was a 
cure.
    Ms. Gray. As you can tell, Matt's a great kid with a 
tremendous amount of potential, but his dad and I worry a lot 
about his future, whether he will be able to afford the lotions 
he will need to keep his skin healthy, whether he will be able 
to find a young lady who will be able to see past that skin to 
the great kid he is inside, whether he will be able to find and 
keep a job, maybe even whether he will survive middle school 
and high school with the self esteem he has now intact.
    In Herbert Krause's novel, The Thresher, a doctor diagnoses 
a young boy with ichthyosis and tells his mother, ``Wish I 
could suggest a remedy.'' That novel was published in 1946. 
Today, parents still hear almost exactly those same words from 
their doctors when their children are diagnosed with 
ichthyosis. There is no remedy.
    NIH-funded researchers have made many innovative 
discoveries and are on the verge of wonderful new information, 
particularly with regard to genetic diseases like ichthyosis. 
Today, Matt and I are asking you to take advantage of this 
momentum by increasing funding for clinical research so that 
these discoveries can be translated into methods of prevention, 
treatment, and hopefully even a cure for Matt and others like 
him.
    Thank you very much for your time.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Ms. Gray, do we know that this is a disease of 
a single gene? Or do we know that it involves multiple genes?
    Ms. Gray. There are actually over 20 varieties of 
ichthyosis, some as common as affecting one in every 250 people 
and some one in a million. So there are a lot of different 
variations.
    The genes for some of the types I know have been identified 
and the enzyme deficiencies associated with that. I don't know 
if that exactly answers your question.
    Mr. Porter. Ms. Gray and Matt, we really appreciate your 
testimony. You have educated us. We realize how severe the 
disease can be. One of our members, Mr. Bonilla of Texas, has a 
chief staffer here on the subcommittee who suffers from this 
disease. We realize that there are possibilities today that did 
not exist 10 or 15 years ago to make some real progress. 
Obviously, we want to do our best to provide the funding to do 
just that.
    Matt, thank you for your testimony. You were great and we 
learned a lot. We will do our best to provide that funding and 
provide, we hope, a breakthrough for people like you.
    Thanks for being with us.
                              ----------                              

                                          Wednesday, April 5, 2000.

                 INFECTIOUS DISEASES SOCIETY OF AMERICA


                                WITNESS

DR. JOHN G. BARTLETT, M.D., PROFESSOR OF MEDICINE, CHIEF OF THE 
    DIVISION OF INFECTIOUS DISEASES, JOHNS HOPKINS UNIVERSITY SCHOOL OF 
    MEDICINE
    Mr. Porter. Dr. John G. Bartlett, Professor of Medicine and 
Chief of the Division of Infectious Diseases at Johns Hopkins 
University School of Medicine, testifying on behalf of the 
Infectious Diseases Society of America.
    Dr. Bartlett. Congressman Porter, the Infectious Disease 
Society of America represents over 5,000 physicians and 
scientists who do patient care and research in the field of 
infectious diseases. We appreciate the opportunity to testify 
in support of funding for the NIH, the CDC, and the Ryan White 
Care Act.
    But I should start by saying that our society greatly 
appreciates the contributions that you and your subcommittee 
have done for infectious disease and for health in general over 
the years.
    Infectious diseases are the leading cause of death in the 
world, and the third leading cause of death in the United 
States. The prior investment for dealing with infectious 
disease has paid really high dividends.
    The major causes of death at the turn of the century were 
tuberculosis, typhoid fever, scarlet fever, and rheumatic 
fever, and these diseases are largely gone. Smallpox is gone. 
Polio is gone. Diphtheria, whooping cough, measles, and mumps 
are nearly gone. And there are three reasons for this progress: 
public health, vaccines, and antibiotics. So why are we here?
    Well, we are here because there are a bunch of new 
challenges that are as great as those in the past. The West 
Nile Virus is a good example. This was an epidemic that was 
completely unanticipated, that required substantial scientific 
expertise to detect it, and it also required incredible skill 
to deal with the need of the public to know--and at the same 
time avoid unnecessary hysteria.
    This is a new virus in this country, and it caused a brain 
infection in 62 people, and 7 deaths, and we know that it 
survived the winter and that it will probably cause another 
epidemic on a wider geographic area this year.
    Hepatitis C was originally discovered in the 1980s. It is 
now thought to infect about 4,000,000 Americans, and it is also 
thought to cause more cirrhosis than drinking at the present 
time.
    Influenza--it was an average year for influenza. There were 
about 20,000 attributed to influenza, but this average epidemic 
overwhelmed the health care system. In my city, for example, in 
Baltimore, 19 out of 22 hospitals were filled and closed as a 
result of the epidemic. This is because hospitals no longer 
have elasticity; this is the impact of managed care on the 
health care system.
    All experts agree that there's going to be another big 
epidemic of influenza, possibly comparable to the Spanish Flu 
of 1918. And the question is, how will the medical care system 
respond if it has a big epidemic, if it can barely manage an 
average epidemic?
    Bioterrorism--we don't know when and we don't know where 
and we don't know with what, but we do know that terrorists in 
at least 10 rogue nations have microbial arsenals.
    Other infectious disease problems that we face include 
antibiotic resistance, food-borne disease, and, of course, HIV 
and AIDS. And we also know that every country's infectious 
disease problem could become ours because of international 
travel, food importation, or, in the case of West Nile Virus, 
the importation of animals, such as birds.
    So what is the answer to these problems? We think the 
answer is good science and good public health. For the science 
part of it, the National Institute on Allergies and Infectious 
Diseases has always been viewed as the world's finest 
organization with respect to scientific discovery in the field 
of infectious disease. This institute is allocated funds and 
priorities according to the menu that I have described.
    We also support the NIH efforts through the Fogarty 
International Center for international training in the field of 
infectious disease.
    The CDC serves a quite different function. This is the 
public health infrastructure for the United States that is 
responsible for the detection, response, and control of 
epidemics, things I have described like West Nile Virus, 
influenza, food-borne outbreaks, bioterrorism, antibiotic 
resistance, and so forth.
    The specific need for the CDC at the moment is support for 
its 10-year program to reconstruct its overcrowded and outdated 
laboratories.
    Finally, our society strongly supports the rapid 
reauthorization of the Ryan White Care Act. AIDS is now a 
disease of the have-nots, the racial minorities and the poor 
who account for the great majority of cases, and especially new 
cases.
    Recent studies by the Rand Corporation indicate that about 
80 percent of poor people with HIV have access to the current 
recommendations of the U.S. Public Health Service for HIV care. 
This is clearly the result of the Ryan White Care Act; it is 
one of the few places in American medicine where we have a 
level playing field.
    Mr. Chairman, infectious diseases continue to play an 
important role in American medicine. The remarkable feature of 
this discipline is its unpredictability--the unpredictability 
of the microbes and the diseases that they cause. No one 
predicted AIDS; no one predicted the West Nile Virus. We don't 
know when there's going to be a big pandemic of influenza, and 
we don't know when any of these terrorists or rogue nations are 
going to use any of their immense supply of anthrax or other 
bioterrorism microbes. But we do know that we need good science 
and we need a good public health infrastructure to prepare us 
for what happens in the future.
    The Infectious Disease Society of America greatly 
appreciates the opportunity to testify.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Bartlett, thank you for your testimony.
    How do we know that there is going to be a major outbreak 
of influenza sometime in the near future? Didn't you say that?
    Dr. Bartlett. There have been three in the past century: 
Spanish Flu, 1918-1919; then Asian Flu in 1956-1957; and then 
Hong Kong Flu in 1968-1969.
    We know that by the way the virus mutates, that when there 
is a completely new genetic strain, that that has the capacity 
to cause a huge pandemic, because nobody has any immunity. Now, 
we almost had this in 1957, when we had the new strain from 
Hong Kong, but that's when they killed all the chickens and got 
rid of that epidemic. It stopped the day they declared their 
public policy to kill the chickens.
    Mr. Porter. So existing vaccines wouldn't help against a 
new strain?
    Dr. Bartlett. No.
    Mr. Porter. They would be mutations of existing strains?
    Dr. Bartlett. It takes 6 months. The problem with a new 
vaccine, it takes about 6 months to prepare. So in that case, 
the epidemic is there, and it would take another 6 months 
before there would be an effective vaccine.
    Mr. Porter. Well, Dr. Bartlett, thank you very much for 
your testimony.
    Ross Cooley, Chairman-Elect of the Board of Directors, 
Juvenile Diabetes Foundation, accompanied by Tracy Cooley, his 
daughter, testifying in behalf of the Foundation.
                              ----------                              

                                          Wednesday, April 5, 2000.

               JUVENILE DIABETES FOUNDATION INTERNATIONAL


                               WITNESSES

ROSS COOLEY, CHAIRMAN-ELECT OF THE BOARD OF DIRECTORS, JUVENILE 
    DIABETES FOUNDATION
TRACY COOLEY (DAUGHTER)
    Mr. Cooley. Chairman Porter, good morning. We are very 
grateful to have this opportunity to address you today, to 
testify on behalf of my family and the Juvenile Diabetes 
Foundation, as well as the millions of other families in this 
country who live with the uncertainties and fears associated 
with diabetes.
    Before I proceed, I would like to take this opportunity to 
sincerely thank you, Chairman Porter, for everything that you 
have done and your extraordinary leadership on behalf of 
medical research. We certainly are sorry to see you retire; you 
are going to be sorely missed, and we wish you the very best in 
your future endeavors.
    As you mentioned, my name is Ross Cooley and I'm currently 
Chairman and CEO of pcOrder.com, one of those new, new economy 
Internet companies, based in Austin, Texas. Way back in the 
1960s I got on early with the mainframe high-growth era by 
joining IBM, and then in the early 1980s I participated in the 
early growth and the explosion of the personal computer era by 
joining the Compaq Computer Corporation management team.
    Some say I have had great timing. I believe that I collect 
the facts and then act upon them. And collecting the facts is 
just what my wife, Patty, and I did when our daughter Tracy 
developed juvenile diabetes. Back in 1978, when Tracy was 
diagnosed, we were totally unaware of what lay ahead. What we 
discovered in our fact-finding mission really frightened.
    Tracy faced the possibility of a horrible list of 
complications due to diabetes, like blindness, a greater risk 
of heart attack and stroke, kidney failure, and nerve damage. 
On a daily level, she and we would have to deal with the 
intricate management challenges of maintaining desired blood 
glucose levels, all of which is in direct opposition to the 
spontaneity of childhood. And we learned that diabetes kills 
one American every 3 minutes. Repeating that, diabetes kills 
one American every 3 minutes.
    Needless to say, we were stunned by what we discovered. We 
were at a loss as to how to fight back, but we were determined 
to help our daughter, so we pushed on. In doing so, we 
discovered that our best hope for a cure lay in the research 
funded by the Juvenile Diabetes Foundation in the private 
sector, and the National Institutes of Health in the public 
sector. We learned that when we at JDF cannot make it to the 
finish line alone, that we need to move forward with the 
Federal Government as partners in the effort. In fact, diabetes 
research partnerships that have been established between NIH 
and JDF have brought us to a pivotal juncture in diabetes 
research. That which is being done in genetic research, 
transplantation and immunology and research into potential 
vaccines is stunning in its possibilities. In fact, Congress' 
own Diabetes Research Working Group issued a report last year 
outlining the extraordinary opportunities that exist in 
diabetes research. We just need the resources.
    We were still helpless, but no longer hopeless. This July I 
will assume the chairmanship of JDF's International Board of 
Directors, and I pledge to you that JDF will hold up its end of 
the bargain. Our plan calls for a direct investment of 
$600,000,000 in diabetes research over the next 5 years, and we 
are just a bunch of ``moms and pops.''
    To get where we need to go--a cure--we now need a full 
court press on the part of the Federal Government. Accordingly, 
JDF strongly supports efforts to double the NIH budget over 5 
years. The prize is obvious.
    Ms. Cooley. Hello, my name is Tracy Cooley. I am a fourth 
grade school teacher in a suburb of Houston, Texas. The last 
time I was in Washington, D.C. was with my family on a 
sightseeing trip. It was 22 years ago; I was 10 years old and, 
coincidentally, a 4th grade student myself. I find it ironic 
that I appear before you today speaking about the diagnosis 
that changed my life upon returning home from our Nation's 
capital. Not only did the diagnosis of juvenile diabetes change 
my life, it changed the life of my entire family.
    Living with diabetes is a daily routine, like a difficult 
full-time job. It consists of many injections, blood tests, and 
at times, insulin reactions. The constant fear that diabetes 
will strike one of my family members horrifies me even more 
than my own diabetes.
    The challenges have been many. On the eve of my birthday 
last November, and after a few days of running a high fever, my 
blood glucose had gotten extremely high. Few people know that 
when somebody with juvenile diabetes gets sick, blood sugar 
control is very difficult, and a normal illness easily becomes 
life-threatening. At 6:30 p.m. I became unconscious. Living 
alone, no one was there to help me. At 8:15 the next morning, 
after being missed at work, my boss came by to check on me, 
found me lying on the floor unresponsive, and called an 
ambulance. I remained in a coma for 5 days in the intensive 
care unit. My family sat at my bedside, not knowing whether I 
would survive or not.
    Once again, diabetes reminded me of the uncertainty of my 
future. The complications of this disease are staggering. I 
want to do too much with my life to have dialysis because of 
kidney failure. I want to see too much to go blind. I want to 
go to too many places to have limbs amputated. But as an adult 
who has lived with diabetes since childhood, my ultimate wish 
is that no other child be burdened with this disease.
    I am here to remind you of the promises that you may have 
made to other children with diabetes and to ask you to do what 
you can to protect them from that which I have already 
experienced at the age of 32. I am here to ask you to provide 
the resources requested in the Diabetes Research Working Group 
Project.
    Mr. Cooley. Through the years, the Cooley family has given 
and raised millions of dollars for research. Although still 
dedicated to the cause, last summer I had become weary of the 
personal time invested and had thoughts of letting others carry 
the torch. And then we almost lost Tracy.
    You heard her talk about her experience last November, but 
let me share how this was from the family's point of view. My 
wife and I were out of town and tried repeatedly to reach her 
by phone. You see, when somebody in the family has juvenile 
diabetes, the parents are the safety net, and it is a lifetime 
job. We were worried sick, and with reason. We raced home from 
our vacation to find Tracy in such critical shape that we did 
not know if she was going to live. She had been put on life 
support. We spent day after day holding her hand, talking to 
her, and praying to God that if he helped the doctors get her 
through this one more time, we would rededicate ourselves to 
eradicating this disease.
    That is why I am here today. You can make a difference to 
the millions who suffer from juvenile diabetes by changing the 
timetable in the search for a cure. You already know that 
diabetes costs this Nation upward of $100,000,000,000 a year, 
and it should be obvious by now that insulin is not a cure. We 
ask that you remember the Cooley family's story during your 
deliberations. We ask that you remember Tracy's story when you 
see the young children in your districts who have all of this 
before them.
    I know the facts here and view this research not only as a 
high growth area, but one of great potential returns--returns 
that will make the ``dot-coms'' of this world pale in 
comparison. It is in your hands to expedite the solution, to 
carry the torch in the best spirit of serving the public 
interest, and to provide Tracy's generation and those that 
follow, futures free of diabetes.
    Thank you, Chairman Porter.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Mr. Cooley and Ms. Cooley, we certainly agree 
that this is a very high priority. My wife suffers from 
diabetes also. We are doing our best to increase funding at as 
rapid a rate as can be expected, and we will do our best to 
fund NIDDK at the highest level that we possibly can. All that 
depends upon our allocation.
    I have said to many who have testified before, there is not 
a straight line in legislating. It goes from point to point. 
You have to keep your eye on the end point, and we will do our 
best to end up where you want us to.
    Thank you for testifying.
    The subcommittee will stand in recess for this vote, and 
then Mr. Wicker will take the Chair.
    [Recess.]
    Mr. Wicker [assuming chair]. The hearing will come to 
order.
    At this point, I am pleased to recognize Sheri Stanger. She 
is Regional Director and Board Member for the National Family 
Association for the Deaf Blind, and we are happy to have you 
here today, Ms. Stanger.
                              ----------                              

                                          Wednesday, April 5, 2000.

     HELLEN KELLER NATIONAL CENTER FOR DEAF-BLIND YOUTHS AND ADULTS


                               WITNESSES

SHERI STANGER, REGIONAL DIRECTOR AND BOARD MEMBER, NATIONAL FAMILY 
    ASSOCIATION FOR THE DEAF-BLIND AND MOTHER OF A DEAF-BLIND CHILD
JOE McNULTY, DIRECTOR, HELEN KELLER NATIONAL CENTER FOR DEAF-BLIND 
    YOUTHS AND ADULTS
    Ms. Stanger. Thank you. Good morning. My name is Sheri 
Stanger, and I am a Regional Director for the National Family 
Association for the Deaf-Blind. I am also the parent of a child 
who is deaf-blind. I am honored to be speaking here today on 
behalf of the Helen Keller National Center.
    I am also here for very personal reasons, as well. Back 
when I was in college, I had a friend tell me about a fun 
course he was taking, sign language, and for some reason it 
appealed to me, and I wound up taking three semesters of it. I 
was becoming rather fluent in it and using it quite a bit. I 
went to school up in Rochester, New York, and there happens to 
be a large deaf community there.
    It was fun to be able to communicate differently with 
friends, and lots of times other people didn't know what I was 
talking about. I could use sign language to speak to somebody 
else and no one could understand me. And I learned a lot about 
deaf culture, but the truth is I didn't really know as much as 
I thought I did.
    Communication is more than just talking and signing. It is 
expressing thoughts and feelings, as well. I went on to get a 
degree in psychology at the University of Rochester, and I 
wound up getting a master's in psychological counselling at 
Columbia University. I wound up working in the field of 
rehabilitation, and finally wound up working as a guidance 
counselor at a school for children who were blind and multiply-
disabled.
    It wasn't a traditional guidance role. I did a lot of 
individual counselling, group counselling, play therapy. I was 
in charge of the work placement program. I was also the school 
transition counselor. I was doing personal futures planning 
long before it became mandated.
    I worked with families as well, and I wore many, many hats, 
but little did I know that all these roles and experiences were 
really preparing me for something else.
    In 1993, my first child was born. I have two children; my 
daughter Megan is six and a half now, my son Matthew is three. 
Megan was born with a rare congenital disorder, called CHARGE 
syndrome. There are about 10,000 people in this country with 
CHARGE syndrome. CHARGE is an acronym; actually, as we learn 
more about it, it is becoming a misnomer, but for the most 
part, it is one of the leading causes of deaf-blindness. There 
are developmental delays, there are a lot of medical problems 
that go along with it. The cause is unknown at the present 
time, but it is believed to be genetic.
    In my daughter's case, she is legally blind. She has no 
central vision; she has only peripheral vision. She is 
profoundly deaf in one ear, and she has borderline normal 
hearing in her good ear, her right ear. She is very small. She 
has feeding problems, kidney reflux, asthma, a lot of different 
problems and developmental delays.
    I know it sounds pretty grim as I speak about it, but 
actually she's just really a regular 6-year-old child who likes 
to do regular things. We have encouraged her to play soccer 
this year, join the Brownies, and she goes to a special school 
right now. Next year, we are making the push and she is moving 
into an inclusive setting in our school district, which we are 
very happy about.
    She has been downhill skiing for the past 4 winters, and 
she is extremely independent and strong-willed, which I believe 
has helped her a lot in the past.
    Our road has been bumpy--not as bumpy as some but it has 
been bumpy, nonetheless. And Megan's problems really came as a 
huge shock to us. I mean, I had the background in special 
education, but it really left us unprepared, having this child, 
not knowing what to do. Because of my background, it allowed us 
to obtain early intervention services rather quickly for her. 
Some people are not so lucky.
    But what my background really didn't teach me was how to be 
a mom for a kid with special needs, and that I had to learn 
along the way.
    Early intervention was a life-saver. She was doing 
incredibly well, and she'll be able to read large print. She is 
now able to speak in full sentences; it took a very long time, 
although she does have some articulation problems.
    Our hopes and dreams for Megan are still the same as any 
parents' hopes and dreams for their child. I want her to be 
happy; I want her to have friends and family around her; I want 
her to work; and I want her to be as independent as possible, 
and I think ``independence'' is the key word here today.
    The problem is that I know the reality all too well, having 
worked in the field of special education. I've seen the 
children I work with leave and go into adult services. I know 
families on a personal level now who are in the same situation, 
where they just can't get the services they require. There's 
not a lot to choose from out there.
    Megan is only six and a half, but she won't be little 
forever, and I feel like I've been living a lifetime with the 
disability, but it's really only the beginning for us. She 
won't be a child for long, and that's why I'm here today, 
because I am advocating for my daughter's future and the future 
of all children who are deaf-blind. My husband and I both 
became active in the CHARGE Syndrome Foundation, and then I 
became active in the National Family Association for Deaf-
Blind. And as Regional Director for Region II, which is New 
York, New Jersey, Puerto Rico, and the Virgin Islands, I serve 
as a liaison between the State and the national efforts. I am 
also a link that provides support to families in our region.
    But the parents can't do it alone, and that's why I'm here, 
because we need the help and support of professionals, as well. 
I think it is vital for people who are deaf-blind to have 
quality services and qualified professionals to provide those 
services. It is a low incidence population, but they require 
specific training.
    There are some wonderful people out there doing incredible 
things, but much, much more needs to be done, and that's where 
the Helen Keller National Center comes in, because they are the 
only agency specific to deaf-blindness that provides training 
to people who are deaf-blind. Many adults with deaf-blindness 
would not be living independent lives if it were not for the 
Helen Keller National Center, and I am very happy that it is 
there, and to know that hopefully it will be there for my 
daughter in the future.
    But much more research needs to be done. More qualified 
professionals need to be trained. There are not many people out 
in the real world who know much about multiple sensory 
impairments. Technology is drastically changing the lives of 
people with deaf-blindness. As I said, communication is vital. 
Computers have given people a voice and a method to 
communicate, to take part in the community in ways that were 
never dreamed of in the past. And some of the gadgets at Helen 
Keller would just blow your mind; they're incredible. But the 
training is needed to teach people how to train people who are 
deaf-blind. Money is needed for employment specialists, quality 
group homes that I would allow my child to live in, mobility 
specialists that would allow people to travel safely in their 
homes and in their communities.
    I worry about my child's future a lot, and I want to know 
that there will be an agency like Helen Keller National Center 
out there when she is ready for it.
    Everything we do now in education helps us to prepare our 
children for the future and for independence, but the truth is 
that adult services really aren't ready for these little 
independent ones.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wicker. Let me ask you this. The training that goes on 
at the center, is it training of professionals, or is it 
training of the actual children? Are they allowed to come----
    Ms. Stanger. Actually, it's adults. The Center services 
people who are age 22 and up, and they are the only center in 
the country like this. The training is for people who are deaf-
blind. They have a lot of specialists in the field of deaf-
blindness who will train people how to--whether it's 
independent living skills, how to shower or brush their teeth 
independently, mobility specialists training them how to get 
from point A to point B safely. There are job specialists----
    Mr. Wicker. How many people can be there at one time?
    Ms. Stanger. That I don't really know. I may want defer to 
Joe McNulty, the Director, on that answer.
    Mr. McNulty. We can house up to 40 students at a given 
time.
    Mr. Wicker. Okay. I see.
    Let me just say, we're going to have to move on, but your 
entire statement will be received in the record. And you are 
correct, that this is a relatively small amount in terms of the 
entire health and research budget. The subcommittee will 
certainly consider your remarks. You make a very compelling 
case for the Center. So thank you very much for being with us.
    Ms. Stanger. Thank you for your time and thank you for your 
support.
    Mr. Wicker. Next we are delighted to have Dr. Jannine D. 
Cody, President of the Chromosome 18 Registry and Research 
Society.
    Dr. Cody, come forward and proceed with your statement.
                              ----------                              

                                          Wednesday, April 5, 2000.

              CHROMOSOME 18 REGISTRY AND RESEARCH SOCIETY


                               WITNESSES

DR. JANNINE D. CODY, M.D., PRESIDENT
ELIZABETH CODY
CATHERINE CODY
    Dr. Cody. Thank you for allowing us this opportunity to 
talk to you today. I am President of the Chromosome 18 Registry 
and Research Society, a parent support group for individuals 
with chromosome 18 abnormalities. I am here with my husband and 
my daughters, Catherine and Elizabeth, and members of our Board 
of Directors and families from the D.C. area.
    My daughter Elizabeth has a missing piece of chromosome 18, 
a condition called 18q-, and she is going to speak. Catherine 
is going to help if she's not understandable.
    Ms. Elizabeth Cody. When I was born, I had a cleft palate, 
with my feet turned in. This is because I have 18q-. Now I am 
15 years old have had 19 surgeries. I don't like to think about 
how many more surgeries I need. I have also had to have growth 
hormone shots every day since I was 2.
    I am in the 9th grade at Roosevelt High School, and I am in 
the hearing impaired class. I am in the Pep Squad and my 
favorite class is art. I think I want to be an art teacher when 
I grow up.
    Dr. Cody. I was here two years ago to explain the obstacles 
we face as parents of kids with chromosome 18 abnormalities. 
And although there are five major syndromes of chromosome 18, 
to date the vast majority of the research--and therefore the 
new information--has been on 18q-, and this is entirely due to 
the financial generosity of one family--not us, by the way.
    Our plan for helping our kids is very simple and follows 
two parallel approaches. First, we just need to gather more 
information about individuals with these syndromes, and our 
parent support group can do some of the basic information 
gathering. However, the kind of information that can really 
provide help and insight for parents is the kind of information 
gathered from sophisticated medical evaluations that should be 
done as part of a clinical research project.
    The second approach is to learn about the biology of the 
specific genes involved in these syndromes. Normally, each of 
us has two copies of every chromosome, but individuals with 
18q- like Liz have a missing piece from one of those two copies 
of chromosome 18, but the other chromosome is normal.
    So our scientific quest seems very straightforward. If we 
can just figure out which of the genes are missing and which 
are the ones that cause the problems, then all we have to do is 
up-regulate the one that's still there and working fine. It 
seems like a straightforward approach, and we would hope that 
conventional drug therapies may be most promising for us.
    We do have some glimmers of hope. From the clinical 
approach, we have learned that most kids with 18q- have growth 
hormone deficiency; and in fact, as far as I know, Liz is the 
first child of 18q- to ever go on growth hormone. And as she 
said, she has been taking shots of growth hormone since she was 
2. We have found in our research that kids with 18q- who go on 
growth hormone not only begin to grow at a normal rate, but 
also have IQ increases up to 47 points. I'm not sure if you 
know this, but an average IQ in the population is 100, so 
between 70 and 120 IQ points is considered normal. So an IQ 
increase of 47 points means that kids who would have been 
mentally retarded will now have normal IQs. Kids who would have 
grown up in a closely supervised group home will now have the 
opportunity to be independent, taxpaying citizens.
    Unfortunately, while the endocrinologists argue over what 
constitutes growth hormone deficiency, our kids are failing to 
get a treatment that has been shown to be effective.
    With regard to our second approach, based on learning about 
the molecular biology of the genes involved, we've had a lot of 
frustration. One example involves a gene--and this is just one 
example--a gene called BCL2. It is one of the genes on 18q- 
that we do know something about. Our frustration is because one 
of the functions of this gene is to keep brain cells from 
dying, and we know the class of drugs that already is known to 
up-regulate this gene. But we don't know if this gene is one of 
the ones responsible for our kids' problems. So without 
research funding, we will never know if this is a potential 
treatment for our kids.
    With regard to the other syndromes of chromosome 18, we 
don't even know enough about those syndromes to have these 
kinds of dilemmas. Starting a new area of research on 
previously unstudied disorders is Herculean. Even if you can 
find a niche at NIH, and a program announcement with parallel 
goals, the grant review process has turned out to be the most 
subjective, objective process imaginable. Reviewers who don't 
know anything about the syndrome--because so little is known 
about the syndrome--find it uninteresting, and they often make 
assumptions from other syndromes that they do know about and 
erroneously apply them to ours.
    In recent years there has been great progress in the 
understanding of Rett Syndrome, Fragile-X Syndrome, and autism, 
just to name a few. These are some of the hottest areas in 
neurodevelopment today, and those areas of research all started 
in this room--not by NIH.
    I once read a description of the mindset of management and 
leadership that seems to be analogous to this situation. 
Management oversees a logging operation. They concern 
themselves with questions like, ``Are the trees being cut in 
the most efficient way? Are they falling in the right place? 
Are there enough trucks to haul the logs away?'' But the 
leadership, which we have in this room, concerns itself with 
questions like, ``Are we in the right forest?'' Leadership sees 
the bigger picture and takes into consideration a wide variety 
of outside influences. This committee provides that leadership 
to NIH.
    The genome project was not feasible when it was first 
proposed. It was the vision and the will to see it done that 
created the scientific advancements that are making it 
possible. Mario Cappechi, who developed a method to delete 
single specific genes in mice, was not funded by NIH to do this 
work because the grant reviewers told him it was impossible, 
and now this is a very widely used and valuable technique. 
Craig Venter's grant reviews saying that his method to sequence 
an entire genome was impossible, arrived the day before his 
team submitted the paper saying that the work was done.
    I had hoped to come here today to tell you about our 
progress, thanks to NIH support, but I can't because we are 
doing the impossible. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wicker. Well, thanks to all three of you. I'm sure you 
are aware that this is an abnormality that has affected some 
very dear friends of mine, so I am very familiar with the 
chromosome 18 issue.
    Elizabeth, thank you for being part of our testimony today. 
I thought you did very well, and I think you will make a 
wonderful art teacher someday.
    Although it was Catherine helping you today, I am sure the 
shoe will be on the other foot. I have two daughters of my own, 
and they have to help each other a lot.
    So thank you for the family team effort today.
    Dr. Cody. Thank you.
    Mr. Wicker. We were glad to have you.
    Next, Christine Stoneman, on behalf of the Center for Law 
and Education.
                              ----------                              

                                          Wednesday, April 5, 2000.

                      CENTER FOR LAW AND EDUCATION


                                WITNESS

CHRISTINE STONEMAN, THE CENTER FOR LAW AND EDUCATION, NATIONAL TITLE I 
    AND SCHOOL REFORM ADVOCACY PROJECT STAFF ATTORNEY
    Ms. Stoneman. Thank you, Mr. Chairman, for the opportunity 
to address you today and for the work of this subcommittee on 
public education issues, including initiatives such as 
comprehensive school reform demonstration projects that this 
committee passed.
    I am here today to speak with you about the need for 
greater support for independent centers to support parents, 
providing the information and training that they may need to 
help them become quality control agents for the Federal funds 
that this subcommittee authorizes around education.
    In 1999, the San Jose ACORN published a piece called, 
``Harsh Realities, Brighter Futures: A Report and Action Plan 
for Alum Rock Schools.'' A series of interviews with public 
school parents in San Jose found that only a handful knew their 
students' assessment scores, and the parents of only 4 or 5 
students had actually had the scores explained to them in any 
detail. Less than 1 in 5 parents had been consulted by their 
children's teachers about any plan to assist in their academic 
success.
    And more telling than these summary figures were parents' 
repeated descriptions of interactions with the public schools 
which left them feeling inadequate and hopeless, and which 
leave a more neutral observer shocked. Parents are frequently 
unable, unfortunately, to learn even the basic facts of their 
child's situation, let alone access enough information to make 
informed decisions about their child's education.
    Certainly, this is not the case with all parents of all 
children, but it is often the case of children served in the 
lowest-income communities.
    In 1998 another independent, nonprofit organization--this 
one in Milwaukee--discovered that while the Milwaukee Public 
Schools had reported a 12 percent dropout rate, based on 
students enrolled in September and then officially dropped from 
the rolls before June, a more telling figure of educational 
loss to students and to the community was the 4-year graduation 
rate. Milwaukee Catalyst found that less than 50 percent--less 
than half--of the 9th graders who started PS in the 9th grade 
actually graduated 4 years later. This information has now 
helped to lead a campaign to improve the public education in 
Milwaukee's public schools, understanding the true need of the 
students in those schools.
    These examples, and many like them, show the need for 
accountability and for independent sources of information for 
parents in education. There are many types of accountability. 
Top-down accountability is the type of accountability that is 
most often discussed these days, particularly around the 
Elementary and Secondary Education Act. And so, for instance, 
with top-down accountability, school districts and States hold 
schools accountable for meeting certain benchmarks of academic 
progress over time. This is a really critical piece of 
accountability. Last year the House passed H.R. 2, which 
reauthorizes title 1, among others, of the Elementary and 
Secondary Education Act, in a way that strengthens and builds 
upon this top-down accountability.
    But as important as it is, top-down accountability cannot 
do all--or even most--of the work around, ensuring that all 
students get a high-quality education. When it comes to day-to-
day decisions about how and what children will learn, and 
getting answers about the individual children's learning, they 
cannot wait another day. Families must have the capacity, 
support, and information they need to ensure the best for these 
children; for instance, the information that they need to 
understand school performance report cards, a large piece of 
top-down accountability in terms of providing information to 
parents, but also to help them understand what those things 
mean, to help them look at data in a disaggregated way, to help 
them understand what the highest-quality schools are, etc.
    That is why it is important to provide for State and local 
level independent training, information, and support centers 
for families of students served by ESEA. Currently there are 58 
Parental Information Resource Centers, funded at about $30 
million through competitive grants from the Department of 
Education. PIRCs, as they are called, are independent State and 
regional parent centers which are to serve all parents on 
issues ranging from early childhood development to how to work 
with schools. These centers are at grave risk of not being 
reauthorized in the House. Currently, however, there are no 
local family information centers--no local family information 
centers--which are an extension of the PIRCs, and would focus 
intensively in local areas to serve families who are served by 
ESEA programs in areas of greatest need--for instance, where 
schools are in need of improvement.
    We request a total of $100,000,000 to leverage this 
$8,000,000,000 program in appropriations for independent parent 
centers: $50,000,000 for PIRCs at the State and regional level, 
and $50,000,000 for local family information centers. Again, 
this would leverage an $8,000,000,000 program.
    Independent nonprofit centers are seen as unbiased sources 
of information which can reach out to the hardest-to-reach 
families and support them in a variety of ways, such as how to 
read school performance report cards and identify high-quality 
teachers and schools for their children; how to decide whether 
to take advantage of the right of transfer that last year's 
$134,000,000 appropriation statute gives them if their child's 
school is in need of improvement; how to get beyond the 
feelings of alienation they may have due to their own 
experiences as students; and, as another example, how to help 
parents to present their perspectives constructively to 
schools.
    We therefore respectfully ask your support in ensuring that 
parents have the training, information, and support that they 
need to act as quality control agents for Federal education 
funds appropriated by this subcommittee.
    Thank you very much for your time, Mr. Chairman, and for 
supporting high-quality education programs in this Nation's 
public schools.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wicker. Thank you very much, Ms. Stoneman.
    Are there national education organizations that support 
this concept? For example, the NEA, the American Federation of 
Teachers?
    Ms. Stoneman. Well, the Center for Law and Education, the 
National Council of LARASA, and the Center for Community Change 
have taken the lead on this. We have worked----
    Mr. Wicker. Say those again, please?
    Ms. Stoneman. The National Council of LARASA, the Center 
for Law and Education where I work, and the Center for 
Community Change, which works with a number of local level 
affiliates that are community-based, nonprofit organizations. 
We have taken the lead on this issue, but we have also, through 
the Hispanic Education Coalition, worked with folks from NEA 
and have also worked with folks from the PTA on this issue.
    Mr. Wicker. Well, I think you're right, that the key and 
the byword is going to be accountability when we talk about 
education during this next term, so we thank you very much for 
your input, and your statement will be received by the entire 
subcommittee.
    Ms. Stoneman. Thank you very much for your consideration.
    Mr. Wicker. Next we have Mr. Marc Freedman, President of 
Civic Ventures. Please come forward and tell us about Civic 
Ventures.
                              ----------                              

                                          Wednesday, April 5, 2000.

                             CIVIC VENTURES


                                WITNESS

MARC FREEDMAN, PRESIDENT, CIVIC VENTURES
    Mr. Freedman. Thank you, Mr. Chairman, for the chance to 
present testimony before the subcommittee to tell you about 
Civic Ventures, and a project that we've helped develop, called 
the Experience Corps.
    Civic Ventures is a nonprofit organization with a goal of 
expanding the social contribution of older Americans and 
helping to transform the aging of American society into a 
source of individual and community renewal--modest goals.
    In 1900, the average American could expect to live to the 
age of 47. Over the past century we have seen, essentially, a 
demographic revolution where the lifespan has been increased by 
3 decades. So we are at the point now where half the people who 
have ever lived to the age of 65 in this country are currently 
alive, and we're poised to see the baby-boomers move into that 
stage of life; 76,000,000 people are not only living longer, 
but living healthier and much better than ever before. On 
Monday, the L.A. Times released a new survey which showed that 
older Americans actually felt 19 years younger than their 
chronological age; the 60-year-old of today feels like they are 
41 years old.
    Gerontologists have called this ``Floridization of 
America,'' but in fact only 18 percent of Florida is over the 
age of 65, and soon--by the time the boomers really hit--
between 20 and 25 percent of the entire country will be in that 
stage of life.
    For the most part, when we thought about the aging of 
America, we have basically seen a disaster in the making. We 
have talked a lot about Social Security and Medicare and the 
fiscal implications. But I think that the aging of America is 
every bit as much an opportunity to be seized as it is a 
problem to be solved. And that's really the mission of Civic 
Ventures, to help make that happen. And I think we need to 
change the way we view America's aging population, to see this 
vast untapped social asset that is present there, because this 
country now possesses what is probably our only increasing 
natural resource in the older population, the largest and 
fastest-growing older population, obviously, in this country's 
history, the healthiest, the most vigorous, the best educated. 
Only 5 percent of older adults are living in nursing homes; 15 
percent have disabilities which affect daily life.
    It is hard to imagine a better-timed and more fruitful area 
for our attention, creating new opportunities for mobilizing 
the current and coming generation of older Americans on behalf 
of the greater good, and in doing so not only changing the 
nature of retirement, revolutionizing it, but producing a 
social windfall for our communities, communities where there is 
a desperate need for human resources. I was out in California 
where we always hear about the need for more software 
engineers, but I came to the field not as a gerontologist but 
as somebody who is working on issues for low-income kids, going 
to schools, just seeing how strapped they are for people to 
provide individual attention and caring and support for young 
people.
    It is in the service of that goal that the Experience Corps 
model was developed in 1995, coming out of research by Johns 
Hopkins University, and also Public-Private Ventures, where I 
was previously employed. The Experience Corps involves older 
adult volunteers in high-impact service activities. These 
people serve a minimum of 15 hours a week, so essentially half 
a day every day, and they are a stable presence in those 
institutions. They work in teams because they are often in very 
difficult environments, working in the lowest-income schools, 
so there is a mutual support element built into the project.
    People provide not only direct support for kids in terms of 
mentoring and tutoring, but use their past experience and 
skills to fill essential gaps in the schools. And we provide 
involvement for people not only who are making this intensive 
commitment, but for essentially associates in a project who 
will come in a day or two a week and work with individual 
children.
    Mobilizing the time, talent, and experience of older adults 
in service to the younger generation, Experience Corps, focused 
on children, provides urban elementary schools and youth-
serving organizations with a critical mass of caring older 
adults to improve academic performance and development of young 
people. In each school that we work in, we put a minimum of 15 
people in the school, dramatically increasing the amount of 
adult report. People in the program receive a small stipend, 
which is focused entirely on low-income neighborhoods, 
recruiting older adults from ZIP codes surrounding those 
neighborhoods.
    As I said, the volunteers who serve a minimum of 15 hours a 
week receive a stipend.
    They are doing important work to ease the human resource 
crisis in American education, and they are also involved not 
only in tutoring elementary kids, but in getting more parents 
involved in the schools, in developing after-school activities, 
and building community support for those children.
    These volunteers are typically younger. They are between 55 
and 70, three-quarters are; 70 percent are African-American, 11 
percent are Latino, long living in the neighborhoods 
surrounding the schools. Half are volunteers who have incomes 
of less than $15,000 a year; another 16 percent are in the 
$15,000 to $25,000 range.
    We are hoping to take this project to the next level and 
are asking for support from the committee to continue the 
existing 18 projects. This has increased from 5 projects, with 
committee support, to 18 in the past 4 years. We leveraged 
$5,000,000 in private support for the $1,000,000 that the 
committee originally put in. And what we are seeing in the 
existing projects is a tremendous development of leadership on 
the part of volunteers who are taking over the management of 
the program, which is wonderfully cost-effective and enables us 
to reach a much larger number of kids, and also to go to scale 
in a small number of communities, because even though I've 
talked about half the people over the age of 65 currently being 
alive, 35,000,000, the volunteerism among older adults is the 
lowest of any group in the country, and in any given community 
the numbers tend to be very small.
    So I think we need to be preparing to take these projects 
to a significant level as it changes the role of older adults 
in those communities and the perception.
    In service of that, we would ask the committee to help 
sustain 18 Experience Corps for Kids projects across the 
country, and to take 3 of the most successful projects and help 
them move from success to significance in those communities.
    Mr. Chairman, Civic Ventures and the Experience Corps for 
Kids movement thank you for this opportunity to present 
testimony before your subcommittee.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wicker. Thank you very much for your testimony.
    I understand that Ms. Pelosi would like to make a comment.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I'm sorry I 
wasn't here in time to introduce Mr. Freedman, but I do want to 
commend him and thank him for his very valuable service.
    As you know, Mr. Chairman, we don't like to underutilize 
any resources, and the great social capital that our older--I'm 
getting a little sensitive on the issue--older Americans are, 
on behalf of our children, is very, very important. They are 
doing groundbreaking work on this and, as he said, moving from 
successful to significant.
    I understand that you are successful in California, and 
that Governor Davis is interested, so Federal help would be 
part of a cumulative or comprehensive support for Civic 
Ventures and for Experience Corps for Kids. So thank you for 
what you do. Welcome, and we appreciate your leadership and 
service.
    Mr. Freedman. Thank you.
    Ms. Pelosi. Mr. Chairman, if I may, I would like to 
introduce a statement in the record for Mr. Freedman and for 
the previous witness, Christine Stoneman of the Center for Law 
and Education.
    Mr. Wicker. Without objection.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Mr. Wicker. And thank you, Ms. Pelosi, for your 
participation.
    At this point we have Dr. Steven Mirin from the American 
Psychiatric Association.
    Our Chairman had trouble yesterday with a word that looked 
a lot like psychiatric, but you are with the psychiatrists?
    Dr. Mirin. Indeed.
    Mr. Wicker. Our Chairman was perhaps a day early. Did I 
pronounce your name correctly?
                              ----------                              

                                          Wednesday, April 5, 2000.

                    AMERICAN PSYCHIATRIC ASSOCIATION


                               WITNESSES

DR. STEVEN MIRIN, M.D., MEDICAL DIRECTOR, AMERICAN PSYCHIATRIC 
    ASSOCIATION
    Dr. Mirin. Yes, Steven Mirin. I am the Medical Director of 
the American Psychiatric Association, representing 40,000 
psychiatrists nationwide.
    Mr. Wicker. Well, we are happy to have you.
    Dr. Mirin. Thank you.
    I am here today to urge your continued support for 
biomedical research, and to increase the Federal investment in 
the National Institutes of Health by 15 percent again this 
year, as you have done in previous years.
    The World Health Organization report on the Global Burden 
of Disease documents the enormous and often underestimated cost 
of mental illness and substance use disorders. The report found 
that mental illness is the second leading cause of disability 
worldwide, and at the same time, the recent Surgeon General's 
report on mental health concluded that the Nation has realized 
immense dividends from 5 decades of investment in research 
focused on mental illness.
    This research has shown that these illnesses are diseases 
of the brain with strong genetic and biological bases, and that 
these illnesses are treatable, and that treatment is highly 
effective in restoring the victims of these disorders to 
healthy and productive lives.
    In large measure, it is the National Institutes of Health 
that has spearheaded the enormous progress we have made in 
understanding and treating mental illness. To capitalize on 
exciting new developments that have occurred in neuroscience, 
genetics, and medication development, APA supports increasing 
the National Institute of Mental Health budget in the coming 
fiscal year to slightly over $1,200,000,000. This increase will 
allow the Institute to maintain its present commitments, expand 
clinical research, and take advantage of promising scientific 
opportunities, particularly those related to the treatment of 
mental disorders in children, school violence, and improving 
the mental health care received by women and ethnic minorities.
    Turning to the National Institute on Drug Abuse, APA 
recommends an increase in funding to $838,000,000 to support a 
broad research portfolio that ranges from studies on the 
effects of drugs of abuse on the brain, to the impact of 
managed care on service delivery. This level of investment will 
also allow for further development of NIDA's new National 
Clinical Trials Network, which links academic medical centers 
across the country to a regional network of community treatment 
programs. The network will enable us to translate research 
findings into treatment advances for real people in real world 
settings.
    The National Institute on Alcohol Abuse and Alcoholism 
funds research on a disorder which affects more than 14,000,000 
Americans. APA is particularly supportive of the high priority 
that NIAAA places on exploring the genetics of alcoholism. We 
now know that the susceptibility to alcoholism is genetically 
inherited, but further research is needed to identify the 
specific genes involved and to pave the way for more effective 
efforts at treatment and prevention. The APA strongly supports 
NIAAA's research agenda and recommends an increase in the 
Institute's appropriation to $411,000,000.
    Many individuals who need treatment for serious mental 
illness are unable to access the care that they need, 
particularly in poor and rural communities. For this reason we 
recommend a major increase in the mental health funding for 
SAMHSA's Center for Mental Health Services and the Community 
Mental Health Block Grant Program, which funds a range of 
community-based services for people with serious mental 
illness. This will be necessary to address the enormous unmet 
needs of these citizens who suffer from these disorders.
    So in conclusion, Madam Chairwoman, the APA applauds your 
leadership and the leadership of the subcommittee in funding 
the research and treatment so vital to the welfare of those 
suffering from mental and addictive disorders. Our children and 
our grandchildren will reap the benefits of your efforts.
    Thank you again for the opportunity to appear before you 
today.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup [assuming chair]. Thank you, Dr. Mirin. We are 
delighted to have you here today. I know that you know that the 
Chairman supports substantial increases in the research grant 
money; we are looking for that money to increase research, 
including for mental health services.
    Also, we are struggling to make sure that the Community 
Mental Health Block Grants get to where they are most effective 
in all of our communities. It's certainly a challenge that we 
face that we are aware of.
    Dr. Mirin. Thank you, Madam Chairwoman. I know that you and 
Congresswoman Pelosi have been enormously helpful in this 
regard.
    Ms. Northup. Thank you.
    Next we have Dr. Rabbi Marc Gellman. He is the Senior 
Rabbi, Temple Beth Torah, Melville, New York, and he is a 
member of the National Marfan Foundation. He is here today to 
represent the Coalition for Heritable Disorders of Connective 
Tissue.
                              ----------                              

                                          Wednesday, April 5, 2000.

       THE COALITION FOR HERITABLE DISORDERS OF CONNECTIVE TISSUE


                               WITNESSES

DR. RABBI MARC GELLMAN, SENIOR RABBI, TEMPLE BETH TORAH, MELVILLE, NEW 
    YORK, AND MEMBER, NATIONAL MARFAN FOUNDATION
ELIZABETH TERRY
    Rabbi Gellman. Thank you, members of the subcommittee.
    The Coalition for Heritable Disorders of Connective Tissue 
thank you for the opportunity to provide testimony regarding 
the budget of the National Institutes of Health. The Coalition 
is an umbrella group of volunteers, founded in 1988 to 
represent more than 200 such disorders, affecting more than 
100,000,000 Americans, and to call for the creation of 
scientific research centers, which is the only way to 
coordinate research and advances, and to comprehensively 
understand the clinical burden of these rare, multisystem 
disorders.
    My name is Marc Gellman. I am the Senior Rabbi of a large 
congregation on Long Island. I have a doctorate in philosophy 
from Northwestern University, with a dissertation on medical 
ethics. I have served as Chairman of the Medical Ethics 
Committee of the UJA Federation. I was asked to provide ethical 
counsel to the Human Genome Project in its early days. I have 
lectured in medical ethics at Mt. Sinai Hospital. I have 
published academic articles in the field of medical ethics. I 
am the first clergyman hired by a national network, ABC, since 
Bishop Sheen. I appear on Good Morning, America; MS-NBC; The 
Today Show, and host a national cable program called ``The God 
Squad'' with my friend and colleague, Monsignor Tom Hartman. We 
appear regularly on Imus in the Morning and have been proud 
recipients and participants in his many fundraising efforts. We 
have won the Peabody Award, an Emmy for an HBO special for 
children, ``How Do You Spell God?'' Last week I was elected 
President of the New York Board of Rabbis, the largest 
interdenominational rabbinic body in the world.
    So what all this means is that I have far more than a 
layman's knowledge of medicine, and far more than an ordinary 
person's access to experts in knowledge. And despite all my 
training and all my privilege, I had no idea until last year 
that I have an inherited genetic disorder, Marfan Syndrome, a 
potentially fatal and not at all rare genetic disorder which 
occurs in about 1 out of every 5,000 people. Because I have 
Marfan Syndrome, in addition to skeletal abnormalities which 
cause me pain, and possible retinal detachment which could 
eventually cause blindness, my aorta--particularly, the aortic 
root--is greatly enlarged and could at any moment dissect, blow 
up, which would prove fatal to me and, I might say, damaging to 
our appearances on Imus, because without me, Tommy just could 
not get a laugh.
    There is no cure yet for what I have, but now that I know I 
have it, medication and careful monitoring will give me warning 
as to when I must have my aorta replaced by a plastic tube, and 
my mitral valve with a heart valve from a pig--and I am a 
Rabbi, and I do not have to tell you that I am forbidden to 
touch plastic. [Laughter.]
    Rabbi Gellman. Or something like that.
    Anyway, this is the point. If somebody like me, with 
everything going for him, did not know that he had Marfan 
Syndrome until a smart lab technician at North Shore Hospital 
picked up, by sheer coincidence, an abnormal Q wave in a 
routine presurgical test that I was taking for a minor 
operation--if I did not know, then think about how many other 
people of the at least 200,000 people with Marfan Syndrome will 
never know about the time bomb in their chests until it is too 
late to save them. For many diseases, the appeal you hear in 
this committee is to give money to find a cure, and this is 
expensive, and it is often a fruitless task because, as we all 
know from the research in medical discoveries, it is not money 
alone that cures disease. It is money plus diligent research 
plus genius. And these things cannot be ordered up like a case 
of paperclips. However, in my case--in our cases--what we need 
in addition to research is immediately cost-effective and 
absolutely life-saving. What we need is screening--screening 
for Marfan Syndrome and for connective tissue disorders in 
pediatric wards, in emergency rooms. And since this disease 
often occurs in talented athletes, like myself----
    [Laughter.]
    Rabbi Gellman [continuing]. Who are often quite tall and 
appear in athletic programs, particularly basketball, of 
particular importance--and with my friends in the NBA, we 
intend and we hope to start screening programs there, to use 
the role models of NBA athletes to talk about Marfan Syndrome. 
But screening rooms, particularly in athletic programs in high 
school and in college and in college health offices, in any 
place where people go for routine physical exams and where 
doctors need to know what it means when a patient is very tall 
or has an armspan that is greater than his or her height by 
more than 2 inches. When the spine is twisted, when feet are 
flat, when fingers are long and double-jointed, when cheekbones 
are high or eyes slanted, or when breastbones are concave or 
convex, these doctors or schools or camp nurses must know that 
the person they are looking at--their patient--may have Marfan 
Syndrome, or as my brilliant physician now, Dr. Richard 
Devereaux, has told me, one of many genetic disorders leading 
to aortic enlargement, only one of which at the moment has been 
labeled as Marfan Syndrome, but which may in fact be a whole 
complex of aortic enlargement diseases.
    These simple screening techniques could save lives even 
before a cure is found, which will probably be--if my friends 
in the Genome Project tell me correctly--some viral vector 
which could someday be used to produce advanced genetic surgery 
and gene replacement. How often can you know that you could 
save lives, even before a cure is found? In the case of the 
heritable disorders of connective tissue, that is the case.
    I plead with you, I truly plead with you, to increase the 
budget for the NIH as a whole by at least 15 percent, which 
would bring the NIH budget to $20,600,000,000 and would be 
another step toward the bipartisan goal of doubling the NIH 
budget by 2003. I plead with you to support a 15 percent 
increase in this year's budget for NIAMS, the National 
Institute for Arthritis, Musculoskeletal and Skin Diseases, one 
of the 23 divisions of NIH, which is primarily responsible for 
research on these disorders.
    Though you must know that the other Institutes of the NIH--
the NHLBI, the Eye Institute, the Dental-Craniofacial 
Institute, General Medical Sciences, and the Genome Project--
are also doing important research that impacts on connective 
tissue disorders, since they are multisystem defects. And I 
plead with the committee to find a way to help people find out 
before it is too late that their hearts are just fine, but the 
muscle in their chest that pumps blood may need work, and that 
they had best check themselves out before it is too late.
    The challenges in screening for Marfan Syndrome are also 
faced by those who suffer from other heritable diseases of 
connective tissue, and I urge support for research in those 
areas, as well. In fact, for many years Tommy and I have been 
working with our colleague and anchorwoman, Faith Daniels, in 
raising money for epidermolyses bullose, which is an 
extraordinarily difficult and important disease, and I didn't 
even realize it was connected to Marfan Syndrome until a year 
ago.
    My friends, the commandment to heal diseases in Judaism and 
Christianity is derived from a verse in Exodus, Chapter 21: 
``In healing, you shall surely heal.'' I know you face many 
people who ask you to be good legislators. Today I ask you to 
be good healers and to make Isaiah's words real: ``They that 
wait upon the Lord shall renew their strength. They shall mount 
up with wings as eagles. They shall run and not be weary. They 
shall walk and not faint.''
    Thank you and God bless you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup. Thank you, Dr. Gellman.
    Yes?
    Ms. Pelosi. Thank you, Madam Chair. I want to join you in 
thanking our distinguished guests who are here today and all of 
those who are here with them.
    Not knowing of your own personal situation, I was 
particularly interested in your testimony because of the work 
that we have been urging on the NIH for Ehlers Danlos Syndrome, 
and in learning about that we learned about so many other 
conditions that challenge our scientists.
    But thank you for your courage in coming forth with your 
own personal story. I thank all of you for being here, and 
hopefully in advancing EDS, we can join your coalition in 
advancing the cause across the board. Thank you.
    Audience Member. On behalf of the Ehlers Danlos Foundation, 
I want to thank this committee for its strong support of 
research on Ehlers Danlos Syndrome and other heritable 
disorders of connective tissue.
    Ms. Pelosi. We are hoping to have the director of the 
Institute at your conference this summer. If he is invited, he 
said he will accept.
    Ms. Terry. Hello. My name is Elizabeth Terry. I am here on 
behalf of the Coalition for Heritable Disorders of Connective 
Tissue.
    I myself have PFZ. PFZ is a connective tissue disease that 
affects most of the major organs in the body, such as the eyes, 
the heart, the arteries and the skin. PFZ is a part of the 
Coalition, along with Marfan Syndrome and many other diseases. 
I testified to this committee last year, and they were very 
supportive and hopefully so will you be, for the increases in 
the NIH budget.
    Thank you.
    Ms. Northup. Thank you, Elizabeth. You did a wonderful job, 
and I want you to know we are intending to do all we can to 
increase the budget so that it will make a difference.
    Thank you very much, Dr. Gellman.
    Rabbi Gellman. Thank you.
    Ms. Northup. Next we have Dr. Robert D. Gratz. He is the 
Acting President of Southwest Texas State University, San 
Marcos, Texas, and he is representing Southwest Texas State 
University.
                              ----------                              

                                          Wednesday, April 5, 2000.

                    SOUTHWEST TEXAS STATE UNIVERSITY


                                WITNESS

ROBERT D. GRATZ, ACTING PRESIDENT, SOUTHWEST TEXAS STATE UNIVERSITY, 
    SAN MARCOS, TEXAS
    Mr. Gratz. Thank you, Madam Chairwoman. I am deeply 
grateful for this opportunity to appear before this 
subcommittee to briefly make the case for a fiscal year 2001 
appropriation of $2,084,000 to allow Southwest Texas State 
University to continue to develop a National Center for School 
Improvement, in partnership with two other universities in 
Virginia and California.
    We are seeking this funding in the Labor, Health and Human 
Services, Education appropriations bill within the 21st Century 
Community Learning Center account.
    Madam Chairwoman, I will be brief and to the point. 
Southwest Texas State University is one of the preeminent 
universities in the State of Texas in the area of teacher 
training and education. We have been recognized by Governor 
George W. Bush for our work in the area of school violence, and 
SWT produces more new qualified teachers than any other 
institution in the State. Southwest Texas State University was 
1 of the 3 1999 finalists for the coveted Distinguished Program 
Award, given by the Association of Teacher Educators, and was 
recently cited as the best teacher education public institution 
in our State.
    Our partners, from George Mason University and San 
Francisco State University, have an equally impressive array of 
teacher training and Pre-K to 12 education credentials to give 
the proposed National Center for School Improvement the 
foundation of excellence that you and the taxpayers should and 
will require. I am sorry that Congresswoman Pelosi had to 
leave, because she is certainly familiar with many of the 
innovative programs that San Francisco State University has 
developed, collaborating with and supporting the public 
schools, including President Robert Corrigan's work in the 
America Reads Program.
    More importantly, the proposed National Center for School 
Improvement will harness the expertise of these 3 institutions 
to achieve at least 3 basic goals for students and teachers in 
troubled school districts in Texas and in other States:
    First, to increase the academic success rate of pre-K to 12 
students in key areas of mathematics, reading, and science 
through the formation of responsive partnerships with those 
school systems;
    Second, to establish a clearing house of best teacher 
training practices by way of an interactive World Wide Web 
site, to serve as a State-wide and national resource for 
specific educational practices and training techniques; and
    Third, to establish unique rapid response action teams to 
go into struggling schools that request the assistance and 
tackle specific, identified academic, administrative, and 
teacher training problems with proven concrete solutions that 
work in that particular school setting.
    The National Center for School Improvement will also 
establish innovative programs for accelerating the 
certification of high-quality adjunct experts from industry and 
other sectors who can bring new skills and expertise to the 
classroom in these troubled schools.
    But the truly unique feature of the National Center will be 
the rapid response team concept. The rapid response team 
approach is unique and one that will be applied to meet 
objectives that can be achieved during the regular classroom 
scenario, and in after school and summer school environments 
envisioned within the 21st Century Community Learning Program.
    In short, we believe that Southwest Texas State University 
and its partners will bring real action-oriented student and 
teacher achievement solutions to troubled school districts in 
Texas, our partner States, and others, through the National 
Center for School Improvement.
    Madam Chairwoman, thank you and thanks to other members of 
the subcommittee for this opportunity to testify in support of 
the National Center for School Improvement.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup. Thank you. I think we are all interested in 
what Texas has done and the improvements it has found, and how 
you measure it and how you work with schools that are troubled. 
So thank you very much for your testimony.
    Next we have Dr. Jeffrey Glassroth, Chair of the Department 
of Medicine at Wisconsin University Medical School, and 
President of the American Thoracic Society and Board Member of 
the American Lung Association, and he is representing the 
American Lung Association and the American Thoracic Society.
                              ----------                              

                                          Wednesday, April 5, 2000.

      AMERICAN LUNG ASSOCIATION AND THE AMERICAN THORACIC SOCIETY


                                WITNESS

DR. JEFFREY GLASSROTH, M.D., CHAIR OF THE DEPARTMENT OF MEDICINE, 
    WISCONSIN UNIVERSITY MEDICAL SCHOOL; PRESIDENT, AMERICAN THORACIC 
    SOCIETY; AND BOARD MEMBER, AMERICAN LUNG ASSOCIATION
    Dr. Glassroth. Thank you, Madam Chairwoman. I am the 
President of the American Thoracic Society and, as you noted, a 
Board Member of the American Lung Association, and I am here 
today to speak on behalf of those organizations about the 
importance of biomedical research and public health programs 
relating to lung disease.
    I want to bring to your attention 3 areas of concern within 
the subcommittee's purview, and the first issue is with NIH's 
management budget. As you know, for the last few years the NIH 
management budget has gotten smaller, while their programs have 
gotten substantially larger. This situation is actually 
reaching a critical stage, and to be good stewards, the NIH 
will need appropriate resources to manage their growing 
research portfolio. We encourage the committee to be mindful of 
this when providing funding to the NIH.
    The second issue concerns the President's recommendation 
for the AIDS budget of the National Heart, Lung, and Blood 
Institute. The ATS and the ALA are extremely concerned that the 
President has recommended only a 2.5 percent increase in the 
NHLBI AIDS budget.
    Madam Chairwoman, as you know, pulmonary diseases--things 
like tuberculosis, pneumonia, and a variety of cancers 
involving the lungs--are the leading cause, the leading cause, 
of death for people with AIDS. Adequate funding is needed for 
the NHLBI to continue to study the interaction of these 
illnesses in the lungs of people with HIV, and I strongly urge 
the committee to consider reviewing the NHLBI budget for AIDS 
research.
    The third issue deals with an agency within your 
subcommittee's purview and jurisdiction, the Health Care 
Financing Administration, or HCFA. Over the strong protests of 
the physician community--and in our opinion, without 
justification--HCFA has cut the physician work value for 
critical care services by 10 percent.
    Now, after sitting here this morning and hearing some of 
the heartrending testimony, I would certainly understand it if 
your eyes glazed over at the mention of a topic like this, so 
bear with me for just a moment while I explain that this is no 
trivial matter, and actually something of considerable import.
    Providing critical care services to Medicare beneficiaries 
is one of the most demanding services that a physician or any 
other health provider can render. People who receive critical 
care services are in hospital intensive care units. They are 
desperately ill, and they suffer from extraordinarily complex 
problems. People receiving critical care services are, in 
effect, the sickest of the sick. HCFA's recent actions have the 
effect of equating this level of care with home health 
services.
    This situation will detract from the ability of caregivers 
to provide the kind of services that patients and their 
families have a right to expect, and it will diminish the 
number of practitioners going into this underserved field. I 
hope you will use your influence with HCFA to help resolve this 
particular problem. Requesting that HCFA convene a 
multispeciality refinement panel to review the critical care 
issue may be one appropriate approach.
    Madam Chairwoman, although we're making progress on many 
lung diseases, I want next to focus my comments on two 
diseases, one a new public health threat and one an old and 
longstanding threat.
    The new public health threat is asthma. Asthma is on the 
rise; an estimated 17,300,000 Americans have asthma, and since 
1984 the prevalence of childhood asthma has risen by 72 
percent. Asthma is expensive, both in dollar terms--costing the 
U.S. health care system over $7,500,000,000 a year--and it also 
causes countless missed days of school and work. Increasingly, 
asthma also kills. In 1997, over 5,400 people died as a result 
of an asthma attack, and that is up 100 percent since 1979.
    African-American families have an age-adjusted death rate 3 
times higher than that of whites, for reasons that are not well 
understood at this time. Research, paradoxically, is bringing 
real hope for new understanding, new treatments, and even a 
cure for asthma. To get a cure will require a continued 
commitment to funding of the research at NIH.
    Asthma also requires a coordinated public health response. 
At this point, several key federally-funded agencies--NIH, CDC, 
HUD, and others--have taken an active role in responding to the 
asthma epidemic. Despite these quality programs, the ATS and 
the ALA are concerned that there is not a sufficiently 
coordinated approach to asthma. The ATS and ALA strongly 
recommend the creation of national asthma plan.
    The old disease is tuberculosis. TB has been with us 
literally since the dawn of man. Although TB is a preventable 
and a curable disease, it persists as a public health problem 
in the United States and globally. Worldwide there are over 
7,500,000 new cases of active tuberculosis a year and 3,000,000 
deaths. The newest twist on this disease is multiple drug 
resistant TB. In the U.S., 45 States have reported MDR, or 
multiple drug resistant, TB.
    Recent investments in the domestic TB control program are 
beginning to pay off. CDC has announced for a 7th straight year 
a decline in domestic TB rates. The good news is a direct 
result of CDC's TB control programs. It is important to 
understand that CDC will need resources to help continue to 
establish control in the U.S., and we must increasingly view TB 
as a worldwide problem, now that we import over 42 percent of 
our cases from abroad into the United States.
    Madam Chairwoman, thanks in no small measure to the 
generous support of this committee, the research and public 
health community continues to make advances against lung 
disease. We urge the committee to continue to provide us with 
the tools we need to achieve a world free of lung disease.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup. Thank you very much, Doctor. I appreciate 
your appearance before the committee today.
    Next we have Marc Epstein. He represents the Prostatitis 
Foundation.
                              ----------                              

                                          Wednesday, April 5, 2000.

                       THE PROSTATITIS FOUNDATION


                               WITNESSES

MICHAEL HENNENFENT
MARC EPSTEIN, PATIENT
    Mr. Hennenfent. Madam Chairwoman and members of the 
committee, we want to thank you for the help we've had in the 
past. I'm President of the Prostatitis Foundation, and I have 
Marc with me today, who wants to talk to you from a patient's 
standpoint about Prostatitis.
    Marc Epstein.
    Mr. Epstein. Okay. I grew up in Fairfield County, 
Connecticut, went to Weston High School, was class president, 
played varsity basketball. My mother was a social worker; my 
father practiced law, then I came down to D.C. to George 
Washington University and got an international business degree. 
I then worked for a telecom startup backed by the D.C. company, 
Patricof & Co., that went public. I then got poached from that 
and went over to do a startup, as one of 3 equity owners, a 
London-based startup. That was ultimately sold for $86,000,000 
to a U.S. publicly-traded company.
    I developed Prostatitis in the spring 1997. Suffice to say, 
this put a huge damper on an otherwise rather special and 
unique life that was occurring at the time, and it was termed 
abacterial Prostatitis. Some physicians implied I was maybe 
mentally unstable and it was all in my head; it was stress-
related, I was told by the majority of the urology world.
    Needless to say, this has been a terribly painful, 
depressing condition for an otherwise fortunate person.
    Some of the symptoms--I developed a frequent urge to 
urinate, which was accompanied by discomforting burning and a 
weakened stream. I had tingling in my scrotum and inflammation 
in the tip of my penis, which contributed to the agony. I am 
glad I am able to share this with you, obviously. Sitting for 
long periods of time became very difficult, and walking in a 
bow-legged manner became the norm.
    My mental condition was not being helped by being told that 
I was crazy--or maybe not crazy, but ``there's nothing we can 
do about it.'' I was 28 years old when we sold the company, two 
and a half years ago. I never have to work again, okay? I 
certainly didn't think stress was my problem; 3 years later and 
several doctors later, I more or less am no better off. I took 
a full two years off to try to deal with this problem, with a 
good portion of the time spent in beautiful Colorado. I am 
looking for a nice, relaxing way of life.
    I attended an NIH-sponsored meeting which was focused 
toward the urology profession, which has known of this problem 
for over 50 years. The urologists appear to be as confused--or 
some urologists appear to be as confused--and frustrated as the 
patients. As urologists are trained primarily for surgery, 
other medical specialists should also be funded and focused in 
respect to this research.
    The disease infection should not be allowed to occur in 
modern day with advances in technology, and this is perhaps 
what frustrates me the most. Normal tests are not sensitive 
enough to detect microplasma and other forms of bacteria. Only 
recently have PCR tests for my prostatic fluid been done, and 
guess what? They found stuff that shouldn't be there. So it's a 
cost issue, I guess.
    Remember, both in the U.K. and in the U.S. I was told that 
there was no bacteria. I was still put on antibiotics with the 
concept being, ``If you have anything, this will surely kill 
it.'' I have come to learn that this is a rather common and 
ineffective response in treatment.
    So to try to keep within the 5 minutes, essentially feeling 
like you have a bowling ball between your legs, and being told 
nothing is wrong with you--along with a whole host of other 
symptoms--I find insulting to my intelligence. I come from a 
very close and supportive family, which has certainly helped 
through this whole thing. I have a lovely girlfriend. Money 
hasn't been the problem in my life, but there is this big 
problem, and it's called Prostatitis. The public needs to be 
more aware of this disease that strikes down young men in the 
prime of their lives. Additional funds need to be made 
available for additional research centers. I would say that a 
new approach clearly needs to be looked at.
    Therefore, today I am requesting the subcommittee's support 
for an additional $2,000,000 to the NIDDKD budget to increase 
the inadequate amount now allocated to Prostatitis research. I 
expect to get brownie points for coming in before my 5 minutes 
are up.
    If you have any questions, I would certainly be very happy 
to answer them.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup. The committee has worked for the last several 
years at substantially increasing the budget for NIH, and we 
encourage the NIH to reflect on the diseases where we haven't 
seen breakthroughs, and to go ahead with them. That's why we 
have the public hearings. They go into the record, and they are 
not glossed over.
    Thank you. I am sure that you have brought a good deal of 
information, certainly to me, and we are eager to see that NIH 
has the money to take on the research challenges that it faces.
    I think that we are constantly looking at areas where, 
number 1, the diagnosis isn't necessarily--the screening isn't 
necessarily sufficient, and then also the cure of the disease.
    Let me ask you one thing. In your testimony you didn't 
say--once it is adequately diagnosed, is there a remedy?
    Mr. Epstein. It hasn't been adequately diagnosed. There is 
a huge amount of debate about this whole thing. It will drive 
one crazy, listening to the urologists talk about it.
    Personally, I believe it starts with an STD that they don't 
diagnose properly. If they don't kill it off, it festers; I 
don't know what happens. But they've done some advanced tests, 
and some things--you know, you can throw money at it and you 
can get things done, but they just don't know.
    Mrs. Northup. So a cure is still part of----
    Mr. Epstein. A cure is something that they don't even fully 
understand. Then you get people who tell you that they believe 
this is a precursor to prostate cancer. Let's hope not, and I 
don't think it actually is, because I think what you hear today 
is that you've got things that people get infected by as they 
get older, or they are genetically born with it. Two different 
scenarios, but it's one or the other. This is something that I 
caught, and you would think in modern day they could kill it.
    Mrs. Northup. Well, thank you for your testimony today.
    Mr. Epstein. Thank you.
    Mrs. Northup. The last witness is Katherine Meade, and she 
is here for the National Prostate Cancer Coalition.
    Ms. Meade, I know that you had to wait long after your 
expected time to testify, so I want to thank you for your 
patience.
                              ----------                              

                                          Wednesday, April 5, 2000.

                   NATIONAL PROSTATE CANCER COALITION


                                WITNESS

KATHERINE MEADE
    Ms. Meade. Well, thank you for allowing me to come here and 
speak in front of you today.
    My name is Katherine Meade, with the National Prostate 
Cancer Coalition. I do not have prostate cancer. My husband, 
Bill, did have prostate cancer, and he died less than 2 years 
ago, in August of 1998. I was his primary caregiver and also 
his partner in dealing with this disease.
    We went to doctor appointments together. We researched the 
disease together. We got involved in support groups together. 
What I have learned is that prostate cancer is a family 
disease. Since 1 in 6 American men will be diagnosed with 
prostate cancer at some point in their lives, it will impact on 
every family in this country. This year alone nearly 200,000 
American men will learn that they have prostate cancer; that's 
1 new prostate cancer diagnosis every 3 minutes.
    When we first got the diagnosis, we functioned in a fog, 
pulling together information on treatment options. We focused 
heavily on a cure. We wanted the disease to be gone. As we 
adjusted and learned to live with the disease, quality of life 
issues became more and more important. Some men may live for 
many years, and because the treatments may have severe and 
life-altering side effects, research must be done to minimize 
these negative side effects. The disease is going to become 
more and more a part of American life.
    Prostate cancer occurrences are increasing for the first 
time since 1997. With a baby-boomer turning 50 every 7 seconds, 
cancer incidence and mortality will rise between 20 and 30 
percent by the year 2010.
    Let me share with you some of the life-altering side 
effects my husband, Bill, and other men treated for prostate 
cancer have to deal with: impotence, incontinence, hot flashes, 
fatigue, bloating, loss of appetite, loss of libido, 
depression, distractibility, memory problems, irritability, and 
the one I hear the most jokes about, the growth of breasts. 
There must be a solution to improve the quality of life that is 
so diminished during this experience.
    The facts about prostate cancer are frightening. The risk 
of prostate cancer in American men doubles if a man has one 
close relative with the disease. It goes up 5-fold with two 
close relatives with prostate cancer. The chances become 
approximately 97 percent with 3 close relatives. African-
American men are twice as likely to die from prostate cancer. 
According to Kenneth Bryant, M.D., about half of the African-
American men have advanced prostate cancer by the time they 
come in for a physical exam.
    It is easy to prevent if we encourage these men to come in 
for a routine physical and prostate exam once a year.
    More research has been done recently on prostate cancer, 
and survivors are reading and awaiting a medication that will 
give them an alternative to the standard hormone therapy, which 
is given commonly to men who are or may have metastasized 
cancer. Patients and their doctors are constantly balancing 
between a cure and quality of life. Anything that research can 
do to make the tools available to do that more easily would be 
very, very valuable to the patient and his family.
    During end stage disease, the issues are often similar to 
the side effects that are dealt with during earlier stages of 
the disease, but they may become gradually more severe: general 
weakness, the loss of taste and the general enjoyment of food, 
neuropathy and the discomfort that can accompany it, are added 
to the list of problems. As the bones weaken from combined 
hormone therapy and from metastasized cancer, breaks in the 
bones occur. Often these breaks are not caught immediately, and 
the patients are in severe pain.
    The other problems, such as fatigue, loss of appetite, 
irritability, loss of memory, incontinence, and fecal 
incontinence become more and more of an issue. The focus at 
this time seems to switch to pain relief. This is an issue that 
has received much press in recent months. We were lucky; our 
doctor was skilled in prescribing pain medications, and 
eventually we dealt with hospice people who understood pain 
medication better than any other professionals that we dealt 
with through the entire course of Bill's illness.
    Even with all of these facts, spending for research 
continues to lag. If unsolved, the problem of cancer will cost 
the country more than $200,000,000,000 annually by the year 
2010, twice its current level, and more than 60 times its 
yearly investment in research to find cures.
    A cure for cancer would infuse $46,000,000,000 into the 
American economy, according to University of Chicago economist 
Kevin Murphy and Nobel Laureate Gary Becker. This is more than 
the total assets of the United States and about 15,000 times 
the current annual investment in research to beat these 
diseases.
    At this time I will share a letter from an Internet support 
group that I received this week:
    ``Hi, everyone. My name is DeeDee, and I'm hoping to find 
new friends here. I have a husband with prostate cancer. He was 
diagnosed 2 years ago when I was 8 weeks pregnant. He had a 
radical prostatectomy a month before the birth of our son. Now 
he has a PSA rise and we're pursing information on our options.
    ``My husband is a young man of 53 years old; I'm close to 
40. I'm a first-time mom. Are there any mothers of toddlers out 
there? What a challenge this has been for us with prostate 
cancer and an infant.''
    When I asked her if I could share her letter with you, her 
response was an enthusiastic yes, and she added strongly, ``We 
need more research money for sure.''
    I could go on and on telling you about my friends who have 
to deal with this disease, but some of them are here with me 
today. Would everyone in the audience whose life has been 
impacted by prostate cancer, please stand up.
    As you can see, there are many men and women, and there was 
a 2-year-old here whose dad was diagnosed at age 44, but he 
just couldn't hold out long enough.
    If I achieve nothing else today, I want you to realize that 
this is not just an old man's disease that is easy to control. 
It impacts in a devastating way the lives of thousands of men, 
women, and children every year. Not everyone is easily cured, 
and those that are live with the specter of the disease 
returning at any time.
    At the National Prostate Cancer Coalition we are working to 
end prostate cancer as a serious health concern for men and 
their families, but there is one fact that brings hope: 
innovative and promising medical research can make enormous 
progress in the fight to treat and end prostate cancer. Medical 
research can lead to a cure.
    The research will only happen if our Nation takes this 
deadly epidemic seriously and if our national elected leaders 
make prostate cancer research a priority.
    The key to promising prostate cancer research is ensuring 
that the funds exist to conduct it, and only you can do that.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Northup. Thank you for sharing your story and your 
time with us. It was very moving. I can promise you that we are 
eager to fund every dollar in the budget that we can and 
dedicate it to research on prostate cancer and other cancers 
and the other diseases. Thank you.
    Ms. Meade. Thank you.
    Mrs. Northup. The subcommittee will recess until 2:00 
o'clock.
                              ----------                              


                           AFTERNOON SESSION

                                          Wednesday, April 5, 2000.

        THURGOOD MARSHALL LEGAL EDUCATIONAL OPPORTUNITY PROGRAM


                                WITNESS

WILLIAM G. PAUL, PRESIDENT, AMERICAN BAR ASSOCIATION
    Mr. Porter. The Subcommittee will come to order.
    This is a public witness hearing for the budget for the 
Departments of Labor, Health and Human Services and Education 
and Related Agencies for the fiscal year 2001. This is our last 
session of public witnesses. We have heard to date over 200 
witnesses and we welcome all of you here this afternoon.
    In order to keep on our schedule, we have a clock. We keep 
ourselves on the clock when we have hearings and ask questions. 
We ask every witness to limit their remarks to five minutes. 
The timer will beep when your time is up and we ask you at that 
point in time to summarize your statement as quickly as 
possible.
    I have to remind witnesses of House rules. In addition to 
their written statement, a non-governmental witness must submit 
a curriculum vitae and a statement of Federal grant or contract 
funds that they or the entity they represent have received. If 
you have any questions regarding this rule or its application 
to you or the group you represent, please contact the 
Subcommittee staff.
    With that, the Chair recognizes Mr. Hoyer.
    Mr. Hoyer. Actually, Mr. Blakey, who's a long-time 
associate of mine, Mr. Chairman, does some pro bono work for 
the American Bar Association, and particularly a program that 
the President of the Bar Association is going to speak to, and 
I am very pleased to be here to welcome our first witness, 
William Paul, a very distinguished attorney from Oklahoma.
    However, I am constrained to note that he is Mr. Istook's 
constituent. And Mr. Istook, therefore, may want to say a word 
as well. But we certainly welcome him. Obviously in the 
professional field, being President of the Bar Association, 
being selected by your colleagues from throughout the United 
States to lead the American Bar Association is indeed an 
extraordinarily prestigious event in one's life, and emblematic 
of the respect with which you are held by your colleagues and 
your peers. So I know that we'll be very pleased to hear from 
him.
    Mr. Porter. Thank you, Mr. Hoyer.
    Mr. Istook.
    Mr. Istook. Thank you, Mr. Chairman.
    I'm very glad to have Mr. Paul here. As Steny correctly 
notes, he is an Oklahoman with a distinguished background. He's 
worked for some of the notable companies, Kerr McGee in 
Oklahoma City, Phillips petroleum in Bartlesville, all in the 
Fifth District. And of course, now back in private practice of 
law. And we run into each other sometimes on the airplane 
coming to and from.
    So we're very pleased to have him serving as the head of 
the American Bar Association and delighted that he's taking 
time to be with us today.
    Mr. Porter. William G. Paul, the President of the American 
Bar Association, testifying in behalf of the Association.
    Mr. Paul. Thank you very much, Chairman Porter, and thank 
you, Congressman Hoyer and Congressman Istook, for those 
wonderful introductory remarks. I appreciate it. Not only am I 
an Oklahoman, as Congressman Istook stated, but I live in his 
district and have from the time he was elected and of course we 
are each members of the same profession.
    I am here today to ask for a renewal of the assistance of 
the Federal Government in providing an opportunity for low 
income and minority students to go to law school. I'm a 
practicing attorney with a law firm in Oklahoma City. And it's 
my privilege this year to lead the American Bar Association. 
It's indeed a privilege to have the opportunity to testify here 
in support of fiscal year 2001 funding for the Thurgood 
Marshall Legal Education Opportunity Program.
    Now, the association that I represent is the largest 
voluntary professional association in the world. We have over 
400,000 members. We do a lot of things. We provide law school 
accreditation, continuing legal education for our members, 
programs to assist lawyers and judges in their work, and 
perhaps most important of all, initiatives to improve the 
justice system of the Nation.
    Because of its importance to both our profession and to 
society, I chose in my year of leadership to make increasing 
the level of representation of minority and ethnic lawyers in 
the profession the highest priority, to increase racial and 
ethnic diversity at all levels of the legal profession. And I'd 
like to tell you briefly why.
    Why is it in the interest of the Federal Government to help 
foster diversity in the legal profession? There is no other 
profession where diversity is more important than the legal 
profession. It is the connecting link between the people and 
the rule of law.
    From the ranks of the legal profession are drawn those that 
administer our justice system. Key decision makers throughout 
society are lawyers. They lead law firms, they lead 
corporations, and a particularly high number of lawyers enter 
public service through government positions, and become 
officials in the State, the Federal, local governments. They 
become governors, judges and cabinet members.
    Today, 39 percent of your colleagues in the House are 
lawyers. Fifty-seven percent of the members of the Senate are 
lawyers. And providing an opportunity for low income and 
minority students to study law ought to be a national priority.
    Public trust and confidence in the justice system in our 
society is essential for it to work. Our government doesn't 
become imposed from the top down. Our government is supported 
by trust and confidence from the bottom up. And we have a 
serious problem in the Nation. The legal profession must 
reflect the general society. And it doesn't.
    Today we are a Nation, 30 percent people of color, moving 
toward 50 percent. And today the legal profession is 92 and a 
half percent white. And what kind of problems does this create, 
and what will be the magnitude of these problems in the future?
    We are trying to do something about it, in addition to 
asking for Federal Government assistance. And I'll come to 
that. But first I want to tell you about some data that we 
have. Last year, in preparation for a symposium on public 
perceptions of the justice system, we commissioned a national 
study to see what Americans think of the justice system.
    One of the disturbing results was that there is a 
widespread belief that not everyone is treated fairly by our 
system of justice. Fifty percent of those polled think that law 
enforcement treats minorities differently than they treat white 
people. And 47 percent felt that courts do not treat all racial 
and ethnic groups the same.
    Now, these perceptions must be a cause of great concern to 
all of us who work to improve the administration of justice. 
Now, one key to addressing the problem of the perception of 
unfairness is to ensure that those responsible for the 
administration of justice, judges, prosecutors, public 
defenders, law makers, reflect the growing diversity of the 
population.
    But in order to do this, we must encourage young persons of 
varied racial and ethnic backgrounds to pursue careers in law. 
We've been working at it, and we've made progress, but not 
nearly enough. And so much remains to be done.
    The number of minority law students has risen over the past 
30 years. It was less than 1 percent in 1968. It grew to 5 
percent in 1980. And as I mentioned earlier, it's 7 and a half 
percent today. So the numbers aren't increasing at anything 
like the percentage of minorities, people of color represented 
in the general population.
    Now, the Congress took a very important step in encouraging 
diversity in the legal profession by authorizing the Thurgood 
Marshall Legal Education Opportunity Program in the Higher 
Education Act Amendments of 1998. And that program is a multi-
faceted initiative to encourage qualified low income minority 
and disadvantaged students to pursue legal education. Not only 
just people of color, but low income people, whatever their 
color or ethnicity may be.
    Now, our program and our focus this year in the American 
Bar Association has been on members of racial and ethnic 
minorities. This program that I'm here supporting today is not 
so limited. It is directed to low income and minorities. But I 
am speaking to you about the great need for assistance in 
increasing the number of minorities in the legal profession and 
it costs a lot of money and takes a lot of time and a lot of 
effort to finish law school and become a lawyer.
    Now, our association joined with other organizations to 
create the Council on Legal Educational Opportunity, which 
would be the recipient of the $5 million authorized that I hope 
will be funded. In 1968, it was created as a means of 
addressing the problem of under-representation in the legal 
profession of minorities and others we felt disadvantaged.
    Currently, over 100 law schools around the country are 
involved with the council as a member of the institutions that 
support it. And they've been doing a wonderful job. And they 
had Federal funding until 1996. They've had none since 1996.
    They've gotten out and they've raised their own money and 
they've stayed alive. But they have not been able to raise 
enough money to have any money for financial assistance for it 
to defray a portion of the cost of tuition and law school. 
That's where there is a great need.
    And if you could and would fund this organization to the 
extent of $5 million, then there will be money to do that.
    Now, I know I'm limited to five minutes, and I want to take 
just a few minutes to tell you what we've done in the American 
Bar Association this year. I believe in self-help to the extent 
you can help yourself. It's our responsibility in the American 
Bar Association to help the entire profession.
    So we have attacked this problem with renewed vigor this 
year. One of the things we did was to create a scholarship 
fund, the American Bar Association Legal Opportunity 
Scholarship Fund. We set a goal of $1 million at the end of the 
first year. We need a lot more money than that, but we wanted a 
goal we thought we could achieve. We got there in five months, 
not a year. And we have $1,300,000 today.
    And we put the word out to those who would like to be 
considered for a grant of $5,000 a year to apply on tuition for 
three years of law school. And the deadline for those 
applications was two days ago, and we received over 1,200 
applications.
    Well, not all those 1,200 can be admitted to law school. 
But a great many of them can. And we can only fund a few. Only 
a few.
    With this $5 million, which in the order of things is not 
that much money, we would have powerful, powerful help in 
granting more scholarships to more people. And we in the 
American Bar Association can make available to CLEO, to this 
Council, all of these applications for funding that we have 
received, where we've identified the wonderful candidates to go 
to law school and become members of the legal profession.
    So I will close by thanking you for the high privilege of 
being here, the privilege of appearing before this prestigious 
Subcommittee and my own Congressman. I hope that I have 
succeeded in underlining for you the critical importance of 
this initiative. And I hope that I've succeeded in convincing 
you that we have put our money where our mouth is. But we don't 
have enough money, and we need more.
    Thank you. I'm happy to respond to questions, probably 
whether they want to or not.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Paul. We very much appreciate 
your testimony and we'll do the best we can to respond.
    Mr. Istook.
    Mr. Istook. I think Mr. Paul has covered so many aspects of 
the program, including some of the mechanics of it. So again, I 
appreciate your taking the time to do it. And thank you for 
your commitment and devotion to public service.
    Mr. Paul. Thank you, Congressman, and thank you for yours. 
Thank all of you.
                              ----------                              

                                          Wednesday, April 5, 2000.

                  OKLAHOMA MEDICAL RESEARCH FOUNDATION


                                WITNESS

J. DONALD CAPRA, PRESIDENT, OKLAHOMA MEDICAL RESEARCH FOUNDATION
    Mr. Istook. Mr. Chairman, our next person to testify is, as 
it so happens, another Oklahoman. Although if Mr. Bonilla were 
here, we'd be talking about the fact that he's actually a 
transplant from Texas. He came north of the Red River just a 
short number of years ago.
    Dr. Don Capra heads the Oklahoma Medical Research 
Foundation. We're very fortunate in Oklahoma to have not only 
some very premier public medical facilities, but there are not 
a great number of private medical research foundations within 
the country, certainly not many of the calibre of the Oklahoma 
Medical Research Foundation.
    And with the goal, of course, that we have expressed with 
doubling the medical research dollars within the country, one 
of the important goals of that is making sure that the benefits 
of medical research penetrate all through the country. And that 
only happens if we have the critical mass of researchers, 
clinical physicians, teaching hospitals and facilities in an 
area where this knowledge and the latest advances are 
disseminated and communicated.
    It's with that in mind that Dr. Capra will be testifying, 
with one of the challenges of making sure that the research 
dollars don't just go to the established institutions that have 
been receiving great amounts, but do disseminate throughout the 
country, so that all citizens, wherever they may be, may have 
more of a chance to benefit from it.
    Now, I'm kind of getting into his testimony, so I'd better 
stop, and I appreciate Dr. Capra taking the time to be with us.
    Mr. Porter. Thank you, Mr. Istook.
    Dr. Capra, welcome.
    Dr. Capra. Thank you. I want to start, Chairman Porter, by 
thanking you, as a biomedical scientist, and a member of the 
American Association of Immunologists, and as president of the 
Henry Kunkel Society, for your support for biomedical research 
over the years. I believe in 1994 our association gave you its 
first public service award, and we're tremendously grateful for 
the work that you've done over the years.
    I'm not going to have time to go through my testimony, so I 
want to make three points and then talk to these two charts 
I've put before you. First, I'd like to make the point that Mr. 
Istook just made, that there's a tremendous disproportionate 
representation of the support for biomedical research 
throughout the country. Secondly, that the States that are 
disadvantaged have no capacity to catch up. And third, that the 
NIH EPSCOR or IDEA program is one that I hope you can support 
as a way of remedying some of these difficulties.
    If you turn your attention to these two charts, the one on 
your left would be the first to notice, it helps us understand 
the concept of proportionality in biomedical research. This 
Committee and this Congress provides approximately $12.5 
billion every year in extramural grant support to the 
biomedical research institutions in the country. That turns out 
to be roughly $50 for every man, woman and child in the United 
States, actually $47, as you see on the left chart.
    However, many States, like my own in Oklahoma, receive 
substantially less than that. And Oklahoma, as you can see, 
receives approximately $12, or only about 25 percent, of the 
national average. Put another way, over half the money that you 
appropriate goes to five States. And 21 States are fighting for 
5 percent or roughly $700 million.
    And it is to that issue that I would like to address, and 
the easiest way to look at that is on your right. Over a 
quarter of a century ago, Congress established the EPSCOR 
principle, that is, States that were receiving the lower 
percentages of biomedical funding would have some money set 
aside. Last year, this Committee and this Congress voted $40 
million in the IDEA program, the NIH equivalent of this. And 
those monies are now being competed for among these 21 States.
    To give you an idea of the disproportionality here, I have 
illustrated on this chart the fact that the combined IDEA 
States last year received approximately $800 million in NIH 
grant awards, and the State of Pennsylvania, with one quarter 
of the population of all of those States, received more than 
that.
    The State of Maryland, with a population of 5 million 
people, received even more money. And the State of Texas, with 
about the same population, received slightly less. So what 
we're talking about, the issue is that there are many more 
biomedical researchers in those States. And how did we get to 
this point is one that we can look back on our forefathers and 
ask why they made decisions that they did. But what we're left 
with today is a circumstance where these disadvantaged States 
have no way of catching up, particularly in the area of 
construction.
    I urge you, then, to support the $200 million IDEA or NIH 
EPSCOR initiative. This represents approximately 10 percent of 
the likely increase in the NIH budget, less than 1 percent of 
the total NIH budget. It would help these States by immediately 
providing an almost 25 percent increase in their NIH funds, 
particularly at the level of construction, which is the most 
dire needed in the country.
    I know my time is limited, so let me simply close by saying 
that biomedical research, the advances and breakthroughs that 
are happening all over the country touch everyone. And I'm 
hoping that you will agree with me that support of the NIH 
EPSCOR or IDEA program is a valuable and useful way that the 
Federal Government can participate in these advances.
    Thank you, and again, I welcome any of your questions.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Capra, thank you for your testimony. So 
that we don't leave the wrong impression, of course, we don't 
fund medical research by States. We don't even fund it by 
diseases. We fund it by institutes at the NIH, who then compete 
for research proposals on a peer reviewed basis, and they go 
where the best science exists.
    On the other hand, we do understand that those research 
institutions that have been very successful at this tend to 
attract other researchers and the rich get richer and the 
others don't get anything. And we do consider this to be a 
very, very serious problem. And that's why the IDEA program 
exists, that's why Mr. Istook, among others, and Mr. Wicker, on 
the Subcommittee, have been such strong advocates for it.
    And we are very cognizant that we need to do more to make 
this a more level playing field where the competition can exist 
across all lines and across the country, large institutions, 
small institutions, wealthy States, less wealthy States. And we 
will obviously take your remarks to heart. It is, I think, a 
very important aspect of what we do, and I think NIH is very 
strongly supportive of it, by the way, as well.
    Dr. Capra. Thank you, Mr. Porter.
    Mr. Porter. Mr. Istook.
    Mr. Istook. Thank you.
    First, let me say, Mr. Chairman, I certainly appreciate 
your level of understanding and interest in this issue. I think 
you certainly grasp the situation.
    Let me just pose one question, if I may, Dr. Capra. Because 
we know that on a national basis, as Chairman Porter correctly 
states, we don't fund things based on a per capita formula. 
We're trying to fund medical research for the benefit of the 
country as a whole as well as the different areas within the 
country.
    Would you just address briefly for us what difference does 
the existence of medical research funding in different 
communities, spreading it across the country that way, what 
difference does that make to the quality of the health care 
that can be delivered in those communities because they have 
this component as part of it?
    Dr. Capra. I think patients understand, people understand 
that where research is being done, that's where the quality 
care is. And Oklahoma, for example, is a net exporter of 
medical care right now. Because people leave the State because 
they perceive that other States and other institutions are 
doing better research in particular areas.
    So I would submit that had we better research in Oklahoma, 
we would retain those patients, and more importantly, we would 
provide better care for those patients, because we would have 
research and clinical areas welded together as they are in some 
of the great institutions of this country, which I've been a 
part of. I've been a part of Southwestern Medical School in 
Dallas for 25 years. So I know how that works.
    Mr. Porter. Dr. Capra, thank you. I'm sorry we have to cut 
it short, but there's only a few minutes left in this vote.
    Dr. Capra. Thank you very much.
    Mr. Porter. The Subcommittee will stand in recess for two 
votes.
    [Recess.]
                              ----------                              


                       Wednesday, April 5, 2000.


              AMERICAN ASSOCIATION OF COLLEGES OF NURSING


                                WITNESS

JANET D. ALLAN, DEAN, SCHOOL OF NURSING, UNIVERSITY OF TEXAS, HEALTH 
    SCIENCES CENTER
    Mr. Porter. The Subcommittee will come to order.
    We continue our hearing. Our next witness is Dr. Janet D. 
Allan, Dean of the School of Nursing at the University of 
Texas, Health Sciences Center, in San Antonio, Texas, 
testifying in behalf of the American Association of Colleges of 
Nursing.
    Dr. Allan.
    Ms. Allan. Good afternoon, Mr. Chairman. I won't say 
members of the Subcommittee, since I'm talking to you. 
[Laughter.]
    My name is Janet Allan, and I'm the Dean of the School of 
Nursing at the University of Texas, Health Sciences Center, in 
San Antonio. And I really appreciate the opportunity to present 
the funding recommendations for the American Association of 
Colleges of Nursing for nursing research and nursing education 
programs that are under the jurisdiction of this Committee.
    AACN, as you know, represents over 540 baccalaureate and 
graduate programs of nursing across the United States. And the 
University of Texas Health Science Center in San Antonio is in 
the district of your colleague and Subcommittee member, Mr. 
Bonilla, and I'm sorry that he's not here today. We certainly 
have appreciated the leadership of this Subcommittee and Mr. 
Bonilla over the years on issues of importance to health and to 
health education.
    Today, I want to focus on three major funding priorities 
that are within the jurisdiction of the Committee, why these 
programs are important to the health of the country, and also 
to give you some examples from my own school, the University of 
Texas Health Sciences Center at San Antonio, and how programs 
have affected my school as well as the citizens of south Texas.
    First, in terms of the National Institute of Nursing 
Research, I want to thank you and the Subcommittee on behalf of 
the entire nursing community for supporting a significant 
increase in NINR funding for fiscal year 2000, a $20 million 
increase over fiscal year 1999. Mr. Chairman, unfortunately, 
the excellent progress made by the Subcommittee last year is 
threatened by the Administration's 2001 request of an increase 
of only $3 million. This is the lowest proposed increase of all 
NIH institutes and centers.
    As you can see on this chart, the funding level proposed by 
the Administration for next year would plunge NINR's funding 
success rate to 14 percent from 24 percent, as it is this year, 
compared to a 26 percent success rate projected for NIH 
overall. It really essentially means that we cannot fund as 
many of the quality proposals that come to NIH and then are 
approved.
    The American Association of Colleges of Nursing, supported 
by the entire nursing community, urges that for fiscal year 
2001, the NINR be funded at $110 million, or $17.476 million 
more than the Administration's request. Nursing research 
contributes to wellness and improving the health outcomes of 
the public. As many of you know, NINR is the NIH lead institute 
to coordinate research on end of life care, which is critically 
important to our aging population.
    I want to call your attention to two nursing studies on 
display that have made a difference to the health of a group of 
individuals and resulted in cost savings. The first study, the 
transitional care model for the elderly, may be familiar to 
you. This is a study in which advance practice nurses planned, 
monitored and coordinated individualized care in the hospital 
and the home for over 177 elderly at-risk patients. Medicare 
savings amounted to over $600,000, and the number of 
readmissions, patient hospital days and complications were 
reduced as compared to the control group.
    The second study, which relates to improved outcomes in low 
income pregnant women, a culturally sensitive intervention 
model was used with 880 minority women and resulted in, as you 
can see by the chart, a 19 percent reduction in low birth 
weight babies, a 96 percent reduction in emergency room visits, 
and a 19 percent reduction in costs, or a savings of $286,000 
avoided ER visits per 100 deliveries. Certainly a decrease in 
low birth weight babies is a positive health outcome for our 
Nation.
    The second area I want to speak about is the Nurse 
Education Act, or Title 8. Specifically, Title 8 funds schools 
to train generic and advanced practice nurses, such as nurse 
practitioners, public health nurses, and provides traineeships 
for masters and doctoral students. Given the changing 
demographics in our country, as well as the strong movement 
toward community based primary care, there continues to be a 
need for community health and advanced practice nurses, 
certainly, particularly in a rural State like Texas.
    In my own school, we have been fortunate to have two 
advanced education nursing grants. Since 1995, when we 
initiated a family nurse practitioner program, we have 
graduated over 112 nurse practitioners. Forty percent of those 
graduates are minority nurses, and 60 percent of the graduates 
are currently working in medically underserved and health 
professional shortage areas, mostly in Texas.
    I urge the Committee to support AACN's recommendation of 
$78 million for the Nurse Education Act in fiscal year 2001 for 
Title 8. That is $10.2 million more than requested by the 
Administration.
    The final funding area that I ask for your consideration is 
the scholarships for disadvantaged students under Title 7. This 
program provides funds to disadvantaged and minority health 
professional students, and is the major Federal scholarship 
program for nursing undergraduate students.
    Nationally, only 1.6 percent of all nurses are Hispanic, 
and 4.2 percent are African-American. Given the growing 
diversity in our country, we really need more minority prepared 
nurses. I want to give you one example from our own school of a 
student who benefitted from this program.
    Her name was Tina Ivey, and she's a student of Hispanic 
heritage from Uvalde County, a county where 60 percent of the 
children live in poverty. She received a scholarship and was 
able to graduate in 1996 with a baccalaureate degree and a 4.0 
GPA. And she has returned to her community to practice.
    I urge the Committee to support AACN's recommendation of 
$43.7 million for scholarships for disadvantaged students for 
fiscal year 2001. This is a $5.6 million increase over the 2000 
level.
    In closing, I would urge the Subcommittee to support for 
fiscal year 2001 funding levels of $110 million for the 
National Institute of Nursing Research, $78 million for the 
Nurse Education Act, and $43.8 million for scholarships for 
disadvantaged students.
    Thank you for this opportunity to testify. And I'd be very 
happy to answer any questions.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Allan, thank you very much for coming to 
testify. We very much appreciate it, and we'll do the best that 
we can.
    Ms. Allan. Thank you very much.
                              ----------                              

                                          Wednesday, April 5, 2000.

                         FAMILIAL DYSAUTONOMIA


                                WITNESS

KENNETH M. SLAW, A CITIZEN AND PARENT
    Mr. Porter. Dr. Kenneth M. Slaw, a private citizen and 
parent, testifying respecting familial dysautonomia.
    Dr. Slaw.
    Mr. Slaw. Thank you, Congressman Porter, for this wonderful 
opportunity to be here as a representative of your district. It 
also gives me a chance to thank you for all of your efforts in 
your career for all the wonderful things you've done for us. 
Thank you very much.
    And I'd also like to thank Francine, who helped out in 
rescheduling my testimony. The last time I was scheduled to 
testify, my son was hospitalized, and I appreciate the 
flexibility to let me come back.
    You have my testimony with the specifics of my story. I'm 
not here representing any organization, I'm here as a parent. 
I'm just a dad of a child with special needs, who's trying to 
figure out how to balance raising a child with special needs in 
a morass of health care that I'm going to be asking you to take 
some steps, hopefully, to help us with.
    Andrew is eight years old. He's a child who is challenged 
by a life threatening illness that's genetic in origin called 
familial dysautonomia. That means that he was born with half 
the neurons in his autonomic nervous system, which essentially 
means that all of the things that all of us do automatically, 
regulate our heart rate, our blood pressure, are things that he 
has a great deal of trouble with.
    It's very rare, there are only 500 diagnosed cases in the 
world, of which Andrew is now one of 300 survivors. Andrew is 8 
years old and he's had 12 hospitalizations in his 8 years of 
life. He's a very bright boy, with 130 i.q., running around in 
a very medically unstable body.
    I'm here to ask for your help in two main areas. First, as 
you are well aware, we're at the front gate of a new age 
regarding the human genome. Research into genetic illnesses 
holds the hope and prayers of millions today, especially 
children who have no hope for a cure. Andrew is eight years 
old. It is very realistic that in Andrew's lifetime, FD can be 
eradicated.
    Please, as the Appropriations Committee, send an even 
stronger funding stream into genetic research, testing, 
therapies and counseling. Funding should include not only those 
disorders that affect large portions of the population, but 
some of the more obscure, life threatening illnesses, such as 
familial dysautonomia.
    Second, as members of Congress, I know you will continue to 
debate and discuss the future of health care in this country. I 
felt strongly about coming here to talk with you, because our 
experience as a family in managing the process of managed care 
for my son I believe has made our family sicker. Families 
caring for special needs children are challenged at every turn, 
financially, emotionally, physically. For the most part, 
families meet these challenges with courage, innovation, 
compassion. You hear it every day, out of the tremendous daily 
grind of caring for these kids comes inspirational stories of 
human growth and achievement.
    The challenges families like mine willingly face every day 
are hard enough. Our current system for coordinating and 
processing health care adds to the burden, when we should be 
trying to relieve burden on these families. The paperwork 
accumulated in the first eight years of Andrew's life to manage 
his care now weighs more than Andrew, 46 pounds of paper. 
Andrew weighs 45 pounds.
    The 15 to 25 hours per week it takes to process this paper 
and coordinate his care takes precious hours away from Andrew 
and his sister, Emily. We don't know how long Andrew is going 
to be with us. Every moment with him is precious. Yet when he 
comes home from school or when he wants to play at night, so 
often my wife Ann and I are spending time untangling a growing 
web of paperwork, taking time away from our children.
    The time required for all of this coordination of care 
rendered my wife, who spent so much time preparing for her 
career as an attorney, to give up her career. And so many of 
our good friends that also have children with special needs 
have had to give up their professional careers for one of the 
parents.
    So we're putting these families into a squeeze. The cost of 
caring for these children goes up, and the ability to have 
revenue income is depleted, because only one parent can work.
    So I just ask the question philosophically, I can't name 
any specific programs, but is this the best the greatest Nation 
in the world can do for health care? Is this moving us to 
become the enlightened society that we need to become in the 
21st century?
    Please think about Andrew's story the next time this comes 
up for debate in Congress.
    There are five things that I wanted to suggest very quickly 
that you can do to help families. Pass a patient's bill of 
rights. Require mandatory disclosure of customer satisfaction 
data from insurance companies, so that the consumer can make 
intelligent, informed decisions based on how quickly these 
claims get processed and who's doing a good job and who is not.
    Ensure that all children have insurance, and that they have 
access to the best trained pediatricians, specialists and other 
physicians and practitioners that they need. And specifically 
to help families provide enhanced funding to help families with 
the coordination aspect of care.
    We're doing a fairly good job in many cases with the 
medical aspects of care. But where the families are really 
hurting, where my family is really hurting, is help with the 
coordination. It's become a half to full time job for most 
families.
    And then finally, please provide enhanced funding to help 
create a broader network of family to family communication, 
either through the internet or list serves or through other 
mechanisms. What I've found with familial dysautonomia, with 
only 500 families in the world, now 300 with survivors, the 
greatest help that I've received is getting on the internet and 
talking to other families.
    And if we can create more of a funding base to establish 
these types of networks throughout the country for all 
illnesses, I think it will really help the families cope as 
well as find better ways to process through what needs to be 
processed through, and to help their children.
    So thank you for this opportunity to come before you and to 
testify. And on behalf of all families, at least the ones that 
I know and have talked to, I just truly appreciate the 
opportunity to talk about this in a broader setting.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Dr. Slaw. I appreciate your coming 
all the way out from home to speak about this publicly. You and 
I talked in my office and you told me your wife Ann had to give 
up her career and spend full time managing it, which is quite a 
statement about the burden of the management and paperwork and 
coordination that is needed.
    We have passed the patient's bill of rights and sent it 
over to the Senate. It does, I believe, require disclosure as 
well. I agree with you about getting the insurance coverage for 
all Americans, not just all children, all Americans. And we 
haven't made much progress on that. We will do what we can to 
address the other issues that you raised, including of course 
funding for research that is the hope of kids in the future.
    Thank you for being with us. Thank you for testifying.
    Mr. Slaw. Thank you, Congressman.
                              ----------                              

                                          Wednesday, April 5, 2000.

                        EASTER SEALS OF ARKANSAS


                                WITNESS

SHARON MOONE-JOCHUMS, PRESIDENT, EASTER SEALS OF ARKANSAS
    Mr. Porter. Mr. Dickey.
    Mr. Dickey. Thank you, Mr. Chairman.
    I wanted to take a minute to introduce to you Ms. Sharon 
Moone-Jochums, President of the Easter Seals of Arkansas. While 
Ms. Moone-Jochums has been with the Easter Seals since 1991, I 
wanted to mention that earlier, she served in Pine Bluff, my 
home town, as the Director of Pine Bluff Youth Home, from 1982 
to 1984.
    For the past three years, I have joined Ms. Moone-Jochums 
and Easter Seals in an effort to eliminate chronic gaps in 
services and support for children with disabilities in the 
Mississippi Delta, which also contains the Arkansas Delta. 
Although the Delta remains one of the most remote, impoverished 
and underserved regions in the country, Easter Seals is on the 
front lines trying to address this gap in service.
    Ms. Moone-Jochums and the Easter Seals are dedicated to 
helping children and adults with disabilities achieve 
independence and it is with pleasure that I introduce you to 
her. Sharon Moone-Jochums, welcome.
    Ms. Moone-Jochums. Thank you, Congressman Dickey and Mr. 
Chairman. I appreciate this opportunity to appear before you 
today and talk a little bit about a program that you have 
helped fund called the Mississippi Delta Easter Seals Project. 
Families in the Delta, I have to just talk a little bit about 
the needs of the Delta. We have some incredible problems in the 
Delta region for Mississippi, Louisiana and Arkansas. We lack 
infrastructure oftentimes, lack of transportation, lack of 
qualified health care professionals, lack of family physicians, 
pediatricians, physical, occupational and speech therapists for 
children with special needs.
    Add to that that we have a fairly complicated system of 
health care throughout our country, and in the Delta region 
it's not any different than what the gentleman who just spoke 
before me talked about. It is a maze for families. It is a very 
difficult maze to negotiate. And when you have a child with a 
special need, you often don't know what to do for that child, 
but the child needs services.
    Our experience of 56 years in Arkansas with Easter Seals in 
treating children with special needs is early intervention can 
make all the difference between a child walking, talking, being 
able to participate in their classroom, or not having those 
skills and not being able to fully participate or develop to 
their full potential. Add to that a lack of support for 
families and families who often want to help their children but 
don't know how to help their children.
    Without the qualified professionals to intervene and help 
those children and assist families with strategies for serving 
their children and improving the health care outcomes for those 
children, we knew we couldn't make a dent. We had so many 
families in Arkansas traveling to Little Rock, where our rehab 
center is for Easter Seals, to access our services. And many of 
the families were traveling in from the Delta. Those were folks 
that had transportation, or a parent who didn't, both parents 
not working, or working, I should say, so that a family member 
was able to drive to Little Rock for those services for their 
child.
    But we have many more families without the transportation 
or without the access to services. And that's how the 
Mississippi Delta project idea first came about. We wanted to 
get a team of professionals that could be in the Delta. We're 
working in now 17 counties in Arkansas. We have been providing 
services, evaluations for children birth through age 12 at the 
request of health care professionals, the health department 
principally, human service offices, in some instances school 
officials have asked us to come in and evaluate children.
    What we have I think been most successful in doing besides 
the actual evaluations is connecting resources. We have a lot 
of separate systems, health has their system, human services 
has their system, department of education has their system. We 
asked families to somehow understand all that and connect all 
those pieces and somehow make sense of it all, when often the 
professionals don't even know that the other professions exist, 
even in their same town.
    So I think largely what we're doing is almost like a case 
management function. Once we've evaluated a child, we know what 
services the child needs, then we are helping the system 
connect those resources and getting the family to those 
resources. Our Delta team in Arkansas has traveled 35,000 miles 
in their first year down dirt roads to the second tree on the 
left to the third rock down here to go to families' homes to 
evaluate children, to bring toys, to bring crayons, to bring 
simple things like pieces of paper and a box of crayons that 
would help a child develop their hand-eye coordination. Giving 
simple strategies to families so that they can help their own 
children.
    But we have a lot of work to do. And in Mississippi and 
Louisiana, the same problems exist. And we have not received 
quite enough funding to be able to fully implement the Delta 
project in Mississippi and Louisiana and reach out to some of 
the children there that desperately need our help.
    Over the five years of the Delta project, which began in 
1998, we plan to place the pediatric specialists in 45 Delta 
counties and parishes in Arkansas, Louisiana and Mississippi. 
We are providing specialized training to professionals and 
technical assistance to teachers and health care professionals. 
Just in the 13 months that we have actually been running this 
project, we have provided services to over 360 children. We've 
trained 200 therapists in the 3 States and Head Start 
personnel. And we have screened almost 300 Head Start preschool 
children. During those screenings for developmental delays, 
over 22 percent of the children needed additional services, 
therapy services.
    So we are beginning to see some amazing results. And we are 
doing this now with $600,000.
    As I mentioned, we would like to be able to expand and 
fully implement the program in Mississippi and Louisiana, and 
are asking that you consider an allocation of $1.6 million in 
fiscal year 2001 to fully be able to implement this program. We 
know it can have a profound effect on the children with special 
health care needs in all three of our States in these very 
rural areas, and can make such a huge difference to families 
helping their own children.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Mr. Dickey.
    Mr. Dickey. One question. Describe how much of your budget 
goes to overhead, administrative overhead, please, Sharon.
    Ms. Moone-Jochums. Virtually none of the money is going to 
overhead. Because what we have chosen to do at Easter Seals is 
fund any kind of administrative, like our fiscal office, doing 
billing and that kind of thing, out of Easter Seals' budget, 
and not out of the Delta budget.
    So all of the money for the Delta budget is going to the 
pediatric specialists or OT, physical, speech therapists, the 
folks that are actually seeing the children. We are also 
putting some of the money towards training.
    Mr. Porter. Can I ask a question? Are you both providing 
services and the coordination?
    Ms. Moone-Jochums. Yes, sir.
    Mr. Porter. We're seeing increasingly, and our Subcommittee 
does not have jurisdiction over all the programs, by any means, 
but we're seeing increasingly the need to have some kind of a 
coordinating entity. For example, we find that if people are 
homeless, they often have drug problems or alcohol dependency 
problems or literacy problems or other kinds of problems that 
need someone to bring all these services to bear and guide them 
through it.
    Unfortunately, we have this Balkanized system that you 
described very well in your testimony where people don't know 
where to go, and they are sent from agency to agency with 
nobody handling it for them. I think we really need to work 
through this.
    We have a pilot project going in Illinois now to try to do 
that for the homeless. But it exists in a number of different 
areas. And we probably need an agency that isn't run by any of 
the agencies, such as yours, that can then provide these 
services and guide people through the process and get them the 
help that they need.
    Mr. Dickey will be here to advocate for you, as you know, 
as he has been. And I'm sure you're in good hands.
    Mr. Dickey. Let me say one other thing, Mr. Chairman, and 
that is that the, well, I've lost it. I was going to end with a 
motion that we accept her recommendation unanimously.
    Mr. Porter. Just you and I? I'm not going to wait for the 
rest of the Subcommittee. [Laughter.]
    Mr. Dickey. I have thought of the other thing. That is that 
this program will end in 2003. What we're doing is establishing 
the infrastructure and then we release it, the placenta is cut, 
in other words. It then will go and we will not be asking for 
any more funds. So I think it's a good project for that reason, 
too.
    Mr. Porter. He's already advocating. Thank you, Mr. Dickey. 
Thank you.
    Ms. Moone-Jochums. Thank you so much.
                              ----------                              

                                          Wednesday, April 5, 2000.

                 THE PROGERIA RESEARCH FOUNDATION, INC.


                                WITNESS

RABBI HAROLD KUSHNER
    Mr. Porter. Rabbi Harold Kushner, representing the Progeria 
Research Foundation, Inc.
    Rabbi Kushner?
    Rabbi Kushner. Chairman Porter, thank you very much for 
inviting me to share these thoughts with you. My name is Rabbi 
Harold Kushner. I'm Rabbi Laureate of Temple Israel in the 
Boston suburb of Natick, Massachusetts, where I've lived for 
the past 34 years.
    I'm sorry that Congressman Istook was not able to remain, 
because my first pulpit experience was in Lawton, Oklahoma, 
where I was the chaplain at Fort Sell.
    I'm also the author of several best-selling books on how 
religion can help people cope with life's problems. And I'm 
here this afternoon on behalf of the Progeria Research 
Foundation on whose board I serve.
    In November of 1966, my wife and I learned that our three 
year old son Aaron suffered from the syndrome progeria, the 
premature aging disease, that caused him to stop growing and 
start growing old as a child. He died at the age of 14 of 
ailments usually associated with the elderly.
    It was as a result of his illness and death that I wrote my 
book, When Bad Things Happen to Good People. During the years 
we were raising Aaron, we never met another family with a 
progeria child. Most doctors had never seen a child with 
progeria, and had little idea how to treat one.
    Progeria, the premature aging syndrome, is a uniformly 
fatal condition affecting 1 in approximately every 4 to 8 
million births. A child develops normally until around the age 
of 9 months, at which time growth failure begins. He never 
grows beyond 3 feet in height and typically weighs about 33 
pounds and dies in his early teens.
    These children, despite their diverse ethnic and racial 
backgrounds, look astonishingly alike. We have some photographs 
here from the annual gathering sponsored by the Sunshine 
Foundation, a group that tries to fulfill the wishes of 
chronically ill children. They meet once a year. In fact, this 
year they'll be meeting in June here in the District of 
Columbia.
    Death occurs in the early teens, usually due to heart 
disease accompanied by atherosclerosis, congestive heart 
failure and strokes.
    About a year and a half ago, we met Dr. Scott Burns and Dr. 
Leslie Gordon, a husband and wife whose then two year old son 
Sam had just been diagnosed with progeria. After that 
diagnosis, Leslie, the mother, gave up her career as a post-
doctoral research fellow to focus on efforts to understand 
progeria, perhaps to find a way to help her son and other 
people affected with the disease.
    After discovering the lack of attention to this syndrome 
and the paucity of funding for progeria research, friends and 
family, with the support of a number of nationally renowned 
sympathetic individuals, formed the Progeria Research 
Foundation. It offers grants for the study of progeria, and 
most importantly, serves as a central clearinghouse for 
physicians asking how to treat a progeria child and for parents 
wondering what has been tried and found to work, what has been 
tried and found ineffective. So that their children will not be 
subjected to unfruitful and often very painful treatment that 
we know from other experience will not help.
    It rapidly disseminates information about what is going on 
and what is helpful, and serves as a resource for families with 
a progeria child and for physicians needing the information. 
It's our hope that studying the cause and the potential 
treatment of progeria will not only help the families 
victimized by this condition, but will yield clues into the 
process of human aging.
    Mr. Chairman, I don't know if you or the members of the 
Subcommittee may have noticed an article in Friday's Washington 
Post, based on an article in the current issue of Science 
Magazine, some very exciting discoveries about the genes that 
may cause the aging process in humans. Children with progeria 
were involved in that research, comparing their cells to the 
cells of normal children and older adults. It's a very exciting 
prospect that research into this relatively rare condition will 
teach us something about why all human beings have problems as 
they grow older.
    While it's impossible to predict the results of research 
with certainty, it is tempting to speculate that we will learn 
something about the treatment of heart disease, atherosclerosis 
and aging adults, as we follow the cause of progeria.
    Mr. Chairman, we appreciate that under your leadership, 
we're in the midst of a five year plan to significantly 
increase NIH funding. We're grateful for you, for what you're 
doing in that area, the Nation is grateful to you. Through the 
help of Congressional offices, we've been in contact with 
researchers at NIH, we've learned that there is some research 
going on on Werner's Disease, a form of progeria that affects 
adults, but very little on children's progeria, Hutchinson-
Gilford Syndrome.
    We continue to have an open dialogue with individuals at 
NIH who are interested in assisting us, interested in pursuing 
research into progeria for what they might learn about it and 
about aging. The Progeria Research Foundation is asking 
Congress to be a vital partner in its educational and 
collaborative activities in the hope that a Federal investment 
will not only help families who have nowhere else to turn, but 
will yield potentially valuable and life enhancing results for 
all those people affected with atherosclerosis and congestive 
heart failure. It would not be the first time that an act of 
compassion and generosity would turn out to have unanticipated 
benefits.
    And we thank you for your consideration.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you very much, Rabbi Kushner. We will, as 
I say, do our best to try to address that.
    Rabbi Kushner. Thank you, sir.
                              ----------                              

                                          Wednesday, April 5, 2000.

            CHRONIC FATIGUE AND IMMUNE DYSFUNCTION SYNDROME


                                WITNESS

JANE PERLMUTTER, VICE CHAIRMAN, CHRONIC FATIGUE AND IMMUNE DYSFUNCTION 
    SYNDROME ASSOCIATION OF AMERICA
    Mr. Porter. Jane Perlmutter, Vice Chairman, Chronic Fatigue 
and Immune Dysfunction Syndrome, testifying in behalf of the 
committee, I guess. Is it a committee, or is there a name?
    Ms. Perlmutter. The CFIDS Association of America.
    Mr. Porter. Association. I don't have the word association 
on here. CFIDS Association.
    Ms. Perlmutter. Mr. Chairman, good afternoon and thank you 
for the opportunity to appear before the Committee today. My 
name is Jane Perlmutter, and I am the Vice Chairman of the 
CFIDS Association of America.
    I was diagnosed with chronic fatigue and immune dysfunction 
syndrome, or CFIDS, in 1991 at the age of 27. Although disabled 
by CFIDS, I wanted to help increase research toward finding a 
cure for this illness. So in 1992, I began leading local CFIDS 
advocacy efforts in New York and assisting with the CFIDS 
Association's national activities.
    On behalf of the CFIDS Association of America, I would like 
to take a moment to thank you, Chairman Porter, for the 
extraordinary support you have provided to the CFIDS community 
over the past decade. We wish you happiness and success as you 
retire from Congress.
    I would also like to thank Representative Nita Lowey for 
her support of the Westchester CFIDS Community over the years. 
As you know, CFIDS is a serious illness that bears many 
similarities to MS. Symptoms include severe exhaustion, pain in 
the muscles and joints and disabling problems with memory and 
information processing. The cause is unknown. There is no 
standard treatment, and fewer than half the patients ever 
recover.
    Studies report that 500,000 to 800,000 Americans have 
CFIDS, yet only 10 to 15 percent are diagnosed. Women, 
minorities and low income citizens are at highest risk for the 
illness.
    Today a report that while we have made some progress in 
understanding CFIDS, despite 13 years of directive language 
from this Committee, it is clear that in many cases, the 
Federal public health agencies have ignored this Committee's 
clear direction to speed scientific progress on this 
debilitating illness.
    We are deeply grateful for this Committee's actions which 
led to the full restoration of the $12.9 million erroneously 
skimmed from the CDC's CFS research program. We anxiously await 
the June release of the General Accounting Office study on 
NIH's and CDC's CFS research programs and its recommendations 
for improving the Government's CFS research program and 
restoring public confidence in CDC.
    We are concerned that the working environment at CDC is 
detrimental to its reinvigorated CFS research plan. We 
recommend to this Committee, reiterate the full restoration of 
the $12.9 million to the CFS research program over four years, 
and continue to monitor the CDC's CFS research program to 
ensure that staffing and other support enable the funds to be 
used in the most effective manner.
    Unlike past years, we suggest that no additional CFS funds 
beyond the expectation base funding and the restoration of 
misappropriated funds be allocated until CDC demonstrates that 
it is using CFS research funds to maximum benefit. CFS funding 
at NIH has remained relatively flat since 1994, despite the 
generous budget increases Congress has given to NIH in recent 
years and this Committee's repeated direction to increase CFS 
spending.
    Deepening our concern, the intramural CFS program has 
effectively been shut down since the promotion of NIH's lead 
CFS investigator, the National Center for Complementary and 
Alternative Medicine. We are hopeful that NIH's decision to 
move management of the CFS program from NIAD to the Office of 
the Director will expand interest in CFS and change the 
widespread perception in the scientific community that NIH is 
not supportive of CFS research.
    We will continue to urge NIH to expand its CFS outreach 
strategy. However, without ready funds to support CFS research, 
it will be difficult to expand the scientific effort. For this 
reason, we ask the Committee to earmark $17 million for 
extramural CFS research at NIH.
    We are pleased that during the recent appropriations 
hearings, the Secretary committed to ensuring that the accounts 
of CFS research activity and spending reported to Congress are 
thorough and accurate. We hope the Secretary will respond 
swiftly to correct problems revealed by the GAO study and will 
ensure all of the Federal agency CFS research programs are 
ambitious and productive.
    Last April, the Social Security Administration published a 
ruling to clarify the proper adjudication of CFS disability 
claims. Based on reports from CFS patients, we are pleased to 
report it appears the ruling has had a positive impact on 
reducing waste and delays in CFS disability claims. SSA's CFS 
training efforts have played an important role in removing 
obstacles to benefits, and these programs should continue.
    Mr. Chairman, your leadership and that of other members of 
this Committee has been a great source of comfort and hope for 
persons with CFIDS. And we need Congress' help to correct the 
very distressing events of last year and with clear and 
specific directives to the Federal agencies, particularly NIH 
and CDC. We have outlined additional specific requests in the 
written portion of the testimony submitted to this Committee.
    Thank you for your efforts on behalf of the 800,000 
Americans with CFS who want desperately to return to healthy, 
productive lives. And thank you for your time and attention 
this afternoon and for your thoughtful consideration of our 
request.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Ms. Perlmutter, we obviously share with you our 
great concern about the events at CDC. I think they are 
straightened out. But I also agree with you when you say that 
there has not been a sufficient attention at NIH or of course 
at CDC for this very debilitating disease. And we intend to 
have strong language that we expect to be reflected in strong 
actions at NIH and CDC to put it at a higher priority. So we'll 
do our best.
    Ms. Perlmutter. Thank you very much. We appreciate that.
    Mr. Porter. Thank you for coming to testify.
                              ----------                              

                                          Wednesday, April 5, 2000.
                           AMERICAN GASTROENTEROLOGICAL ASSOCIATION

                                WITNESS

THOMAS A. BRASITUS, PRESIDENT-ELECT, AMERICAN GASTROENTEROLOGICAL 
    ASSOCIATION
    Mr. Porter. Dr. Thomas A. Brasitus, President-Elect, 
American Gastroenterological Association, testifying in behalf 
of the association.
    Dr. Brasitus. Mr. Chairman, thank you for permitting me to 
appear and testify today. Mr. Chairman and members of the 
Committee, I am Thomas A. Brasitus. I'm currently the Walter 
Lincoln Palmer Distinguished Service Professor of Medicine at 
the University of Chicago, Professor of Nutrition at the 
University of Chicago. And until recently, for the past 17 
years, served as the chairman of the section of 
gastroenterology at the University of Chicago, and the 
president-elect of the American Gastroenterological 
Association, the AGA, and I'm scheduled to become President in 
May of this year.
    The AGA is the Nation's oldest subspecialty medical 
society. It's over 100 years old. It represents over 10,000 
physicians and scientists who are involved in research, 
clinical practice and education on disorders of the digestive 
disease tract.
    We are grateful to once again have the opportunity to 
provide this Subcommittee with an update on the current status 
of federally supported digestive diseases research programs and 
the areas in need of more intensified activities. However, 
before I begin that update, I would like to personally take 
this moment to thank you, Mr. Porter, for your years of service 
on the Committee and in Congress, and especially to millions of 
Americans who suffer from digestive diseases. We really 
appreciate it.
    In 1966, Mr. Chairman, you and your colleagues on this 
panel and in the Senate established the unprecedented and 
frankly unbelievable goal of doubling the NIH budget over five 
years. Thanks to your vision, guidance and commitment, we are 
now on the verge of achieving that goal and ensuring America's 
leadership in the global biomedical research endeavor. We urge 
Congress to stay this course by increasing funding for the NIH 
and its components, NIDDK, NCI and NIAID programs by 15 percent 
above last year's funding levels.
    In our testimony submitted for the record, we have detailed 
the strides that have been made in solving many of the most 
troubling problems associated with gastrointestinal illnesses, 
especially in the areas of gastrointestinal cancer, 
inflammatory bowel disease, irritable bowel disorders and food 
borne illnesses, and funding recommended levels will enable us 
to maintain our progress in ameliorating these very important 
diseases.
    In the statement here today, however, AGA would like to 
emphasize the need for augmenting research in one particular 
troubling area, and that's gastrointestinal cancer. By now, the 
statistics are very familiar and painful. Approximately 225,000 
new cases of gastrointestinal cancer are diagnosed each year, 
and sadly, over 130,00 Americans will die from cancer this year 
alone.
    The most common GI cancers involve the colon and rectum, 
stomach, esophagus and pancreas. Colon cancer alone is the 
second leading cause of cancer-related deaths in the United 
States and ranks fourth as the most common form of cancer. And 
as you are well aware, last month was colon cancer awareness 
month. I'm not sure it's generally appreciated, but it is very 
important that a couple of things about colon cancer, one is 
that males, it's one of the only major cancers in which males 
and females have equal risk. Second, that it's got a poor 
prognosis in the African American population, as do some of the 
other GI cancers.
    All cancers are devastating, but these cancers are very 
lethal. And it saddens me to report that for example, 28,000 
Americans will die of pancreatic cancer alone this year.
    So there's a lot to be done. And we encourage this 
Subcommittee to urge the appropriate NIH institutes, including 
the NCI and the NIDDK, to further dedicate appropriate 
resources to important areas of study, studies identified in 
our testimony, particularly those I just mentioned. We need to 
better understand the genetics of these cancers, enabling us to 
develop diagnostic tests, to detect genetic abnormalities that 
predispose a person to these diseases.
    We need to enhance our understanding of the environmental 
factors that relate to and hasten the development of these 
cancers. And we would like to recommend a special focus on 
esophageal and stomach cancer, which is really two of the 
cancers that have been neglected through the years. It's 
projected that over 33 million Americans will be diagnosed and 
over 25,000 will die from these cancers this year alone.
    This often remains undetected because they are asymptomatic 
or have vague symptoms. Less than 20 percent of patients with 
stomach cancer are diagnosed at an early age. Both are more 
common in African Americans, Hispanics and Asian Americans. And 
heightened concern to our organization is that Barrett's 
esophagus, a precursor to esophageal cancer, and the 
relationship between Barrett's and chronic reflux diseases 
seems to occur, seems to be increasing in frequency and we're 
not sure why.
    We urge Congress to direct the NCI to fund progress review 
group on esophageal and stomach cancers to further study these 
deadly diseases.
    In conclusion, Mr. Chairman and members of the 
Subcommittee, I want to again urge you to stay the course and 
to provide 15 percent increase for the NIH and to maintain the 
commitment towards doubling the biomedical research budget. 
Thank you for your attention. We really appreciate it.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Brasitus, the wife of our colleague, Mr. 
Hoyer of Maryland, died of gastrointestinal cancer within a 
couple of years ago. I lost a good friend two weeks ago to 
pancreatic cancer. And we do realize how serious these diseases 
are and how much the resources help to get us closer to 
protecting people from it in the future. So we will do our very 
best.
    Dr. Brasitus. I appreciate that very much.
    Mr. Porter. Thank you for your testimony.
    Dr. Brasitus. Thank you very much.
                              ----------                              

                                          Wednesday, April 5, 2000.

                   THE SAN FRANCISCO AIDS FOUNDATION


                                WITNESS

ERNEST C. HOPKINS, DIRECTOR OF FEDERAL AFFAIRS, SAN FRANCISCO AIDS 
    FOUNDATION
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to introduce the next witness, 
Ernest Hopkins. He's the Director of Federal Affairs, the San 
Francisco AIDS Foundation. Ernest Hopkins has served as the 
Director of Federal Affairs for the San Francisco AIDS 
Foundation for three years. The Foundation was founded in 1982 
as an emergency response, this was right at the beginning of 
the epidemic, to a quickly emerging AIDS crisis. Its primary 
purpose was to simply assemble and disseminate critical 
information. As the AIDS crisis in San Francisco and across the 
Nation has grown to epidemic portions and spread into new 
populations, the San Francisco AIDS Foundation has grown and 
responded to the new challenges.
    Nearly 20 years later, after 1982, the Foundation serves 
over 120,000 individuals in my community each year. Mr. Hopkins 
will describe for us today the vital role that Federal HIV-AIDS 
funding plays in the provision of these services for low income 
people living with HIV-AIDS in San Francisco and across the 
country. It's really a privilege, Mr. Chairman, and I'm so 
proud of his work, to introduce Mr. Hopkins to the Committee.
    Mr. Porter. Mr. Hopkins, welcome. Please proceed with your 
statement.
    Mr. Hopkins. Thank you very much, Chairman Porter and thank 
you very much, Congresswoman Pelosi.
    It's indeed an honor to be here to speak on behalf of the 
San Francisco AIDS Foundation. And on behalf of myself, having 
been an AIDS advocate since the early days of the epidemic, and 
working on behalf of the city as advocating emergency AIDS 
relief coalition, we'd all like to express our deep 
appreciation for your work over the years, Chairman Porter, and 
how challenged we will all be to see this partnership between 
our Congresswoman and you and the leadership that you have both 
shown on behalf of people with AIDS all across this country and 
across the world. We just want to acknowledge how thrilled we 
have been with the bipartisan way that this disease has been 
dealt with in the Congress and through your leadership. So we'd 
just like to express that before I begin.
    I think my remarks will be in the record, so I'll just try 
to highlight several things that are of key importance to us at 
the Foundation. As you know, the Ryan White Care Act is up for 
reauthorization and is the key Federal discretionary program 
for people with HIV-AIDS, provides significant resources across 
the country.
    I would like to highlight two components of that Act. The 
Title 1 component that represents the 51 eligible metropolitan 
areas, which actually are the places where 74 percent of 
individuals living with HIV and AIDS actually reside. And the 
Title 3 program, which is the early intervention program, that 
provides direct Federal funding to community health clinics all 
across the country.
    I think the recent GAO report made it very clear that we 
face a new emerging crisis of HIV in our rural and 
geographically isolated communities. And the Title 3 program is 
a program that is uniquely designed to address those issues. 
The program that actually provides direct resources to 
community health clinics that are currently providing health 
care to individuals who may not know that they are at risk for 
HIV, provides them an opportunity to actually have counseling 
and testing on site where they currently receive other types of 
health care programs and then once diagnosed, provide immediate 
early intervention, care and treatment on-site in a culturally 
appropriate area, allowing them not to have to travel long 
distances to receive this very important care. It's a program 
that through your leadership has increased over time 
significantly.
    Title 1 programs, as you know, are critically important in 
San Francisco. We are number five, I believe, now in the number 
of living AIDS cases. For many years, because of the size of 
our small city, we have had a disproportionate of HIV and AIDS. 
It is a significant problem for us because of all the other 
continuous problems that we have related to substance abuse and 
homelessness.
    We're asking on behalf of the national community for an 
increase in the Title 1 program to $635.6 million. That would 
be an $89 million increase over last year's funding to support 
those 51 areas all across the country. And we're asking for a 
$60 million increase in the Title 3 programs to $198 million, 
which would allow us to fund additional programs above the 210 
community health centers that are currently provided, and above 
the 60 planning grants that we currently are able to fund in 
fiscal year 2000.
    The other program that I'd like to discuss today and speak 
to is the significant role that CDC HIV prevention plays in all 
of our communities. The funds that we provide for care could be 
dramatically reduced if we were able to stem the tide of new 
HIV infections. We continue to, despite the best efforts of 
communities all across the country, see approximately 40,000 
new infections a year. We desperately need to intervene in new 
and innovative ways all across the country to ensure that those 
infection rates reduce dramatically and programs are put in the 
community that are culturally appropriate that are targeted to 
the communities at highest risk for HIV infection.
    In addition to that, one of the programs that I believe 
once again San Francisco is on the cutting edge of is to 
acknowledge the important role that people already infected 
with HIV play in HIV prevention, to acknowledge that they, too, 
must be brought into the HIV prevention programs in order to 
ensure that they are able to be sustained and supported in 
their best efforts to ensure that they do not in any way put 
people at risk for infection. And to also educate their peers 
on how best to stay safe, and to keep the community safe.
    We obviously support the Committee's ongoing efforts to 
increase funding to the NIH. The 15 percent professional 
judgment number that we've heard from the scientists at the NIH 
is what we would like the Committee to strongly consider. The 
synergies between cancer, between diabetes, between heart 
disease, these are all things that unfortunately people with 
HIV are at very high risk for. In some instances because of the 
new treatments that have had some side effects that we were not 
aware of in the early stage of the epidemic, many of those 
individuals who now are doing better with their HIV are also 
experiencing diabetes, and other kinds of system failures.
    So our hope is that with new research at the NIH that we 
will have more effective treatments that put people at less 
risk for untoward side effects, and people will be able to live 
higher quality lives with this disease. We currently continue 
to see dramatic improvements in a large number of people who 
are able to take the treatments. We also continue to see a 
significant number of individuals who have taken the treatments 
and have not been able to sustain that treatment.
    So we continuously need to be pushing the envelope on the 
research side to provide new treatments for those individuals 
who have essentially run out of opportunities with the existing 
treatments that we have today. And we hope with your leadership 
that that will in fact be the case.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Hopkins.
    With Nancy Pelosi on this Subcommittee, you are in very, 
very good hands indeed, believe me. Thank you, Mr. Hopkins.
    Mr. Hopkins. Thank you.
                              ----------                              

                                          Wednesday, April 5, 2000.

                      ANIMAL PROTECTION INSTITUTE


                                 WITNESS

KAREN E. PURVES, MIDWEST REGIONAL REPRESENTATIVE, ANIMAL PROTECTION 
    INSTITUTE
    Mr. Porter. Karen E. Purves, Midwest Regional 
Representative for the Animal Protection Institute, testifying 
in behalf of the institute.
    Ms. Purves. Honorable members of the Committee, as I will 
say, since Representative Pelosi is still in the room, I am 
excited to have the opportunity to testify here today, 
especially since we're celebrating National Public Health Week. 
I want to say that I appreciate your commitment on animal 
issues, and specifically with the chimpanzee retirement issue. 
I appreciate your efforts on that behalf.
    And having been born and raised in Deerfield, Illinois, I 
will sorely miss your efforts as a result of your retirement. 
So I appreciate that.
    My background includes a bachelor's in business and a 
master's in public policy. And many times when people choose to 
enter the animal advocacy field, people think I'm a crazy or a 
wacko or they need to be alarmed at me. And I am here to say 
that I am not anti-science and I am not anti-research.
    I also want to say, and Francine can back me up on this, 
that perhaps I will be the only person testifying of your 200 
and some odd testimonies that will be saying how you can save 
millions of dollars, or redirect them, at least, to AIDS and 
nursing and the other diseases we've heard about today and that 
we hear about all the time.
    The focus of my presentation today is specifically on 
cigarette smoke and nicotine experimentation on non-human 
animals that continues to be funded by the NIH. This is an area 
of research that is deeply disturbing to me and is needlessly 
costing taxpayers millions of dollars that I believe should be 
redirected. I did come before the Subcommittee three years ago 
to testify, and unfortunately you had thrown your back out, so 
you were not at the hearing at that time.
    I've taken another look at the funding in this particular 
area. In 1999, there were 120 experiments specifically on 
cigarette smoking, the continuing research on non-human animals 
at a cost of approximately $14 million. And this compares in 
1996 figures where only 49 experiments were funded for a total 
of $6 million. So in three years, the situation got two and a 
half times worse, in my opinion, that two and a half times as 
many grants were being funded for these types of experiments.
    Also, I don't have as flashy materials here to present to 
you, I'm not sure you can read this, but in 1996, 9 out of the 
17 institutes were funding cigarette smoke and nicotine 
research. In 1999, that increased to 13 of the 17 institutes 
are funding grants that totaled 120. My point being that it 
increases the likelihood of duplication of experimentation when 
so many different institutes are accepting grants in these 
areas.
    And as you are well aware, three out of every four grants 
that people apply to the NIH for are denied. So we're talking 
about, this is the top 25 or 26 percent of studies that are 
funded. And for every dollar that's spent on wasteful research, 
as you're well aware, that's a dollar taken away from other 
types of research. There's a cap on the dollar amount that 
we're spending.
    And I also want to say, what animals are we talking about? 
What are we still experimenting on for this? We're still using 
primates, cats, pigs, rabbits, all the way down to rats and 
mice. We are still having baboons and rhesus macaques smoking 
cigarettes in fiscal year 1999 funded by the NIH. I'll briefly 
go into that in a moment.
    The vast majority of non-human animal studies in this area 
seek results that are already known in humans or are not useful 
to the prevention or the cessation of cigarette smoking in 
humans. In my opinion, the current use of funds in this area is 
not serving the public from a health perspective. And API 
believes that money spent on cigarette smoking and nicotine 
research on non-human animals could be much better spent for 
prevention programs, public education or clinical studies.
    Therefore, I am requesting that you consider eliminating 
future funding, starting in fiscal year 2001, for those 
experiments on non-human animals related to cigarette smoking. 
And perhaps eliminating is a strong word, with a Committee such 
as this and the NIH, I have three other possible suggestions of 
things that can be done.
    One is to reduce the number of institutes that can fund 
these types of experiments. The second is put a cap on the 
dollar amount, say we can only spend a million on this type of 
research. And the third is to suggest that perhaps we go lower 
on the phylogenetic scale and only do experiments on some of 
the lower animals as opposed to higher animals. And I would 
welcome the opportunity to work with you on specific report 
wording for the appropriations bill.
    And as I briefly conclude, I'd like to just run through a 
couple of experiments, the types of things I'm talking about. 
We are still having, as I said, primates smoking cigarettes, 
both pregnant and not pregnant, to see what happens to the 
fetus. We already have this well established in epidemiological 
studies. We have rats and mice being exposed to either passive 
smoke or direct smoke to see again what's happening to the 
offspring. I have a number of examples in my written testimony 
that show how this has been proven over and over again. We've 
talked about low birth weight babies, asthma, all these types 
of things that have been proven clearly in the human 
population.
    So in conclusion, I urge you to eliminate or reduce fiscal 
year 2001 funding for this particular area of cigarette smoke 
and nicotine experimentation on non-human animals. Thank you so 
much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you very much for your testimony, Ms. 
Purves. I think on the face of it, it raises a question as to 
why they are doing this kind of research. I will simply call 
out there and find out very quickly and see why it's being 
performed.
    If you're correct, obviously, that we are doing research on 
something we already know, it would seem that there's nothing 
to be gained and no point to it. I want to find that out, 
obviously.
    So thank you for bringing this to our attention. We will 
follow up on it.
    Ms. Purves. I appreciate it. Last time, Representative 
Wicker was kind enough to take an interest in this and also 
followed up with the NIH. So I appreciate your interest and 
effort.
    Mr. Porter. We'll do it. Thank you for appearing.
                              ----------                              

                                          Wednesday, April 5, 2000.

                         THE ENDOCRINE SOCIETY


                                WITNESS

DR. MARVIN GERSHENGORN, M.D., CHAIR, RESEARCH AFFAIRS COMMITTEE, THE 
    ENDOCRINE SOCIETY
    Mr. Porter. Dr. Marvin Gershengorn, Chair, Research Affairs 
Committee, the Endocrine Society, testifying in behalf of the 
Society.
    Dr. Gershengorn. Mr. Chairman, my name is Marvin 
Gershengorn. You said it very well. And I'm a professor of 
medicine at the Weill Medical College of Cornell University in 
New York City. I'm a researcher, teacher and physician.
    I am pleased to testify before you on behalf of the 
Endocrine Society, where I serve as chairman of the research 
affairs committee. We commend you for the outstanding 
leadership and support you have shown for biomedical research.
    The Endocrine Society consists of over 9,000 scientists and 
physicians who are dedicated to the advancement, promulgation 
and clinical application of knowledge of endocrinology. Our 
members treat patients with diabetes, thyroid disease, 
osteoporosis, infertility and pituitary tumors. The Endocrine 
Society urges Congress to increase support for the National 
Institutes of Health and for the Centers for Disease Control 
and Prevention.
    Additional increases for NIH will help our research effort 
by providing more funds to support not only research, but also 
the development of the next generation of scientists. The 
choices made by this Subcommittee may well determine whether 
young people choose to become medical researchers.
    We are particularly concerned about the future of physician 
scientists. Physician scientists play a vital role in American 
health care and medical research, because they bridge the 
fields of research and practice by translating achievements in 
the laboratory into treatments for patients and lessons for all 
health care providers.
    Unfortunately, financial pressures have reduced the number 
of physician scientists. To ensure an adequate number of these 
researchers, we ask you to support the proposal regarding 
physician scientists put forward by the Federation of American 
Societies for Experimental Biology.
    We applaud your continued efforts to increase the diversity 
of backgrounds represented in medical research. Your support 
for minority medical programs at institutions nationwide will 
encourage the best and brightest young people from all cultural 
backgrounds to become the medical researchers of tomorrow.
    The Endocrine Society recommends an appropriation of 
$20.485 billion in fiscal year 2001 for NIH. This 15 percent 
increase would keep NIH on track to double its budget by fiscal 
year 2003, allowing a significant increase in the number of 
research grants awarded. America's remarkable successes in 
biomedical research can be attributed not only to how much 
research funding we provide but also to how we allocate these 
resources. NIH awards most of its grants through a merit based 
peer review system. As funding is increased, the peer review 
system must remain in place to ensure that America's research 
dollars are advocated effectively.
    We believe that funding for NIH should not be earmarked for 
particular diseases. Scientific breakthroughs rarely benefit 
only one illness, and often apply to many more conditions than 
expected. We think important achievements could be hinted 
unintentionally by earmarks.
    My field, endocrinology, provides many examples of how 
seemingly distinct research areas are related. Endocrinology 
deals with hormonal imbalances that cause diabetes, heart 
disease, tumors, infertility and birth defects. With such a 
wide variety of systems affected by hormones, it is not 
surprising that research into endocrine disorders is conducted 
throughout NIH.
    My own research is supported by funding from NIDDK and NCI. 
Although different NIH institutes appear to focus on unique 
fields of medicine, the work of each institute contributes to 
the others. For example, NIDDK and NHGRI are funding projects 
that will identify the genetic causes of diabetes and allow for 
preventive measures to stop or limit progression of this 
disease. A project funded by NICHD is developing a protocol for 
prenatal hypothyroidism screening that may help prevent mental 
retardation.
    Research funded by NCI and NHLBI should provide the first 
comprehensive evaluation of the benefits and risks of long-term 
hormone replacement therapy in post-menopausal women. Lastly, 
unless the budget for the CDC is increased, we will not reap 
the full benefits of NIH's exciting research breakthroughs, as 
the CDC is needed to translate NIH research into better 
outcomes in public health.
    For example, the National Diabetes Education Program 
combines the strengths of NIH and CDC to improve diagnosis, 
treatment and outcomes for people with diabetes. The Endocrine 
Society enthusiastically supports this program. We believe that 
it should serve as a model for other cooperative programs that 
translate research breakthroughs into improved public health 
outcomes.
    In conclusion, the Endocrine Society appreciates this 
opportunity to testify on these very important issues. We are 
at an exciting time in biomedical research. With the continued 
strong support and leadership of this Subcommittee, we can 
seize the opportunity to make an investment today that will 
continue to realize great dividends for our Nation in the many 
decades to come.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Gershengorn, thank you for your testimony. 
All the points you made are well taken.
    We are particularly concerned, as you mentioned early in 
your testimony, about the decreasing number of M.D.s going into 
research. That is a very definite concern that we believe must 
be addressed. So we're going to do our best on all the matters 
that you raised. But particularly, we share your concern on 
that one.
    Dr. Gershengorn. Thank you.
    Mr. Porter. Thank you, sir.
                              ----------                              

                                          Wednesday, April 5, 2000.

           HISPANIC ASSOCIATION OF COLLEGES AND UNIVERSITIES


                                WITNESS

RICARDO FERNANDEZ, PRESIDENT, HERBERT H. LEHMAN COLLEGE, CITY 
    UNIVERSITY, NEW YORK, NEW YORK
    Mr. Porter. Dr. Ricardo Fernandez, President, Herbert H. 
Lehman College, New York City, testifying in behalf of the 
Hispanic Association of Colleges and Universities. Dr. 
Fernandez.
    Mr. Fernandez. Good afternoon, Chairman Porter. And thank 
you for allowing HACU to come before this Committee to testify.
    My name is Ricardo Fernandez. I'm the President of Herbert 
H. Lehman College of the City University of New York in Bronx. 
We are an Hispanic serving institution and also a member 
institution of the Hispanic Association of Colleges and 
Universities.
    I'm honored to be able to represent the 195 federally 
designated Hispanic serving institutions and HACU, the only 
educational institution that represents HSIs. As you know, HSIs 
are accredited and degree granting public and private non-
profit institutions of higher education with a total Hispanic 
undergraduate full time equivalent enrollment of at least 25 
percent. These 195 federally designated HSIs are located in 11 
States and in Puerto Rico. And they award 35 percent of all 
associate and bachelors degrees earned by Hispanic persons 
attending a post-secondary institution.
    I'd like to add that in addition to serving Hispanic 
students, HSIs also serve a number of other students from 
various minority groups. In my own institution in New York, 30 
percent of our students are African Americans. In other words, 
we represent the demographics of the Borough of the Bronx, and 
of the city. Therefore, in speaking about HSIs, one should 
understand that although the emphasis is on the Hispanic 
population, we do serve a significant array of other 
populations, including Asians in California and other areas of 
the country.
    I want to thank this Committee and you personally for your 
generous support of funding for HSIs in the past. In fiscal 
year 2000, HSIs will receive $42.25 million under Title 5 of 
the Higher Education Act. These awards were made to HSIs 
throughout the United States and to colleges in Arizona and 
California, Florida, Illinois, New Jersey, New Mexico, New 
York, Texas and to various institutions in Puerto Rico.
    Title 5 has had a tremendous impact, positive impact on 
improving the educational quality and the research capacity of 
our HSIs. The programs funded last year allowed us to do 
various things in the areas of faculty development, technology 
training, curriculum development, institutional development, 
facilities, construction and work on a very significant problem 
pertaining to the retention of our students and the persistence 
and graduation of students.
    We are here to ask that you consider increasing the funding 
for Title 5 for fiscal year 2001 from the current $42.25 
million to $75 million. This urgently needed increase would 
help substantially in providing more of our institutions with 
the opportunities enjoyed by those HSIs which receive funding 
for fiscal year 1999 and for which are getting funding this 
year.
    We're also seeking an appropriation of $20 million to HSIs 
under Title 3, strengthening HSI graduate institutions aid for 
institutional development. This would allow the improvement of 
the quality of the HSI graduate programs. Currently, only 20 
percent of our HSIs offer masters degrees, and less than 12 
percent of these institutions have the capability of offering a 
doctoral degree.
    Many of our HSIs don't really have the infrastructure to 
offer advanced degrees beyond the bachelors level, and indeed, 
most of our membership is composed of two year institutions, 
which is where the concentration of Hispanic students currently 
is. We need to move that along.
    An infusion of new money would begin the process of 
strengthening the institutional capacity of HSIs to enhance the 
quality of those graduate programs already in place, as well as 
increase the number of institutions that can provide these 
programs.
    As you know, this population, the Hispanic population is 
projected to grow significantly. And by the middle of this 
century it's estimated that a quarter of all Americans will be 
of Hispanic descent. It's also a very youthful population. By 
2005, almost 46 percent of the Hispanic population is projected 
to be 24 years of age or under. So this has a tremendous impact 
in the area of education, K-12 obviously, but also higher 
education.
    The youthfulness of this population is going to have a 
dramatic impact on all of higher education institutions, but 
especially these HSIs that historically serve the largest 
concentrations of Hispanic students in higher education. And 
these are again located in key States, Arizona, California, 
Colorado, Florida, your own State of Illinois, Massachusetts, 
New Jersey, New Mexico, New York and Texas. These are the 
States that are experiencing significant growth in the Hispanic 
population.
    Without the HSIs, the Hispanic population will not have an 
adequate opportunity to reach their educational potential and 
to improve opportunities to achieve their own career goals, 
life style leadership roles. These institutions are poised to 
provide the Hispanic population with the opportunity to obtain 
and use a college degree to make substantial contributions to 
the economic, scientific and social structure of the United 
States.
    For these reasons, we ask this distinguished Committee for 
the resources that can help Hispanics achieve their maximum 
potential to contribute to the economic growth and success of 
the United States and to prepare them for productive lives.
    Before closing, Mr. Chairman, I want to assure you that the 
policies of budgetary restraint and fiscal conservatism are not 
lost upon us. We're very cognizant of the budgetary caps under 
which this Committee and every other appropriations committee 
is operating. But we do not believe that anyone should place a 
price on lost opportunities and unfulfilled educational dreams 
under the guise of funding constraints.
    Hispanic serving institutions provide or perform an 
invaluable service. We fulfill the educational needs of 
America's fastest growing minority population. And with this 
Subcommittee's help, we have the ability to have an even 
greater impact on the lives of our students. We hope that 
Congress will find the funds necessary to provide HSIs with a 
fiscal year 2001 appropriation of $75 million under the Title 5 
program and $20 million for strengthening HSI graduate 
institutions under Title 3.
    Finally, thank you personally, Mr. Chairman, for providing 
HACU with this unprecedented opportunity to testify. We are 
very grateful to you and to others in this Committee for the 
support.
    And lastly, I just want to say, on a more personal note, 
that it was my pleasure to attend the breakfast three weeks ago 
at the American Council on Education at which you spoke. I was 
very heartened to hear, of course, your strong support for 
higher education and education in general, and your efforts 
over the years. I wish you well in your retirement. But it's 
with a sad heart that we lose such a champion as you in this 
effort.
    Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Fernandez, thank you very much for those 
very kind comments.
    We take your points to heart. We do not yet have an 
allocation for the subcommittee, and I have told many of our 
witnesses that you can't look for straight line results here. 
It's a legislative process, it tends to look like this before 
you get there.
    So I don't know what kind of allocation we're going to 
have. I know the Senate will, as they always do, have a much 
higher allocation, and we're hopeful that we can be responsive 
to the needs of institutions like those you represent and 
provide the kind of money for higher education that we know is 
necessary and well spent.
    So we thank you for taking time from your busy schedule to 
come and testify today, and we will simply do our best.
    Mr. Fernandez. Thank you very much.
    Mr. Porter. Thank you, sir.
                              ----------                              

                                          Wednesday, April 5, 2000.

               JOINT STEERING COMMITTEE FOR PUBLIC POLICY


                                WITNESS

KEN A. DILL, PROFESSOR, UNIVERSITY OF CALIFORNIA SAN FRANCISCO MEDICAL 
    SCHOOL
    Mr. Porter. Dr. Ken A. Dill, Professor at the University of 
California San Francisco Medical School, testifying for the 
Joint Steering Committee for Public Policy. Dr. Dill.
    Mr. Dill. Thank you, Mr. Porter. Thank you to the Committee 
for the opportunity to testify.
    My name is Ken Dill. I'm a professor at the UC San 
Francisco Medical Center. I'm here representing the Joint 
Steering Committee for Public Policy, an organization of 20,000 
biomedical research scientists.
    First of all, as a taxpayer who cares about my family's 
health, I am grateful for your support of biomedical research, 
particularly your back to back 15 percent increases for the 
NIH. This is an incredible moment in scientific history. In 100 
years, I think we'll see the biomedical science revolution of 
today as overshadowing even the industrial revolution in its 
importance in our daily lives.
    NIH is playing a very big role in this. My first message is 
to urge you to continue the effort to double the NIH budget in 
five years.
    My own research is in an area called computational biology. 
This is a field in which we're trying to use computers to speed 
up the business of designing new drugs for all diseases and 
understand how proteins and DNA molecules work.
    My second message is that a wise investment of new NIH 
resources would be in the underpinning basic sciences, 
chemistry, physics, math and computer science. The biomedical 
science revolution has barely begun. The principles that we 
need aren't even known yet. Biomedical research without enough 
underpinning science is like a freight train without a track.
    Biomedicine owes a lot to the basic sciences. Physicists 
and chemists were among the founders of molecular biology. The 
physical science gave us magnetic resonance imaging, CAT scans, 
laser eye surgery, cancer radiation therapies, and new 
biomaterials.
    But it runs much deeper than that. Time Magazine's recent 
millennium issue featured Albert Einstein as the man of the 
century, highlighting the importance of basic science in our 
lives. Time noted that the discovery of penicillin saved more 
lives than were lost in all the wars of the century. Time went 
on to say that the century's even greater biological 
breakthrough was more basic, the discovery of the DNA double 
helix.
    But Watson and Crick could never have discovered the double 
helix, and Linus Pauling could have never discovered the 
structures of proteins and we couldn't do modern drug design 
without two tools, x-ray crystallography and nuclear magnetic 
resonance spectroscopy. Both tools were developed by physicists 
and they underpin virtually all we now know about the molecular 
basis of disease.
    Now it's time for biomedicine, through new NIH dollars, to 
strengthen the foundations of basic science that have gotten us 
here. Former NIH director Harold Varmus agrees. One of his four 
visions for NIH is to harness the allied disciplines, by which 
he means chemistry, physics and math.
    NIH-supported investigators have ordinarily been the users, 
not the inventors, of key technologies. NIH invests too little 
in the underpinning sciences and too little in long-term high 
risk science. What is the evidence?
    Number one, I attach an appendix to my testimony that 
describes 17 Nobel Prize calibre scientific innovations that 
underlie modern biomedical science, and that were developed 
either outside the U.S. or outside the NIH funding system. 
Number two, while the NIH budget doubled over the past 10 
years, the NIH instrumentation budget dropped in half.
    Number three, large instrumentation grants are capped at 
$500,000 for equipment, even though many instruments now cost 
much more than this. Number four, there's been an 18 fold 
increase in the number of protein structures determined at 
physicists' synchrotons over the past nine years, that's 352 
structures last year.
    But only this year has NIH begun to contribute 
significantly to new beam lines. Biologists are now the biggest 
users and demand is four times higher than supply. Biochemists 
at Berkeley, Irvine and MIT are now seeking private donors to 
buy beam lines. The same story applies to supercomputers.
    NIH has invested about $3 billion to get the sequence of 
the human genome. It is estimated that now to understand the 
human genome will cost another $250 billion. We propose a 
cheaper, faster, more efficient way. We propose that NIH invest 
up to $1 billion a year, which I'll be happy to itemize, in new 
resources committed to the underpinning sciences. Computational 
biologists need a thousand fold more computer power on their 
desks, and access to teraflop computers. Structural biologists 
need ten fold more synchrotron beam lines and 100 fold bigger 
NMR magnets.
    At the same time, NIH should also invest in the science 
that will give us tomorrow's technology.
    In summary, my first message is to urge that you continue 
the five year budget doubling at NIH. My second message is that 
many of biology's deepest problems are really problems of basic 
chemistry, physics and math. NIH should use its resources to 
help. The mandate for NIH is biomedicine. This is not a call to 
change the mission of NIH, but to strengthen it.
    Laying the foundation is just too big a job for NSF or DOE 
alone. NIH must be part of the solution. The underpinning 
sciences are a wise investment in two ways. One, for generating 
the new technologies that will power tomorrow's economy. And 
two, as a leveraged and long-term investment in the health and 
well-being of our people.
    Thank you very much, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Dill, you'd be pleased to know that when 
NIH testified, probably three or four weeks ago now, they were 
talking the same way you're talking.
    Mr. Dill. Fantastic.
    Mr. Porter. They realized that these things have been in 
the past kind of compartmentalized, and what we need is more 
coordination between NSF, DOE, DOD and others and NIH, and that 
they have to make the investments in each of these areas, and 
that the structure, the compartmentalization is breaking down 
greatly, because obviously they wouldn't have made anywhere 
near, they couldn't make the progress on the genome project 
without computer technology, for example, that allowed them to 
do it.
    So I think they're very much aware of it, and they're very 
anxious to provide funding. If we can sustain the kinds of 
increases we've had the last two years, then I think we will be 
able to provide additional resources in that area, and 
eventually get where you want us to go.
    Mr. Dill. That would be terrific.
    Mr. Porter. Thank you, Dr. Dill.
                              ----------                              

                                          Wednesday, April 5, 2000.

                CHILDREN'S ENVIRONMENTAL HEALTH NETWORK


                                WITNESS

DANIEL SWARTZ, EXECUTIVE DIRECTOR, CHILDREN'S ENVIRONMENTAL HEALTH 
    NETWORK
    Mr. Porter. Last but not least, I think about our 215th 
witness, Daniel Swartz, Executive Director of the Children's 
Environmental Health Network, testifying in behalf of the 
network.
    Mr. Swartz. Thank you, Congressman, and thank you, 
Francine, for your flexibility in enabling me to speak today. 
And thank you, Congressman, also for all the help you've given 
to children's environmental health issues. You and 
Congresswoman Pelosi have been real heroes to us.
    I'm Daniel Swartz, the Executive Director of the Children's 
Environmental Health Network, succeeding Joy Carlson, our 
founding director. The Network is a non-partisan and 
multidisciplinary national project whose sole mission is to 
promote a healthy environment and to protect the fetus and 
child from environmental hazards.
    The Network's members include nationally recognized 
researchers and health professionals in the field of children's 
environmental health. Our advisory board and committee members 
include numerous experts in Federal policy and activities in 
this field who serve on key Federal advisory panels and 
scientific boards on children's environmental health issues.
    We commend you for giving the Network the chance to focus 
this Subcommittee's attention on children's environmental 
health. As you well know, the last few years have seen a 
dramatic increase in awareness of the need to protect children 
from toxicants in the environment.
    Growing scientific evidence is reinforcing the principles 
that children can be more susceptible to harmful substances in 
the environment and that children are exposed to toxicants 
differently than adults. This growing body of knowledge also 
illustrates how little we know about these issues and how much 
we have to learn.
    My testimony seeks first to provide a bit of background 
about how children are generally more vulnerable than adults to 
environmental hazards, and will then suggest key areas for 
Federal action and support. Children's bodies and behaviors are 
not the same as adults. Therefore, policies that protect adults 
from environmental harm may not adequately protect children. 
They breathe more rapidly and take in more air than adults. 
Pound for pound, they eat and drink more.
    For example, when an infant drinks six ounces of formula or 
breast milk, it's equivalent to an adult male drinking 35 cans 
of soda. When you watch a toddler's mouth or a grade schooler's 
relationship with dirt, you witness broad avenues of exposure 
that regulators who focus on adults rarely consider. And factor 
in the miracle of growth itself, the wondrous and delicate 
dance a child's body undergoes from conception to adulthood. 
And realize that toxins that do not harm adult bodies may 
completely trip up the choreography of development.
    Finally, add to this mixture the chemical soup that is 
modern life. In 1940, the world produced 1.3 billion pounds of 
synthetic compounds each year. In 1980, it was 320 billion 
pounds of 70,000 different chemicals. And for the vast majority 
of these, we have little to no data about their effects on 
children.
    So what does this mean to you? As a policy maker who helps 
to determine the environment in which children of the United 
States live and grow, you have the ability to bring this 
knowledge to bear on appropriations to our Nation's health 
agencies. Let me just list a few of those.
    The Interagency Task Force on Environmental Health and 
Safety Risks to Children. One outcome of the Executive Order 
13045 on children's environmental health was the establishment 
of a health risk task force co-chaired by the U.S. Department 
of Health and Human Services, Secretary Donna Shalala and EPA 
Administrator Carol Browner, to recommend strategies for better 
addressing children's environmental health and safety within 
the Federal Government.
    This task force is playing an important role in addressing 
a key concern of ours, which we highlighted in testimony in 
previous years before your Subcommittee. It is vital that 
Federal agencies coordinate and cooperate on these efforts. 
Right now we have research being conducted by over seven 
different task forces, agencies, departments, institutes, 
policy being formulated in different parts of government.
    And this research and policy has yielded wide ranging 
results, including safer cleanups from toxic spills to 
pollution prevention to treatment of environmentally related 
illnesses. Partially because of its split, it faces too many 
financial constraints. We hope that the task force can continue 
to play this important role in promoting communication and 
cooperation for the foreseeable future.
    Second, the Centers for Disease Control, which have a 
unique responsibility among Federal agencies to begin filling 
in the major information gaps that exist about, just what is it 
that children are exposed to. Through things like the report 
card of NHANES, we have an ability to get much better exposure 
data. It will cost money and it will take time, but I think 
it's worthwhile.
    The Agency for Toxic Substances and Disease Registry has 
had an emphasis that we applaud on the health of children when 
conducting its activities. In 1996, they launched a children's 
health initiative. In 1997, they released a report on the 
recommendation of children's health work group, Healthy 
Children, Toxic Environment: Acting on the Unique Vulnerability 
of Children Who Dwell Near Hazardous Waste Sites.
    We've now established pediatric environmental health 
specialty units around the Nation. We believe that these are 
worthy of your support. We believe that every region of the 
country would benefit from the establishment of such a 
specialty center, especially if these centers all incorporate 
public outreach components.
    Finally, the Children's Longitudinal Cohort Study. The 
Network is pleased by the vision shown by the proposal to 
launch a large prospective study, sometimes called the 
Children's Framingham, following children from pre-conception 
to early adulthood to identify factors that could affect health 
and development. This study may be the only means that we will 
have to find answers to some of the key questions regarding 
links between exposures and health effects on children. Such a 
study is long overdue. The Network urges the Subcommittee to 
support sustained and substantial funding for this proposal.
    I'd also like to reiterate the comment by an earlier 
gentleman about the need for the continuation of promoting 
medical researchers, doctors who go into research. It's a key 
element for children's environmental health, as for so many 
other issues.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Mr. Swartz, thank you for testifying.
    You're probably aware that we're going to have a special 
hearing on children's environmental health on May 2nd.
    Mr. Swartz. Right.
    Mr. Porter. It will be only one, I think, of two special 
hearings, the other being Nobel Laureates that meet with the 
Subcommittee each year. It's an important subject. Ms. Pelosi 
has taken a great leadership role in it. I'm very interested in 
it myself.
    And we also are working on a special initiative through 
CDC, NICHD, HRSA and SAMHSA to try to talk about children's 
health habits, which may or may not have a component of 
environmental health within them, and to try to change health 
habits through the children themselves and through their 
parents.
    Mr. Swartz. Excellent.
    Mr. Porter. So there's a lot going on. It's on our screen, 
definitely.
    Mr. Swartz. Thanks so much. That's great. Our Chair is 
going to be here at the May 2nd hearing. So I appreciate your 
opportunity in bringing him here, too.
    Mr. Porter. Thank you for coming to testify today.
    Thank all of our witnesses. That concludes our public 
witness testimony, and the Subcommittee stands in recess until 
10:00 a.m. tomorrow.
                                           Tuesday, April 11, 2000.

                    TESTIMONY OF MEMBERS OF CONGRESS

                            VARIOUS PROGRAMS

                                WITNESS

HON. BILL GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Porter. The subcommittee will come to order.
    We begin today 2 days of hearings with our colleagues in 
the Congress testifying regarding their priorities for funding 
for the Departments of Labor, Health and Human Services, 
Education and related agencies.
    We are pleased to welcome Representative Bill Goodling from 
Pennsylvania, the chairman of the Education and the Workforce 
Committee, who will testify on various programs.
    Mr. Goodling. I am representing myself and Mr. McKeon 
because I understand that he is not coming.
    First of all, I want to thank you for the opportunity to 
testify. Above all, I want to thank you for all that you have 
done with regard to funding programs that are near and dear to 
my heart and near and dear as far as I believe to all Americans 
because an educated and well-trained workforce is going to be 
very important in the 21st century. So you will be missed 
greatly by all of those who relied on your wisdom as you----
    Mr. Porter. So will you, Mr. Chairman.
    Mr. Goodling. I would like to focus my comments around 
several programs that I think should be top priority in 2001.
    I guess I would start out with IDEA as being number one or 
one of the top ones. I want to thank you for the efforts that 
you have put forth in the last couple of years. We have 
increased the funding by $2,600,000,000, but we are a long way 
away from the 40 percent of excess costs to educate a special-
needs child in relationship to the average of educating all 
children all over the country.
    As I look at that, that would mean about $2,500 per 
special-needs child to each district if you do the formula. I 
am suggesting that we increase by $1,100,000,000. That would 
give us $6,000,000,000 to States and local school districts.
    Just to give you an example, in a little city like York, in 
my own district, we currently spend more than $6,400,000 each 
year on special education services just in that little school 
district. I say little in relationship to big-city school 
districts. That is about 16 percent of their entire budget has 
to go to meet the special ed requirements. We send them about 
5.7 percent right now. That means all of the rest--the money 
that they would use to reduce class size, all of the money they 
would use to repair buildings must go to meet the special ed 
needs. Once the Federal Government gets to its share, and at 
the same time we work to make sure they don't overidentify 
special ed students, then you have all of that money for 
technology and other pressing needs locally.
    Next, I would like to talk about Even Start Family Literacy 
program which, as you know, I introduced in 1985. We have some 
wonderful results in 10 school districts that were surveyed 
that do it the way that it is supposed to be done. It shows 
tremendous gains that carry through early grades in school.
    So in our committee we did a bipartisan update of Even 
Start. We call it the lit bill. We passed it out of committee 
in a bipartisan fashion. It will be on the floor soon, which 
will even provide for greater quality throughout the Family 
Literacy program. It is important that we understand you don't 
break the cycle unless you deal with the entire family. So I am 
asking for $325,000,000 for that program, and I think it would 
be a small price to pay for disadvantaged children and 
disadvantaged families.
    Also in relationship to literacy, I request an increase of 
$2,000,000 for the National Institute for Literacy. It is the 
only Federal agency solely devoted to improving literacy skills 
of all Americans. The NIFL is helping to create the literacy 
system that Americans will need in the 21st century.
    A program that didn't receive an increase of funding last 
year is very important in my estimation and that is Title I 
Migrant Education. These youngsters are probably the most 
disadvantaged of all youngsters in the entire country, moving 
from district to district constantly. It is the only program 
that specifically addresses the needs of these children to 
migrant farm workers, and I would ask that you increase that 
program by $71,000,000.
    Let me briefly express my concern over the President's 
budget recommendations for three important elementary and 
secondary education programs.
    First of all, again he is suggesting that we continue his 
crusade to eliminate Title VI, which used to be the Chapter 2 
block grant. As I see it, how that money has been used, most of 
the good reform that has taken place out there probably began 
with the use of Chapter 2 money, and I would hope that instead 
of following his recommendations we would increase by 
$400,000,000 that program.
    And I am sure you are just as disappointed as I am over his 
proposed cuts to the Impact Aid program. That bill will be on 
the floor shortly, and I urge you to maintain adequate funding 
for these school districts.
    Finally, I strongly oppose the President's proposal for 
cutting the Vocational Education State Grant program. It 
increases by $200,000,000 the work study program, but the--tech 
prep, I am sorry, the tech prep--but that isn't going to work 
if, as a matter of fact, at the same time he cuts the 
Vocational Education State Grant program. It will only work, it 
seems to me, if they are up and running and overseeing exactly 
what is happening in that program.
    Chairman McKeon was going to be here to talk about the 
Teacher Empowerment Act, and I would simply say that I would 
hope that you would fund that again and, hopefully, the Senate 
will see the light and will act on that so that we can move 
ahead. Because unless we can put quality teachers in the 
classroom it doesn't matter how much you reduce the class size. 
The purpose of that Teacher Empowerment Act is to do just that 
as well as better prepare those that are there at the present 
time.
    The President requested a $200 increase in the maximum Pell 
Grant. I hope by the time you finish you can go above that.
    Then there is one final education issue I want to bring to 
your attention. As you know, there is a permanent ban on pilot 
testing, field testing, implementation and administration or 
distribution of national tests unless specifically and 
explicitly authorized. I can't believe it, that again in his 
budget he is asking for $5,000,000 for America's tests. I would 
hope that you make sure that we stay with the ban as it is 
presently in force.
    As I have said many times, there is no use spending 150 
million or more dollars to tell children one more time they are 
not doing well until we make sure we know what the standards 
are, that the teachers can teach to the higher standards, and 
then test the teachers to see whether they teach at the higher 
standards before we get around to testing the children one more 
time.
    On the work side, let me just very quickly emphasize that I 
think the Department of Labor should focus on helping employers 
and employees and unions voluntarily comply with and better 
understand the laws of the Occupational Safety and Health Act. 
With that in mind, I urge you to reverse the President's 
proposed budgeting priorities within OSHA and give the State 
consultation grants priority for any additional money that 
might go to OSHA.
    I also urge to you reject the administration's request for 
$20,000,000 to fund competitive funding grants for States and 
other interested entities to explore ways to require paid 
family and medical leave. I don't believe that we should be in 
that business. I don't think that we should be giving him money 
to do that. I think it is a back-door regulatory approach he is 
trying to bring about while abandoning the 65-year-old 
commitment to reserve unemployment trust funds for the 
unemployed.
    With respect to workforce programs, generally we support 
efforts to help assist adults to search for new jobs and better 
skills and new training opportunities, all of which were 
included in the Workforce Investment Act. Funding these 
workforce development initiatives will ensure that all American 
also have the training and literacy levels that they need to 
qualify for good jobs.
    Because time is nearly up, I will not be able to describe 
in detail all of the issues in the workforce side of my 
committee that I believe merit attention, but I would refer you 
to the written testimony which further explains that.
    So, again, I thank you very much for all of your efforts 
for all of these years and particularly since we are in the 
majority to provide a better workforce and a better educated 
American.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Mr. Chairman, let me say that I think you have 
done an absolutely terrific job as chairman of the authorizing 
committee. Often, appropriators and authorizers seem to have 
their problems. You have forged ahead and reauthorized a lot of 
the programs that need to be reauthorized. Many authorizers 
just let it all go, and nothing ever happens. We just think 
that you have done a super job, and it has been a real pleasure 
to work with you. We share the same basic priorities. I hope 
that we can provide the kind of funding that you are suggesting 
to us for each of these programs.
    I will caution you that I think we are going to have a 
fairly tight allocation, that our goals are going to be met not 
going from here to here in a straight line but probably up and 
down through a process. But we absolutely will keep in mind 
where we want to arrive at the end and do our very best to get 
there. Thank you for the super job you have done, Bill.
    Mr. Goodling. Thank you very much. I appreciate it.
                              ----------                              --
--------

                                           Tuesday, April 11, 2000.

                            VARIOUS PROGRAMS


                                WITNESS

HON. MIKE CASTLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    DELAWARE
    Mr. Porter. Representative Mike Castle from Delaware. Are 
you testifying with Bill?
    Mr. Castle. Yes.
    Mr. Porter. I assume that you are going to testify on the 
same thing. Please proceed.
    Mr. Castle. I am pleased to be here, Mr. Chairman.
    I would just like to also compliment the chairman of the 
full committee. I am chairman of a subcommittee that deals with 
early childhood, youth and families and I would like to give 
Chairman Goodling credit for a lot of the work he has done as 
we in many instances pushed through the reauthorization of the 
process.
    I would also like to give you a lot of credit--and I know 
what some of these meetings have been about. In the 1980s, 
basically, the Federal Government gave between 5 and 9 billion 
dollars to education in government. Then, beginning in fiscal 
year 1996, funding for these same programs increased by more 
than 50 percent. I think that is tremendous. I have no doubt 
whatsoever that the polls we are beginning to see now actually 
started to evolve several years ago, that people really care 
about education now. Recent polls show that it is becoming a 
two-to-one issue in this country over anything else.
    There is a Federal role in this. There was a time this 
subcommittee did not question it, and for that you deserve a 
great deal of congratulations. We will miss you in your 
retirement, and may you have birdies and an eagle or two in 
whatever else you do.
    I would ask unanimous consent to submit my statement in 
full for the record, if we could----
    Mr. Porter. Yes, it will be received.
    Mr. Castle [continuing]. And just say that I agree with the 
chairman and everything that he has stated, which will save a 
lot of time.
    I was going to start off by talking about IDEA, which the 
chairman is probably more of an expert on than any of us. I 
will just mention it briefly.
    I am a believer that we should be doing more in IDEA. There 
is a statement in the law which created that which states that 
we are committed to contribute up to 40 percent of the average 
per pupil expenditure of educating children with disabilities. 
That is right up there with the right to bear arms. There are 
authorization statement laws in constitutions in our country in 
terms of its interpretation.
    Right now, we are at 12.6 percent. We are nowhere near 40 
percent. That means the States and local areas are contributing 
the balance of that in order to take care of children with 
disabilities.
    In Delaware, for example, our largest district, Christina, 
the school district gets $1,600,000,000 per year from the 
Federal Government. Instead of the 5.2, we get 40 percent. As a 
matter of fact, the entire State of Delaware, which is as large 
as your congressional district population- wise, has a deficit 
of about $25,900,000 because of what the Federal Government 
doesn't do.
    Others may argue that is sort of an objective and not a 
stated purpose. We have to get to 40 percent. And perhaps they 
are legitimately correct. I think, in the balance, we still 
need to do more in IDEA.
    I would say this about IDEA. Frankly, I wouldn't give them 
another penny until there is even greater accountability than 
there is there now. I think some of the great misexpenditures 
in education come from IDEA. I think there are a lot of 
concessions to disabilities that are made unnecessarily. I 
think there is a lot of overhead expenditures that are very 
marginal in huge costs undertaken when it is determined there 
is a problem without I think a lot of information to make that 
more efficient. I do support doing more, but more includes 
doing more than making sure we are spending our money 
effectively if we are going to give them money.
    I would like to talk next about drug and violence 
prevention activities which includes after school programs. The 
President's approach significantly increases funding for one of 
the programs under this which is 21st Century Community 
Learning Centers. It is also the Safe and Drug Free Schools. If 
you take the two programs which exist today--by the way, the 
21st Century Learning, I think it is wonderful. The after 
school programs are really needed. You need to look at before 
school, after school, weekends, summer. That is the way we are 
today. That has increased from about a couple million dollars, 
and it went up to $12,000,000, $100,000,000. It is now about 
$453,000,000. The President is asking for a billion dollars 
this year.
    Our view--my view is, at least, is if you take the 21st 
Century Community Learning Centers and combine it with the Safe 
and Drug Free Schools, you get the same billion dollars and 
then give them the flexibility to expend the money where they 
feel it is necessary. They come under the same basic titles 
anyhow, and allowable uses of funds could include counseling 
and mentoring programs, school violence hot lines, emergency 
intervention services, and before and after school activities, 
among others.
    Our bill, which is the last part of the Elementary and 
Secondary Education Act, called the Options Act, which we are 
working on now, requires the program to be based on the 
assessment of need and requires the local education areas to 
establish performance measures and then implement a program 
that has been proved to prevent or reduce drug abuse or 
violence. We think in this way the money would flow to quality 
programs. We think this is a better way of approaching this.
    Mr. Porter. Mike, can I ask you a question at that point? 
It seems to me there is a formula for Safe and Drug Free that 
goes State by State. Am I correct in that?
    Mr. Castle. Yes.
    Mr. Porter. And that the 21st Century Learning, how is that 
grant program----
    Mr. Castle. It is a grant program, earned grant program----
    Mr. Porter. Competitive grant by school district, right?
    Mr. Castle. Correct.
    Mr. Porter. How do we combine these funds and get money 
to----
    Mr. Castle. We would do it, I believe, by formula. We have 
talked about----
    Mr. Porter. Let us take a look at what you have developed 
in that regard.
    Mr. Goodling. One of the problems is that in the 21st 
century schools it was supposed to be for all ages, the use of 
the buildings, et cetera. Unfortunately, it has sort of gotten 
directed strictly to students; and we just had a hearing 
recently where Gunderson Francis, who was one of the 
originators of that program, was very upset about the fact that 
it has drifted into one district rather than an overall----
    Mr. Castle. This is an organization issue on the 21st 
century program. I am a great supporter of this. But, right 
now, it must be at the school. I think you could bring in an 
outside entity, and they could work at the school, but it must 
be at the school.
    Yet in Delaware, for example, one out of four kids is 
involved in the YMCA programs, and one out of seven is involved 
with Boys Club programs. They do have educational components in 
some of their programs, but in my judgment we should give them 
more latitude to allow some of these programs to take place 
away from the school as long as there is an educational 
component.
    There is a lot of work to be done there. This has all just 
mushroomed, as you well know, in the last 4 or 5 years. I think 
it is a very deserving area for funding. But, like anything 
else, when it goes up rapidly you need to be very cautious 
about what you are doing. I think this doubling of it next year 
is a lot to bite off. The direction is the right thing.
    Pushing ahead, I think the Chairman mentioned Title VI, so 
I don't spend very long on that. But that is the education 
block grant. A lot of innovative programs there, as the 
Chairman said, and yet the President tends to either zero it 
out or take it down. That may be just a funding issue of the 
budget process in the White House because I don't think they 
would have any real objections to it either.
    Education technology, we have worked very hard and it is in 
our Options bill to change the splinter group of programs, 
about eight of them, as a matter of fact, into a consolidated 
fund which directs 95 percent of the funds to our States and 
local school districts. It is specifically under the Options 
Act. The States should be given 80 percent of the funds 
according to a formula and 20 percent by a competitive process. 
That is a significant change from our current law where the 
Secretary shifts almost half of all technology grants. That is 
another area sort of like the 21st century school and after 
school programs.
    Technology grants is another area we need to pay attention 
to in terms of what we are doing. While these areas don't fall 
into my area, they fall into Buck McKeon's.
    I want to just echo what Chairman Goodling said about 
strong support for additional funding for Federal TRIO programs 
and an increase in the Pell Grant maximum. These need-based 
grant programs must continue to be a priority to ensure equal 
access to institutions of higher education. I think that is 
really important.
    Let me just say again, as I did on IDEA, I think it is 
inevitable that this committee and on our committee to make 
sure that we are doing everything we can with these 
institutions of higher learning with respect to holding down 
their costs. I am very pleased there are colleges now which are 
making a lot of hay out of the fact that they are not 
increasing their tuition at all next year--not many of them but 
a few of them. I think it is holding down all of the costs.
    If you chart all of this out and put everything in the last 
20 years on a chart, you will work up from gasoline and food 
and whatever and you will get up to medical care, and then one 
area above that you are going to get to the highest cost of 
education. A lot of people don't realize that. It is the 
difference that counts. We can't just keep throwing money out 
of it at the Federal level.
    Mr. Porter. Yes, sir, because we don't get any additional 
access if it is absorbed in tuition costs. We are trying to buy 
access for people who otherwise couldn't go.
    Mr. Castle. We in Congress need to speak to this issue. 
This is not a Republican or Democrat issue. It is happening in 
all of our colleges all over the country that we went to, 
public and private schools; and while that is important they 
keep their technology, that they need things, they also need to 
watch how they are managing their business.
    Mr. Porter. I don't think that jawboning really has worked. 
If you look at the record, it hasn't.
    Mr. Castle. It hasn't worked, but maybe we can think of a 
more clever way of doing that. I don't think that you want to 
legislate in that area.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Lowey. Thank you, Mr. Chairman.
    First, I want to respond, when you walked in, to your 
admiration and comments of admiration for our chairman. He has 
been a distinguished chairman. It has been a privilege for me 
to work with him.
    He is not even listening. He knows how I feel.
    I was just saying what a privilege it is to work with you.
    And I agree that John will really be missed. He has been 
innovative and creative, and he has been an important leader in 
this committee.
    I also want to say to Mr. Goodling, your impact on IDEA has 
been really probably the most important contribution to that 
program; and we, too, want to thank you. And I know that many 
of us will be carrying the vigil and continue to support your 
great efforts.
    Of course, I have had the privilege of working with you in 
a whole range of things, and I just wanted to comment on a few. 
Because the after school program, as our chairman will 
remember, was one of my major initiatives since I got on this 
committee. We started from $1,000,000, and John and I would 
talk about it, and we got it to 20, 40, now it is $450,000,000.
    And I strongly support the President's request because 
right now it began as one out of 10. I am not sure of the new 
numbers, whether it is one third of applications that are 
filled, but I know in my school districts the schools that have 
been fortunate enough to have those dollars are using it so 
well, and I am so proud.
    I would also like to suggest to you that the money can go 
to community institutions that are doing after school work. For 
example, in Queens, the Hall of Science has been fortunate to 
get one of those programs. You should come and see what they 
have done. It is a great resource to the New York City 
community, and we will continue to recommend an additional 
grant to them.
    I am a strong supporter of the comprehensive school. In 
fact, when you talk about including neighborhood institutions, 
it reminds me of my bill from, I think, 10 years ago called 
Link Up for Learning where we are were going to link up the 
various community institutions so that we could get the 
strengths of the Hall of Science, Boys Clubs, Girls Clubs, et 
cetera, and have them all work together in partnership. It 
could always be done more effectively. But after school 
programs, comprehensive programs I think are vital.
    With regard to your suggestion about lengthening the drug 
free schools and comprehensive or community after school 
programs, it would really depend on the dollars, as our 
chairman says, and how it is distributed, as long as we are not 
shortchanging either program. Because I think we all agree that 
drug free school programs are vital and the after school 
programs very often have the drug free school component. So if 
you want to increase both proportionately and not sacrifice one 
to the other, I don't think any of us would object to that.
    And without being partisan I just want to say that I am 
delighted that those forces--without mentioning any names--who 
wanted to get rid of the Department of Education in the '80s 
didn't succeed. Because everybody, Democrat and Republican 
alike, I think is in agreement that there is a Federal role for 
education. We all agree it is a State and local responsibility; 
and, right now, it is 5 to 6 percent of dollars from the 
Federal Government. But we can't just wait around when our 
youngsters aren't reaching the achievement level we now know 
they should be reaching.
    And when I visit schools in part of my district--and I am 
sure you have the same thing--where some kids are still going 
to computer labs once a week and others have computers on their 
desks in school and computers on their desks at home, and the 
inequities should be a warning sign for all of us.
    In addition to all of the priorities that you mentioned--
and I share them and support them--I would just add that there 
are two ways that we are promoting school modernization, one 
for the Ways and Means Committee and the other through, I hope, 
the appropriations process. There is some urgent needs that we 
must address. I think it is unconscionable that in the United 
States of America some youngsters are going to school when they 
don't have access to computers. These are the tools. It is like 
the pen and pencil was to us however many years ago. I would 
hope that you would be supportive of the school modernization 
program as well. It is going to be going through this committee 
and the Ways and Means Committee, as I mentioned, and it has to 
be an important priority.
    I would dare say just one other thing in closing. I don't 
think that we can afford not to. I don't really think we have 
to choose between IDEA and school modernization or after school 
programs. I just read, as we all read, today about the Osprey--
I don't remember, I may be getting on dangerous grounds, if 
either of you are supporting the Osprey, but we waste millions 
and millions of dollars on equipment that the Pentagon doesn't 
need, doesn't want. I don't add that just as the old cliche 
that we have been talking about in debates for years, but we 
can't afford not to get involved. There is a challenge here in 
the form of education, whether it is State or local, and we 
have to do our share.
    I want to thank you both for coming, and I look forward to 
working with you and our distinguished chairman.
    Mr. Goodling. Could I make just two quick observations?
    I want to join with Chairman Castle when we caution you to 
be very careful how rapidly any program grows. One of the 
problems that I faced for the first 20 years I was here is they 
would always say in committee that we need more money, and when 
I would say, for what, they would also say to cover more 
children. Then I would say, with what are you covering them if 
you are covering them with mediocrity?
    It took us about 12 years for us to look at the quality of 
the Head Start program, even though every report indicated they 
were not preparing children for school. The same has been true 
for Title I over and over again. We have not closed the gap 
between those that have and those that don't, as far as 
academics is concerned.
    And the second comment I would make, again, the same cry 
constantly for all of those years in relationship to IDEA 
funding. Because, as I mentioned before you came in, in a 
little city like York, Pennsylvania, if they were getting 40 
percent of excess cost they would get an additional million 
dollars.
    If you look at the big cities, we are talking about 
billions of dollars, which would have meant they would have had 
all sorts of money for maintenance of buildings, parent-teacher 
ratios, all of those kinds of things, if we had just given them 
that money year after year. But we didn't. And we have had a 
lot of increases recently, and I hope that continues after I am 
gone. But I tell them that I hope my picture on the wall in the 
room with my mouth open, that all of those who will be back 
year after year after I am gone they will look at that mouth 
saying quality not quantity. They will look at that mouth 
saying that we are interested in results, not process.
    Mrs. Lowey. If the Chairman will allow me to just respond 
briefly, I don't think there has been a hearing before this 
committee where I have not questioned and have not asked the 
question, shall we say, of how do you mandate excellence? It is 
very difficult. But I don't think that we can shirk our 
responsibility, and we have a responsibility when we are 
funding these programs to put in a monitoring component. I know 
in my district--and I visit every one of those after school 
programs and all of the comprehensive school programs and keep 
on top of it--we have to build in a systemic review process. I 
have to agree you, and I will keep your words in my head.
    Mr. Porter. I thank the gentlelady and the gentlemen----
    Mr. Castle. One comment. I don't disagree with what 
Congresswoman Lowey has stated in many ways. I do raise a 
couple of issues.
    One is, if you took the after school program to a 
$1,000,000,000 program or something approximating that or 
combined the programs exceeding $1,000,000,000, somebody either 
in the authorization level or here needs to take a look at how 
we are doing this. Shouldn't we get into a grant program or go 
to a formula program? Because an awful lot of money is going 
into certain districts and not others. I don't know what the 
answer is. I am saying, let's not ignore that.
    Secondly, I think that you mentioned that outside groups 
can participate in the 21st Century Learning program. That 
program must have an education component, because a lot of 
programs--unless it be an education-driven thing, because most 
outside groups cannot participate at this point. They can 
participate, but they can't participate outside of the 
geographical region of the school itself. That gets to be 
tricky, too. I don't want to just say every YMCA and then all 
of a sudden do these programs or whatever; but, on the other 
hand, a lot of them have been very good education participants, 
and I wouldn't want to exclude them. They are the ones open at 
nights and weekends and odd times.
    I just wanted to make those points.
    Just one other point about the Chairman, because I may not 
get to say this again. His work in the Head Start and Even 
Start is a lesson for all of us. Like you, I have been to every 
school and every program, and I have seen it all. Believe me, 
those are programs that are wonderful programs which are 
idealistic in what they do, but they need quality infusions, if 
you will, and an educational infusion. He has talked about that 
endlessly, and it is starting to pay off.
    Mr. Porter. I would thank both of the gentlemen for their 
testimony and simply say, if we are going to do anything to 
work these two programs together, we are going to have to do it 
in the next month or so because we are going to mark up in the 
second week in May. Please let us know. It would help us if you 
could. Thank you both very much.
    We have now covered 35 minutes and--Mrs. Lowey, we have now 
covered 35 minutes in two witnesses out of 15, so we are far 
behind.
    Mrs. Lowey. That is what happens when you have such good 
people.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            VARIOUS PROGRAMS


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Porter. Representative Joseph Crowley of New York 
testifying on various programs. Joe, sorry you had to wait so 
long.
    Mr. Crowley. I hope that we will not be long.
    First of all, let me thank you for this opportunity. You 
have always been very patient and willing to listen. Although I 
haven't had the opportunity to interact with you as much as 
other Members, your reputation is well-known by myself and to 
my predecessor, my colleague from New York, and we appreciate 
everything you have done.
    There are so many crucial programs under this 
appropriations that I think they represent a vested interest in 
our passing these appropriation bills. In my district, we are 
working on many exciting things. I believe three to be the 
utmost of importance to the hard-working men and women in the 
families in my district of New York.
    Last year, you helped me in assessing Community School 
District 30 implementing a 21st Century Community Learning 
Center at their junior high schools. This year Community School 
District 24, the most overcrowded school district in the City 
of New York, with their school buildings operating from 120 
percent to 140 percent capacity, is working with the Academy 
for New Americans and numerous other organizations as well as 
parent and teachers to implement project LIFE: Learning is for 
Everyone. The joint efforts of these groups make this a true 
community learning center.
    Community School District 24 is located in one of the most 
densely populated, lowest socioeconomic new immigrant areas in 
New York City--and in the United States, for that matter. This 
neighborhood has an urgent need to supplement for a community 
center that will help many new immigrant children with their 
academic achievement as well as provide a safe and drug free 
after school environment.
    Overall, project LIFE has been designed to address the 
acute need for high-quality programs that help all students 
meet or exceed New York State and New Jersey City standards in 
a safe and drug free environment. I believe $250,000 in funding 
from this committee will go a long way towards improving the 
academics of these children and increasing their interest in 
learning.
    My second project you may remember from my testimony before 
you last year as well. I introduced the committee to the good 
works of Steinway House located in Queens, New York. Steinway 
House operates an AIDS/HIV outreach and prevention program that 
targets the at-risk high school population. By going into high 
schools and educating our youth, Steinway is preventing the 
spread of this deadly disease.
    Steinway House will educate students by sending in 
caseworkers who will provide health education workshops to 
targeted individuals and groups in the newly served community 
of the Bronx which is in my district. We served Queens last 
year, and this year we serve the Bronx. Caseworkers will go 
into schools, community-based organizations, after school 
programs and over venues where high school age children 
congregate. The children will be taught about how HIV is 
spread, the benefits of abstinence, how to engage partners in 
negotiations that produce safe outcomes, and how to take 
precautions in preventing that disease.
    During the past 5 years, we have seen a disturbing change 
in the nature of the AIDS epidemic as more and more adolescents 
are infected. To decrease the spread of infection, we must 
direct more outreach and educational resources to our youth. I 
believe that Steinway's prevention education will reduce the 
incidence of HIV in the under-21 population, reduce all 
sexually transmitted diseases, and reduce teenage pregnancy in 
the targeted population as they reduce their risky sexual 
behavior.
    The AIDS Institute of the New York State Department of 
Health is recognizing Steinway's AIDS prevention program 
through funding from New York State. I greatly want my 
constituents in the Bronx to be able to reap the benefits from 
Steinway's successful prevention programs in Queens County. 
Funding in the amount of $100,000 will enable Steinway to 
create a new office staffed by two prevention worker/educators. 
One of the two workers will also serve as the site supervisor. 
As management and some administrative expenses will be provided 
through the existing State-funded program, $100,000 in Federal 
funding will provide direct preemptive services, making the 
item cost effective from the taxpayer's point of view.
    Steinway has a proven track record of success and has 
effectively utilized the funds set aside for them in last 
year's appropriation cycle. The Bronx community will greatly 
benefit from Steinway's services by the prevention of the 
spread of HIV/AIDS.
    In addition to being ethnically diverse, the 7th 
Congressional District has one of the highest percentage of 
seniors in the country as well. I am requesting $300,000 of 
funds under Title IV of the Administration of Aging's budget 
for an innovative community center in my congressional district 
which will focus on ways to address the abuse of the elderly as 
well as treatment of its victims.
    This Center, to be known as Mary's House, will house 20 
beds to care for seniors who are the victims of elder abuse. 
Among the core missions of this program are to provide a safe 
haven for victims, case management, education, legal services 
and, most importantly, treatment for the abused and the 
abusers.
    The $300,000 I am requesting will specifically ensure that 
Mary's House could provide case management, operate a 24-hour 
hot line for counseling and provide seniors with the care they 
may need while in residence. Without these funds, some of the 
important programs of this elderly abuse home may go unfunded 
and ultimately not be provided at all. In fact, it is pretty 
bad. The case and number of elder abuse incidents is rising 
sharply because of the taboo that is beginning to be lifted on 
this. It is a great crisis, I think, in the epidemic 
proportions it will reach in the future.
    The truth is, each of the programs that I have highlighted 
will result in a healthier society. I know you have many fiscal 
constraints to work with, but in this time of economic 
prosperity I ask you to help our children, keep them off the 
streets and safe from drugs, HIV transmission and many other 
horrors and as well helping our seniors deal with the growing 
crisis of elder abuse.
    Thank you for your time, and I look forward to working with 
you in the fiscal year 2000 bill.
    Mr. Porter. Joe, thank you very much. We will do our best.
    [The statement of Mr. Crowley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

          HOSPITAL CONVERSION IN THE CITY OF LORAIN (PROJECT)


                                WITNESS

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Porter. Representative Sherrod Brown of Ohio testifying 
on the Hospital Conversion in the City of Lorain Project.
    Mrs. Lowey. If I could, I would just say we appreciate the 
good testimony of my fellow New Yorker.
    Mr. Brown. It has been an honor to testify before this very 
distinguished group and you, Mr. Chairman, as Chair of this 
subcommittee; and, Mrs. Lowey, we thank you for your 
contribution on all of these issues on labor and health.
    On behalf of the Lorain community, I would like to thank 
the subcommittee for your generous support of our efforts and 
your past support of the project, the Lorain Healthcare 
Conversion Initiative.
    Lorain is a blue-collar industrial community struggling to 
make ends meet in an increasingly global nation. Some 4 or 5 
years ago, two hospitals in the southern part of mid South 
Lorain, two hospitals that were near each other, merged. While 
that resulted in a hospital with an efficient hospital system 
that delivered goods and services to the community, it also 
abandoned--caused the abandonment of a 400,000 square foot St. 
Joseph facility in the heart of downtown Lorain, a neighborhood 
whose residents experience the lowest socioeconomic status, the 
highest population density and the highest crime rate in my 
district.
    The Lorain Healthcare Conversion Initiative had the vision 
to redevelop and reuse the building as a nonprofit multi-
purpose community service center. By recruiting tenants who 
share the goal of allowing the economically disadvantaged to 
live and work in the community, the project will provide a 
myriad of critical community services in a centrally located, 
easily accessible facility.
    Tenants who have already relocated to the facility include 
the Veteran's Affairs Regional Health Clinic, the Lorain City 
Schools, Lorain Police Department, and the Family Care Center. 
Tenants who have committed to relocating to the converted 
facility include the Lorain County Community College and the 
Catholic Charities organization. Collectively, services will 
include continuing education focusing on technology and job 
training, urgent and family health care, family support 
services, security and assisted living care.
    The community center is the result of a responsible choice 
to integrate existing services and resources to prepare clients 
for work-supported self-sufficiency.
    With the committee's generous support last year, the 
project was able to make pivotal progress on infrastructure 
improvements to reconstruct the current hospital complex into a 
tenant facility. The nonprofit entity created to oversee the 
process is currently struggling to cover ongoing maintenance 
and utility expenses, depleting resources for planned 
renovations. The project needs $1,800,000 in one-time-only 
funds for supplies, architectural plans and labor to complete 
the conversion and to complete the final stages.
    The project has received tremendous support both in the 
community and at all levels of government. Both the City and 
County of Lorain are dedicated to seeing the community center 
developed and have guaranteed a private loan for the project. 
Governor Taft and Senators Voinovich and DeWine also have 
endorsed the project. I was pleased to host Secretary Donna 
Shalala as she made a visit to the site. She praised the 
project as remarkable and innovative and pledged her support 
for the conversion.
    It represents the most significant opportunity for the City 
of Lorain to address critical health, social, economic, 
educational and job training needs. I urge the subcommittee to 
help Lorain fulfill this social mandate by funding the start-up 
of this important initiative.
    I would like briefly also to shift to another project and 
to thank Mrs. Lowey for her leadership on technology in 
education.
    Medina is the fastest-growing county in Ohio but lacks a 
local college or university. Absent the funds to build one from 
scratch, Medina County superintendents began negotiations with 
the nearest university to provide access to quality higher 
education for that population. The result was the inventive and 
cost-effective creation of a broad band communication network 
connecting the Medina high schools with the University of 
Akron.
    This coalition has invested in wiring the area high schools 
and creating distance-learning labs linked to the University. 
They now propose to lengthen the fiber-optics network to the 
elementary and middle schools in each district. They extend the 
network to 37 buildings and allow 28,000 students in public 
schools access to the network.
    Students can access post-secondary education, special 
seminars, virtual field trips, cultural exchanges, and test 
preparation. Teachers can take advantage of staff development 
opportunities such as summer institutes, special education 
training, and curriculum development. Also, every business and 
industrial site and government agency within the county will 
have access to workforce development in the form of evening and 
weekend post-employment training education.
    Medina schools are seeking $2,500,000 for hardware 
purchases including cable, transportable cart-systems equipped 
with networking and video capability and the rewiring of 
antiquated schools.
    Mr. Chairman, I would like to thank you for providing me 
this opportunity to express my support and to ask for your 
continuing support for the St. Joseph's Hospital Conversion 
Initiative and your support for the Medina distance-learning 
project.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Sherrod, what was the original amount of the 
hospital conversion?
    Mr. Brown. Last year, Congress appropriated $2,000,000 for 
it. It is a $2,000,000 project. All of this is covered except 
the final 1.8. We asked the committee for 3 plus last year, and 
you gave us 2.
    Mr. Porter. I remember you testifying in regard to it, and 
you made a lot of progress.
    Mr. Brown. It has been remarkable.
    Mr. Porter. Thank you very much.
    Mrs. Lowey. Mr. Chairman, can I just thank my good 
colleague for your important work upon the extramural 
construction bill? I am optimistic that, with the strong 
advocacy of this chairman, we are going to increase the dollars 
to NIH; and I share with you the concerns that there are so 
many institutions around the country that are putting millions 
of dollars in for construction and research; and if we can be 
partners in that effort I think it is important. I know that 
you are working with Mike Dukakis and myself and others, and I 
want to congratulate you for your leadership.
    Mr. Porter. Thank you, Mrs. Lowey.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            VARIOUS PROGRAMS


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Porter. Representative Tim Roemer of Indiana, the 
ranking member on the Subcommittee on Oversight and 
Investigations of the Committee on Education and the Workforce.
    Mr. Roemer. Thank you, John.
    First of all, I would just ask unanimous consent to revise 
and extend and include all of my statement in the record; and I 
will try to be brief. I know that we have a lot of people to 
testify today.
    First of all, I want to thank you for all of your help and 
your leadership, John, over the years, especially on whole 
school reform and other very important matters to help our 
education system. I know that both Nancy and Anita are 
champions of more resources for Head Start for kids to further 
education, and I am honored to be before your committee today.
    I am here to talk about a couple of requests, John; and I 
will make them brief. One is called the Transition to Teaching 
program. In the next 10 years, we are going to need 2 million 
additional teachers in this country; and they need to be 
quality teachers. So the dialogue that Mr. Goodling and Mr. 
Castle were engaging in that we need accountability and we need 
quality, this first request that I put together combines both. 
It is called the Transition to Teaching program.
    It has passed the House, it has passed the Senate, and we 
hope that you will appropriate $25,000,000 for this request. It 
is a follow-up to the very successful Troops to Teachers idea 
implemented in the early 1990s where 3,300 former military 
officials transitioned from the military into teaching. And in 
the year 2000 83 percent of those 3,300 people are still 
teaching in inner city schools in some of the toughest 
districts and getting some of the best accountability results 
on their evaluations.
    This will supplement and improve on that by going to the 
private sector, into accounting, into high technology, into the 
business community, and give a $5,000 stipend to bring people 
from the private sector who want to go into teaching as a 
second career. So it is based on a successful Troops to 
Teachers idea. It improves on that idea, and it also has passed 
the House and the Senate.
    The second request that I want to formally make--and I know 
you are limited for time--is a request for a $3,000,000 study 
done from the University of Notre Dame and the Institute of 
Educational Initiative that will seek to do a comparative 
analysis of public and private schools and what is most 
successful for student achievement, especially for at-risk 
students. This would be a comparative analysis done over a 
longitudinal time period to then come back and propose, both 
the private sector and public schools, what is working in 
America today that will help us, particularly in inner city 
areas, in new, innovative, creative ways for at-risk student 
achievement.
    I have a couple other ideas in there, Mr. Chairman. I will 
submit them for the record and again salute this committee for 
their leadership in education.
    Mr. Porter. Tim, thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                               IMPACT AID


                                WITNESS

HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Porter. Representative Chet Edwards of Texas, 
testifying on Impact Aid.
    Mr. Edwards. Mr. Chairman, Ms. Pelosi, Ms. Lowey, thank you 
very much for allowing me to be here. I will be submitting my 
written testimony, rather than reading that to you.
    I want to thank all of you, but knowing that Ms. Pelosi and 
Mrs. Lowey will be back, I want to express my deep, heartfelt 
thoughts and thanks, Mr. Chairman, to you on behalf of the 136 
members on the bipartisan coalition here but, more importantly, 
on behalf of the 17 million schoolchildren that today, as we 
speak, are getting a better education because of your 
leadership in this committee. With your strong leadership, 17 
million children are getting a better education today because 
of what you have done through Impact Aid. That is Native 
American children. That is young boys, children of military 
families who may be separated from their mom or dad for 6 
months, 12 months at a time.
    I thought about this being probably my last testimony to 
you, Mr. Chairman, and I thought the dream of all of us, 
Democratic and Republican alike, is to come to this House and 
do something to make a lasting difference in the lives of our 
fellow citizens. Thank you not only for what you have done for 
the National Institutes of Health and other programs but for 
what you have done to Impact Aid.
    That 17-year-old daughter that I saw watching a 
teleconferencing program where she saw her mother for the first 
time in 2 months because her mother was in Bosnia the last 
year, to help that young girl get an education, I don't know 
how you put a dollar value on that. I just want to say thank 
you. You have done what I would hope someday I could say I have 
done, and that is to make a difference in the lives of young 
people, a positive difference in their lives in this country.
    So on behalf of the two divisions that I represent in Fort 
Hood, on behalf of the Impact Coalition that I cochair, I just 
want to express my appreciation to the full committee. This has 
been a bipartisan effort. But I would be remiss if I did not 
say that you in particular, Mr. Chairman, have gone the extra 
mile to see that these children who might otherwise be 
forgotten receive the full partnership and support that they 
deserve to get a better education.
    There is some specific testimony in my written report here 
that talks about a pilot program for heavily impacted schools 
and the good that has been done. I do hope--if it is not 
reauthorized before appropriation time, I hope that perhaps you 
could continue that pilot program. The schools have gotten 
their money in 6 months rather than 12 to 18 months, and that 
has made a significant difference in their ability to plan for 
their schools and their children.
    But, most importantly, I just wanted to come today to say 
thank you and God bless to you, Mr. Chairman, for the 
tremendous leadership you have given. Hopefully, because of the 
standard that you have set on a bipartisan basis, we will try 
to somehow fill your shoes and continue that commitment of 
Native American children and military children who sacrifice so 
much every day on behalf of our country. Thank you.
    Mr. Porter. Chet, thank you for those very kind and 
generous words.
    We do consider this is a very high priority. The best that 
we could do for all of those kids is to make this an 
entitlement program. It is hard for an appropriator to say 
that, but, really, this is one that is an obligation of the 
Federal Government that isn't being fully met. We have done our 
best to try to improve that, but I think we still have a long 
way to go. It should be an entitlement program, if anything 
should be.
    Mr. Edwards. Knowing that has made a tremendous difference 
for all of us. Thank you, for you have made a tremendous 
difference for this program.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                       POLYCYSTIC KIDNEY DISEASE


                                 WITNESS

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Porter. Representative Karen Thurman of Florida, 
testifying on polycystic kidney disease.
    Nice to see you, Karen.
    Mrs. Thurman. Nice to see you.
    First, I want to associate my words with my colleague 
before, maybe from a different level, though, in what you have 
done on this particular issue on polycystic kidney disease. 
Quite frankly, I think you have been the biggest difference in 
this Congress. In the last two Congresses that I have come to 
speak before you, you have made a difference in letting NIH 
know your interest in this and what have you done in helping us 
get specific language when they weren't listening to us and 
what the appropriators were saying, that in fact through your 
work I think they finally got it. So we do appreciate that and 
the many folks around this country and around the world for the 
research that is being done and what it will do for their lives 
and the quality of their lives. So I really appreciate that.
    You have my testimony before you. And to my colleagues, as 
you know, Mr. Chairman, my husband, who suffers from polycystic 
kidney disease, who has now had a transplant, we have now 
personally found out that our daughter at the age of 21 has 
this disease as well, which we had expected a possibility of 
that happening because it happens on a 50-50 chance. However, 
we think that the research that has been done up to this point 
and the fact that the polycystic kidney disease community has 
in fact pulled together a plan--and I think it is attached with 
the information that I sent to you--and so far we have done 
very well on it.
    We spend about $11,500,000 annually for the polycystic 
kidney disease research. We are asking for, more specifically, 
to raise that to $20,000,000, which would be a 7.5 percent 
increase.
    There are some interesting things going on. There is also 
one that I am particularly interested in; and we think, if this 
money is provided, actually will give us an opportunity to look 
at things that could stop the growth of these cysts. In about 
12 to 18 months, we can have some trials on humans, where it 
has been done on mice where it has stopped the cysts from 
growing. This is about $20,000,000,000 annually, what happens 
in this country through Medicare, through dialysis and/or 
through organ transplants. So if we could find this and 
actually put it into clinical trials there is a possibility 
that we could stop the growth of these cysts.
    What has come to my attention even more so, though, and I 
don't think that I recognized it, but is the amount of organs 
that the cysts actually do attack. It is no longer just the 
kidneys. There is also some signs of liver. This disease also 
associates itself with brain aneurysms. It has now been told 
that it can hit reproductive organs, and you can see that would 
be a huge issue for a 21-year-old who is faced with that, as 
well as other parts of the body.
    And so, by bringing this research up, funding what has 
already been laid out, I think in a very good report as to what 
they are trying to do, this $7,500,000 could make a big 
difference for a lot of people in this country. So being 
associated with Chet as far as the aid and Impact Aid, let me 
just suggest to you that you and this committee have also made 
great strides in helping a lot of people in this country with 
diseases. We are most appreciative.
    Mr. Porter. Karen, I think that is a very good example of 
why this ought to be a very high priority in increasing funding 
for biomedical research generally. The possibilities are there 
in so many areas if only we can take advantage of them and move 
this as quickly as we can to bring these new technologies to 
bear on people that suffer from the diseases. So we will do our 
best. Thank you.
    Mrs. Thurman. I know you will, and you have in the past.
    I thank my colleagues. I wish you well in whatever 
endeavors you have for the future, and we hope that you will 
stay involved in this process because you have done so much for 
so many.
    Mr. Porter. Thank you for saying that.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
    Mr. Porter. Representative David Wu of Oregon to testify on 
specific projects.
    Mr. Wu. Thank you, Mr. Chairman.
    I ask unanimous consent to submit my statement for the 
record. I will try to refrain from reading it. I know that you 
have many such items of testimony to take under consideration, 
and they are all worthy projects.
    I would like to start with a project which is at Portland 
State University. It is a Native American tribal government 
center. If built, it will be absolutely unique in the United 
States. As you know, many tribal governments have problems with 
economic development, with rule of law issues, with separation 
of power issues; and Portland State University is proposing to 
build a tribal governmental center which will hopefully address 
many of these issues for students and for adults from tribal 
lands.
    Studies have shown that the development of tribal 
government, the development of rule of law in tribal lands is 
very, very highly correlated with economic development in 
tribal lands. You, as a strong supporter of Native American 
rights, can appreciate how important it is to help Native 
Americans help themselves. And I might add that this funding 
request, this project, had been led by my immediate 
predecessor, Elizabeth Furse; and she very specifically made 
this funding request.
    And in my eagerness to begin I would like to recognize and 
thank Ms. Pelosi and Mrs. Lowey. I did not mean to overlook 
that aspect of courtesy.
    I would like to jump to a point which is last in my 
prepared testimony but which I am going to talk about next 
because it is really first in my heart. It was one of our 
failures, quite frankly, last season to fail to get funded a 
very worthy project at the mouth of the Colombia River. The 
Colombia River estuary project, known by the acronym CORIE, is 
a very important project for an entire region because, by 
simply studying solidity, density, current flows, what this 
body of scientific information will permit us to do is control 
the dams on the Colombia River in a more intelligent fashion. 
It is a public-private collaboration which helps us predict 
current flows, use water more intelligently; and, quite 
frankly, in one small public-private partnership it would help 
us save salmon, prevent pollution and aid navigation.
    The port of Portland is 100 miles up river from the 
Colombian mouth. This is a very important project in the 
region, and we are asking for a small piece of CORIE funding to 
come from this committee to train the scientists, engineers and 
computer scientists to predict current flows.
    Next, I would like to see $1 million in funding for the 
Fund for the Improvement of Education for a Senior Tutor 
program to be run by the Northwest Education Laboratory. In my 
town halls what I have found consistently and in my visits to 
schools is that there is a lack of adult attention to young 
people today. Both parents are working, and frequently families 
have only one parent. Class sizes are large.
    We were able to slip into the Elementary and Secondary 
Education Act a senior tutoring provision; and we created the 
idea--we reached out to a Republican who was able to slip it 
into the bill. It is a bipartisan measure. But it does no good 
to put seniors in the classroom to counsel students unless they 
are trained to do so. So this million dollar grant is basically 
to pilot the training of seniors to bring these citizens back 
into an involved role in our schools.
    Next, I am asking for funding for a building expansion 
project at the Oregon Health and Sciences University. It is not 
only the largest employer in our corner of Oregon, it also 
trains 2,700 doctors, dentists, nurses, other health 
professionals every year. It comes out with great 
breakthroughs, and there is a shortage of expansion space on 
what we fondly call Pill Hill, and this is a small step in that 
direction. This particular building will be dedicated to 
functional genomics, which is basically the conversion of the 
human genome project into therapies which are directly 
applicable to clinical situations.
    Lastly, I would like to ask for support for a project at 
Louis and Clark College. This is the bicentennial of both the 
Louisiana Purchase and the Lewis and Clark expedition. And the 
college, Lewis and Clark College, has perhaps the best 
collection of Lewis and Clark materials anywhere in the Nation. 
What we would be sponsoring is a symposium, teaching and 
collection of materials so that we can make the visitation--
which is assured to occur around the bicentennial--much more 
meaningful for the people that come to put it in the context of 
the Nation's history.
    Thank you very much, Mr. Chairman. And, quite frankly, 
although there are many other good members of this 
subcommittee, I quite frankly don't know what we are going to 
do without you after this term is out.
    Mr. Porter. Thank you. You will do fine without me. There 
are wonderful members of the subcommittee.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. David, when did Lewis and Clark arrive out 
there? I think it was about 1805 or 1806, wasn't it? You have a 
little time, is what I am saying.
    Mr. Wu. I believe it was a 3-year expedition, and I believe 
that it did span the time from 1802, I believe, to 1805.
    You are quite right. There is some time to prepare. Many 
people are beginning their preparations now. As you know from 
the construction cycle in Illinois, construction does take some 
time.
    Mr. Porter. On the Columbia River estuary project, staff 
advises me that we may have some jurisdictional problems with 
that, that it doesn't come under our jurisdiction. Why don't 
your staff and our staff work together on that and see if there 
is a problem with whether it comes under our jurisdiction. I am 
just raising the issue----
    Mr. Wu. I would be happy to. The small request we are 
asking of this committee's jurisdiction is for the training and 
education and certification of students and scientists. It is 
not for the----
    Mr. Porter. That sounds like we would have jurisdiction.
    All right, thank you, David. We appreciate it very much.
                              ----------                              

                                           Tuesday, April 11, 2000.

                            VARIOUS PROGRAMS


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Porter. Frank Pallone of New Jersey testifying on 
various programs. Frank.
    Mr. Pallone. Thank you, Mr. Chairman, and I see my 
colleagues, Congresswoman Pelosi and Lowey also.
    I guess I could start out by saying that I regret the fact 
you are not going to be here again next year, but I would focus 
more on the fact that you won't be here in your capacity as the 
chairman of the Armenian Caucus. I don't think that I can 
replace you in that capacity in any case. Last night, we were 
at the Armenian Embassy and--I think that you know today is the 
advocacy day for the assembly--they were all asking about you.
    Mr. Porter. Frank, you have done 90 percent of the work 
there and done a super job.
    Ms. Pelosi. Mr. Chairman, Catherine Porter was represented 
there as well.
    Mr. Pallone. I have my written testimony for the record, 
but I just wanted to mention two or three things, Mr. Chairman 
and my colleagues, because of their significance to me not only 
in the district but the fact that they involve Federal money 
that matches State and private funds that we also have, so that 
in these two cases the situation where you have helped already 
tremendously but if we don't get the additional Federal funds 
then we may run the risk of not being able to do the overall 
project.
    I believe very strongly when I come before you asking for 
projects, particularly in the district, that it is important to 
show that there has been a local effort to try to raise the 
money through private means or through State and local 
government. There are two things that I wanted to mention in 
that regard.
    One is the RUNet 2000 program, which is essentially an 
Internet project at Rutgers University. Many people think of 
Rutgers in one location, but actually in New Jersey it is at 
three locations. They have campuses at New Brunswick at the 
main campus in my district but also large campuses in Newark 
and Camden.
    This RUNet 2000 is basically a comprehensive, integrated 
voice-video-data communication network that links the three 
campuses at Rutgers and also links those institutions to 
elementary and secondary schools throughout the State. It has 
been very successful. You have already given us $5,000,000 of 
last year's $10,000,000 of Federal funds that we have been 
seeking for this $100,000,000 project. The rest of the 
$90,000,000 is going to come from the State and private 
sources, but I am requesting the remaining $5,000,000 be 
designated this year if possible because that makes it possible 
for us to attract the other funds and reach the goal of 
$100,000,000.
    The other project that is in a similar vein is at the 
University of Medicine and Dentistry in New Jersey. They have a 
child health institute that they are putting together. There we 
have--we are trying to construct an 80,000 square foot building 
in my district for the Child Health Institute. This is a 
comprehensive biomedical research center which is focused on 
molecular genetics and development of children; and, again, you 
have given us about $2,000,000 over the last year or so. I 
think it was last year $2,000,000 in the conference report for 
this Child Health Institute.
    I am trying to get the additional $5,000,000 in Federal 
funds. This would match about $17,000,000 in commitments that 
we have from private foundations, corporations and individuals.
    So those are my two highest priorities, Mr. Chairman and 
Congresswoman Lowey, in part. If we get the Federal funds we 
can leverage the State and local moneys.
    The only other thing I wanted to mention was I wanted to 
voice support for a higher level of funding for Impact Aid. I 
heard Mr. Edwards mention that before.
    And I also wanted to say that the Job Corps program which 
you have been very supportive of, I guess overall we are 
looking for $1,045,000,000 for that. That is an overall, not a 
specific to my district.
    I did want to mention that I have been to the Job Corps 
Training Center in Edison, New Jersey, in my district; and it 
really is a wonderful program. I watched a number of students 
there who have done well. They are placed in local schools and 
assist the teachers. It is a really great help in assisting the 
people with the Job Corps where students are placed but also in 
terms of their own personal development. I did want to mention 
that as well. Thank you.
    Mr. Porter. We agree with you on Job Corps, that it is one 
of the best programs. We have tried to put it at a very high 
priority and move it up as rapidly as we can because it really 
takes kids that are at highest risk and gets them into a work 
mode. And we think it does wonders and it is a model for the 
other programs. Thank you, Frank.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. BOB WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Porter. Bob Weygand from Rhode Island testifying on 
projects.
    Mr. Weygand. Thank you, Mr. Chairman.
    I can't help but also thank you for our Job Corps center 
that we are getting established in the State of Rhode Island as 
the result of the work of this committee and the support of 
this committee. I can tell you that, while it won't be 
completed for about a year and a half, it is under construction 
now and anticipation of what it will do to improve the lives of 
so many students is very important.
    I am here--and I will try to keep my testimony brief, and I 
will submit it in full, and I think I will actually submit a 
revised statement as well--to talk about two programs that I 
think are important. One is the Pell Grants.
    As you know, the Pell Grants right now are at $3,300 a 
year. The administration has asked for an increase up to $3,500 
per year. I am here to urge you to move that actually to a 
total of $4,000 per year.
    Senator Claiborne Pell is from the State of Rhode Island, 
and the program is named after Claiborne. A story about what 
happened to me once while campaigning with Claiborne Pell, I 
was going around the Community College of Rhode Island--which 
is a wonderful institution that has graduates that are 20 years 
old and some of them are 80 years old and all in between. When 
you go to their graduation you will see a mix of people that 
have gone back to school to improve their lives. It is a 
fantastic experience.
    One day as we were walking around the campus and talking to 
people, students were running up to Senator Pell and shaking 
his hand and thanking him--thanking him--for the Pell Grant. 
The people were actually saying thank you very much for the 
check, because they thought that he actually signed the check 
and sent it to them personally. It was an amazing experience.
    The faces were so--these were people that had an 
opportunity to go back to school because of the Pell Grant. The 
Pell Grant actually made a big difference not only in their 
personal lives but the lives of their children because many of 
the graduates at the Community College of Rhode Island have 
raised a family and gone back to school to improve their lives 
and that of their children because of this. The Pell Grant 
program is of enormous assistance to this, and I urge you to 
raise the limit to $4,000 rather than to $3,500 because that is 
about what the cost of tuition is for 1 year at community 
colleges.
    Mr. Porter. I am not sure you were here earlier, but we 
discussed this issue with both the chairman and one of the 
subcommittee chairman of Education and the Workforce.
    One of the things that all of us have to do is to get the 
tuition and cost increases that are occurring in colleges and 
universities across the country under some degree of control. 
Because we can't buy more access even by increasing Pell Grants 
if it is offset by cost increases. If they are just standing 
still and they don't give young people to have the opportunity 
to get a higher education----
    Mr. Weygand. Rhode Island has three higher education 
institutions, the University of Rhode Island, Rhode Island 
College, and the Community College of Rhode Island. The latter 
two, Rhode Island College and Community College of Rhode 
Island, we have approximately--tuition books and all of their 
expenses--just under $4,000 per year for their entire expenses. 
That is not room and board, but most of the students commute. 
So this is very important. It really provides them with the 
access to this educational system that they perhaps wouldn't 
have. So you are right in saying that we have to keep down the 
costs of expenses, and we try to do that.
    The University of Rhode Island--I am a graduate of that, I 
have a son there now and a daughter who graduated 3 years ago 
from the university--total room and board and tuition is 
$10,900 for a student full-time for the entire year. Very 
reasonable, but the Pell Grants are extremely important to 
those students as well.
    The other issue that I wanted to talk about is a project at 
the University of Rhode Island. I was speaking about how much 
you helped us last year with a million dollar grant for 
planning and development of the Center for Environmental 
Studies at the University of Rhode Island. I thought it would 
be rather bold of me to come in and ask for $9,000,000 for this 
particular project. Then I listened to David Wu, and I lost all 
thoughts that I should be very shy and sheepish of asking for 
$9,000,000 after I listened to the litany of projects that he 
had coming before the committee.
    I am not actually asking for the entire $9,000,000. The 
entire project is a $10,000,000 project. Last year, this 
committee funded $1,000,000 for planning design and a host of 
other nonbuilding costs for this environmental center. The 
center, which you have an outline about it, would really be for 
a program--of programs that we have in various pieces around 
the university right now that are designed to improve livable 
communities, coastal zone management on detecting oil spills 
and planning for all of those things that impact many of our 
coastal States and communities.
    The University has had many different programs and 
curriculums in pieces and ragtag kinds of building around the 
campus; and with the great emphasis on sustainability, growth 
management and livable communities, they have been on the 
forefront of trying to bring them all together. The State of 
Rhode Island has a dedicated university, dedicated matching 
funds to this. But we need to keep the building going forward.
    The total cost would be approximately $9,000,000. We are 
asking that this committee would fund at least $3,000,000 this 
year toward that. We are working with Commerce through NOAA as 
well as other agencies to get other pieces of the funding.
    It would be--to be perfectly candid with you, it would be 
wrong for me to come in and ask for the total funding from this 
committee, but I would love to see $3,000,000 funding for this 
particular program from this committee program.
    This project would be cutting edge and provide some of the 
finest growth management, livable communities, sustainability 
curriculums in the country. There are many courses, many 
programs, many universities around the country that deal with 
planning, that deal with coastal institutions, but we would 
also bring into this marine sciences. There are many of them 
that deal with design, but none of them pull them all together 
in the way that the University of Rhode Island has approached 
theirs to do so, including our engineering center and 
transportation center which would be part of this entire 
program.
    With that, Mr. Chairman, I will submit a full statement to 
the committee; and I ask for your support for the Center for 
Environmental Studies at the University of Rhode Island.
    Mr. Porter. We will do our best.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                               IMPACT AID


                                WITNESS

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
    Mr. Porter. Representative Lee Terry of Nebraska, 
testifying on Impact Aid.
    Mr. Terry. Thank you, Mr. Chairman.
    I am not going to speak specifically about a project for my 
district but support the Impact Aid program in its whole and 
just start off my comments by saying that you have shown 
extraordinary leadership on the issue of support for Impact Aid 
and an incredible understanding, and that is going to be missed 
not only in your committee but by those of us who support that 
project in our school districts. I appreciate your commitment 
and understanding to that cause.
    Now, as I said, I came here to speak about the project or 
the program as a whole. Certainly, I have a parochial interest. 
I represent Bellevue, Nebraska, which includes Offutt Air Force 
Base, the home of US/STRATCOM, the 55th Wing and about 11,000 
active duty personnel. So, needless to say, the Bellevue School 
District is a heavily impacted school district.
    The Bellevue School District really has performed admirably 
under the circumstances because of the great leadership within 
the district and community support, despite the fact that it 
operates under, of course, the support of property taxes. And 
in Nebraska, as many States do, there is a lid on property tax 
NOAA that they can levy. So they are really caught between a 
rock and a hard place if you increase NOAA at one level while 
having to deal with the fluctuations from the Federal 
responsibility, and this is for a school district with over 20 
percent of its budget reliant upon the Federal Government 
through Impact Aid.
    I say that the Bellevue School District is an example of a 
school district that is really dependent on the biggest 
``deadbeat dad'', or potential deadbeat dad, and that is the 
Federal Government. The children of military families in this 
district, which is almost 50 percent of its school population, 
should not have to settle for less education than their 
counterparts of the surrounding school districts.
    Because of the importance of Impact Aid to my district, I 
am a member of its coalition and one of its cochairman. That is 
the Impact Aid Coalition. So now I am going to switch my 
comments from the parochial to supporting my school districts 
in my congressional district but now support of the program in 
general.
    I feel that Impact Aid is a Federal financial assistance 
program that helps local school districts educate children who 
live or reside on tax-exempt property. It is just that simple. 
This program is ``Dollars to the Classroom'' in its purest 
form. Available funds are allocated to eligible school 
districts based on a statutory formula, and the local officials 
decide how best to use it, on how best to educate their 
students.
    When I saw the administration's budget request of 
$770,000,000 for fiscal year 2000, my first reaction was, 
``Here we go again.'' just like last year, this administration 
low-balled this program. In fact, he proposed the elimination 
of section (f) funding that would take about $6,000,000 
directly from the Bellevue School District at a time when we 
need to improve the quality of life for our military personnel. 
What more important quality-of-life issue is there than the 
quality of their children's education?
    Those in our armed services need to know that the Federal 
Government is doing the right thing for its school districts 
that we rely on to teach their children. Education programs 
outside of Impact Aid are receiving increases, while Impact Aid 
continually has to deal with attempts to cut it.
    In order to prevent this from happening, I join my 
colleagues in seeking an appropriation of $1,003,000,000 for 
Impact Aid for this upcoming year, which will fund school 
districts just above 100 percent of the learning opportunity 
threshold. This level of funding will ensure that those school 
districts which are heavily impacted and affected by Federal 
properties maintain funding commensurate with the other 
portions of the program.
    Mr. Chairman, Impact Aid is a commitment we must keep. 
Thankfully, you and this Congress are willing to keep this 
commitment and with your support we can continue to educate our 
military and tribal children properly. Thank you, and I request 
that my entire and formal statement be submitted for the 
record.
    Mr. Porter. It will be received.
    We are about to get a 302(b) allocation. We are not very 
sanguine about how much room that will leave us, but we will do 
our very best. Because, as you say, this is a program that 
really out to be an obligation of the Federal Government and 
one where it should be funded by law. Appropriators don't say 
that very often, but it is true. We will do our best to provide 
the funding. We know how much it is needed and how well it is 
spent. Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                           Tuesday, April 11, 2000.

                   GOVERNMENT SHUTDOWN PREVENTION ACT


                                WITNESS

HON. GEORGE W. GEKAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Porter. Representative George Gekas of Pennsylvania, 
testifying on the Government Shutdown Prevention Act.
    Mr. Gekas. Thank you, Mr. Chairman.
    The prospect of not having to ask you for money or some 
kind of appropriation but rather to go through the process 
stimulates more than normal--the Shutdown Prevention Act is, as 
it states, it operates on a simple concept. The shutdowns that 
we have experienced since I have been here--you have been here 
a little longer--the threat of it has occurred every year, with 
an actual shutdown one time.
    Why we should be enacting this without quarrel is that in 
1990, in December of 1990, we were sending a half million of 
our fellow young Americans to Saudi Arabia, musket in hand in 
the desert ready to do battle, and our government shut down. 
Nothing is more humiliating, more embarrassing than the 
greatest power on earth to have their individuals ready to do 
battle and the government back home is no longer existing. That 
is pretty humiliating. That is more humiliating than having to 
grovel at the feet of OPEC countries to ``send us more oil'' 
types of statements.
    This is unacceptable. We cannot permit either the threat of 
shutdown and, of course, actual shutdown. We are too big and 
too great and too mindful of our duties to our fellow citizens 
and the world community to allow this to happen.
    So what is the answer to it? The answer is, the way we 
prepared it, that on September 30 at midnight, for those 
appropriations bills that have not been completed, that instead 
of lapsing into no man's land and to no way to run the 
government unless you go into the temporary CRs that we have 
been used to, is to have an instant replay of last year's 
appropriation. That is what our bill does.
    You will recall that at one junction we were able to pass 
the concept at both the House and the Senate. It was 
amalgamated into the then Disaster Relief program as we enacted 
and the President vetoed it. It was our last great chance up to 
then to have this proposition adopted.
    And, since then, I have been grappling with why the 
appropriators are against the legislation. Constantly, I have 
run into opposition on the part of the appropriators, except 
for the last time we were able to get on board--I couldn't 
believe it--Ted Stevens of Alaska who, on that side of the 
Capitol, he has the appropriators--and I would have expected 
the same kind of opposition that I have been hearing every year 
for the time that I have been here from the appropriators. Ted 
Stevens said privately to me, probably, if you look at it 
analytically--as only he can--in some ways it helps the 
appropriators. That is enough for me. I grasped that and have 
been repeating it ever since.
    The appropriators say they are robbed of negotiating power 
if we have an instant replay of last year's, that they are 
robbed of the ability to negotiate. On the other hand, if we 
have a smooth process where no shutdown occurs, they have time 
for this new budget to work without pressure and to put into 
place what everybody is going to want, whoever is a Member of 
Congress at any time in the future, and that is a budget every 
year with all of the pressures and counter-pressures for 
increased appropriations or restricted appropriations or 
mitigated appropriations. All of that will still be in play and 
will force the outcome of a new budget.
    So our bill does not prevent negotiations. It fosters it, 
we believe, if we know that there can be no shutdown. I know 
sometimes I sound like a voice in the wilderness in this, and 
that is because I am.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. George, you have been a great champion of this. 
As you were speaking, I was thinking to myself maybe what you 
need is a kind of a tryout or a pilot for this. What if you 
took this bill and had--it would only obviate the need for 
continuing resolutions, but what if you had started with 10 
days' automatic extension at last year's figures and then you 
had a further extension of 7 days and a further extension of 5 
days, let's say. That would all be automatic, and then it would 
have to be done specifically.
    So, in other words, you would give people some experience 
with this process, you wouldn't have to go through the vote 
each time, and you would still keep the process alive. I think 
if people got the experience of dealing with something like 
this that maybe the fear of it would wear off on them.
    Mr. Gekas. I would not tangle with the chairman of this 
committee if he were to take this bill, amend it----
    Mr. Porter. What are you doing before this committee since 
we don't authorize it?
    Mr. Gekas. I don't know. It was referred to your committee.
    Mr. Porter. Who would have jurisdiction over this subject 
matter?
    Mr. Gekas. It would be the Appropriation Committee. I don't 
know which subcommittee.
    Mr. Porter. Isn't this substantive legislation?
    Mr. Gekas. Isn't it procedural?
    Mr. Porter. You introduced the bill, did you not, and it is 
assigned to appropriations?
    Mr. Gekas. That is my understanding. Can the staff verify 
that?
    Mr. Porter. Very unusual. We don't----
    Mr. Gekas. This would be the third time it has been 
referred to your subcommittee over the time that you have been 
working on it, I believe. But don't ask me how it came to your 
committee. Probably it should go to National Defense or 
something.
    Mr. Porter. If we have your bill assigned to this committee 
I will hold hearings on it, because I was not aware of it.
    Mr. Gekas. It is H.R. 142 this cycle.
    Mr. Bonilla. We might break new ground in legislative 
appropriations.
    Mr. Gekas. I wouldn't object to that if it is my bill. If 
it hurts me, you will hear from me.
    Mr. Porter. I have not seen that it was assigned to this 
committee, and it would be very unusual, as Mr. Bonilla says, 
but it is not an idea that I am antagonistic toward at all.
    Mr. Gekas. As a matter of fact, just as a matter of 
historical retrospection, our Republican conference adopted it 
and did vote favorably on it and the Democrats like Wynn and 
Hoyer and the ones that are heavily impacted by a government 
shutdown, the Federal employees, Federal contractors, it hurts 
us in many different ways. Not only the actual impact but the 
threat of the adverse impact also hurts. So the time has come. 
I am going to stay in Congress. I am threatening everybody 
unless this is passed. Strom Thurmond and I will be working on 
this 50 years from now.
    Mr. Porter. Somehow I think you are going to get this thing 
done. Thank you, George.
                                           Tuesday, April 11, 2000.

        CENTER FOR ACADIANA GENETICS AND HEREDITARY HEALTH CARE


                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Porter. Representative Billy Tauzin of Louisiana 
testifying on the Center for Acadiana Genetics and Hereditary 
Health Care.
    Mr. Tauzin. Mr. Chairman, thank you very much. I am not 
going to threaten you with staying here until we get this done, 
but you of all people have been most helpful in your 
stewardship of this program.
    I am accompanied today by my young friend Keith Andrus, who 
has accompanied me every year that I have presented this case 
to you. Keith is an 8th grader. He is the son of my office 
manager, Ms. Rachel Andrus. Keith is, unfortunately, afflicted 
with a genetic disorder that occurs two and a half times the 
national average in the Cajun population, which, by the way, 
has a distinct genetic signature. He qualifies as an authentic 
American minority.
    The Acadianans who live in Louisiana unfortunately have 
this genetic recessive capacity that every now and then shows 
up in young children like Keith. It is called Friedrich's 
ataxia, a life-shortening neurodegenerative disorder that 
occurs primarily in rural medically underserved Cajun 
population.
    Through your help, Mr. Chairman, and your committee we have 
created and started the Center for Acadiana Genetics and 
Hereditary Health Care. I have a written statement that I will 
include, some letters from the Louisiana delegation both 
thanking you and encouraging you to continue the funding of the 
Center.
    Last year, for example, the Center held a wonderful 
symposium on genetic illnesses and treatment, educating people 
in Louisiana in some of the problems. Young Keith testified 
before 300 people at the Genetics of the Acadiana Symposium.
    Mr. Chairman, you may remember from last year we talked 
about how the work done in this genetically unique population 
on this genetically transmitted disease is symbiotically useful 
in all of the genetic research done on some of the other forms 
of genetic illnesses in our country. What they are learning in 
one study is beginning to help reinforce the possibility of 
cures or treatments in the other areas.
    For example, there have been some new drug discoveries that 
may help one of the very serious problems that Keith and other 
Friedreich's ataxia patients suffers and that is an enlargement 
of one of the ventricles of the heart and arrythmia and improve 
the quality of Keith's life and some of the other people who 
are suffering from the disease. The Center was provided with 
$1,000,000 initially in 1999 and $1,200,000 in this cycle, and 
the delegation is requesting an appropriation of $1,500,000 for 
2001.
    I bring you Keith as a best example I can bring you of 
young people in our country who are caught in this disease that 
was transmitted, unfortunately, through the genetic code of our 
species and particularly prevalent in the genetic code of the 
people literally of his culture, and as a best example of the 
courage in the face of this kind of disease but also of the 
need for us to really focus hard on the time that we have to 
find not only the treatment but the cure to give Keith the kind 
of life he deserves and to give folks that have these kind of 
genetic problems not only in Friedreich's ataxia but in the 
many ranges of genetic disease that research eventually leads 
us to discovery and treatment and cure.
    Again, Mr. Chairman, I want to thank you, first of all, for 
your stewardship and dedication of this and ask you to be there 
for us and all of you on the committee to help us continue this 
vital work. It may not only help Keith but people with all 
forms of disorders because, as I said, discovery in one area 
tends to be a discovery across the whole spectrum of genetic 
disorder.
    I will be happy to answer any questions.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Well, Mr. Chairman, thank you for your 
testimony. Mr. Bartek brought this to our attention earlier as 
a public witness.
    And I would say to Keith that I really believe that if we 
provide funding for the health care center and if they can 
compete for NIH grants for research in this area that we are 
going to find a way to stop this disease from affecting people 
in the community, and I think the possibility is really very 
great that we can do that. There is so much progress being made 
and so much hope out there that if only we can provide the 
resources we can make a difference.
    Mr. Tauzin. The irony is that the Acadiana live joie de 
vivre, which means a joy of living. We are talking about giving 
Keith and others like him the joy of hope.
    Mr. Chairman is telling you, Keith, to keep your spirits 
up, because there is a lot of hope. A great deal of progress is 
being made, and we will keep working for you.
    Mr. Porter. Thank you, Billy.
                              ----------                              

                                           Tuesday, April 11, 2000.

                    SOCIAL SECURITY BUDGETARY NEEDS


                                WITNESS

HON. E. CLAY SHAW, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Porter. I am going to ask Mr. Bonilla to take the 
chair. I have a meeting of subcommittee chairmen.
    Mr. Bonilla.
    Mr. Bonilla [presiding]. At this time, the subcommittee 
will be pleased to hear from the outstanding representative 
from Florida, Clay Shaw. He is going to tell us about Social 
Security budgetary needs.
    Mr. Shaw.
    Mr. Shaw. I couldn't help but notice the Social Security 
plaque up there on the wall, so I will make a quick pitch on 
that before I leave.
    I have a very long, well-thought-out statement that I would 
ask be made a part of the record. I also have a shorter 
summary, which is also well-thought-out, but I will cut to the 
chase. I know that you have listened for many hours on these 
things, and I will certainly take this into consideration.
    I am here today to speak to you about the NIH funding and 
funding for trying to unwrap the mystery of so many of these 
diseases. I point out in my statement Alzheimer's disease, 
which all of us are very concerned about. Of course, there is 
cancer, which is so prevalent among our population. My wife 
Emily lost both of her parents and sister to cancer, so I have 
a very close and personal relationship with finding a cure for 
that terrible disease. Polycystic kidney disease is something 
that might be of some mystery to this committee, but it is a 
disease which there is a great deal of research going on out at 
NIH. Of course, there is diabetes and many of the other 
diseases.
    If we can make a commitment to take a man to the moon and 
return him safely as President Kennedy did, I think we could 
certainly make a commitment to do the same thing with regard to 
solving some of these terrible diseases. There is so much 
research going on and we are so close to unblocking the mystery 
of so many of these diseases I almost liken this to be a race. 
When you get the finish line in sight you don't slow down. That 
is when you sprint. I think it is very important for this 
committee to continue what it has done in the past, and that is 
to continue to increase the funding at NIH. Our very lives may 
depend on that research.
    Mr. Bonilla. Thank you, Mr. Shaw. We will enter your 
statement into the record.
    Did you have anything else?
    Mr. Shaw. I think you have jurisdiction in this committee 
over the administrative funding of the Social Security 
Administration. I know that there has been some talk over on 
the Senate side, the Social Security Administration has asked 
for $35 million. I think the Senate came back and said, what 
about $15 million?
    We have an extraordinary expense which is going to be 
involving returning the earnings penalty that has been taken 
out of the checks since the beginning of the year. This is just 
the administrative expense of putting these checks back in the 
mail. I would hope that you would pay very careful attention to 
the funding that is needed in order to accomplish this and see 
that it is done so that the Congress is in no way responsible 
for any entanglement in getting these checks back.
    I talked to the Commissioner over at the White House last 
week at the signing ceremony. He is most anxious to get these 
checks in the mail very quickly so this can be returned to the 
people to prevent the earnings penalty. I am sure this 
committee will be on top of that and do the right thing.
    I thank you for your time.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Bonilla. Mr. Shaw, we appreciate your appearance here 
today. This subcommittee has worked hard to increase the NIH 
funding for research for every disease that you mentioned. As 
you know, we have difficult hoops to jump through every year to 
get to that point; and I think we are united on this 
subcommittee on both sides of the aisle to try to double the 
NIH funding over a period of 5 years. But it is a difficult 
thing to do. We need help from as many people as we can get.
    Mr. Shaw. These diseases do not recognize the partisan 
differences. It should be to all of our advantage to fund 
exactly how much is necessary to how much can be spent wisely 
in trying to speed up the research and development of the cures 
for these diseases.
    Mr. Bonilla. Anyone have any questions for Mr. Shaw?
    Thank you, Mr. Shaw.
    The committee will stand in recess until 2:00 p.m.
                              ----------                              

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. ROBERT C. SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Porter. The subcommittee will come to order. We 
continue hearing from our colleagues in the Congress regarding 
the appropriations for fiscal year 2001 for Labor and Health 
and Human Services and Education and related agencies. We are 
very pleased to welcome our colleague, Dr.--Representative 
Bobby Scott of Virginia to testify regarding some projects that 
he is interested in.
    Mr. Scott. Thank you, Mr. Chairman. My father was a 
physician and a lot of people make that mistake. I am delighted 
to testify here in support of two issues, the Massey Cancer 
Center in Richmond, Virginia, and An Achievable Dream in 
Newport News. On behalf of the entire Virginia congressional 
delegation and the Virginia Commonwealth University, we are 
seeking $4,000,000 to expand ongoing cancer research at the 
Massey Cancer Center. That is the home of the Mid-Atlantic 
Twins Registry, the largest twins registry in the country. They 
are using that to do a controlled study showing what 
differences diet, behavior, and exposure to environmental 
agents actually cause cancer and the fact that twins with 
identical gene sequences gives you that controlled study.
    In addition to this exciting project, the Massey Cancer 
Center is participating in a strategic alliance in rural 
hospitals as part of the Rural Cancer Outreach Program. That 
goes out and does outreach programs and treats cancer patients 
out in the rural areas. They have had a significant success 
with this program and a lot of people have done--they look at 
the results and they have done a lot better with the outreach 
than they have in the past. The areas they actually go to have 
a much lower cancer rate generally because the people in that 
area learn all of the technology and have access to the care.
    I also want to mention briefly Achievable Dream Program, 
which has received support in the past under funds for improved 
education. It is a program that uses tennis as a hook to get 
kids into the program. They have actually taken over a middle 
school, an elementary and middle school at this point. They use 
tennis as a hook. All of the students there play tennis, but 
they also have a focused education. They have a much more 
intensive education. They are beginning to go year-round. 
Students in that program in the inner city do much better than 
everyone else. They started out very low in the city in terms 
of schools and now they are up in the top two or three.
    I can leave--I want to submit the rest for the record 
rather than take more time to describe the programs. Those two 
programs, the Massey Cancer Center and the Achievable Dream 
Program are the two that we would like your cooperation on.
    Mr. Porter. Bobby, we thank you for your testimony and we 
will do our best. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                              OSTEOPOROSIS


                                WITNESS

HON. SHELLEY BERKELEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEVADA
    Mr. Porter. I am looking across here. Representative 
Shelley Berkeley of Nevada testifying on osteoporosis.
    Ms. Berkley. Thank you, Mr. Chairman. Before I begin my 
remarks, may I say that this is the third time I have testified 
before your committee. Every time I come, you treat me with 
great deference and sensitivity, and you shall be very missed 
in this Congress. Your reputation preceded you. I knew of you 
long before I started serving, and in the year that I have been 
here, I have only heard the most glowing remarks about what a 
wonderful not only human being you are but an outstanding 
Congressman, and perhaps we could all learn a lot from you.
    Mr. Porter. Okay, you can have anything that you want.
    Ms. Berkley. With that I will be concluding my remarks.
    I want to thank you for providing me with the opportunity 
to discuss the need for Federal support to educate older 
Americans about osteoporosis. In particular I respectfully urge 
the subcommittee to support a $5,000,000 appropriation to the 
U.S. Department of Health and Human Services Administration on 
aging to implement a program that allows AOA and the National 
Osteoporosis Foundation with the assistance of the strong women 
inside and out coalition to develop a step-by-step educational 
program that the 600-plus area agencies on aging could adopt, 
modify, and implement in educating our Nation's senior citizens 
about osteoporosis.
    Osteoporosis is a major public health problem affecting 28 
million Americans, including 10 million who already have the 
disease, and 18 million more who have low bone mass, placing 
them at risk for fractures. Although there is currently no cure 
for osteoporosis, it is preventable. In most cases, the proper 
steps are taken to preserve bone mass as a person ages.
    Unfortunately, osteoporosis is a silent disease that often 
is not discovered until after a fracture occurs. One out of two 
women and one out of eight men over the age of 50 will have an 
osteoporosis-related fracture in their lifetime. Research has 
found that 80 percent of women older than 75 years of age 
prefer death to a bad hip fracture, which would result in 
confinement in a nursing home. Obviously action is desperately 
needed.
    This osteoporosis education appropriation is critical to 
the health of our Nation, because most adult women are not even 
aware of the personal risk factors for osteoporosis. In 
addition, it is important to note that although 90 percent of 
fractures in women 65 years of age or older are osteoporosis-
related, most women presenting with fractures are never 
assessed for osteoporosis. And furthermore, in a report 
released on March 31, the CDC reported that as the United 
States population ages, the number of hip fractures, the most 
serious fall injury, will increase without effective 
intervention strategies. As you may know, Medicare began 
covering bone mineral density testing for five qualified groups 
of at-risk individuals as of January 1, 1998. This definitive 
needs to be expanded. Of the 21.8 million women 65 years and 
older that Medicare covers, only an estimated 9 percent have 
had a bone density test in the last two years. Given the 
prevalence of the disease, many more women and men are at risk 
for osteoporosis and haven't even been screened. They don't 
have a clue that they have it.
    The estimated nationwide medical cost directly attributable 
to osteoporosis-related treatment is more than $13,800,000,000 
annually, and the cost is rising. Without this osteoporosis 
education and prevention effort, NRS estimates that these costs 
will skyrocket to approximately $60,000,000,000 by another 10 
years and to $200,000,000,000 by the year 2040, as the numbers 
of Americans over the age of 65 continues to grow. Much of this 
cost might be avoidable with proper education about 
preventions, diagnosis, and treatment of osteoporosis. Just two 
weeks ago the National Institutes of Health hosted a three-day 
consensus conference on osteoporosis acknowledging the 
prevalence of that and the impact of osteoporosis on our 
society.
    Among the key recommendations from the consensus conference 
is the finding that bone density testing is still the best way 
to assess one's risk for fracture due to osteoporosis. The 
finding does take into consideration, however, that there is a 
multitude of risk factors for osteoporosis, and additional 
research is needed to understand how they may be applied to the 
diagnosis of the disease. Clearly understanding one's risk for 
the disease is the first step in preventing its often 
debilitating and devastating outcomes. Currently, only 31 
states have programs to educate the public about osteoporosis. 
This is simply not adequate.
    To increase awareness of the debilitating yet preventable 
disease, I envision a program spearheaded by AOA and NOF that 
provides to our seniors guides or kits which would include 
education on osteoporosis, its risk factors, the value and 
benefits of screening, the options available for the prevention 
and treatment of the disease, and the existence of Medicare 
coverage for bone density testing.
    Although each area agency on aging has different resources, 
staff, and experience, the guide would enable AAA to host 
osteoporosis awareness events using the fact sheets, the 
posters, the checklists, the screening tours provided in the 
guide. Materials would also be developed to help train the 
teacher in talking to older Americans about osteoporosis, not 
scaring them by giving them the information they need, giving 
them the suggestions what to do if they have the osteoporosis.
    Evaluations on the quality, utility, and effectiveness of 
the guides could also be included in the materials. The staff 
could evaluate the quality and utility of the guide, and the 
materials and the target audience could evaluate its 
effectiveness by participating in pre- and post-tests that 
evaluate their knowledge of osteoporosis before and after the 
education programs.
    Mr. Chairman, I have worked diligently in the past year 
since coming to Congress to draw attention and awareness to 
osteoporosis, because I am one of those women who have been 
diagnosed with the disease, and I suspect that both of my 
grandmothers had the disease because they were very bent over 
in old age and experienced a series of bone breaks that we just 
attributed to being old.
    I have held numerous osteoporosis screening events for 
senior citizens at local shopping malls and shopping centers in 
Las Vegas, in which we offer free bone density tests, and I 
have visited many schools encouraging young people not to give 
up their Coca Colas, but to trade in one soda for one glass of 
milk every day so that they do not develop the osteoporosis in 
their adult years.
    However as much as many schools as I talk to--and you know, 
I have got the fastest growing senior population and student 
population in the United States of America in southern Nevada--
I can't do it alone. I need your support and assistance to 
reach our Nation's older Americans who are not aware of the 
importance of the osteoporosis screenings and the options 
available for preventing and treating the disease.
    And because of the wonders of modern medicine, we have 
medication that will not only stop the deterioration of my 
bones and other women who have osteoporosis, but will actually 
add bone mass so that we won't suffer what our grandmothers 
did. Osteoporosis does not have to claim the life and health 
and happiness of our senior citizens, but we must arm them with 
the information so that they can enjoy their golden years to 
the fullest. I urge your serious consideration of this 
$5,000,000 appropriation request for proper osteoporosis 
education, and I thank you very much for the opportunity to 
speak with you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Shelly, you answered one of my questions, which 
was how did you get interested or informed about this disease. 
The other one, though, is something I ought to know and don't, 
how do you do a bone density scan? I thought you said that you 
could go out in the field and do it.
    Ms. Berkley. There are several ways and I do have--I am 
married to a Heritage Foundation Republican doctor. The ironies 
of life are not lost on me. I have learned to be as bipartisan 
as any human being can be.
    We recently married and during the courtship, he invited me 
to his office to see, I guess, his etchings or his medical 
office. He had a bone density test--a bone density machine. 
This one was the large table model that you--it is very easy, 
and, as I told the ladies that I spoke with this morning, he 
invited me to take the test and to try the new machine. He said 
it would take 5 minutes and I didn't have to take my clothes 
off. I thought that was a pretty good deal. It took about 5 
minutes. You don't have to take your clothes off and it looks 
like an MRI. It take takes about 5 minutes and then 5 minutes 
later, a computer printout comes out and it measures the 
various areas of your body, hips, knees, spine, and determines 
where you are losing bone mass. I was losing a significant bone 
mass in many places and already had osteoporosis. I wasn't 
preosteoporosis. We immediately started me on calcium 
supplements, estrogen supplements and Fisomax which is a 
miracle drug as far as I am concerned. It saved me a lot of 
future pain and agony.
    What we have done in the malls, because you obviously can't 
take this huge machine with you, there is all different sorts 
of ways. One is you can stick your finger into a machine and 
the machine measures the bone density in your finger. There is 
also a machine that you can put your ankle in. Those are the 
machines that we take to the malls.
    Now, if somebody, once we test them and we find out they do 
have the osteoporosis or they are borderline, we certainly 
recommend they go see a doctor and have a regular screening. 
This is just an indication, and what it mostly does is 
eliminate those women that don't have it because they are in 
the healthy category.
    Mr. Porter. You are aware that we do not fund by disease so 
that while we will--and I will do this very clearly, tell NIH 
of our great concern in this area, we don't put a dollar figure 
on that.
    Ms. Berkley. I know. Congressman, your job is a very 
difficult one because just in the year that I have been here, I 
cannot tell you how many diseases have been through my office. 
And between cervical cancers and prostate cancer and 
osteoporosis and breast cancer and hepatitis and MS and 
Parkinson's disease, there is so much to do in this country. I 
applaud you for everything that you have done, and I hope we 
can carry on your work after you are gone.
    Mr. Porter. I am sure you can. Thank you so much.
                                           Tuesday, April 11, 2000.

                               IMPACT AID


                                WITNESS

HON. SUE KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK
    Mr. Porter. Representative Sue Kelly of New York testifying 
on Impact Aid. Sue, I think I know what you are going to tell 
me, but go ahead.
    Mrs. Kelly. I have been here before. With your indulgence, 
I have a statement. You have a copy of the statement. I would 
just like to enter the statement into the record. I will have a 
dialogue with you, it would be faster. And that is, once again, 
I am here to just beg you for Impact Aid. It is so important. I 
want to just simply point out a couple of things in this 
statement. I know you are aware of the fact that I represent 
the most highly impacted district, school district in the 
Nation. This school district was gradually going out of 
existence because they simply didn't have the money. Only 7 
percent of the land mass in the township that supports this 
school district is taxable because the rest is either owned by 
West Point or the State or another Federal Park system.
    So there is just no way that they have taxable land because 
the rest of it is in the Hudson River. They need the support. 
They were promised the support when West Point took over the 
area, but since you have been so good about helping them, this 
is a school district that now has children that has actually 
tutors for their children who are not able to learn as quickly. 
The teachers have actually been able to go back and get 
additional training, which they had not been able to do, and 
that means that they have a higher quality teacher that they 
have been able to retain, and they are actually getting people 
applying for jobs in the school district which they haven't had 
before.
    The school kids learning in the upper grades in high school 
were using books that were left over that didn't even have 
complete maps of the world because so many of the countries had 
changed, but also they had books that were literally 20 years 
old in some courses. It was time for them to change. Because of 
your generosity, they have changed, been able to buy those 
books. So the school district is really looking a lot better 
than it was. Things are looking forward. I would hate to see 
this all go for nought if we can't get them funded again, and I 
appreciate the fact that you let me plead for their case today.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Sue, I remember when you first were elected, 
you brought all of this to my attention and told me how bad 
things were. It is because of your leadership and your advocacy 
that things have been turned around in that district and they 
ought to be very proud of the work that you are doing, and I 
want to provide the resources so we can continue along those 
lines.
    Mrs. Kelly. Thank you. That means we can finish repairing 
the roof. Thank you.
                              ----------                              --
--------

                                           Tuesday, April 11, 2000.

                          OLDER AMERICANS ACT


                                WITNESS

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Porter. Representative Christopher Shays of Connecticut 
testifying regarding the Older Americans Act.
    Chris.
    Mr. Shays. Thank you, Mr. Chairman. The bottom line, I 
wanted you to be aware of something I was not aware of, and 
that is that the constant funding of congregate meals, because 
agencies have not used up past funds, is coming, I think, to an 
end. And what I think you will find is going to happen in other 
parts of the country is what happened first in my district in 
the entire country, and that is, they used up their excess 
funds, the funds that had reserved. In my case they had built 
up a level of funding beyond the annual appropriation, so we 
were faced with a 30 percent cut in the congregate meal 
program. Fortunately you provided additional money in the home 
delivered meals, so that met their current level of funding.
    So I guess what I am here to say is aside from the 
individual problem that we are facing in my district, we have 
asked for GAO report to see if we can get it done in time to 
let you know what we think is happening out there. But I 
suspect that there is going to be a sudden (indicating) where 
all of a sudden you are going to find that a lot of the 
agencies on aging are going to be coming saying we can't fund, 
you are going have to cut back your programs because they have 
been using reserve funds that were available and building up at 
a higher level. It may be this year and a number of more. It 
may be two years from now, but if you could start your people 
looking--in our case it was a 30 percent cut.
    Mr. Porter. Can you tell me why the funds would not have 
been spent out in a program like that previously?
    Mr. Shays. The whole reason was they couldn't build out the 
programs. I made the assumption that the reason that you have 
kept it level funding--basically in 1995 it was 375. The 
congregate is 374 in 2000. You added no funds there. The reason 
you haven't had pressure--in 1994 it was 375. The reason that 
you haven't had any pressure is the more funds were 
appropriated in earlier years than could be spent, and so the 
bottom line is that they have been slowly spending down their 
reserves.
    I think you are aware there are reserves all around the 
country. They haven't been spending all of their money until--
but they are getting caught up.
    Meals on Wheels you dealt with. We didn't add to our 
program, the 30 percent, just kept it at the existing funding 
level.
    Mr. Porter. I would say at this point we are going to have 
a very tough job getting where we want to go, at least 
initially, because of the allocation, but we will do our best 
and try to end up where you suggest that we need to go to avoid 
this kind of crisis. Thank you, Chris.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                            VARIOUS PROGRAMS


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Porter. Representative Peter Visclosky of Indiana 
testifying on a variety of programs.
    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Chairman, you 
have my entire statement entered into the record. I would 
simply take this opportunity to thank you and all of the 
members of the subcommittee for your kind consideration, 
fairness and generosity in last year's bill. You are correct, I 
have a number of requests before you. The one I am most 
interested in is a Challenger Learning Center in Hammond, 
Indiana. To date $2,500,000 of private source funding has been 
pledged. 1.7 has actually been delivered. From among others the 
State of Indiana, the city of Hammond, BP, AMOCO, Wyco 
Corporation, the John W. Nick foundation, American Legacy 
Foundation, and Mercantile National Bank. I do think it would 
be a big boost as far as encouraging the science education in 
the congressional district I represent and would appreciate 
your careful consideration.
    Mr. Porter. That was the most efficient testimony I have 
ever heard.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Porter. We appreciate it. Thank you, Peter, we will do 
our best.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Porter. Representative Doug Bereuter from Nebraska 
testifying on projects.
    Mr. Bereuter. Thank you, Mr. Chairman. Mr. Visclosky set up 
a very interesting precedent here. I will try to live up to it. 
I would ask that my entire statement be made a part of the 
record. I think that is the normal process.
    Mr. Porter. It will be received.
    Mr. Bereuter. I have come here just about every year asking 
for continued funding for the Close-Up Program. I continue to 
support it. But this time I am not going to do that. I 
understand others will do that. I am here, perhaps for the 
first time, to speak about individual education projects in my 
district. I would like very much to have any assistance you can 
provide to the University of Nebraska on what they call NCITE. 
They have developed over several years a program designed to 
consolidate a number of aspects of education, technology into a 
single comprehensive effort to examine all facets of distance 
and computer-aided learning. They put an awful lot of money 
into it.
    I do have a request for some additional assistance that 
would help us dramatically improve it. It is primarily aimed at 
teachers' education, and they are the premier teachers' 
education institution in our State. I also represent Wayne 
State College, an institution of about 4500 students, almost 
all undergraduates, having graduate programs only in a couple 
of education areas.
    There are two proposals there which would be of assistance 
to this State institution, the only institution of higher 
learning other than a technical school in the northeast part of 
the our State. And the effort there that I am seeking 
assistance on is a relative minor case of the business center 
where family businesses in this region is described in some 
detail, as is a Laptop Computer Initiative, which would enable 
them to finish what they have started trying to complete, the 
laptop and infrastructure improvements in the dorms. Currently 
they have funded and have online instruction opportunities, 
two-way interactive distance learning in about two-thirds of 
their dorms.
    Mr. Chairman, I would be happy to answer any questions. I 
know you have a difficult task as usual trying to make too few 
funds go too far. But that is my request. I think this may be 
the first request I have made before you on individual 
institutions in my district or State.
    Mr. Porter. We will do everything possible to make that 
happen. Thank you, Doug. I appreciate it.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                          CLOSE-UP FOUNDATION


                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
    Mr. Porter. Representative Don Young of Alaska testifying 
in behalf of the Close-Up Foundation.
    Mr. Young. Thank you, Mr. Chairman. I would like to submit 
for the record my full statement.
    Mr. Chairman, one of the joys I have had for the last 6 
years is appearing before you each year supporting the Close-Up 
Program, and I am going to miss you next year and I mean that 
sincerely. You have been very helpful in the Close-Up Program. 
You know how well it has worked for the State of Alaska 
especially. As one of the original sponsors of Close-Up, I have 
watched it grow and been very successful. As of this year we 
now have 6,000 students who have participated in the program 
from Alaska. I think it has been a great education program.
    Because of the cut of the Ellender Foundation or Fellowship 
program, we are seeking this time--they have not cut it this 
year, but they did cut it in 1995--we are seeking $3,000,000 to 
try to continue funding this program for all of the young 
students across the Nation, but primarily from my State. They 
travel from all over the State in the small communities. It is 
a wonderful exposure to have, I think it is well and just, and 
I think it has been very rewarding to them as well as the 
Nation as a whole. I thank you, Mr. Chairman.
    Mr. Porter. Don, do I recall correctly that the close-up 
has a budget of something like 25,000,000? This is only a very 
small portion, but it is important because it attracts other 
money.
    Mr. Young. It attracts other money. As I mentioned, some of 
the moneys were cut in 1995, but we are requesting $3,000,000 
from the Congress this year.
    Mr. Porter. Again, we will do our best. I know how good the 
program is. We obviously have many students from our State, 
too. I think they get a very good experience.
    Mr. Young. I can't speak well enough for them. I have a lot 
of my students go back and remind me when I was there in Close-
Up, we learned this and that. I think it is a great program. 
Thank you, Mr. Chairman.
    Mr. Porter. We will do our best. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                JOB CORP


                                WITNESS

HON. TOM BARRETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
    Mr. Porter. Representative Tom Barrett of Wisconsin 
testifying regarding the Job Corps. Tom, good to see you.
    Mr. Barrett. Thank you, Mr. Chairman. Sort of bittersweet 
to see you wrap it up. Maybe sweeter for you.
    Mr. Porter. No, it is bittersweet, you are right.
    Mr. Barrett. I am here to talk a little bit about Job 
Corps, something you are very familiar with and have been very 
supportive of. It has had a lot of bipartisan support over the 
years. I think that its successes are well documented. 80 
percent of its graduates go on to full-time education or jobs. 
The reason that I am here is, quite candidly, I travelled to 
Chicago and I saw the incredible Job Corps Center there. I 
don't know if you have had a chance to see it, but it will 
knock your eyes out because it is such an impressive location 
and doing such a good job working with the trades down in 
Chicago.
    In the area that I represent in upper Wisconsin, we have 
got an unemployment rate of 3.2 percent in the city of 
Milwaukee, but for kids between 16 and 19, that unemployment 
rate just skyrockets, particularly for minority kids. Wisconsin 
is at the dead bottom of the list in terms of percentage of 
kids who are served by Job Corps. So I am here today to ask the 
subcommittee to add an additional $15,000,000 for four sites. 
Frankly, we have chosen that figure and the number of four 
sites, so it doesn't look like it is particularly geared for 
Wisconsin but included in my intent is to bring a Job Corps 
Center to my community. Last year we were successful in getting 
the language added that makes it clear that the priority for 
the next new Job Corps Center should be in those areas that are 
underserved currently by this program.
    I think it is a good program. I just want my kids to be 
part of it.
    Mr. Porter. Where were the four sites about?
    Mr. Barrett. We do have language again----
    Mr. Porter. Emphasizing the underserved areas?
    Mr. Barrett. Yes. I am comfortable with that language. I 
had language on the House side, Senator Kohl had language added 
on the Senate side. We are headed in that direction. We have 
talked to Mr. Trigg, who headed the Job Corps region in 
Chicago. He is now the national director. They are very aware 
of my interest in the program. I just want the kids to have an 
opportunity to get themselves out of poverty.
    Mr. Porter. I think it is great you are advocating for Job 
Corps. It is one of the best programs of any. Does your 
district have all of or part of Milwaukee?
    Mr. Barrett. Two-thirds. I have the poorest zip codes in 
the State and the wealthiest zip code. I go outside of 
Milwaukee in the north shore suburbs.
    Mr. Porter. This is just a matter of curiosity, where does 
Sensenbrenner go?
    Mr. Barrett. He surrounds me. My northern boundary is 100 
percent his district and my western district is 100 percent his 
district.
    Mr. Porter. He laps around both sides.
    Mr. Barrett. And Congressman Kleczka and I split the city, 
Congressman Sensenbrenner has some of the wealthier suburbs, 
although I have the wealthiest zip code. He moves up north and 
a little bit west as well. The wealthiest zip code is 53217.
    Mr. Porter. What is that town?
    Mr. Barrett. It has River Hills, Bayside, Fox Point, White 
Fish Bay. I may be missing one but those are the ones that--it 
might be moving north pretty soon to Mequon is my guess.
    Mr. Porter. Thank you, Tom. We will, again, do our best. 
The subcommittee will stand in recess briefly.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                          CLOSE-UP FOUNDATION


                                WITNESS

HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF FLORIDA
    Mr. Porter. The subcommittee will come to order and we are 
pleased to welcome representative Ileana Ros-Lehtinen of 
Florida to testify regarding the Close-Up Foundation.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman, and members, for 
allowing me the opportunity to express my strong support for 
the Close-Up Foundation's Allen J. Ellender Fellowship Program. 
Civic education is a vital part of a young American's general 
academic studies, yet the best way to learn how our democratic 
system of government operates is to be given a first-hand, in-
person experience. For 28 years, the Close-Up Foundation has 
provided this hands-on experience, provided more than 100,000 
fellowships in civic education to encourage young persons from 
all areas of our country to become informed citizens who 
actively participate in our Nation's democracy.
    Through the Close-Up Foundation, this year alone nearly 
22,000 participants will come to Washington to learn civics. If 
it were not for Close Up's Ellender Fellowship program, many 
economically disadvantaged students would never have had the 
opportunity to gain an in-depth knowledge of our democratic 
system. The Allen J. Ellender Fellowship Program empowers low-
income, at-risk, or underserved middle and high school students 
with the in-depth knowledge of government in meetings with 
elected representatives and government agency officials.
    Based on personal testimonials from former participants, 
the Close-Up Foundation can have a crucial impact on the lives 
of many disadvantaged young people. Last year the Close-Up 
Foundation hosted a total of over 200 students from my 
congressional district who came to our Nation's capital. More 
than one-half of the total amount of students from the entire 
State of Florida were from this group. It was because of the 
Ellender Fellowship Funds awarded--$47,304 last year--that many 
were able to come.
    Mr. Chairman, as a former educator, I acknowledge the great 
work that Close-Up does because of the Ellender Fellowship 
program. In fact, my chief of staff is a graduate of the 1979 
Close-Up Program. I ask that you consider how a relatively 
small investment in this program can reap great rewards. By 
funding the Ellender Fellowship Program, Congress can give our 
Nation's young Americans an opportunity to make significant 
contributions.
    I thank the chairman and staff and members for this 
opportunity.
    Mr. Porter. Are you and Don Young asking for the same 
figure?
    Ms. Ros-Lehtinen. Whatever Chairman Young wants, that is 
what I am for.
    Mr. Porter. Great answer. We will do our best.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Porter. The subcommittee will stand in recess briefly.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. ELTON GALLEGLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. The subcommittee will come to order. We welcome 
our colleague, Elton Gallegly of California, testifying 
regarding projects.
    Mr. Gallegly. Thank you very much, Mr. Chairman. I 
appreciate this opportunity to express my support for educating 
gifted and talented students. All children deserve to be 
educated to their fullest potential. Unfortunately, the 
educational needs of our most talented students are not always 
met. Gifted and talented students are not reaching their 
highest level of learning. I am seeking $50,000,000 for a 
formula grant to the States Program under the Jacob Javits 
Students Education Act. The increase over fiscal year 2000 is 
in anticipation of passage of my legislation that I sponsored, 
which would provide formula grants to States for gifted and 
talented programs and services.
    The House of Representatives approved my legislation as 
part of the reauthorization of the Elementary and Secondary 
Education Act, ESEA. The Senate's version of ESEA included 
similar legislation. A $50,000,000 appropriation for the State 
programs would allow local communities to build on the results 
of the research currently conducted under the Javits 
demonstration grants. I understand there are many demands 
within the education budget and the gifted and talented program 
must compete with other priorities.
    However, I believe a formula grants to States that would 
ensure that each State can begin to develop or enhance programs 
and services for gifted and talented students. I know you are 
as committed as I am in ensuring the Nation's youth have all 
the tools they need for the future, and I really appreciate the 
opportunity to present this request to the committee today, Mr. 
Chairman. Your favorable consideration of this request will be 
greatly appreciated and I would ask unanimous consent that my 
full testimony be made a part of the record of the hearing.
    Mr. Porter. Without objection. Elton, it is my 
understanding they are still marking up ESEA?
    Mr. Gallegly. That is correct.
    Mr. Porter. But they expect to finish up pretty soon?
    Mr. Gallegly. They say they will.
    Mr. Porter. Your section, the gifted and talented, has 
already been marked up and in the bill?
    Mr. Gallegly. Marked up and in the bill.
    Mr. Porter. We will do our best. You are not testifying 
regarding projects at all, you were testifying regarding the 
Javits program?
    Mr. Gallegly. That is correct. Thank you very much for 
having me, Mr. Chairman.
    Mr. Porter. Again, we will stand in recess.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Porter. The subcommittee will come to order. We are 
pleased to welcome Representative Darlene Hooley of Oregon to 
testify. Darlene. We are being very efficient today as you can 
tell.
    Ms. Hooley. I am going to try to be just as efficient and 
see how quickly I can get through this. Thanks very much for 
having me here.
    I want to talk very briefly about four programs. We tried 
to be reasonable in our request knowing that budgets are tight 
this year. The first program is a university studies program. 
What Portland State University has done is tried to work with 
our institutions, other community colleges to try to go out 
into the rural communities and help students start to take 
college classes. And what they found out is these students, all 
of a sudden, realized they can do college work. They are not, 
by the way, your best students. They realize they can do 
college work and it keeps them in high school and it gets them 
interested, and they are finding from this program that has 
been going on 6 years that they have a tremendous stake in the 
students in high school going to college. What I am asking for 
is $750,000 to expand that program into some of the other rural 
communities.
    The next one is a Native American Tribal Government 
Institute. I know our good friend, former colleague Elizabeth 
Furse, talked to you about this. Again, this is at Portland 
State where they are trying to do a Native American tribal 
elected tribal leaders government. There are 350 tribes in the 
United States. This would be the only institution of its kind. 
We are asking for $2,000,000 for this, and it is a two-way 
street because not only will they come from all over to figure 
out and learn how to work their governments, but also other 
people can go there and find out what the tribes are doing and 
how they do it and how to relate to the tribes.
    Mr. Porter. I want to figure out whether this is in your 
district or David Wu's district because he testified about this 
here this morning.
    Ms. Hooley. This is in David Wu's district, and I said I 
would take the lead on this for them because many of the tribes 
are in my district. So it is a two-for-one deal.
    Another program, again, very briefly is a community 
outreach program. It is in Corvallis. This has been a very 
successful program where they looked at the old low income 
disenfranchised at-risk trying to deal with the entire person, 
and they are now trying to do a major campaign to build the 
facility for the program. They have raised $3,600,000 in this 
community. What they are asking for is $473,000 to help equip 
the facility that they are going to build. Again, that is for a 
crisis line and so forth.
    Lastly, $100,000, again, for a very poor rural community 
that they have a couple of very small clinics for health 
purposes. They are looking to help upgrade and put equipment 
into these two facilities. Tillamook County, the Federal 
Government has designated health professional shortage areas 
for medical, dental, and mental health. They would be located 
in two small rural communities and they need help just to put 
equipment in it.
    That is it. I would be happy to answer any questions.
    Mr. Porter. That was efficient. Thank you very much. We 
will do our best to respond.
    Ms. Hooley. Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                                PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Porter. Representative Bart Stupak of Michigan 
testifying regarding projects.
    Mr. Stupak. Thank you, Mr. Chairman. Thanks for allowing us 
some time to testify. I am going to summarize my testimony. Mr. 
Chairman, I am here to talk about three colleges in my district 
and in the Olympic Education Center up at Marquette, Michigan. 
The extreme area--let me give you one of these, a couple of 
them here. Do you need a couple more?
    Mr. Porter. Where is your home on this map?
    Mr. Stupak. Right on the Wisconsin border, Menominee. Of 
course all around this is water. First, let met start on 
Gogebic Community College over there. We are asking for 
$350,000. The whole western end of the upper peninsula suffered 
because of the closing of mines, especially the copper mine, 
forestry products and things like that. They have undertaken a 
study with the help of the Department of Education how to 
improve their programs, what do they need in the area. Gogebic 
Community College is now seeking $350,000 to implement these 
findings and to advance its potential in the area. Funds would 
be used for a faculty's development, to develop the faculty's 
instructional and technology skills and knowledge and to 
establish an instructional technology center to further that 
development. Basically it's going to multi-media smart 
classrooms in the area of technology. That is about what they 
do best on that extreme western end.
    Then if you go up there, about 100 miles to the north in 
Suomi College up in Keweenaw Peninsula, we would ask for 
$2,500,000 for educational operations to continue its 
conversion. It has gone from an associate degree or junior 
college, if you will, to a baccalaureate. There are four main 
areas they are trying to promote and develop. One of them is 
really health and human services. In the health field alone, 80 
percent of most of the nurses up in the Keweenaw all come from 
Suomi College.
    So they are seeking the money there for their business 
college innovation center. Suomi has put in a lot of their own 
money, but we really need some help in that area, Mr. Chairman, 
so that is why we are asking for $2,500,000. These may seem 
like small amounts of money, but when you take a look at the 
median income up there, it is only $17,000. Both of these small 
colleges have undertaken their own ways of developing their 
core curriculum to attract industry and jobs in that area. 
Unemployment still is running about 8 percent up there even in 
good economic times.
    I am going to jump down, if I may, to NMC here in Grand 
Traverse County. It is very different, a very wealthy county 
there, but they do have a community college there. Actually, it 
is a university center. They coordinate with all of the 
universities in Michigan for programs there. They have just 
instituted a huge building project for that area. In fact, they 
are raising $15,000,000. They have the State Great Lakes 
Maritime Academy, the only maritime academy on the Great Lakes. 
There are six of them across the Nation, but they want to do a 
water--Great Lakes Water Research Center at the West Bay campus 
right there in Traverse City. They need about $15,000,000. They 
have raised half of it and are asking if the committee can do 
$1,200,000.
    They are confident they will raise the rest of it. They 
just passed a bond proposal of about $35,000,000 to renovate 
and redo the whole campus, and one of it is to redo the whole 
Great Lakes Maritime Academy. But the Great Lakes Water 
Research Center, that $15,000,000, is being developed privately 
with the lake carriers, and everyone else helping us out.
    So we are seeing if we can get to 1.2 for the development 
of this center, and I am pretty confident they can come up with 
the rest of the money and they will do it. So I would ask for 
that help.
    The Olympic Education Center, as you are well aware, we do 
have an Olympic Education Center. Back in 1992, the Higher 
Education Act authorized the Olympic education scholarship. 
Then through your help and others in 1998, we actually put in 
money under section 836 of the Higher Education Act to put 
forth money in the four Olympic education centers in the United 
States: Marquette, Lake Placid, one out by San Diego and one 
out in Colorado.
    What we are asking for is $1,000,000 to be placed in the 
program, again, for scholarships for those individuals who do 
not get scholarships, like boxing, a lot of skiing programs and 
winter sports program. A lot of colleges do not offer 
scholarships for athletes to come. That is why $1,000,000 is 
earmarked for Olympic education scholarships for those sports, 
if you will, that don't have scholarships from colleges and 
universities, so these people can get an education while they 
are training. Most of these people, their money goes for 
equipment and travel to and from. They are not all going to win 
a gold medal, we wish they would, so a good education would be 
helpful.
    Last but not least, let me just say a word on Federally 
qualified health centers. Again, because of the size of my 
district, you can see I have plenty of them in there. I request 
that you appropriate the 1,600,000,000 to health centers, and 
that is about a $150,000,000 increase from last year. It is 
urgently needed just to help the health centers continue to 
serve and improve the underserved and uninsured patients 
throughout my district and others.
    You know more than I do, Mr. Chairman, today there is over 
1,000 health centers across the United States. 11 million 
uninsured people use these centers. In Michigan there are 26 
community and migrant health centers providing over 60 clinics, 
quite a few of them in my district. I know it is a tight budget 
year. You always do well with that program and I would ask that 
you again take a look at it and see if we can squeeze a few 
more bucks for that program.
    Mr. Porter. We will do our best on all of those. The money 
for the consolidated health centers is very important money 
because we don't have a program to give everybody access to the 
health system. It is the place where many people do get access. 
We have tried to put it at a very high priority and move it up 
ahead of most other things for that reason.
    Mr. Stupak. You always have and we appreciate it.
    Mr. Porter. Thank you Bart.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, April 11, 2000.

                               IMPACT AID


                               WITNESSES

HON. ROBIN HAYES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
WILLIAM HARRISON, SUPERINTENDENT OF SCHOOLS, CUMBERLAND COUNTY, NORTH 
    CAROLINA
    Mr. Porter. Representative Robin Hayes of North Carolina 
testifying with respect to Impact Aid.
    Mr. Hayes. Good afternoon, Mr. Chairman. And thank you for 
allowing me to come and speak to you briefly today. I would 
like to yield my time, if I may, to Dr. Bill Harrison, a good 
friend and superintendent of the Fayetteville and Cumberland 
School System. Dr. Harrison has a wonderful relationship with 
folks at Fort Bragg, Pope Air Force Base. He is not only 
innovative but very creative and willing to think outside the 
box, the envelope, and he is doing a fabulous job for our young 
people in Fayetteville, North Carolina. With your permission, 
sir, I would like to yield the balance of my time to Dr. Bill 
Harrison who will talk to the necessity of Impact Aid and what 
an impact it has on our communities.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Dr. Harrison, welcome.
    Mr. Harrison. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear and present testimony on the impact of 
military bases and the fiscal condition of Cumberland County, 
North Carolina school system and the critical need for Federal 
support. I want to preface my remarks by assuring you the 
military community contributes significantly to the quality of 
life in Cumberland County and the military public schools 
relationship is one of the strongest alliances that we enjoy in 
the community with more than 400 military partnerships in our 
local schools and positive liaison between our board and the 
military command.
    First, I would like to provide you with a few basic facts 
about the Cumberland County schools. We have 78 schools, and 
there are 51,349 students enrolled. This makes us the fourth 
school system in the State of North Carolina and among the 75 
largest in the Nation. In addition, 49.6 percent of our 
students receive free and reduced lunches, and nearly 12 
percent, over 6,000 of our students, have been identified as 
students with special needs. Currently, 16,405 of our students 
are Federally-impacted, most being military dependents. Because 
of the low wealth nature of a substantial portion of our 
community and the high percentage of parents in active military 
service, issues of transiency are a challenge.
    Approximately a third of the students that begin the school 
year do not complete the year in the school in which they 
began. In one elementary school alone, over 60 percent of the 
students who began the 1998-1999 school year were not with the 
school at the end of the year. Compounding these statistics is 
the fact that Cumberland County has an extremely poor tax base 
with only one quarter of the population owning property, and 
massive amounts of land constituting a nonincome producing 
Federal enclave, Fort Bragg and Pope Air Force Base.
    Cumberland County schools are woefully short of operational 
money. Due to taxes and exemptions there is not enough revenue 
coming in from the Federal Government to fulfill the obligation 
of educating all of our children. In North Carolina, schools 
are funded at the local level through property taxes and sales 
tax revenue. Officials at Fort Bragg estimate that the value of 
the buildings on the base alone is $1,100,000,000. The county 
tax office assigns an additional value of $126,700,000 on the 
post's 42,240 acres within Cumberland County.
    Together the value of the land and building on Fort Bragg 
is estimated at $1,230,000,000. If the county had been able to 
tax that property last year, it would have generated over 
$9,000,000 in revenue. Further Cumberland County loses 
$4,100,000 in local sales tax revenue on sales of the post 
exchange and the commissary. Similarly 1,300,000 for motor 
vehicle exemptions under the Soldiers and Sailors Relief Act. 
As originally envisioned, the Federal Impact Aid program 
proposed to lessen the financial impact on school districts who 
support the children of military families who live or work on 
Federal land.
    In 1994, Impact Aid revised the Impact Aid formula to 
adjust allocations based on two factors, the percentage of 
military students in the system and the percentage of school 
system's total budget. In the 1990s, Impact Aid for the 
Cumberland County schools has decreased from $3,200,000 in 1990 
to a low of $1,620,000 in 1997. In the last two years, we have 
seen a modest increase, but frankly not enough. What we 
received amounts to approximately 1 percent of our operational 
budget to cover the cost of over 30 percent of our students. 
Cumberland County is a unique place. We have a combination of 
problems that normally plague larger school systems. We expect 
a poor school district with a massive transient population and 
a low tax base to support the educational expectations of our 
community. In short, in Cumberland County, we have more 
children to educate with less money than nearly any other 
school district in North Carolina. We consistently rank 
hundreds of dollars below the State of North Carolina average 
in per-pupil expenditures and thousands below the national 
average.
    We can't continue like this. Our children deserve better. 
Unfortunately, when our children compete for scholarships, 
jobs, and colleges, they will not get five affirmative action 
points for being from Cumberland County because they had less 
educational opportunities due to an insufficient economic base. 
Our property tax base simply will not allow us to provide the 
necessary funding for our schools. We are forced to tax our 
community additionally heaping taxes on the already underserved 
lower income population. It is the Federal Government's 
obligation to supplement lost revenue in property taxes that we 
incur from the presence of Fort Bragg and Pope Air Force Base.
    Again, I am very supportive of the bases and the strong 
relationship we have with the soldiers stationed there. Funding 
Federal Impact Aid is one of the ways you can help us close the 
gap and provide all of our children with the education they 
deserve. Thank you for allowing me to share this opportunity to 
share Cumberland County's needs with the subcommittee and 
please consider my request to fully impact--fully fund the 
Impact Aid program. Thank you.
    Mr. Porter. Can you give me the figures again of lost 
revenues and then the figure--it is 3 point--how much for 
Impact Aid that you receive?
    Mr. Harrison. We received $3,200,000.
    Mr. Porter. How much do you lose?
    Mr. Harrison. We lose--if the property were taxed, the 
county would generate $9,000,000 with the revenue. If the sales 
tax were paid on purchases at the post exchange and the 
commissary that would generate $4,100,000, also we lose 
$1,300,000 for motor vehicle exemptions under the Sailors and 
Soldiers Relief Act.
    Mr. Porter. Do you qualify under section F, highly impacted 
schools?
    Mr. Harrison. We are not a highly impacted school.
    Mr. Porter. You don't quantify under that section. You have 
a very high population, about a third of your students----
    Mr. Harrison. Fort Bragg has a dependent school on post for 
grades K through 8, and the students living on post come to us. 
Actually it is K through 9 come to us, 10 through 12 and there 
are about 600 of those students. The rest are soldiers living 
off base.
    Mr. Porter. We recognize what a severe problem this is for 
many districts. Yours obviously even more than many others. We 
have consistently tried to plus up this account and put it at a 
high priority. I have said this morning, for example, this 
ought to be an entitlement program where the Federal Government 
is paying on the basis of existing law a sum that is fair in 
reference to the costs of the education of the kids that impact 
local schools.
    Obviously we haven't arrived there but we are going to 
continue to make it a high priority. Thank you, thank you, 
Robin.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hayes. Mr. Chairman, it was 3.2 in 1990 and we only 
received 1.6 last year.
    Mr. Porter. I can't figure out why he is going in reverse 
though.
    Mr. Hayes. We are heading in the right direction.
    Mr. Harrison. It is up the last 2 years. In 1990 we had 
about 3,000 fewer students total, not military connected 
students, but the district had about 3,000 fewer students than 
we have today.
    Mr. Porter. We have plussed up the account every year. 
Maybe we level funded it in 1996, but I think we plussed it up 
every year since because it is a high priority. We recognize 
that. You seem to be going into reverse.
    Mr. Harrison. We were until 1998.
    Mr. Porter. We will do our very best to provide the 
funding. I know that it is needed. Thank you.
    Mr. Hayes. Thank you, Mr. Chairman
                              ----------                              

                                           Tuesday, April 11, 2000.

                    PARADISE VALLEY HOSPITAL PROJECT


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Representative Bob Filner from California 
testifying in regard to Paradise Valley Hospital Project.
    Mr. Filner. We will be thinking of you when we come back 
next year, and I know that you will be thinking of us, but we 
greatly appreciate all of your years of service here and your 
commitment to this country. We are going to miss you and we 
hope you do enjoy yourself in a very productive fashion. Thank 
you again for sitting there for all of these millions of hours 
of testimony and your trying to solve these problems.
    I want to talk to you today, Mr. Chairman, about the 
efforts of one hospital in my district, an effort which I think 
deserves your support. When we, as a Congress, are debating all 
of these various issues around Medicare, patients bill of 
rights, whatever, we are getting down to the same basic things, 
that Americans want the highest quality of health care that the 
world provides at a reasonable cost. Those efforts are 
extremely difficult to bring together, as you well know.
    The Paradise Valley Hospital in National City, California, 
is trying to create a complimentary medicine center to address 
just that need, the health care of my constituents in a quality 
fashion at a cost that the society and the hospital and my 
constituents can afford. This complimentary medical center is 
intended to provide a unique model of a cooperative effort at 
all levels of public and private health care in response to 
needs to my specific community in a manner that we think can be 
replicated throughout the country. This complimentary medicine 
center will demonstrate a unique response to our needs. The 
hospital that is asking for this grant, Paradise Valley 
Hospital, has been providing services in the area for almost 
100 years. It is the second oldest hospital in our county and 
serves National City which happens to be the fourth poorest 
city in the State of California, and the 13th poorest, in fact, 
in the entire Nation.
    It is the only community hospital that remains in our 
county. Approximately 35 percent of its patients receive 
Medicaid and another 15 percent receive health care from the 
county. It is a true safety net provider to our region. It has 
been a disproportionate share provider since 1992 in a region 
with a population of 375,000. What we are asking for as far as 
the subcommittee goes is a one-time Federal appropriation of 
$4,700,000 to help establish this medical program. It will 
provide services that are not currently provided to people in 
our county. It will provide vital research data on the 
effectiveness of these complimentary modalities and reducing 
health care costs on the population that we serve.
    This type of health care, integrated medicine, is used by 
wealthier communities almost institutionally, but many 
community members from the public and private sectors have come 
forward to ask us in our area to help them provide alternative 
medicine treatments for our region. Paradise Valley Hospital is 
committed to share the costs of the center by providing 
community services that would otherwise be the responsibility 
of public agencies. This complimentary medicine program as 
envisioned would respond to the needs of a specific community 
in a way that can be replicated throughout the country. It is a 
collaborated effort designed to address broadly recognized 
needs in our region that are not being met in other ways. Of 
course this hospital, Paradise Valley, would encourage other 
hospitals to establish a similar program.
    We think that a successful demonstration program can 
initiate a new cooperative spirit and community service and 
support that would encourage other communities to establish 
similar centers. We have bipartisan support in the House for 
this as well as the blessing of our two Senators from 
California. We hope that you will help make this idea a reality 
because this investment by the Federal Government will be 
returned many fold in terms of cost effective high quality care 
in our community. We think that, again, for a poor community 
that has been lacking this kind of approach, with the one 
hospital in our region that is qualified to do that in terms of 
its quality and its commitment is Paradise Valley Hospital. I 
thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Bob, because this community is so poor that a 
lot of the traditional health care is provided through 
community health centers or Title X clinics or hospitals 
serving Medicaid patients? Is that pretty accurate?
    Mr. Filner. Except for the use of the word ``hospitals'' 
this is the only real hospital. We have several community 
health clinics that you described.
    Mr. Porter. I am wondering what the feeling is--and I think 
I know but what is the feeling of the traditional practitioners 
your encouraging of alternative medicine? Is it becoming 
acceptable in that setting?
    Mr. Filner. I think whether you are talking about 
acupuncture or nutritional and dietary holistic approach, I 
think more and more of the doctors and physicians, hospitals 
are understanding that there are many modalities, many 
approaches and many different styles. And, in fact, at a time 
when the costs are rising at such an incredible rate, the cost 
of complimentary medicine is much less in effectiveness, at 
least as demonstrated by the evidence so far and certainly 
anecdotal evidence is that this will provide high quality 
health care. This proposal comes from a mainstream hospital. 
The doctors, the health professionals in this community are 
trying to meet the needs of their community which they know as 
well as anybody and are understanding that they may have to try 
different kinds of approaches that are very cost effective 
also.
    Mr. Porter. We, Congress, last time, last year changed the 
office of complimentary and alternative medicine at NIH to a 
center, so that they now have grant-making authority to do 
research into the efficacy of nontraditional therapies. I think 
there has been a lot of movement in the direction of providing 
these types of services.
    Mr. Filner. NIH is--I shouldn't say this because of some of 
the people in the audience here--but NIH has been rather slow 
to come to that conclusion. It took--the upgrading of that 
office to a center and there have been still--I think--what 
should I say, not the exact commitment that we would like to 
see there in providing this kind of research and these research 
grants, but I think people are coming around to looking at age-
old kinds of approaches that must have had some effect, 
otherwise they would not be around for so long. Again, the 
costs as you know, sir, are just so enormous that to try to 
meet the costs of poor patients in new ways has to be I think 
tried by all members of our community, and I think everybody 
has recognized that.
    Mr. Porter. It would be interesting to see how this all 
works out. It will work out very well but it will be 
interesting to watch it. Thank you for your testimony and we 
will do our best.
                              ----------                              

                                           Tuesday, April 11, 2000.

                               IMPACT AID


                                WITNESS

HON. JOHN THUNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    DAKOTA
    Mr. Porter. Representative John Thune of South Carolina--
excuse me, South Dakota, testifying regarding Impact Aid. Sorry 
for that, John.
    Mr. Thune. That is quite all right, Mr. Chairman. The good 
folks of South Carolina could only hope they could be from 
South Dakota. Let me first of all say thank you to you for your 
very able leadership of this subcommittee. You will be missed 
here and for your past commitment to the Impact Aid program. 
You have been very dedicated over the years to see that those 
who were impacted, Federally impacted lands, military 
installations and reservation students have the opportunities 
that they need to succeed, and we appreciate your efforts.
    Again, I want to say that we are here again. It is another 
year, but the issue is the same. Last year in my State, the 
Impact Aid program provided nearly 70 percent of the funds used 
to educate Federally-connected students in South Dakota. 
Probably South Dakota, I would guess--and which my entire 
congressional district is an at-large district--probably relies 
as heavily upon Impact Aid to provide a quality public 
education to its students as anywhere in the country. What I 
would do is just share very briefly the types of school 
districts that are impacted in my State.
    First of all, we have all three distinctions. We have 
military, we have Native American, and students that are 
connected to the Federal Government through the occupation--
also Federally impacted lands that are the Black Hills National 
Forest, Badlands National Park and others. First off, the 
military. Ellsworth Air Force Base is located near Rapid City 
and significantly influences the entire western half of South 
Dakota. In fact, it has the second largest installation of B-1 
bombers in the Nation and it provides direct employment for 
about 4400 people on the base as well as supporting another 
2,000 jobs throughout the region.
    Education for the students associated with the base is 
provided through the Douglas school district. Half of those 
students in the Douglas school district--it has 2400 students--
are children who live on or have parents working at Ellsworth, 
which qualifies the district for additional funds through the 
designation as a heavily impacted district. Without Impact Aid, 
the school district could not afford to educate these children.
    Second, the American Indian presence in my State is, again, 
by far, the largest population of those Federally-impacted 
children in South Dakota are those who reside on Indian 
reservations. We are home to nine different American Indian 
tribes. Two of the nation's most impoverished counties are in 
South Dakota. They comprise the largest portions of the Rosebud 
and the Pine Ridge reservations. Unemployment, poor health 
conditions, visible poverty on these reservations are 
staggering.
    I have the opportunity of traveling my State and I try to 
make it to all 66 counties every year. I have the opportunity 
to observe firsthand the conditions there. For many of those 
children, education really is the only hope that they have of 
escaping the continuing cycle of poverty. As you know, the 
Federal Government made a promise to educate American Indian 
children through treaties with the Indian Nations. Although the 
Bureau of Indian Affairs supports some reservation schools, 
most schools on the reservations are public schools. Without 
Impact Aid, we cannot live up to our promise and give these 
children the hope of a better future through education.
    Finally, I will mention the effect of the Federal 
Government. South Dakota's thousands of acres of Federal 
prairie and grasslands and national parks crisscross the State 
reducing tax revenue for many of the school districts. Although 
Impact Aid funds to these districts constitute only a portion 
of the overall budget, the funds provide the opportunity to 
purchase new textbooks, hire more teachers, and hard wire 
classrooms to the Internet.
    The Impact Aid program was created by the Federal 
Government to reimburse school districts for tax revenue due to 
a Federal presence. It is imperative then, in my opinion, that 
the Federal Government live up to its responsibilities to 
Federally-impacted school districts. The Federal presence is no 
less now than it was when the program was created. In fact, the 
need is even greater than ever. I am proud of the schools in 
South Dakota and my home State. My two daughters attend public 
school there. The parents, teachers, and administrators of our 
State truly have the best interests of our students in mind.
    Without Impact Aid funding the quality of education they 
receive undoubtedly be sacrificed. I certainly don't want to 
see that happen. I commend the teachers and administrators of 
our State of South Dakota who prove year in and year out that 
they can make their scarce dollars go such a long way.
    Mr. Chairman, I appreciate again very much your efforts. I 
believe that the Impact Aid program is worthy of your attention 
again. The program assures that the Federal Government fulfills 
its commitment to State and local taxpayers. Funds from this 
program have met the difference between bankruptcy and keeping 
schools open for another year. I would respectfully request 
that this committee show teachers, administrators, and students 
their support by providing $1,030,000,000 in funding for the 
Impact Aid program in this fiscal year.
    Thank you, Mr. Chairman, again, and I would be happy to 
answer any questions that you might have. I would ask that the 
balance, or at least the entirety of my written statement be 
included as part of the record.
    Mr. Porter. Without objection it will be. John, we are 
going to do our best on this. It is a very high priority for 
the subcommittee. We know that we are far short. You said 70 
percent of the funding, it ought to be 100 percent, obviously, 
and it isn't. But we are doing our best to make it a high 
priority and plus it up.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. The subcommittee stands in recess until 10:00 
a.m. tomorrow.
                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS

                                WITNESS

HON. SUE KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK
    Mr. Porter. The Subcommittee will come to order.
    We continue our hearings with our colleagues in the 
Congress on the appropriation for fiscal year 2001 of Labor, 
Health and Human Services and Education and Related Programs. I 
apologize to you, we had a memorial service for Paul Simon's 
wife, Jean Hurley Simon, who died a month or so ago, over at 
the Library of Congress. I very much wanted to attend. She was 
the Chairman of the Commission on Libraries and Museums, and a 
great lady who was actually a prosecutor in my father's 
courtroom before she was elected to the Illinois General 
Assembly, before she met and married Paul Simon, and they 
embarked upon their long career together serving our country.
    So I apologize to you. I want to welcome Representative Sue 
Kelly of New York, Representative Louise Slaughter of New York, 
Delegate Eleanor Holmes Norton of the District of Columbia, 
each of whom are going to testify as well as Carolyn Maloney of 
New York. Thank you all for coming, and please proceed in 
whatever order you have worked out.
    Ms. Kelly. Mr. Chairman, you certainly owe us no apology 
for being late. I really want to thank you on behalf of the 
Congressional Caucus for Women for allowing the Women's Caucus 
to come before you today and to come before any other members 
of this Subcommittee on the women's issues and concerns. My 
colleagues and I appreciate the opportunity to address the 
issues of specific importance to this Caucus. And I 
respectfully request that members who are unable to join us 
today have five days to submit testimony for the record.
    I would like to discuss three health priorities that are 
especially important to me: Crohn's Disease, Tuberous 
Sclerosis, and Juvenile Diabetes. As you know, Mr. Chairman, 
Chron's Disease is an inflammatory bowel disease which, along 
with other related diseases, called colitis, is incurable. 
There are an estimated 1 million people currently suffering 
from these diseases. We need two things: education of doctors 
and money for research for Chron's Disease.
    I know, Mr. Chairman, that you probably know that my 
daughter has Chron's Disease. This is a vicious disease where 
people lose sections of their bowel, small intestine or large 
intestine, section by section, until they finally are no longer 
able to sustain life. It is a vicious disease, and we beg you 
to put some money into the research and the education of 
doctors to diagnose this disease.
    Mr. Chairman, I also know all too well the devastation that 
this disease can cause families. And I ask that you support at 
least a 15 percent increase for the National Institute of 
Allergy and Infectious Diseases and the National Institute of 
Diabetes and Digestive and Kidney Diseases, along with this 
corresponding increase for Chron's Disease. I am going to ask 
that I be able to submit all of my written testimony into the 
record.
    I am going to go now to the second disease that I would 
like to address, which is tuberous sclerosis. Despite being a 
common genetic disorder, at least one child in seven, one child 
born every day, each day is infected with tuberous sclerosis. 
It is very poorly understood.
    It is a genetic disorder that causes benign tumors to form 
in any of the vital organs, including the brain, eye, heart, 
kidneys and skin. It is first recognized often because of 
epileptic seizures, or varying degrees of developmental delay. 
It occurs in both sexes, in all races and all ethnic groups. 
There are approximately 1 million people worldwide with the 
disease, and we really do not understand it.
    Once again, there is research concerning tuberous sclerosis 
at the NIH. It is only being funded at $1.5 million. That is a 
very small amount for a very vicious disease. Because of the 
high incidence and the little that is known about it, I 
respectfully request the Subcommittee increase funding for this 
disease to $5 million.
    Finally, Mr. Chairman, I would like to focus on juvenile 
diabetes. Children with diabetes face the possibility of a 
horrible list of disease related complications, like blindness, 
a greater risk of heart attack, stroke, kidney failure and 
nerve damage. Again, my nephew has juvenile diabetes, and I 
know what the families go through with diabetic children.
    Diabetes is killing one American every three minutes. It is 
killing one American every three minutes. And the cost of 
treating it is reaching $40 billion annually. We have to match 
this cost in society by some funding in research. I am asking 
you to increase the funding by at least 15 percent to increase 
the diabetic research in this Nation to $1.7 billion.
    While I realize it is not the practice of the Committee, of 
this Congress, to earmark money for specific disease research 
within NIH, I would like to respectfully request the continued 
support of research on Chron's Disease, Tuberous Sclerosis and 
Juvenile Diabetes be included in the report language. The 
diseases affect so many people, and they have no voices to 
speak out. We are their only voices, and I hope you will help 
them.
    Thank you very much for letting me speak.
    [The prepared statement of Ms. Kelly follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Representative Kelly, you are correct, we do 
not substitute political judgment for scientific judgment. But 
this is a publicly funded institution and they hear what we 
hear, through us and through patient advocacy groups and they 
understand that there is a great feeling in this country that 
we have not done enough for diseases that affect broad 
populations, diseases like diabetes, heart disease, cancer, 
diseases of aging.
    They also recognize that we have not done enough to reflect 
diseases that particularly affect minorities more than others. 
So the ship moves in the water sometimes slowly, but it does 
move. I think there has been a lot of progress to move disease 
research in the direction that you have mentioned, particularly 
regarding diabetes. And we will put language in on Chron's 
Disease and Tubular Sclerosis.
    Ms. Kelly. Thank you.
    Mr. Porter. Thank you for your testimony.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. CAROLYN MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Ms. Maloney. Thank you for the opportunity to testify 
before the Subcommittee. I am the Democratic Co-Chair of the 
Congressional Caucus on Women's Issues, and we appreciate very 
much, Chairman Porter, your past efforts to fund programs that 
help women, children and families. And may I, Mr. Porter, just 
mention how much we will miss you and your leadership next year 
when you retire from Congress. You have been a great leader in 
so many areas, particularly women's health.
    Today we have several members of the Women's Caucus who 
will speak on a variety of issues. To begin, I would like to 
touch briefly on five key issues. And I would like to submit a 
more complete testimony to the record.
    First I would like to request that this Committee fund the 
Administration's request of $274 million for Title X programs, 
a $35 million increase. Each year, publicly funded family 
planning programs, including Title X, serve 4.3 million women 
and help avoid 1 million unintended pregnancies. Title X helps 
to avoid 500,000 abortions each year.
    In addition to providing information on contraception, 
Title X clinics provide STD screening and treatment, 
gynecological exams, HIV screening, breast cancer and cervical 
cancer screening. And they are cost effective. For every public 
dollar, more than $3 are saved in publicly funded medical costs 
alone. We urge, at least I urge full funding for Title X.
    My colleague, Louise Slaughter, is going to speak in a 
moment in more greater detail about the disparity and how large 
increases at the NIH have not translated into large increases 
for the Office of Research on Women's Health at NIH. And Sue 
Kelly organized earlier a forum on all of the women's health 
organizations throughout Government. It was striking to learn 
that last year, NIH's budget increased by 14 percent, but the 
women's health research budget only increased by 3.7 percent. I 
will be working with Representative Slaughter and urging report 
language from the Committee on this issue. I will be joining 
her on a letter that she is spearheading to correct this 
problem.
    Title IX is a tremendously important program. One of the 
most amazing transformations that have taken place over the 
last 30 years, is the evolution of the so-called Title IX 
babies. Title IX, the Federal law that requires federally 
funded institutions to ensure equity in education and sports 
has led to young women with higher grades, higher self-esteem, 
lower levels of depression. It has led to lower teen pregnancy.
    Before Title IX, women were relegated to the cheerleading 
squad. Yet in 1996, the U.S. women's softball and soccer teams 
won the Olympic gold. In 1997, we saw the beginning of 
professional women's basketball. In 1998, the women's Olympic 
hockey team won the gold, and in 1999, the women's world soccer 
team won the cup. Simply put, Title IX has been a stellar 
success.
    I urge the Committee to fully fund Title IX of the Civil 
Rights Act Training and Advisory Services in the education 
budget, Title IV, that is, at the $7.3 million requested by the 
President's budget to enforce Title IX. An additional $76 
million has been requested for the Office for Civil Rights for 
fiscal year 2001 which investigates discrimination complaints 
and addresses all educational equity issues. Both monies are 
absolutely critical to enforcing Title IV and Title IX.
    I would also like to ask support for an important project 
in my district, the New York University program in women's 
cancer, will research cancers that primarily affect the female 
reproductive tract, with a focus on minority women. The school 
is seeking $5 million from HRSA's health facilities 
construction account.
    This program will be working in conjunction with clinical 
training and research links and other parts of the 
comprehensive cancer center programs. At the same time, it will 
provide focused attention to research on gender differences and 
diagnosis, treatment and outcome in non-reproductive tract 
cancers. HRSA funds would be used to construct, build and 
rehabilitate existing space to house the program in women's 
cancer, and to purchase necessary equipment.
    Finally, I would like to speak about neurological diseases, 
and in particular, Parkinson's disease research. I am the 
founder and co-chair in a bipartisan way of the Parkinson's 
research effort and task force here in Congress. We are working 
to ensure that NIH scientists have the freedom they need to 
conduct the research.
    Parkinson's disease is a chronic, progressive disorder 
affecting one million Americans, including members of my own 
family. Scientists have described Parkinson's as the most 
curable neurological disorder. In fact, last week, Dr. 
Fischbach from NIH testified that if given the resources, they 
would cure the disease within five years. When have you heard a 
scientist say that? And he thinks it has wide ranging impact on 
all neurological diseases.
    I really want to urge this Committee to take a leadership 
role in protecting NIH researchers from any radical attempts to 
broaden the current embryo research ban to include stem cell 
research. Stem cell research is a critical element in the war 
against many diseases, including Parkinson's, AIDS, cancer, 
strokes, Lou Gehrig's, all kinds of diseases.
    Stem cells are a type of cell that can be turned into 
almost any type of cell or tissue in the body. Stem cells are 
not embryos, because they cannot develop into a complete human 
being. I have introduced a resolution along with the task force 
on Parkinson's, H.R. 414, to help educate the public, members 
of Congress and all caring Americans on why this research is 
critical to cure so many disease. And we must not tie the hands 
of researchers. Instead, we must allow them to do all they can 
do to treat and cure afflictions.
    I must say that when I go to hospitals in my district, they 
may ask me to come for a particular reason, but often I am 
pulled aside by doctors who say, please, whatever you do, do 
not stop stem cell research. It is their best hope for a cure 
in a multitude of diseases.
    Lastly, I want to congratulate the Chairman for your great 
leadership in increasing NIH funding, increasing it by a 
percentage point of 15 percent last year. I certainly support 
the President's increase of 5 percent in this year's budget. I 
believe it should be brought up to the 15 percent level in 
order to double the funding for NIH, which has been a stated 
goal of many members on the other side of the aisle, and on 
both sides of the aisle.
    I do think that we should work with the scientists to 
achieve the goals in their priorities. NIH has stated that a 
goal and priority is neurological disease, because they feel 
that they have a plan, they have a goal, they know how to do 
it, they know what to do, all that is lacking is the will and 
the dollars to support this research.
    So I am calling upon you for your leadership in support of 
stem cell, neurological disease and a cure for Parkinson's, 
along with Title X, Title IX, Title IV and every other women's 
issue.
    And I am delighted to see two great leaders in our Congress 
for women's issues, and on many of the issues you will be 
hearing from many of us today, Mrs. Lowey from the great State 
of New York, and Ms. Pelosi from the great State of California. 
We appreciate your being here, too.
    [The prepared statement of Ms. Maloney follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Carolyn, let me say that we certainly agree on 
all of the issues you raised with one exception that I will 
address when Ms. Slaughter testifies. But stem cell research 
certainly, Title X is extremely important, doubling the funding 
for NIH is our goal.
    We have a budget resolution, as you know, that is likely to 
be considered this week, a conference report that I think is 
going to make it very difficult for us to get to our goals, at 
least initially. I would just urge all the members of the 
women's caucus to be very strongly supportive of our increase 
for NIH and recognize that it probably is going to be a very 
crooked road to get where we want to go, because of the very 
small allocation, relatively speaking, that we're going to have 
to work with, at least initially.
    Thank you for your testimony and your leadership.
    Ms. Maloney. Thank you.
    Mr. Porter. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. I'll be brief. I just 
want to join our Chairman in welcoming our good colleagues here 
today who stand for and speak for and fight for the values and 
concerns that we have been fighting for and standing for a 
very, very long time. I think what the Chairman is saying, if 
it were up to him, and if it were up to us, we'd get there and 
get there soon.
    Unfortunately, there are others who may not share our 
goals, and we may have to go through some kind of, I don't want 
to call it a charade, but some kind of game playing until we 
get to the final success. And we can get point if we all stick 
together and fight hard. So I just want to thank you, thank 
Carolyn for what you did say and thank all of you for what you 
are going to say.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. I want to join you and 
our colleague, Congresswoman Lowey, in welcoming the 
Congressional Caucus for Women to our Subcommittee. This is our 
best day of the year, when you come before us. The most well-
organized presentation, the most comprehensive presentation, in 
my view, the most important presentation for the American 
people.
    I do believe that the voices that you amplify here are a 
reflection of our entire country. And indeed, we must enlarge 
the pie from which these priorities spring. Because these are 
the needs of the American people. NIH has the power to cure. 
It's biblical. We have a responsibility to match the scientific 
opportunity with the resources.
    So this list of heart disease and juvenile diabetes, well, 
we will hear the list as you enumerate it, is the agenda of the 
American people. It is a priority for every family in America. 
Every family in America is one diagnosis or one accident away 
from needing what you are testifying here today for.
    So thank you for what you have done and congratulations on 
the difference that you have made over the years to our 
national priorities in this Subcommittee. Thank you again, Mr. 
Chairman, for your leadership and the opportunity to welcome 
our guests.
    Mr. Porter. Thank you, Ms. Pelosi.
    We also are pleased to welcome Representative Maxine Waters 
of California and Representative Darlene Hooley of Oregon, who 
have joined us since we began the panel. Louise, are you next?
    Ms. Holmes Norton. I'm next, Mr. Chairman, because we're 
going in the order in which we came.
    Mr. Porter. Oh, Eleanor is next. I am going to let you 
proceed in whatever way you want.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE IN CONGRESS FROM THE 
    DISTRICT OF COLUMBIA
    Ms. Holmes Norton. Mr. Chairman, let me express my 
appreciation for your leadership in the issue I am about to 
discuss, for your extraordinary, concentrated and intelligent 
leadership in women's issues in general, and say that that kind 
of leadership will be sorely missed when you depart this 
Congress. We are all indebted to your service.
    I am going to testify about an issue in which you, Mr. 
Chairman, and the Subcommittee, have shown some interest. That 
is that a major health problem, national health problem, that 
as it turns out affects women more than men, but has become 
absolutely pervasive, and that is alarming increases in 
overweight and obesity.
    I testified about this last year, but Mr. Chairman, since 
last year, there have been signal events that I would just like 
to say, and then I would like to simply submit my testimony for 
the record. The Journal of the American Medical Association, 
six months after my testimony, published a major study that was 
conducted by the Center for Disease Control, called ``The 
Spread of the Obesity Epidemic in the United States, 1991-
1998.'' I have attached a copy of that study to my testimony.
    It is a signal study. If it is not a wakeup call to this 
Congress, I don't know what is. In January, a non-profit 
organization headed by former Surgeon General C. Everett Koop, 
called Shape Up America, launched a nationwide internet based 
program to fight overweight and obesity. At a February town 
meeting I had here in the District, the Surgeon General, David 
Hatcher, spoke and outlined what he called major contributors 
to many preventable causes of death and disease. He named them: 
cardiovascular diseases, stroke, high blood pressure, high 
cholesterol, type II diabetes, arthritis, gall bladder disease, 
asthma, and some cancers, including breast, endometrial, 
prostate and colon cancers. All traceable to overweight and 
obesity.
    Just this past Monday, the Archives of International 
Medicine released a new study indicating that half of our 
population is overweight. And pathetically, Mr. Chairman, just 
on Tuesday, USA and CNN reported that the standard 18 inch seat 
size has become obsolete and we can no longer use them in movie 
theaters and in ball parks and on public transportation. Maybe 
that's the wakeup call that will get us all.
    I testify as a member of the Women's Caucus here on this 
issue, not because this is a women's issue, but because sadly, 
female obesity is consistently outstripping male obesity. Now, 
I use the word obesity advisedly. When I say half of Americans 
are overweight or obese, obese means those who are clearly in 
danger of death and terrible disease. And we have gone from, 
for women in the early 1990s, 12.2 percent to 18.1 percent by 
the close of the century. For men, it was 11.7 percent to 17.7 
percent. They had nothing to write home about, but you can see 
that women in each and every one of those years was doing 
worse.
    Fifty percent of women over 20 are overweight. This is 
showing up when people are supposed to be most active. It is in 
every age group. It is for people who smoke and don't smoke. 
The increases have been more alarming for people who have some 
college education and who don't smoke. Both sexes. The problem 
is getting much worse.
    Pathetically, children are where the increases are worse. 
There is a 100 percent increase in overweight among children in 
just the past 15 years. Three million women are at least 100 
pounds overweight. If you start out life as overweight as these 
young women are, you're not going to be able to walk by the 
time you are 40.
    And yet, there has not been the national clarion call that 
fights back against the table and the computer and the 
wonderful ads that make you want to go right out and buy 
something to eat, or go to the ice box. Because there is not a 
national effort to fight back. So it is going to get worse.
    After testifying here, I introduced a bill called Life, the 
Life Act, Lifetime Improvements in Health and Exercise. It 
essentially builds on your own work, Mr. Chairman. Because it 
would fund, with somewhat more money than the Committee has 
funded, the Centers for Disease Control, which is the obvious 
organization to begin a national effort.
    And it would do three common sense things. It would train 
health professionals to recognize the signs of overweight and 
obesity early enough so that you can do something about it. I 
mean, I find it hard, I'm not particularly obese or overweight, 
but if I try to lose weight now, I find it difficult. I want 
somebody to catch me before I get to the weight. And health 
professionals are not doing that. So we begin with them.
    Then we need a nationwide campaign to educate the public. 
We understood that when it came to the census. You put someone 
on television to tell people that, and you might get help from 
the private sector on this, because they might want to 
contribute to this as well, that the way in which the public 
absorbs this information, it seems to me they would absorb this 
information.
    And finally, we need the CDC to help local communities 
develop strategies at work sites and other community sites that 
fit the particular community or the particular State. I have 
suggested $30 million, a trivial amount, considering what the 
nature of the problem is. And particularly considering what we 
see among young people, 25 percent of young people 6 to 17 are 
already overweight. That's when you're supposed to be playing 
in the playground.
    The CDC will help communities understand that they should 
not wipe out gym, that that shouldn't be the first thing to go. 
And we ought to encourage kids to get out and play like we all 
played, or else we all would be where these kids are going to 
end up.
    This Subcommittee has shown admirable awareness of the 
problem. I do not need to raise your consciousness. You have 
tried to raise the consciousness of the entire Congress. I 
believe the time to, particularly, Mr. Chairman, given your 
interest, as you are about to leave this Congress, the time to 
leave as part of your legacy an amount that would enable the 
CDC to in fact go nationwide with what it has been doing here 
and there, the best they could, that that time is now. It is 
time to go national.
    We would do it in a heartbeat if we were talking about a 
contagious disease like TB or AIDS. And if I may quote from the 
CDC study that was in the AMA Journal, rarely do chronic 
conditions such as obesity spread with the speed and dispersion 
characteristic of a communicable disease epidemic. That is what 
we have on our hands. We need to make people understand that 
overweight is just as death carrying, just as lethal, as AIDS 
if you don't prevent and don't do something about it.
    I urge this Committee to give this time an appropriation of 
$30 million, which will hardly register in our budget, to begin 
CDC to go around the country and help us all deal with this 
epidemic.
    [The prepared statement of Ms. Holmes-Norton follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Eleanor, I think your testimony is right on 
point. You forcefully brought this to our attention last year.
    It is sort of amazing that we put all this money into 
research and we gain knowledge. And we know that obesity is a 
very serious health risk factor. And yet we can't change 
behavior or practice in order to address it.
    It doesn't do us any good to do research and gain knowledge 
unless it changes conduct. And for that reason, and I often sit 
here and think, the American people must be out there thinking 
that somehow, they can do anything they want with their bodies 
and that research will save them in the end, instead of 
adopting good health practices and doing so early in life.
    About a month ago in this room, I brought together the 
heads of CDC, NICHD, SAHMSA, HRSA and NIEHS was also 
represented through CDC. Our intention is to develop a national 
campaign of the type you described, addressed to children and 
in some cases their parents, using the great marketing talents 
that we have in this country. If we can sell people to eat, 
maybe we can sell them not to eat, or to eat the right things, 
at least, and to exercise.
    And to attempt to develop a very serious campaign, using 
the media where they are. I am not talking about public service 
announcements at 2:00 a.m. on a station that kids don't watch. 
I am talking about hitting them in prime time or on MTV or the 
internet or wherever it is that we can reach them, trying to 
get across a positive message, not, don't do this and don't do 
that, but making it cool to do the right things, in a way that 
reaches the right kids at the right time with the right 
message.
    So our intention is to put into that, if we can get the 
money, and again, we're back to our budget resolution, $125 
million to start, that we think is necessary to get this off 
and running. What I would really like to do is to take your 
bill, which addresses obesity, and take a very hard look at it. 
And assuming we agree, and we probably do on everything, to get 
the permission of the authorizers to put it in our bill and to 
get it passed that way and get on with this and get this 
started.
    I am not going to be here to finish it, but you are and 
others are who care about it. It seems to me that what we 
really need to do overall, and this is much broader than what 
we have discussed here, but we really need, when we get to the 
point of having doubled NIH, we need to do exactly the same 
thing for CDC, to have the public health arm of our Government 
that takes this research in part and translates it--we hope--
into changes in behavior and greater data and the kinds of 
things that really change the health habits of the American 
people, to double their funding.
    I think doing one without the other really doesn't get us 
where we want to go. So I commend you for bringing this to our 
attention last year. You're working on it hard. Let's see if we 
can actually put it into the bill and get it passed for you.
    Ms. Holmes Norton. If I just may say, Mr. Chairman, how 
gratifying it is to hear this response. For a Chairman who has 
done for health what you have done to leave this kind of legacy 
for health across the board for the American people would be 
just a fitting Porter legacy. I thank you for your kind 
attention to this problem.
    Mr. Porter. Thank you, Eleanor.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Porter. Mrs. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman. I certainly hope 
something comes from that. I don't find it hard to lose weight, 
I find it impossible. [Laughter.]
    Ms. Slaughter. Mr. Chairman, I am glad to be here this 
morning, and thank you once again for an opportunity to appear 
before you. As I've said many times, publicly and privately, 
it's been a privilege and pleasure to work with you on all the 
issues from homeless children to women's health. I really 
think, again, your retirement is a great loss to the United 
States, and certainly to me personally.
    In particular, Mr. Chairman, you have always been a true 
friend of women's health. You and I both know that there are 
people in Washington who pay lip service to women's health but 
secretly think it is just a fad or worse. The Women's Caucus is 
fortunate to count you among the members of Congress who truly 
understand the importance and the worth of research into 
women's health issues.
    Women's health concerns brings me before you again today. 
And although I have a million things I would love to talk 
about, I am going to confine myself to just one. I am very 
proud to serve as the Co-Chair of the Women's Caucus Health 
Care Task Force. I'm pleased that I can bring my long ago 
education to bear on the issues that affect us here in 
Congress.
    In that capacity, I have reviewed the actions taken by 
various Health and Human Service Department agencies with 
regard to their offices on women's health. All HHS agencies 
have at the very least an individual who coordinates the 
women's health research and interests. Some agencies, like 
Centers for Disease Control, have an entire office devoted to 
the task, and the commitment to the issue appears to vary 
widely.
    But I am most disturbed by the trend I see at the National 
Institutes of Health's funding of its Office of Research on 
Women's Health. As you know, Mr. Chairman, the creation of ORWH 
was a seminal moment in women's health. Indeed, in the 1990s, 
when we created that office, it was in response to the fact 
that women had been left out of research, that no one knew what 
caused the things that were specific to women. We put an 
extraordinary amount of hard work into getting this done. And 
we saw it, as when we codified it in the NIH, we saw it as a 
way that we could ensure that never again in the United States 
would women's health be ignored completely or left behind.
    And as you may recall, at one point it was even recommended 
to veto that office, which was a big blow to us. But we did, 
those of us who were here in those early days, putting the 
money in the budget for women's health and setting up this 
office, saw this office as a beacon for the future. We were 
bringing our health out of the dark ages, and we were requiring 
that all women be included in clinical trials. It was a major 
step.
    Now, in addition, there were a number of other critical 
functions this office served. It coordinated the 
interdisciplinary research. It funded women's health projects 
and centers, and served as a resource for all of the 
Institutes. It was the mother office. So it is therefore with 
great concern I noted the nominal budget increases that ORWH 
has received in recent years.
    Between the fiscal years 1996 and 2000, ORWH has received 
budget increases averaging 4.4 percent a year. It is literally 
being starved. For fiscal years 1999 and 2000, as the NIH 
received budget increases of 14.4 and 14 percent, respectively, 
the ORWH budget was increased by 7 and 4 percent. In my 
judgement, these minimal increases reflect a tepid--at best--
commitment to women's health.
    I am therefore requesting that the Subcommittee include in 
its report language direction to the NIH director to grant the 
ORWH a budget increase in fiscal year 2001 that is at least 
roughly proportional to the increase received by the NIH as a 
whole. You have received a letter from me with sort of 
suggested draft language. I certainly respect the prerogative 
of the director, I want to make that clear, we are not trying 
to micromanage anything.
    We do respect the prerogative of the director to allocate 
funds as he or she sees fit. But it has become apparent that 
the NIH needs to be reminded that ORWH is a Congressional 
priority and should be treated as such. We cannot let it die.
    Mr. Chairman, I am thankful as always for your continued 
interest in and commitment to the health of America's women. 
You have the Women's Caucus' gratitude for all of your efforts 
on behalf of our women's health. I truly hope that there will 
be opportunities for us to work together in the future. Mr. 
Chairman, we must not let this office die and let all the work 
that led up to it be done for nothing.
    So I want to make this plea to you, as you look at this 
issue in report language, to direct them not to allow that to 
happen.
    [The prepared statement of Ms. Slaughter follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Well, we definitely are not going to allow the 
office to die, Louise. The reason that this office has received 
increases that are much smaller than the Institutes as a whole 
is that the office does not have grant making authority. In 
other words, all their funds are administrative, for 
coordinating among the Institutes the concern about women's 
health. They don't make grants for research, per se.
    Only centers and institutes can do that. And so since more 
than 80 percent of NIH's money is put out competitively in the 
form of grants to academic medical centers and other research 
institutions around the country, most of them have, for 
administrative purposes, about the same increase that the 
Office of Women's Health has. And the Office on Women's Health 
is part of the Office of the Director. So that's administrative 
expense, not grant money.
    So the difference between 15 percent and 3 percent is the 
80 percent that would go if they had research grant making 
authority.
    What you really want to do, I think, is the same thing that 
Representative Jackson wants to do regarding the Office of 
Minority Health, and that is to change the office into a 
center, so that it can have grant making authority. I don't 
know whether that's a wise idea or not. But it certainly would 
raise the profile of efforts on women's health to a level that 
Mr. Jackson, for example, wants to put the profile on minority 
health and the disparities.
    Ms. Slaughter. And I don't know whether that's a good idea 
or not.
    Mr. Porter. I don't, either.
    Ms. Slaughter. Again, as a former scientist, I do not want 
to micromanage research or to change anything that is working. 
However, we are majorly concerned about this particular office. 
And I'm sure you know that we have written a letter to the 
Secretary saying that we hope that the next Director of NIH 
will display a greater interest in women's health than we have 
seen recently.
    And that's a concern. One of the things we'd like the 
report language to really spell out that this is a 
Congressional priority here, that this office remain there. And 
I understand their function is to oversee research and grants 
and the money handed out by the other agencies, all from HHS. 
That perhaps works well. I am not here to discuss that aspect 
of it.
    My major concern, our concern, is just that the Office of 
Women's Health, which is the center part, the spoke, not be 
starved to death or not be overlooked at NIH, as something that 
perhaps they could phase out or do away with. It was far more 
too important in our battle for bringing women's health out of 
the dark ages, as I said before, that that office be there and 
be maintained.
    So basically, I think we would like to make sure that 
nothing happens to it.
    Mr. Porter. Well, Louise, the point is well taken, and I 
have a feeling that Mrs. Lowey or Ms. Pelosi or myself, one of 
us will give some thought to preparing the language that would 
express that to NIH. I would suggest, and again, I am not an 
authorizer, and I don't know whether either of these ideas are 
good ideas or not. But maybe you might want to have an alliance 
with Jessie, since women's health is considered in a sense 
minority health as well, and see if you can work together.
    The second thing I would do is talk to the authorizers, as 
Jessie is doing now, about this whole subject. Because we can't 
move on any of this, of course, without their agreement.
    Ms. Slaughter. I understand.
    Mr. Porter. But sometimes they like us to put into our bill 
the things that they would put out in separate bills, and get 
things moved along that way.
    Ms. Slaughter. Thank you for your good advice.
    Ms. Lowey. Mr. Chairman, if I may, I want to thank my good 
colleague for your testimony. Because I concur with you 
absolutely. We all fought hard for that Office of Women's 
Health. And we want to be sure it's strong and it continues and 
it's relevant.
    I am not at all sure, and we can have further discussions 
in the Caucus, that we want a separate center. Because the 
whole role of the Office of Women's Health is to be the 
advocate to be sure that each and every one of the centers 
currently are aware of the needs of women's health. So whether 
it's NIMH or CDC or any of the others, we want to be sure that 
they are devoting adequate resources and research to women's 
health.
    So isolating women's health into a separate center raises 
great questions for me.
    Ms. Slaughter. I would have misgivings about that, as well.
    Mrs. Lowey. So I want to concur with you that we want a 
strong Office of Women's Health as our advocate to ensure that 
the separate centers are focusing their resources, so we won't 
go back, and remember, many of us talked about the time that 
there were only three gynecologists on the staff of the NIH and 
the lab rats were all male. We want to be sure.
    Ms. Slaughter. The time was when no research was done using 
women at all.
    Mrs. Lowey. Right. Exactly.
    Ms. Slaughter. And it is a major concern watching it just 
drift away. We've got to make sure that the next director does 
have a very strong commitment to it.
    Mrs. Lowey. Those are some of the concerns, Mr. Chairman. 
And I thank you again for bringing that important issue to our 
attention.
    Mr. Porter. Thank you, Mrs. Lowey, and thank you, Mrs. 
Slaughter.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Ms. Waters.
    Ms. Waters. Thank you very much. Mr. Chairman and members, 
I would first like to join my colleagues in thanking you for 
your leadership. I would like you to know that the progress 
that women have experienced on health issues is because not 
only the leadership of the Women's Caucus, but because of you 
and others who have given time, attention and made things 
happen in the whole area of women's health.
    I cannot be more pleased than to be here today with my 
colleagues in the Women's Caucus and my colleagues who sit on 
this Committee, whose voices have been so clear and so powerful 
on these issues. We can all be very, very proud that we have 
all made a difference. In the 10 years that I have been here in 
this Congress, I have seen a tremendous change and a focus on 
women's health care issues and concerns. I am just delighted 
that as we approach you today asking for even more that we are 
able to also thank you and commend you for your leadership and 
give us an opportunity once more to come here and to make a 
case for those issues that we think are very important to 
women.
    Of course I join with my colleagues on all of the issues 
that are going to be raised here today and presented to you. 
This is a collective effort, this is a package of concerns that 
we have. And we bring them to you in this collective way so as 
to focus as much attention as we can possibly focus on our 
issues.
    Today I am going to focus on one issue in particular and 
ask you to respectfully appropriate the $200 million to the 
National Heart, Lung and Blood Institute. I am very concerned 
about funding this issue. This would fund research on heart 
attack, stroke and other cardiovascular diseases in women, as 
contained in P.L. 105-340, the Women's Health Research and 
Prevention Amendments of 1998. This law grew out of my 
legislation which was included in the text of the Bilirakis 
bill, H.R. 4683.
    With that having been authorized, I think it places us in 
good position to come here now and try and make sure that we 
fund this tremendous effort that was put together to make that 
authorization possible. It again is $200 million. It would 
expand research on cardiovascular diseases in women, including 
studies to develop safe, efficient and cost-effective 
diagnostic approaches for women. Funding for this initiative 
would also help create informational and educational programs 
for female patients and health care providers on heart and 
stroke risk factors.
    Despite the seriousness of heart attack, stroke and other 
cardiovascular diseases in women, the symptoms remain largely 
unrecognized, both by women and their doctors. So it is very 
sad to say that we can have the symptoms of heart attack, but 
because doctors have not really known very much about those 
symptoms, we don't even know that we are at risk oftentimes. I 
have two friends who have died who had the symptoms. And one 
friend who went to the hospital two days in a row and was seen 
by a doctor and went home and died from a heart attack, because 
the symptoms were not the symptoms that traditionally are 
recognized by doctors and the symptoms that men have.
    So I have become very much aware, cardiovascular diseases 
remain a leading cause of disability and the main killer of 
American women, claiming more than 505,000 lives each year. 
More women die of cardiovascular diseases than men. And more 
than one of five women suffer the consequences of 
cardiovascular diseases. Heart attack kills 5.4 times more 
American women than breast cancer. Stroke kills more than twice 
as many American women as breast cancer.
    Now, many people don't know this, because we have done a 
great job on breast cancer. And people have become more aware 
of it. But this is the real, I mean, not to compare, but this 
is the number one killer of American women.
    In fact, cardiovascular diseases kill more women each year 
than the next 16 causes of death combined. And while all women 
are at risk, again, statistics show that African American women 
are especially at risk. The heart disease and stroke death rate 
is 67 percent higher in African American women than other 
women.
    The numbers support the argument that more is needed to be 
done in research of heart related diseases and women. We must 
take aggressive steps to combat this silent killer of American 
women.
    In closing, let me just say, I wanted to say a special word 
about the WISE Women, Well Integrated Screening and Evaluation 
for Women across the Nation. This program provides one stop 
shopping and screening services for uninsured and low income 
women by screening for everything, heart disease, stroke, risk 
factors in addition to breast and cervical cancer. This year, 
the Center for Disease Control will expand this program from 
three States to seven States.
    I thank you very much for the opportunity to testify one 
more time.
    [The prepared statement of Ms. Waters follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Maxine.
    Ms. Waters. You're welcome.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman. I want to thank our 
colleague for her excellent testimony, as well as our other 
witnesses in anticipation of theirs.
    I just want to make one point, and I thank you for your 
leadership on this issue, taking up the point where you said, 
breast cancer gets the visibility. It does, and Ms. DeLauro and 
Mrs. Lowey and I fight very hard for that on this Committee as 
well, and Rosa with the cervical cancer as well, from her 
personal experience.
    But one of the problems is, cardiovascular disease is 
exacerbated by smoking. And the women's magazines, because for 
such a long time they depended on so much cigarette 
advertising, would never write about lung cancer or 
cardiovascular disease. They always wrote about breast cancer. 
And we welcomed the breast cancer coverage, don't get me wrong.
    But this, the awareness and the raising of the profile of 
this issue has suffered, because I believe the reluctance on 
the part of the media, which was relying on cigarette 
advertising, to discuss any diseases where there was a 
connection between smoking and cardiovascular diseases.
    Ms. Waters. I think you're right.
    Ms. Pelosi. As you point out, the disparity between African 
American women and other women, even behooves us in a more 
important way to heed your call here today. So I appreciate 
your important testimony.
    Ms. Waters. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Porter. Darlene, you get to have us twice in a row 
here. Darlene was here yesterday.
    Ms. Hooley. Because of the warm reception yesterday, I 
decided to come back today.
    I want to associate myself with a lot of the remarks made 
today and for your leadership on this Committee, it has been 
tremendous. You will be missed. And particularly for all of 
your help in health research.
    I am here today in behalf of the Women's Caucus to request 
inclusion of two different items. One of the most profound 
trends we see today is the graying of the baby boomer 
generation. By the year 2030, one in four American women will 
be over the age of 65. The result of this trend will be more 
women facing more of the chronic diseases and conditions that 
accompany old age.
    The Congressional Budget Office estimates that in the year 
2000, total spending for long-term care services for the 
elderly alone will exceed $123 billion. And despite all of that 
spending, families still provide the bulk of that long-term 
care. Especially women, they represent the majority of the care 
givers.
    There are a lot of individuals who have to take unpaid 
leave to help with the family. If you put this in perspective, 
if somebody took off just 20 hours a week out of their work 
day, and it was replaced, and if they weren't doing that, if we 
had to replace that with home care costs, it would cost 
somewhere between $45 billion and $94 billion annually. So I 
think we need to take notice of that sacrifice that family 
members are making to take care of their elderly relatives.
    It is time to award a tax credit for these families. The 
Administration has proposed a $3,000 income tax credit, when 
fully phased in, for families and individuals with long-term 
care needs. Obviously, $3,000 does not make up for taking 
unpaid leave, but it helps, at least. The tax credit would 
begin to relieve some of the financial strain that comes along 
with caring for elderly family members.
    The Administration's budget also calls for $125 million for 
caregiver services under the Older Americans Act, group long-
term care insurance for Federal employees and the option for 
States to liberalize Medicaid income eligibility for persons 
who need home or community based care.
    Mr. Chair, I would like to request that this Committee take 
a close look at relieving some of the financial burden long-
term care causes families and consider these proposals.
    I also want to touch on one other issue very briefly, and 
we just talked about it, and that is breast cancer research. 
Again, I know we put money into this, but we still had 184,000 
new cases of breast cancer this last year. Breast cancer is a 
disease that affects our families, our co-workers, our 
neighbors, our friends, and we have requested a $30 million 
increase in the NIH breast cancer research.
    Again, I applaud your effort and support your effort in 
doubling the NIH research in the next few years. So I 
appreciate being able to testify in front of this Committee. 
Thanks.
    [The prepared statement of Ms. Hooley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Darlene.
    That completes panel one. And we thank each of our Members 
who have testified.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. Panel two, we are pleased to welcome 
Representative Connie Morella of Maryland, Representative Judy 
Biggert of Illinois, Representative Sheila Jackson-Lee of 
Texas, Representative Lynn Woolsey of California, 
Representative Loretta Sanchez of California, and 
Representative Juanita Millender-McDonald of California. Thank 
you all for being here, and I assume others will join us as we 
progress.
    Who is to start panel two?
    Ms. Pelosi. I think it is appropriate for Sheila Jackson-
Lee to, since she is listed on this panel.
    Ms. Jackson-Lee. I will be brief. Thank you very much.
    Might I add my appreciation, Chairman Porter, and my 
admiration for your persistent and determined leadership on 
many of these issues. And might I thank all of my colleagues, 
Mrs. Lowey, Ms. Pelosi, and other members of this Committee. I 
just want to thank you. And I too want to add my desire to 
continue to work with you.
    I want to bring to the attention of this Committee the 
whole question of children's mental health. A story was 
recounted to me, and I'll do it very briefly, of the young man, 
Mr. Kinkle, out of the State of Washington, who was in his 
class and was disturbing the class by shouting out, by saying, 
these voices, they've got to stop talking to me, and used 
profanity. The teacher, and he was saying, these voices have to 
stop talking to me, the teacher sent a note home that, your son 
was cursing in school, sign a note to make sure that he doesn't 
curse in school. His punishment was to say, I will promise not 
to curse in school.
    It was not about the voices that he was hearing. The report 
came out, or an analysis was done by two reporters in the New 
York Times, saying, our children give us many, many signals of 
their disturbance, their disruptiveness, but we are not 
prepared to understand it. It may have happened in Columbine, 
we're still studying that issue.
    A recent Surgeon General's report on children's mental 
health specifically states that most children in need of mental 
health services do not get them. We see that almost 60 percent 
of teenagers in juvenile detention have behavioral or mental or 
emotional disorders. I can approach, as we look at the 
Columbine situation, I have sat on the Anti-Violence Committee 
as a member appointed by the Speaker and the Leader.
    During those four months or so that we listened to 
testimony, one of the strongest points that was made is the 
fact that our children need support systems, they need mental 
health services that are not necessarily drug related, but that 
provide them the opportunity to share their distress.
    It is estimated that 118,700 and 186,600 youth that are 
involved in the juvenile justice system have at least one 
mental health disorder, it makes sense for this Committee to 
recognize the importance of preventive measures to combat the 
increase of juvenile violence. Yet despite these obvious 
problems our children are having in this country, 10 million 
children have no health insurance, thus they are not able to 
receive proper mental health services.
    Mr. Chairman, I am not advocating a particular drug 
treatment. We know there's been discussion about Ritalin and 
the usage or overusage. But it is the access to these mental 
health services so that mom and dad who work as a bus driver 
and a teacher can have access to these services.
    Studies indicate that there are 13.7 million children or 
one in five children with a diagnosable mental health or 
emotional disorder. Between 9 and 13 percent of children ages 9 
to 17 have serious mental or emotional disturbances.
    The NMHA has a Children's Mental Health Services Program, 
and let me thank this Committee for its advocacy and its work 
in this area, that provides grants to public entities for 
comprehensive community-based mental health services for 
children with serious emotional disturbances. These grants go 
to direct services that include diagnostic and evaluation 
services, outpatient services at school, or home or in a 
clinic.
    I have a Give A Kid A Chance Omnibus Mental Health Services 
to expand those resources so that it can possibly be in your 
community health clinic, where you can make an appointment and 
spend less than the enormous amount that you do with a private 
physician. Many of my associates and colleagues have 
legislation that talks about more school counselors. Whatever 
we do, we need to adhere to the charge or the challenge of the 
Surgeon General's report that says that we need more family 
centered and community based systems of care.
    However, the Children's Mental Health Services Program only 
serves approximately 34,000 children. Thus I ask that the 
Committee authorize $93 million in appropriations for this 
program. The Safe Schools Health Student Initiative is another 
program of the Children's Mental Health Services program that 
needs funding to improve health services. I am asking that that 
program receive $78 million in appropriations.
    The initiative, otherwise entitled the School-Based Mental 
Health Initiative, would provide local school districts with an 
opportunity to develop effective preventive mental health 
services. Though my bill has not yet passed, it asks $100 
million for community mental health centers to have a 
professional mental health provider for children and others in 
that particular center.
    Mr. Chairman, I think in many instances, when we've debated 
this question of violence amongst our children, all of us, 
including myself, have been on the Floor asking for real gun 
safety prevention. That's important. We've acknowledged the 
cultural influx or influences. That's important.
    But I think we've ignored the fact that our children are 
human beings, with all of the ills and societal confrontations 
that any one of us had. And it is important that we address the 
needs of our children, so that we can save more lives.
    Let me conclude by saying that my interest in the full 
funding of the Ryan White treatment, I am obviously speaking to 
supporters, I realize that. Might I just share with you some 
statistics from the State of Texas. There is a research arm of 
the Texas Department of Health that is doing research in 
pediatric AIDS. They are studying Houston, which surprisingly 
to many who hear this, has a very high HIV infected and 
affected population.
    But they are studying a population of about 2,390 children 
under the age of 10. Thirteen hundred of them are in my 
community in Houston, 85 to 90 percent of them are African 
American. I am asking for, and I would like to have the 
opportunity, Mr. Chairman, to amend with a specific paragraph 
in my statement regarding pediatric AIDS, it is not in the 
statement that you have before you, asking for specific funding 
in that. And to also mention a local entity, the Donna R. 
Watkins Memorial Foundation.
    I mention it only because though we are doing our job here, 
I believe there seems to be some imbalance in the funding when 
it gets down to the local community. I would like to be able to 
address that more intelligently in an amended paragraph or two 
on this issue. But I will be amending this on the question of 
funding specifically for pediatric AIDS.
    With that, I thank the Chairman and I thank Mrs. Lowey very 
much for your attention.
    [The prepared statement of Ms. Jackson-Lee follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Sheila, I think your points on children's 
mental health are very, very important. If we look back over 
the last five years, as we have attempted to increase funding 
for biomedical research, the overall increase for the National 
Institutes of Health has been 58 percent. But the increase for 
the National Institute of Mental Health has been 80 percent. So 
we have emphasized very strongly mental health. It's the area 
where we know the least and need to make the greatest progress.
    But, I said this earlier, before you were here, it doesn't 
do us any good to gain knowledge if we can't put it into 
practice, if we can't make a difference in people's lives with 
that knowledge. I think we have not done nearly as good a job 
of providing the resources that we need to take that knowledge 
and help, particularly our kids, who obviously at least some of 
them are having some severe problems that need to be addressed. 
We haven't done a very good job there, and we need to do a much 
better job.
    So I certainly agree with what you are saying. We have a 
very difficult budgetary situation. I have said to the previous 
panel, getting from here to here is going to be like this. But 
we have hopes that we can respond to the points that you've 
raised in a positive way. Thank you very much.
    Ms. Jackson-Lee. Thank you. I appreciate it.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Mr. Porter. Now, we're pleased to welcome Lois Capps of 
California and Jan Schakowsky of Illinois, in addition to the 
other members of the panel. Actually, I understand I have 
introduced several members of the next panel ahead of time. I 
don't think it makes any difference, and we can go in whatever 
order you would like.
    Ms. Morella. Thank you, Mr. Chairman.
    I really thank you for every year providing us this 
opportunity to come before you on the issues that you care 
about and the American people care about. I think it's pretty 
exciting to get the Women's Caucus to come together on these 
issues before your Subcommittee, and indeed, it's made a 
difference. There will be a void created when you're not here 
next year. We will try to do things, saying, this is for John 
Porter.
    As we continue to work toward the goal of doubling the 
budget of NIH, as an example, where you have been such a 
leader, by the year 2003, I wanted to comment, and the 
testimony I have submitted, I promise I will synopsize with 
just a couple of highlights. But I know that you and the 
Subcommittee will be looking at every part of it. And Mrs. 
Lowey, it is always a pleasure to have you there, very 
responsible, on this Subcommittee.
    Since 1990, I have sponsored legislation to address women 
and AIDS. I want to thank the Subcommittee for including in 
report language for the last nine years urging NIH, the Centers 
for Disease Control and Prevention, and other agencies, to 
increase their activities on HIV in women. You know that has 
continued to be the group where significant increases have 
occurred in the infection and AIDS.
    I want to particularly urge continued support for the 
development of a microbicide. It has really been something that 
people have noted, have focused on, to prevent the transmission 
of HIV and sexually transmitted diseases. I hope that you will 
do it at a level of $50 million. It is critical that women have 
an inexpensive and easy to use method of HIV/STD prevention 
that they can control.
    I don't have to tell you about how microbicides could be 
used throughout the world, and that Federal funding is key.
    I also urge this Subcommittee to provide adequate NIH 
funding for the Women's Interagency HIV Study, which is the 
natural history study of HIV in women. It is critical that the 
full range of questions important to understanding HIV in women 
are finally answered.
    And of course, the CARE Act, increases for research, 
prevention and the CARE Act in fiscal year 2000, I hope this 
will continue into 2001.
    Osteoporosis is in my statement. Very important.
    Breast cancer, on behalf of all women who live in fear of 
this disease, we urge the Subcommittee to continue a strong 
commitment to this research.
    Violence against women, I also urge that you continue to 
provide full funding for that part of the Violence Against 
Women Act that comes within your jurisdiction, particularly the 
shelters for battered women and children, the National Domestic 
Violence Hot Line. These programs are critical in the fight 
against family violence, and literally provide lifelines to 
families in crisis. We're asking that you fund shelter programs 
at $120 million and the hot line at $2.75 million.
    Incidentally, I spoke to some people who are involved with 
that hot line out of Texas. They receive 13,000 calls a month--
a month.
    I want to also point out a little program that has gone a 
long way, asking that you provide $1 million for the Women in 
Apprenticeships in Nontraditional Employment Act. It was signed 
into law in 1992, it has in fact made a tremendous difference. 
I think it's important we continue with it.
    Campus based child care programs, it was really neat that 
in the reauthorization of the Higher Education Act, we included 
this opportunity for institutions to provide for low income 
students campus based child care. We hope that it will increase 
this year and that you will consider appropriating $45 million 
for it. It is a program that works. It indicates how important 
child care is.
    Also, the Child Care Development Block Grant. I'm hoping 
that you will provide the additional $817 million to make this 
funding available in October of this year, while maintaining 
the current setasides for child care quality. And support for 
the proposed budget language regarding the Dependent Care Tax 
Credit Refundabilty Act. That would expand the current 
dependent care tax credit to offer additional benefits for 
lower and middle income beneficiaries.
    I have mentioned in my statement to you Reading Together 
Program. But let me point out Head Start. Right now, we know 
that Head Start works, but we know it only affects 50 percent 
of those children who are eligible. So we are hoping that you 
will concur with what the Administration and advocates have 
suggested, and that is that we can increase Head Start funding 
by $1 billion. This would allow about 950,000 children to be 
well on their way to getting a real good start in life.
    You can tell how much I depend on this Subcommittee for all 
the wonderful things that make us such a great society, and the 
quality of life and the health and education of our people. I 
just want to thank you. Keep up the good work.
    [The prepared statement of Ms. Morella follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Connie. We'll do our best.
    Mrs. Lowey. Mr. Chairman, just a quick comment. Because 
several members arrived after we greeted you. We are trying to 
keep our comments very brief.
    I just want to join my Chairman again in greeting the 
outstanding women of this Congress of the Congressional Caucus 
on Women's Issues. My former co-chair, Connie, is always a 
star.
    And I just want to make two comments about your testimony. 
One of course agreeing with our outstanding Chairman, because 
it's been my rallying cry since I'm here that all the brilliant 
research which is done will be meaningless if it doesn't get 
transmitted to the public through CDC, through ARC, through 
SAHMSA, through all the other agencies. I appreciate, several 
of you have mentioned that.
    Secondly, I have become particularly concerned, as has 
Congresswoman DeLauro, with the ignorance surrounding one 
particular STD, HPV. It is amazing to me that, myself included, 
most women just are not aware of HPV. And we hope with the help 
of our outstanding Chair, we can invest money in microbicides 
and other prevention techniques, money to CDC, to let women 
know that 40 million women a year have some strain, there are 
about 8 strains of HPV, and a percentage of those lead to 
cervical cancer. About 3,000 women die each year of cervical 
cancer. But no one should die of cervical cancer if we have 
this knowledge and information.
    So I was particularly pleased that you focused on 
microbicides for STD, because it is so very critical. I thank 
the Chair and I thank all my colleagues again for coming here 
with your outstanding testimony.
    Ms. Morella. Thank you very much.
    Mr. Porter. Thank you, Mrs. Lowey, thank you, Connie.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. JUDY BIGGERT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman, and members of the 
Subcommittee. I thank you for the opportunity to testify. I 
think this is the first time that I have appeared before this 
Committee. I probably didn't know about it last year or so, it 
takes a little while to learn the ropes.
    I would first like to say to the Chairman that Congress 
will sorely miss you, and your years of service will have a 
lasting effect on the people of Illinois and those throughout 
the Nation. So we will miss you.
    I am here this morning to discuss a disorder that knows no 
racial, ethnic or social boundaries, family income. Lifestyle 
and educational levels do not affect its chance of occurrence. 
This disorder is called autism.
    Over one half million people in the United States today 
have autism or some form of pervasive developmental disorder. 
And 1 in 500 children born today will be diagnosed with this 
disorder. Its prevalence rate makes autism one of the most 
common developmental disabilities.
    Sadly, most professionals in the educational field are 
still unaware of how autism affects people and how they can 
effectively work with and teach individuals with autism.
    But Mr. Chairman, there are a few programs that are making 
headway. One such program is employed at a school called Giant 
Steps. This is no ordinary school, but one that is devoted 
solely to teaching children with autism. Located in the heart 
of my district, Giant Steps provides crucial educational and 
therapeutic services to children with autism and those related 
developmental disabilities.
    Only one of three such schools in the country, Giant Steps 
offers programs that enhance academic, language, motor and 
social skills for children with autism. Its goal is to help 
these children move from a life of sheltered dependency into 
the mainstream classroom and ultimately, participation in the 
work force. In its relatively short existence, the program has 
shown remarkable results. Over the last year and a half, that's 
how long the school has been in existence, 50 percent of the 
children served by Giant Steps have been effectively integrated 
into the mainstream schools.
    But despite this success, Giant Steps continues to face 
financial challenges. The reimbursement rates provided by the 
Illinois State Board of Education and local school districts 
are not sufficient to cover the costs of its specialized 
services. And what's more, the extensive fund raising efforts 
undertaken by the school have not been sufficient to compensate 
for the limited State funding.
    So Mr. Chairman and members of the Committee, I would ask 
you consider helping Giant Steps continue their promising work 
with autistic children, and advance a program in which we can 
take a great deal of pride. With your help, Giant Steps will in 
time, I think, serve as a model for many other such schools 
throughout the Nation.
    I thank you for your time, and once again, thank you for 
your distinguished service, Mr. Chairman.
    [The prepared statement of Ms. Biggert follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Judy, thank you for your kind words. We will do 
our best regarding Giant Steps.
    Ms. Biggert. Thank you very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. LORETTA SANCHEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. This also is my first 
time, and I guess my last time, to testify before you. Knowing 
of your good work, I do wish you would have stayed. But we all 
wish you the best of luck, after this year, although you 
haven't gone and you have a lot more to do.
    I guess it's appropriate that I would be before you today 
to talk to you about one of my favorite programs, and really 
the first Government program that made a difference in my life. 
That would be the program of Head Start. As you probably know, 
I'm the first child from Head Start to reach Congress. I 
actually began in the Head Start program in 1965, the first 
year that we had it from the Federal Government.
    I am here today to request $1 billion additional funding 
for Head Start. You may think that's a big price tag, but I 
really believe that it makes a difference in many people's 
lives. It made a difference in my life.
    I started Head Start on very shaky grounds. My mother read 
about it in the newspaper and decided that I was a child that 
needed something extra. The first day I went to Head Start was 
not a good day for me, because my mother left me there crying. 
But what Head Start did for me was to open up not only my 
social skills, which were very limited at the time, coming from 
an immigrant family and a non-English speaking family, but it 
also allowed me to learn every single day that I was in that 
program.
    My mother also learned from the Head Start program to 
understand the importance of the role that she had as the prime 
educator of her children, empowering her, basically, to be an 
effective parent. She was able to address the needs of each of 
her children as they would go through the school system. Head 
Start educated and socialized me. But it multiplied that effort 
with the other six siblings that I have.
    And that really is the value of the Head Start program. As 
I tour my own district or Orange County, which to many would be 
considered a very wealthy part of the country, the reality is 
that there are many children in need of getting that beginning, 
that head start.
    So I would ask you to consider an additional $1 billion for 
the Head Start program. It pays in many ways, not only the ways 
I just mentioned, but I know it's very appropriate with Monday 
coming up and all of us filing our tax returns at the Federal 
level. This year, my husband and I will pay over $100,000 in 
Federal taxes alone. I consider what was then $600 in 1965 a 
very good investment. I think it's paid over and over, just in 
the taxes that my personal family pays.
    So I hope you will understand how deep that investment can 
go and how it is an investment for the future.
    The other two things I would like to just quickly mention 
actually have smaller price tags to them. First, I would 
request $1 million for State and regional parental information 
resource centers and the local family information centers. As 
you know, it is currently authorized at $30 million under Goals 
2000, and we're working on a reauthorization in the Education 
Committee where I sit. But it is underfunded.
    And I would request that million dollars because, as we 
continue this dialogue about education and whether our public 
school system is really doing right for our kids, I think the 
parents need an independent place to go to learn what they 
should be asking and how they should be grading the public 
school system that their kids are going to. I am a big 
proponent of public education, that's the system I went 
through.
    But I also know that when information is only given from 
the public school to the parent that it is shaded, as any of us 
might shade it, to avoid conflict of what is really happening 
or what the questions really are. So these independent centers, 
I would ask that we put forward $1 million in this current 
coming budget for that.
    Lastly, let me request that you fund the smaller learning 
communities program that's $120 million. The reason is that 
this is about school safety. All of us have been very shaken by 
the whole school safety issue, just in the last couple of years 
in this Congress. It isn't just about metal detectors and about 
lockers and about having police on campus.
    Smaller schools within a school campus is really one of the 
strategic ways that we can have more interaction between our 
children and our teachers and our administrators on the campus. 
And I have several of these already in my own district. I have 
visited them and I see a real difference in the response and 
the lift of the kids when they talk to administrators, when 
they know each other. A school within a school, I think it's a 
very important way for us to handle the issue of, we don't have 
enough space for our kids, but let's make it a smaller learning 
environment for them to get along and know each other.
    So I would request that this Committee look favorably 
towards that $120 million price tag for the smaller schools 
initiative. Thank you.
    [The prepared statement of Ms. Sanchez follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Ms. Sanchez.
    We have been saying right along, maybe I should say again, 
you probably, because of our allocation, you probably won't 
like what we initially do, but I hope you will like what we 
finally do. We'll do our best.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Ms. Sanchez needs to know, and I need to know, we have a 
vote going on on markup downstairs. So I'll be brief, because I 
need to run downstairs also.
    Chairman Porter, thank you. I echo my colleagues in our 
appreciation of you and in our regrets that you're leaving. You 
have done so much, I can't imagine the Committee without you.
    Thank you, Congresswoman, for being here to hear us today.
    Before I begin my own testimony, I would like to enter 
Congresswoman Patsy Mink's request for ovarian cancer funding. 
She could not be here today.
    Mr. Porter. It will be received.
    Ms. Woolsey. I have five requests, and I will be very brief 
on each one. Some are quite parochial, and they do not come 
with a big price tag. But they are important to my district, 
they are important to women and to families.
    First, I would like to ask for an earmark from the 
Subcommittee of $250,000 for the continuation of the Marin 
County Breast Cancer Study coming from the Centers for Disease 
Control and Prevention, from that budget. This funding will 
continue community based research on the origins and patterns 
in the southern part of my district, Marin County, that has the 
highest percent of breast cancer in the San Francisco Bay area, 
and possibly throughout the entire United States. We have to 
find out what that's about.
    Second, I am requesting $350,000 for the Center Point 
Medical Clinic. Center Point is a non-profit organization that 
operates fee for service medical clinics throughout California, 
providing on-site physical examinations and primary health care 
services. This $350,000 will allow Center Point to expand its 
health care services, and will really make it possible for them 
to outreach and meet the needs of men and women, as well as the 
community's minority and homeless populations.
    Third, I am also requesting $2 million for the Northern 
California Telemedicine Network. Two million dollars will 
enable the connection of 10 spoke sites to the hub at Santa 
Rosa Memorial Hospital. Santa Rosa Memorial Hospital is in my 
district. The community that will be served by these spokes 
being funded are in Representative Mike Thompson's district, 
just north of mine. So it will help both districts in making 
special trauma care and medically underserved areas along the 
California north coast, well, making them able to have the 
health care they need when the don't have those services in 
their own areas.
    Fourth, I am requesting an earmark of $1 million for the 
Yosemite National Institutes for their diversity initiative 
through the Department of Education. This innovative program is 
dedicated to providing environmental education to urban and low 
income young people at the Marin Headlands Institute campus in 
my district. This earmark will allow YNI to expand its teen 
environmental action membership program at the headlands to 
provide leadership training directly to high school students. 
What we've found is that young and adolescent girls, in 
particular, benefit greatly from exposure to hands-on science 
education.
    Finally, I urge the Subcommittee to fully fund the OSHA. 
OSHA is currently holding hearings in Washington and across the 
country to hear about a wide range of testimony on the proposed 
ergonomic standards. With appropriate funding, the study can be 
finalized by the end of this year, and it will result in the 
prevention of over 300,000 injuries each year. Many of these 
injuries are particular to women's occupations, Mr. Chairman. 
It is important that we bring this to closure and go forward 
and prevent ergonomic injury.
    Again, I thank you for this hearing. I thank you for all 
you've done and for the attention you have paid to the 
important issues in my district and the issues across this 
Nation. Thank you very much.
    [The prepared statement of Ms. Woolsey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Lynn, thank you for your testimony. I suspect 
that the whole subject of ergonomics will be addressed through 
amendments when we go to mark up the bill, and it will probably 
spill over to the Floor and be debated hotly, as it has 
previously. That's not telling you anything you don't know, 
though.
    Ms. Woolsey. And I will help with that, Mr. Chairman.
    Mr. Porter. Thank you, Ms. Woolsey.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. JUANITA MILLENDER-MC DONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
    Mr. Porter. My staff has Juanita Millender-McDonald as 
next, is that correct?
    Ms. Millender-McDonald. That is correct, Mr. Chairman, and 
thank you so much. In fact, I suppose I will just repeat the 
sweet refrains that have been said already this morning about 
your departure. You will be sorely missed.
    When I came in 1996, I came before this Committee. And your 
sensitivity toward women's issues is just unparalleled. I 
really do personally, I am going to miss you, because I have 
talked with you about other things.
    In fact, as the co-Vice Chair of the Women's Caucus, and I 
have not seen, perhaps they've gone before me, I am going to 
make you an honorary member of the Women's Caucus for your 
unwavering commitments to women's health issues. I will talk 
with my co-chairs about that, and perhaps I've gone a little 
bit before them. But I think they would agree with me.
    I also thank my friend, Nita Lowey, and in the absence of 
Nancy Pelosi and Rosa DeLauro, both of whom and all of whom 
have just been extremely supportive of the myriad of issues 
that we've brought before you. I have been extremely impressed 
by the request of the Women Caucus members who have come this 
morning.
    I have a laundry list and I will just quickly go through 
them. As you know, since coming to Congress in 1996, I have 
talked with you about HIV and AIDS, and how critically 
important it is for us to increase the funding for this very 
catastrophic disease that is killing African American women and 
men between the ages of 25 to 44. It is ravishing our 
communities, but also many other communities of color, Latino 
communities, Asians and others, Native Americans.
    However, we do know that women are now the fastest growing 
group of AIDS patients, the third leading cause of death among 
some of the other women of color, Latinos and others, and our 
children, who are disproportionately contracting HIV and AIDS. 
This is why I have my annual AIDS walk. I may have invited you 
to the fourth annual one, because of the increased need for 
funding there.
    So I am asking for increased funding of $100 million for 
the treatment, prevention and education in these critical 
communities of color, because as we look at it now, there has 
to be something in terms of education to these communities, so 
we can perhaps try to impede this rapid growth of a public 
health problem that is just catastrophic in our communities.
    The other thing is heart disease. We know that that's the 
number one killer for American women across the strata. 
Although we have thought it to be a man's disease, more women 
die of heart disease each year than men. Studies have suggested 
that women are more likely than men to die from heart attacks, 
and women who recover from a heart attack are more likely than 
men to have a stroke or another heart attack.
    And that is just really something that we need to grapple 
with, need to further study and look into these discoveries 
that we've already looked into, because 44 percent of women die 
within a year following a heart attack. That is something that 
disturbs me, and I think it disturbs you and all the rest of 
us.
    So we are asking for funding for $50 million to look into 
the discoveries of why women are dying within a year following 
a heart attack and why this has been a disproportionate disease 
with reference to men and women.
    The third thing is the fibroid tumors. I have looked at 
that over the last two years, and have found that African 
American women are more likely, two to three times more likely 
to be diagnosed with fibroid tumors. More than 4.5 million 
women ages 18 to 50 report at least one chronic gynecological 
condition each year. Twenty to 25 percent of women have uterine 
fibroid tumors.
    This has become a health issue, not only among African 
American women, but African American women are 
disproportionately having been diagnosed with that. So I am 
asking for $10 million for the further study of fibroid tumors 
in minority women, as it does hamper their reproductive 
activities. We certainly want to look into why this has become 
a health issue.
    The fourth thing is diabetics and diabetes. I came before 
your Committee in 1996 to ask for $2 million to start up what 
was the first urban telemedicine in Watts. And we have not 
gotten the funding up to snuff for that yet. We have only 
gotten $800,000. We really do need that, because what this 
telemedicine does, it examines the eyes of persons in housing 
projects, from that doctor's office or doctor's clinic, and he, 
using this telemedicine, can diagnose the condition of diabetes 
early on.
    We are seeing now in early detections of visual impairment 
among African American young women ages 23 to 34. And it is 
because they do not have the funding for treatment or have any 
medical care at all. And so we are asking that the funding come 
up to par with what I requested, the $2 million, and an 
additional $5 million be added to that for this very critical 
disease that has affected not only African Americans, but 
Native Americans, Hispanic women, and the sixth leading cause 
in Asian American women that have diabetes, leading into visual 
impairment.
    An estimated 60 million Americans have diabetes, but only 8 
million cases are diagnosed. So we must really put more funding 
into that, so that we can hopefully prevent this from 
continuing to occur.
    Of course, cervical cancer and lung cancer, again causes 
that women, diagnoses in women. I am asking for $50 million to 
go to NIH so that we can do further study on those two critical 
issues.
    That's my laundry list. I certainly do appreciate your 
support and always your unwavering commitment to women's health 
issues.
    [The prepared statement of Ms. McDonald follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Juanita, thank you for your very kind and 
generous comments, as well as your good testimony. We will do 
our best.
    Ms. Millender-McDonald. And I'm going to put it in the 
record, and also put it in Roll Call that you are an honorary 
Women's Caucus member.
    Mr. Porter. That's a real honor. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. Lois Capps.
    Ms. Capps. Good morning, Chairman Porter, and Nita Lowey, 
member of the Labor, HHS and Education Subcommittee. Thank you 
also, on my behalf, for the opportunity to testify today on 
critical health care issues. And as I sat listening to my 
colleagues on the Women's Caucus with the wonderful array of 
important issues needing attention, I realize the tradition 
that you have begun. I wish you well, and I hope that this is 
one tradition that lingers past your tenure here, the 
seriousness with which you take these issues that affect our 
districts, but all women and their families across this 
country.
    On my behalf, I would like to testify today about two 
topics of great interest to me, one being nursing programs and 
the other domestic violence screening. First, I'll touch on 
nursing.
    As a school nurse for over 20 years, I am a strong 
supporter of the Nursing Education Program and the National 
Institute for Nursing Research. By offering seed money to help 
establish nurse-run clinics in underserved rural and urban 
areas, nursing education programs ensure that the most 
vulnerable members of our society have access to health care. 
And these are our population in these clinics that exist in low 
income housing complexes, in shelters, in senior centers and 
schools.
    In fiscal year 2000, nursing education programs at HHS 
received $67.8 million. For fiscal year 2001, nurses are 
requesting funding at $78 million. I strongly urge the 
Subcommittee to fund this modest increase. It is money well 
spent, it has been documented that it goes to the right places 
and provides the kind of care that we want for underserved 
populations.
    The National Institute of Nursing Research is undertaking 
research to help Americans most efficiently manage their health 
care problems, so they will not have to seek out hospital care 
at the drop of a hat. They also conduct research on the best 
methods to help people choose health promoting behaviors and 
lifestyles.
    This year, nurses around the country are seeking a $20 
million funding increase for nursing research, which would 
result in a request of $110 million for fiscal year 2001. 
Again, I believe this is money well spent, and I hope you will 
strongly consider this request.
    And again, as a health care professional, I believe that 
every visit between a patient and a health care provider 
represents an opportunity. This leads me to domestic violence 
screening. I watched this over my years as a school nurse.
    I support domestic violence screening as a part of routine 
medical care, which could be as simple as asking one question 
during a physical exam or a routine visit. Because virtually 
every woman visits a health professional during her lifetime. 
Health professionals are in a unique position to identify 
abuse, to prevent further injury and death.
    I support the health profession's education and training 
program funded through this Subcommittee, and believe that 
funding for this program could be increased, not to a great 
amount, but increased to include domestic violence. I will also 
be introducing legislation that will require certain Federal 
health programs to provide training for providers, so that they 
can confidentially and routinely screen for domestic violence. 
I think these two, my bill and this increased funding could go 
together to make a real difference around the country.
    For many years, I worked with teenage parents in the Santa 
Barbara school system in my district. I found that domestic 
violence is way more common than even the statistics show us. I 
believe that our health care system can be a life saving 
resource for abused women in ways that are non-threatening to 
them to come forward. These are women who might never turn to 
the criminal justice system or even to a shelter. But if the 
right question is asked at the right time, they can then be 
linked to protection and support, to break that cycle, which as 
you know, goes from one generation to the next.
    I appreciate being allowed to testify today, and I know you 
are going to give strong consideration to the many programs. I 
urge you to consider these that I have suggested. Thank you.
    [The prepared statement of Ms. Capps follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Well, I think both the nursing and the domestic 
violence screening are very, very important. I want to work 
with you on appropriate language of funding that we can put in 
the bill to address the domestic violence screening. And of 
course, we will do our best on NINR.
    But I think that's probably very well spent money, not 
highly expensive for the results that you can get from it. 
Let's work together on that.
    Ms. Capps. I will, thank you very much.
    Mrs. Lowey. Mr. Chairman, if I could just briefly comment. 
I appreciate your testimony. And the issue of training health 
care providers has been an issue I've worked on for a long time 
and legislation with regard to that. So I am delighted to have 
you join us. I am equally delighted that the Chairman will be 
responsive and that we can put money in. Because I think this 
is so very vital.
    We have made progress, but we have a long way to go. And I 
thank you very much, and I look forward to working with you and 
our Chairman.
    Ms. Capps. Thank you.
    Mr. Porter. Thank you, Ms. Capps.
                              ----------                              

                                         Wednesday, April 12, 2000.

                      CONGRESSIONAL WOMEN'S CAUCUS


                                WITNESS

HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. Last but not least, my Illinois colleague and 
neighbor, Jan Schakowsky. Jan, nice to see you.
    Ms. Schakowsky. Thank you very much, Mr. Chairman. It 
really is an honor for me to appear before you today. As your 
neighbor, I have had the opportunity for many years, aside from 
your service here, but also in the State legislature, to 
observe the quality of your leadership and to appreciate that 
so much. It will be greatly missed.
    And to my colleague, Nita Lowey, leader on so many of the 
issues that the women are raising today, I am glad that you are 
here, and I appreciate your leadership.
    I am going to be talking about child care, which really is 
a crisis in our Nation today. I would like to submit for the 
record a report done by the National Council of Jewish Women in 
1999, which they recently released. This is their second 
report. The first one was done in 1972. What is really 
startling about it is, I'm sorry to say, how little progress 
has been made.
    There has been a good deal more progress made in research, 
very little had been done, early childhood education, brain 
development, in 1972. And of course, we've come a long way. But 
the actual provision of service, it is striking how far we have 
yet to go and how little a distance we've come in that period 
of time.
    Their report shows that for millions of American families, 
there is a lack of affordable quality child care, and it 
remains a pervasive problem. The report found shrinking access 
to quality, affordable care nationwide and even if parents 
could find slots for their children, many would encounter 
quality of care that is often substandard.
    In addition, the cost of child care, even poor quality 
child care, is a concern for parents in all social strata. When 
women have to leave the work force because they cannot afford 
or find quality care, their departure has an impact on the 
Nation's productivity and economic well-being.
    Nationally, more than 50 percent of preschool children are 
in child care arrangements. In Illinois, the most recent data 
shows that three out of five children younger than six and half 
of all children younger than three spend some or all of their 
day being cared for by someone other than their parents. And it 
is not uncommon for children to enter care as early as six 
weeks of age, and to continue in care for 40 hours a week until 
they reach school age.
    Regarding the quality of child care research on early brain 
development has heightened interest in the experiences of 
children in child care settings, particularly infants and very 
young children. As the grandmother of a two year old and a 
three month old child, the extent to which they do learn in 
those early months has become dramatically apparent to me.
    Quality issues include the training, qualifications and 
compensation of caregivers, group size and caregiver-child 
ratios and curriculum. Quality child care is out of reach for 
many working families, and even when parents are lucky enough 
to find a child care slot, too many children are in care that 
may be harmful to their development, health and safety.
    I urge the Committee to provide the $817 million increase 
in the Child Care and Development Block Grants, CCDBG, 
discretionary funds included in the President's budget. This 
funding increase would be sufficient to serve 253,000 
additional children, and is vital to helping low income working 
parents afford quality child care. The average annual cost of 
child care ranges from over $3,000 to almost $8,000 per child. 
In Illinois, the statewide average cost is $6,987 and in Cook 
County, the average is $8,268 per year, far beyond the reach of 
low and moderate income families.
    At current funding levels, the CCDBG serves only one in ten 
eligible children. We can and we should do better.
    So let me just end by thanking you once again for your 
attention to this over the years. I appreciate your support 
now.
    [The prepared statement of Ms. Schakowsky follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Jan, I have two grandchildren, one age 7 today 
and one 16 months. Both of them are in need of, at various 
times, of child care services. Of course, the 16 month old is 
in 40 hours a week, her mother is a single parent, working to 
support her. The cost is horrendous.
    What disturbs me about it is that, while we can put the 
money there if we have it in our allocation, we don't have any 
nationwide standards. The standards vary from State to State. 
Some States are way behind others in terms of their supervision 
and enforcement of standards, or having decent standards, so 
that you are assured of getting a product that has quality, as 
you mentioned.
    Ms. Schakowsky. A glaring similarity between the 1972 and 
the 1994 report.
    Mr. Porter. Yes, we haven't made any progress on that. It 
seems to me if we are going to put the Federal money out at 
some point at least we ought to require some minimal standards 
to be met by child care agencies, or we are going to see the 
money perhaps go for very poor quality care and not get what we 
are attempting to buy. But it is a serious problem.
    Mrs. Lowey.
    Mrs. Lowey. I want to thank my outstanding colleague and 
friend. I just want to reiterate what our Chairman has said, 
and make one additional point. I have been fighting with so 
many of us for the issue of national standards, for so long, 
Mr. Chairman. I remember when I served on the Ed and Labor 
Committee, when I first came to Congress. It was an issue then. 
It held up the bill. It continues to be an issue.
    We just have to do more education on that. Because it's 
beyond me why we get groups coming to Washington to fight 
against national standards, because they do not think it's in 
their own interest. We have to awaken the public. I would love 
to work with you on this.
    The second issue, which I find very troubling, in addition 
to the lack of child care, the child care workers are paid so 
little and we have given them the responsibility of taking care 
of our precious children. I have five grandchildren. And the 
sounds----
    Mr. Porter. I'm going to have five within two months.
    Mrs. Lowey. That's beautiful. I have another wedding coming 
up, so----
    [Laughter.]
    Mrs. Lowey. But it is a blessing. And I feel so grateful. I 
truly worry that for so many parents who struggle each day 
about going to work that they also have to struggle to figure 
out not only whether they can afford the child care, but have 
to determine whether that child care is safe. Maybe we can do 
something.
    Of course, we never legislate on appropriations bills, but 
maybe we can do something to address that issue. Because I know 
it's been a constant challenge. And we have not succeeded on 
this. So I appreciate your bringing that issue up, and I 
appreciate your testimony. I thank you.
    Mr. Porter. Thank you, Jan.
    We were hoping Carrie Meek could arrive before we 
adjourned. Apparently she is not able to be with us. She has 
submitted her testimony in writing, and we will certainly take 
it to heart when we consider the markup of the bill.
    [The prepared statement of Ms. Meek and Ms. Mink follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. We stand in recess until 2:00 p.m.
                              ----------                              --
--------


                           AFTERNOON SESSION

                                         Wednesday, April 12, 2000.

                   QUALIFIED COMMUNITY HEALTH CENTER


                                WITNESS

HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. The subcommittee will come to order.
    We continue our hearing from Members of Congress on the 
appropriations for fiscal year 2001 for Labor, Health, and 
Human Services and Education and Related Agencies.
    We are pleased to welcome Representative Danny Davis of 
Illinois, testifying on Qualified Community Health Center.
    Danny, it is good to see you.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me thank you so much for the opportunity to appear 
before the committee. But also before I get into the testimony, 
let me also express to you the appreciation that I and the 
residents of the district I serve have for the leadership's 
sensitivity and hard work that you have displayed as chairman 
of this subcommittee and the manner in which you have helped to 
allocate resources in a very meaningful way. We are going to 
miss your leadership and we are going to miss you very much 
once you are gone. But certainly best of everything to you as 
you go.
    Mr. Chairman, I am pleased to provide the subcommittee with 
testimony in support of the urgent need to increase funding by 
$150 million for the Consolidated Health Centers Program--that 
is, community, migrant, homeless, and public housing health 
centers--to at least $1.169 billion for fiscal year 2001.
    I realize that I am preaching to the choir today as I come 
before you today. Members on both sides of the aisle on this 
committee have united to advance this program. It is a true 
testament of the integral role community health centers play in 
the delivery of health care for this Nation. I know that when 
it comes to supporting community health centers, this committee 
has put its money where its mouth has been and has increased 
over the last 2 years by $194 million funding for this program.
    Unfortunately, the $194 million increase has only enabled 
health centers to serve 10 percent of the Nation's 44 million 
uninsured people. With the uninsured population continuing to 
grow at a rate of over 100,000 individuals per month, it is 
estimated that the uninsured population will reach over 53 
million people by 2007. So there is no question that much more 
needs to be done to expand health center services to reach more 
uninsured people.
    In addition to the tremendous need that exists, I believe--
and after having looked at community health for the last 30 
years--that community health centers are the most effective way 
of providing primary health care to large numbers of poor 
people that this country has ever seen. So this program means 
not only to me the provision of care, but I get personally and 
emotionally involved in that I worked for two community health 
centers. I worked at the Martin Luther King Center when we 
started it, and I worked at the Miles Square Community Health 
Center, which emerged as one of the premier centers in the 
Nation.
    I had an opportunity to see many centers throughout the 
country as I became president of the National Association of 
Community Health Centers. So I have spent a great deal of my 
time travelling around the country to the communities that 
these centers and programs have served. And for my money, there 
is no greater program, there is no greater service. I have seen 
communities totally transformed. I have seen people emerge with 
hope who were hopeless. I have seen people sit and meet for 
hours and hours and hours trying to structure their program.
    So Mr. Chairman, as far as I am concerned--and I know that 
money is always difficult in terms of deciding where it goes, 
what it is we want to do with it, what is going to take 
priority, where are we going to get the greatest bang for the 
buck--but I can tell you that when it comes to community health 
centers and the impact they have had in improving and enhancing 
the quality of life for millions of people in this country, we 
could do nothing better than to try and maximize their 
potential.
    Again, I thank you for the opportunity to testify before 
you. And again, I trust that as you ultimately leave us, life 
is going to be just as rosy, peachy, and sunshiny for you as it 
is for many of the people that community health centers have 
served.
    Thank you very much. That concludes my testimony.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Danny, thank you for your very kind and very 
generous words.
    Community health centers are a very high priority us. Our 
problem at the moment is not choosing among priorities, it is 
getting an allocation large enough so that we can provide some 
increases in some of the accounts where we think the money is 
very wisely spent, as here. That is the major difficulty at the 
moment.
    We will do our very best to continue to provide resources 
here. It is not a solution to the problem, though, for the 50 
million people who don't have health care coverage. We need to 
have a national program that gets them all covered. I wish we 
had the resources in this subcommittee to do that, but I think 
it is a matter of devising an entitlement program that gives 
them some access to the system, one way or the other, that they 
don't have today.
    It is a serious national problem.
    Mr. Davis. All the health community is going to miss an 
advocate for any national solution to this problem. And I know 
that even though you may not be a Member of Congress, I am 
certain that your influence and impact will continue to be felt 
for many, many, many years to come.
    Mr. Porter. You are very kind. Thanks, Danny.
                              ----------                              --
--------

                                         Wednesday, April 12, 2000.

                     PRIMARY PULMONARY HYPERTENSION


                                WITNESS

HON. KEVIN BRADY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Porter. Representative Kevin Brady of Texas is 
testifying regarding primary pulmonary hypertension.
    Mr. Brady. Thank you, Mr. Chairman. And I do have materials 
I would like your permission to submit for the record in 
addition.
    Mr. Porter. Without objection, those materials will appear 
in the record.
    Mr. Brady. Thank you.
    I first want to thank you for the opportunity to talk to 
you about pulmonary hypertension and to thank you for your 
efforts in doubling research for the National Institutes of 
Health. I know we are making progress that way and it has had a 
beneficial effect on this illness.
    Primary pulmonary hypertension is an extremely rare 
disease. It affects the lung and enlarges the heart from there. 
While it is rare today, it is getting less so due to the 6 
million people who used anorexic and diet drugs in the late 
1990s that we see increased illnesses from. It affects 
primarily women, many of them very young. It is an equal 
opportunity killer, all racial and ethnic backgrounds equally.
    I learned about this because of a close friend and neighbor 
whose 7-year-old daughter was diagnosed with it. There is no 
known cure. It is a death sentence at this point, although the 
life expectancy is 3 to 5 years and can be extended with a 
complete heart/lung transport, which are very rare and don't 
always take.
    We are making some progress on it. The good news is that 
there are some treatments that have--for some of those ill--
extended their life, but that is the exception more than the 
rule. Here is where we can play a role in it and where you 
already have in a very good way. The first strategy is to get 
the best bang for the buck. We already have. Report language 
that you and Congressman Bonilla have included within the 
National Institutes of Health have provided consistency and the 
ability to cooperate among the different research 
organizations.
    I have met and brought together the Pulmonary Hypertension 
Association, a volunteer group raising money, Dr. LaFont of the 
National Institutes, and staff from your office to determine 
this past year how better we can cooperate. I think cooperation 
at this point is the highest it has ever been.
    We are also taking advantage of other research that has a 
role in finding this cure or treatment, other cardiac and lung 
research. And it is sort of like in this race against death we 
are drafting onto some other research cars to pull out what is 
positive. That is our first strategy, to get the best bang for 
the buck.
    The second part of the strategy is to bring more private 
sector dollars into this. When we convene this week, I am 
leaving to go to Houston to help head a fund raiser for this 
illness. They are bringing more dollars to the table. Even 
though it is a small group, they are very dedicated.
    The third strategy is recognizing that we can't draft all 
the way across the line on this. We are building an 
infrastructure of researchers who can take the related research 
and take it specifically to PPH. We are asking for a consistent 
allocation of up to $25 million for the next 5 years, probably 
graduated because I don't think we can make full use of it 
immediately. But we see a graduated allocation. The cooperation 
has already produced some results. And I think we can make 
great progress.
    I know you have lots of priorities to juggle within this, 
but everything you do is just a huge help.
    As a final thought, Mr. Chairman, we don't have a spokesman 
for this disease because, frankly, most of them don't last very 
long. Over the Christmas holidays, I went to a funeral for 
Kristin Kody, a little 15-year-old girl in my district. She 
spent the last year of her life trying to raise money for Make-
A-Wish Foundation and leave a legacy for herself. Mr. Chairman, 
15-year-olds ought not worry about having to leave a legacy. 
That's why we are here.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Kevin, as you were talking, I was thinking to 
myself that I don't know a society like ours where somebody can 
go to their Congressman or their Congressman can learn about 
some problem that an individual is having. And here you are 
advocating to try to find a way to solve this disease and to 
alleviate future suffering. It really is wonderful that you 
have taken this leadership position and we are going to do 
everything we can to respond and do our best to encourage NIH 
to pursue it.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Porter. Thanks for being here.
                              ----------                              

                                         Wednesday, April 12, 2000.

                        COMMUNITY HEALTH CENTERS


                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. Representative Jerry Weller, our colleague from 
Illinois, testifying regarding community health centers.
    Jerry?
    Mr. Weller. Thank you, Mr. Chairman.
    I appreciate the opportunity to appear before your 
subcommittee. Before I begin my testimony, which I would just 
ask permission to be entered into the record in its entirety 
and I will attempt to summarize.
    Mr. Porter. Without objection, your prepared statement will 
appear in the record.
    Mr. Weller. I want to tell you that we are going to miss 
you and thank you for your leadership over the years as 
chairman of this subcommittee. Without you, the significant 
increases we have had in medical and health care research 
probably would not have happened. I just want to thank you for 
your leadership in that effort over your years as chairman of 
the subcommittee, a very productive 6 years for you. As a 
member of the delegation, we are going to miss you in this role 
once this Congress adjourns. But we know you will be active on 
many of these issues you care about, and I look forward to 
working with you in that capacity.
    I wanted to appear before you today, Mr. Chairman, to thank 
you again for the opportunity to testify, but also to testify 
in support of a $150 million increase for the Consolidated 
Health Centers Program--a program which helps community, 
migrant, homeless, and public housing health centers--as part 
of your Labor, HHS, and Education Appropriations Bill. This 
increase of $150 million would bring the program's funding 
level to a much needed $1.169 billion in fiscal year 2001.
    I would note in the State that you and I represent, the 
Land of Lincoln, there are 300,000 people in our State of 
Illinois which benefit from care provided by health centers, 
including thousands of patients that use the health center in 
Will County, alone, which I represent. I would note that over 
20 percent of these patients are children under the age of 19. 
In addition, 62 percent of Illinois health center patients are 
below 100 percent of the poverty line. Not only do these 
centers provide access to those in low-income and medically 
underserved urban and rural communities around the State, but 
they contribute so much to the community, including an economic 
contribution.
    Frankly, I believe community health centers make a 
difference for those who currently do not have access to health 
care.
    I would note that the investment that your subcommittee and 
the Congress has made over the years has been a good 
investment. They enhance patient health, they reduce the need 
for costly hospital care, and that helps reduce health care 
costs. The evidence speaks for itself. Every grant dollar that 
is invested in health centers saves $7 for Medicare, Medicaid, 
and private insurance, $6 through lower use of specialty and 
inpatient care, and $1 from reduced use of costly hospital 
emergency rooms. As for not-for-profit health care providers, 
all revenues that health centers collect are reinvested back 
into the health center to expand services in the local 
community that are available.
    Community health centers are making a difference, 
particularly as we have seen an increase in the number of 
uninsured in this country. Clearly, community health centers 
are helping make a difference for those families and those 
individuals. While you have increased the funding over the last 
2 years by $194 million, health centers have only been able to 
care for about 10 percent of the Nation's 44 million uninsured.
    So I come before you, Mr. Chairman, to ask for an increase 
and not only ask you to continue this investment in providing 
health care for low-income families and those who are 
uninsured, but to expand that investment by $150 million so 
that we can continue meeting the needs of this community.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Jerry, thank you for your testimony and for 
your kind words. Maybe what I ought to do is come testify 
before your committee on the other side of this issue.
    Mr. Weller. You are always welcome in the Ways and Means 
Committee.
    Mr. Porter. We have 44 million people. While community 
health centers were made a very high priority, we are still a 
long way from getting most of the people who need to have 
access to a health care system into it. And I don't think the 
solution is probably a solution of discretionary funding, but 
rather some kind of entitlement program that provides some kind 
of a physical--I hate to say voucher--but some access to the 
system based upon need that will allow people to go to 
providers like health care centers and others and get the 
services they need.
    We are going to do our best to again put this in as a high 
priority. We don't have our allocation yet. We are a little 
concerned about its size, but we are going to do the best we 
can. We have always felt that this is money very wisely spent, 
as you pointed out, and very efficiently spent in terms of its 
reach.
    Thank you for testifying. We will absolutely do our best.
    Mr. Weller. Thank you, Mr. Chairman. I appreciate your past 
support for this.
    As you noted in the Ways and Means Committee, we are 
working to increase access to health care, not only with the 
tax incentives to encourage the purchase of long-term health 
insurance to make it more affordable for the self-employed by 
giving 100 percent deductibility when they purchase insurance 
for themselves and their employees, but also for those who do 
not receive insurance from their employer.
    As you know, this House has passed as part of a health care 
access bill legislation which provides for 100 percent 
deduction for those who do not have health insurance. So those 
are some of the steps we need to take. We will need to do a lot 
more and I appreciate your investment in this community.
    Thank you, Mr. Chairman
    Mr. Porter. Thank you.
                              ----------                              

                                         Wednesday, April 12, 2000.

                 CHILD CARE AND DEVELOPMENT BLOCK GRANT


                                WITNESS

HON. BENJAMIN L. CARDIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Porter. Representative Ben Cardin of Maryland 
testifying on Child Care and Development Block Grant.
    Mr. Cardin. Thank you very much, Mr. Chairman.
    I would ask that my entire statement be made a part of the 
record.
    Mr. Porter. Without objection, your prepared statement will 
appear in the record.
    Mr. Cardin. I thank you for this opportunity to testify. I 
appear here in my capacity as Ranking Democrat on the Ways and 
Means Subcommittee on Human Resources, which has jurisdiction 
over the Child Care and Development Block Grant Program.
    Last March, our subcommittee held hearings on low-income 
families' access to quality child care. At that time, we heard 
from many experts who talked about the severe gap in child care 
coverage in our Nation faced by low-income working families.
    Let me point out that the President, in his fiscal year 
2001 budget, submitted an increase in discretionary funds of 
$817 million. As you may know, I and about 20 of our other 
colleagues have recently sent a letter to the subcommittee 
asking that we meet the President's suggested increase.
    Mr. Chairman, every day 13 million under the age of 6 spend 
some type of time in child care. In fact, six out of ten 
children under 6 have both parents working or come from a 
single parent family and are in need of safe, adequate, 
affordable day care. For millions of low-income working 
parents, success in employment depends on access to quality 
child care.
    This is particularly important today because we have been 
successful in getting families off of welfare. As more families 
are working, we want to make work pay. It becomes more 
difficult to work if you don't have safe, affordable child 
care. So we should applaud the fact that we need more child 
care in our community and be willing to provide the dollars 
that are necessary.
    Research has shown that safe child care in fact leads to 
healthier children and healthier families. And we should be 
willing to do that.
    Mr. Chairman, I would just like to point out that if you 
look at what the States have done--and my testimony gives some 
detail--most States have not raise the eligibility to the limit 
allowed under Federal law. Many are at a very low level. Those 
that have raised their eligibility to that allowed under 
Federal law have large waiting lists. My testimony points out 
that in the State of California, the waiting list is 200,000 
children. In the State of California there are 35,000 children 
on the waiting list. In Texas, State officials estimate that 
almost 95 percent of the eligible poor families do not get the 
assistance that they need.
    If you look at those that have to pay copayments in order 
to get adequate child care, in your State of Illinois, a family 
of three earning $20,000 has a monthly copayment of $184. In 
some States, poor families must pay as higher as 20 to 30 
percent of their income in order to get adequate child care.
    Some argue that we could use TANF funds to do it. I don't 
think that is a good argument or one that we should accept. 
Many States have obligated their TANF funds and other States 
are saving it for rainy days. That is really a commitment that 
we made to our States and we shouldn't go back on it.
    So my reason for being here today, Mr. Chairman, is to urge 
you to approve the $817 million increase that would help 
210,000 families afford the cost of quality day care. I would 
also ask that you restore the set-aside for the Infant and 
Toddler Program.
    I appreciate very much the opportunity to be here.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. We agree with what you just told us, that this 
is a high priority and that there is a great deal of need to 
make welfare reform work to provide this kind of service.
    We had a discussion this morning with the Caucus on Women's 
Issues. One of the things we discussed was the lack of national 
standards. In other words, we can put the money out there, but 
we are not sure that in some cases it is really buying quality 
health care because the State standards vary from place to 
place, some are good and some are not very good at all.
    Do you have any thoughts on that and how we might address 
that?
    Mr. Cardin. I think it is a serious problem. I think part 
of it is resources. There are not enough resources in order to 
pay the type of salaries we should be paying to people who are 
taking care of our children or to supervise at the State level. 
But I think there is no excuse for not having the standards in 
place, and that if it is necessary for the Federal Government 
to establish ground rules for the States to enforce safe 
standards for child care, we should be doing it in a more 
aggressive way.
    Mr. Porter. Would that jurisdiction be under your 
subcommittee?
    Mr. Cardin. I think we do have jurisdiction for that, 
certainly as it relates to the implementation of the block 
grant. We can absolutely establish some standards there. We 
should work closely with you on that.
    Mr. Porter. Do me a favor and talk to Nita Lowey about 
this, and talk to me about this. Let's see if maybe we can do 
something in a more immediate way than putting it off.
    Mr. Cardin. That is a fair request and I will carry that 
message.
    Mr. Porter. Thank you.
    Mr. Cardin. Thank you.
    Mr. Porter. We will do our best.
                              ----------                              

                                         Wednesday, April 12, 2000.

                          ALZHEIMER'S DISEASE


                               WITNESSES

HON. CHRIS SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
HON. EDWARD J. MARKEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Porter. Representative Chris Smith, of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    In a moment I will be joined by Ed Markey.
    Let me just say that I am very appreciative of the 
opportunity to appear before your subcommittee, Mr. Chairman, 
and to say hello to the committee members.
    Congressman Markey and myself are here to represent the 
interests of the 4 million Americans afflicted with Alzheimer's 
disease and the 19 million caregivers who look after loved ones 
suffering from the disease.
    As a co-founder of the Bipartisan Congressional Task Force 
on Alzheimer's Disease, which is currently comprised of 124 
members, we are seeking committee support for increased funding 
in three areas: adequate support for Alzheimer's research at 
the NIH so as to accommodate a $100 million increase in 
research funding, an increase of $2.5 million for the 
Alzheimer's clinical research and training program called for 
and included in the House Budget Resolution, H. Con Res. 290, 
and a $6 million increase in the Alzheimer's Matching Grant 
Program so we can bring funding to $25 million and allow all 
eligible States to participate in the program.
    Mr. Chairman, your committee get countless requests for 
increased funding, so you would be justified in asking why 
these three requests are worthy of your support. The bottom 
line is that we have a very narrow window of opportunity to 
save millions of Americans from developing this disease.
    The disease process begins 10 to 20 years before symptoms 
appear. This means we must find a way to stop or slow the 
disease process within the next 5 or 10 years. Right now, 50 
percent of every American aged 85 and above suffers from some 
kind of dementia. As life spans increase, the number of 
Alzheimer's patients will rise from 4 million to 14 million 
over the next 50 years. Thus, if we fail to seize this unique 
opportunity in history, the implications for our society and 
our economy will be staggering.
    Unlike many diseases, Mr. Chairman, Alzheimer's affects the 
entire family as caregivers make enormous sacrifices of time, 
money, and even their own health status. There is simply no way 
we can save Medicare if we let 14 million baby boomers develop 
Alzheimer's disease. Medicare patients with Alzheimer's cost 70 
percent more to treat than those who do not. And a lifetime 
cost of just one case can run between $174,000 and $200,000. If 
the patient needs a long-term stay in a nursing home, State and 
Federal Medicaid budgets will burst at the seams, threatening 
the Nation's safety net for all indigent persons.
    So what needs to be done? First, we need to boost NIH 
funding so that it can accommodate a $100 million increase in 
aid.
    Finally, the percentage of promising and meritorious 
Alzheimer's research that is funded by NIH and NIA continues to 
go down, not up. This year, only 22 percent of promising ideas 
are funded, down from 28 percent in 1999. Without new money in 
the system, this will slip to 17 percent next year. Mr. 
Chairman, we are headed in the wrong direction. We need to be 
funding most, if not all, promising and viable Alzheimer's 
studies. We certainly should not be rejecting nearly 80 percent 
of every promising new research project presented to the NIH 
and NIA.
    I look forward to any questions you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Nethercutt. Chris, thank you.
    Before I recognize Ed Markey, the reason it is going down 
is not because we aren't putting more dollars into it, it is 
that there is more good research out there to fund. And that is 
exactly the reason why we need to double funding for medical 
research. There is so much scientific opportunity that we have 
to capture it and turn those in the right direction. I very 
much agree with what you are saying and are trying to do.
    Ed Markey of Massachusetts?
    Mr. Markey. Thank you very much, and thank you for allowing 
me to come on such short notice and testify before you.
    Chris and I started the Alzheimer's Task Force about a year 
ago. We have 124 Members of Congress now. That probably would 
not have been possible 10 years ago, but I think people 
increasingly in their lives are now affected by the reality 
that 4 million people have it today. By the time all the baby 
boomers have retired, it will be upwards of 12 million to 15 
million Americans that will have Alzheimer's, meaning that 
every family in American will have someone with the disease.
    That is the unintended consequence, of course, of all the 
investment that has been made over the last 100 years extending 
the life expectancy from 48 years in 1900 to nearly 80 years in 
2000. It is a disease that people for the most part did not see 
because people didn't live to be old enough for it to unfold. 
But increasingly the success in one area is creating this new 
set of issues that has a profound impact upon American 
families.
    My own mother, valedictorian of her high school class, had 
to raise her mother's family because my grandmother died in 
1926 from a disease which we now cure. Her mother would have 
been in and out of the hospital in a week now with pneumonia. 
But my mother had to raise another family and ultimately wound 
up marrying 20 years later the milk man, my father.
    The irony, of course, is that my father graduated from 
Lawrence Vocational High School and my mother was class 
valedictorian. My mother--as my father continues to note--had a 
brain that could do calculus problems. The strength of her 
brain had nothing to do with her vulnerability to the disease.
    My father kept her home for 10 years. She passed away last 
year. He is 89 now. She passed away at nearly 91. My father 
said that it was a great honor to him that the valedictorian 
had married him, and as a result, she would never step foot in 
a nursing home. And she never did.
    It was quite unusual for a man that strong--that is, the 
milk man--who could pick her up and take her off the pot 10 and 
15 times every night, feed her three times a day, but without a 
lot of help. I consider my father to be a hero and I live with 
him, but I am down here during the week.
    But heroes need help. They need a lot of help.
    We found that there was this gap between laboratory 
research on the one hand, but also the new methods of 
diagnosis, treatment, and prevention. There really is a huge 
gulf that exists between them.
    Chris and I are proposing a new program, a modest program 
of $2.5 million a year, to begin to give clinical research and 
training awards to younger physicians, to give them the 
incentive to dedicate more of their lives to this program. To 
be honest with you, we went 3 or 4 years before anyone told us 
that my mother had Alzheimer's. That is not good. I think that 
if we could begin to give the respect to this disease that it 
needs at that clinical level, it will help a lot in the already 
existing Alzheimer research centers across this country, to 
develop a permanent cadre of super professionals who are going 
to have to grow as each year goes by.
    Clearly, Chris and I and everyone who has been affected by 
this disease wants to see it cured. So as a result, we join 
with the 124 Members of the Alzheimer's Caucus in asking for 
the extra $124 million next year so we can telescope the time 
frame it is going to take in order to find a permanent cure for 
the disease.
    But in the event that we don't--and we most fervently want 
it to be cured--we are going to need programs like this to be 
put in place so that this special group of people are given the 
honor and the support they are going to need to further enhance 
its importance in the overall firmament of the American medical 
establishment.
    We thank you, Mr. Chairman, for this opportunity to 
testify.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you both for testifying.
    Do I assume correctly that clinic research and training 
awards would be authorized? In other words, would they have 
authority to make those awards?
    Mr. Smith. They were anticipated in the House Budget 
Resolution, but in terms of--we would have to check on that.
    Mr. Porter. We will check it also. It is a question that 
comes to mind often here.
    Mr. Smith. Especially since it is such a modest amount, a 
waiver of authorization or some other device----
    Mr. Porter. We ought to be able to get something.
    Regarding the $100 million for research--we don't fund by 
disease. You know that, I think. We fund by institute. And we 
don't substitute our political judgment for scientific judgment 
as to where the opportunities lie. We do--and do so 
forcefully--tell NIH in our report where we think they ought to 
place their priorities and leave it up to them to reflect on 
our thoughts, on the thoughts of the patient advocacy 
communities where they exist, the thoughts of industry, and the 
like in making their judgments.
    We certainly will put very strong language in on 
Alzheimer's. It is exactly as you say. It will soon affect 
every family in America.
    And I would tell you the most poignant testimony I have 
ever heard before this subcommittee came about 5 years ago. We 
have public witnesses and we listen to about 210 of them each 
year. A woman came in who was probably in her early 50s. She 
brought her husband with her. She said that her husband was a 
Marine test pilot for years. She said about 4 years ago they 
began to see signs and today he is suffering from Alzheimer's. 
He has a life expectancy of about 30 or 35 years and doesn't 
know his wife.
    Your father took care of your mother. It is a devastating 
disease for people, especially when it strikes so young. 
Everybody at this table had tears in their eyes about her 
story.
    We will do our very best on this because it is very 
important.
    Mr. Markey. And I think you put your finger right on it. As 
opposed to every other disease, the people who are affected by 
it can't come here. There is no human face on it. They are in 
nursing homes or they are tied down in beds at home. And 
unfortunately, their spouses can't come either because they 
have to be with them.
    So while other groups have very strong advocacy groups--and 
they deserve them--this group actually does need us to help 
them a little bit more than any other disease.
    Mr. Porter. And it is wonderful that you are doing that and 
organizing the Congress to do it. Your advocacy is really 
important to getting the results we seek.
    Mr. Smith. Mr. Chairman, my own grandmother, when she was 
88 and in a nursing home--and this was before people put the 
label of Alzheimer's on it--I will never forget when the whole 
family would visit her three or four times a week. We always 
had concerns about whether they were treating her correctly.
    I will never forget when she started to say, ``Who are 
you?'' She was 88, and we know that this is very often age-
dependent in terms of the onset. But the story you mentioned is 
absolutely heartbreaking of a higher dimension because of the 
life expectancy, the fact that he was not in his waning years.
    But this can be beaten. I really believe every disease has 
a cure. And as Ed said a moment ago, we are in a sense a victim 
of our own success. People are living longer. Let's lick this 
one. Money will make the difference. I know you are very 
supportive and we are very grateful for that.
    Mr. Porter. Thank you both very much. We will do our best.
                              ----------                              

                                         Wednesday, April 12, 2000.

                                HIV/AIDS


                               WITNESSES

HON. DONNA M. CHRISTIAN-CHRISTENSEN, A DELEGATE IN CONGRESS FROM THE 
    U.S. VIRGIN ISLANDS
HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. CARRIE MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA
SANDRA MC DONALD, FOUNDER AND PRESIDENT, OUTREACH, INCORPORATED, 
    ATLANTA, GEORGIA
    Mr. Porter. Representative Donna M. Christian-Christensen 
of the Virgin Islands, you are part of a panel, but since you 
are here alone, why don't we let you go ahead. Your panel 
members can join you as they arrive.
    Ms. Christian-Christensen. Thank you, Mr. Chairman. And 
some of the other members of the panel are also here.
    Thank you, Chairman Porter, for your interest in this very 
important issue to African-Americans, Hispanics, and other 
people of color in this country. Thank you also for your 
willingness to bring us in early in the process and your 
invitation to share information on the devastating impact of 
HIV and AIDS in our communities, our experience with the past 
year's funding and what that experience has taught us about our 
needs for this year and for the future.
    I know that others will share some of the dire statistics, 
and they are included in my written statement, so I am not 
going to do that. Suffice it to say that African-Americans are 
severely and disproportionately impacted, more so than any 
other minority population group, individually or combined.
    Despite our efforts and those of the Department, we have 
not yet begun to turn the tide on HIV and AIDS in our 
communities. So this funding is critical, not only to the 
health of people of color, but to the entire Nation.
    The Congressional Black Caucus is requesting slightly over 
$500 million to continue the process that we began in 1999. The 
purpose of the special and targeted Congressional Black Caucus 
funding is to provide technical assistance to increase the 
capacity of our own communities to administer programs designed 
at prevention and treatment, and to bolster or build the 
infrastructure needed to make it accessible to all life-saving 
measures possible.
    The Congressional Black Caucus request is not meant to be 
the total funding that is set aside for communities of color. 
However, this funding is to be utilized in such a way as to 
better enable our communities that are hard to reach and out of 
the mainstream to access the $8 billion that is available for 
HIV and AIDS. It is also important to note, Mr. Chairman, that 
these funds--although they are directly and specifically 
targeted at HIV and AIDS--also prepare our communities to 
better address the entire spectrum of health issues confronting 
us.
    In the first year, fiscal year 1999, $156 million was 
appropriated for this important initiative. Although it began 
as an African-American initiative, overall the funding did 
follow the demographics of the disease and all minority and 
ethnic groups benefitted. Although it was a new initiative and 
the limited funding only allowed us to brush the surface of 
this pervasive problem, we feel that the statistics now being 
assembled will demonstrate that the dollars made a positive 
impact in the communities that received awards. We in the 
Congressional Black Caucus are committed to improving on what 
was begun in 1999, and the Department is working with us to do 
so.
    For this fiscal year, the CBC initiative was funded at 
$244.4 million. We are working on an easier application 
process, a restructuring of the grants to ensure that the 
intent of the Caucus is meant, which is more relevant and 
supportive technical assistance, better targeting of the 
dollars consistent with the epidemiology of the disease, and 
more consistent distribution of the funds to our indigenous 
community groups, those that have a history and place of trust 
within the communities they serve.
    Of course, there is no way that 1 or 2 years could be 
expected to make an impact on what our communities have been 
facing. We are still confronted with a high proportion of new 
cases of infection and continuing gaps in prevention, 
screening, and treatment. The increase in our request to $539.4 
million for fiscal year 2001 is primarily because of the 
inclusion or expansion of several important programs. The 
majority of new cases in African-American men are attributed to 
men having sex with men and injection drug use. African-
American men are more likely to be infected through injection 
drug use than White men.
    Of the new cases of AIDS among African-American women, 
although more than a third of these cases are due to 
heterosexual contact, 28 percent are a result of injection drug 
use, and 28 percent of the other cases are due to sex with an 
injection drug user.
    Today, access to treatment is severely limited. Less than 
30 percent of addicted persons seeking treatment are able to 
get it. The rest are turned away from necessary medical care 
because there are not enough treatment slots. The convergence 
of AIDS, injection drug use, and unprotected sex provide a 
formidable challenge to the African-American community. In 
order to address this continuing challenge, a much greater 
priority must be accorded to the development of new and 
enhanced substance abuse treatment services in communities with 
higher AIDS case rates and among high-risk populations. These 
services must be geared to providing outreach services to 
identify hard-to-reach high-risk users and securing access on 
demand to substance abuse treatment, as well as treatment for 
dually diagnosed individuals.
    So, an increase in the Substance Abuse and Mental Health 
Services Administration will make up a large amount of our 
request.
    We would also provide for increased sexually transmitted 
disease prevention and treatment because infection with a 
sexually transmitted disease makes one five times more 
susceptible to HIV. So it makes it another important area for 
us to target to reduce the transmission. Other available 
funding would make it possible to reach these vulnerable groups 
that have not been adequately reached, either by the CBC 
funding or other available funds.
    Another important area where very little HIV prevention and 
treatment has been addressed is in the Nation's correctional 
facilities. Most individuals in incarcerated populations sooner 
or later reenter society. At these facilities, the AIDS rate is 
six times the national average and 23 times the national 
average for women. The large majority of inmates are people of 
color, thus also greatly increasing the vulnerability of our 
communities to infection. Therefore, our proposal will include 
funding for correctional facilities.
    These represent just four of the new and important areas of 
focus for our next year's funding request. When we first called 
on the Secretary of Health and Human Resources to declare a 
state of emergency for HIV and AIDS in the African-American 
community, it was because this disease had truly reached 
epidemic proportions in our neighborhoods and because the 
devastation it has caused clearly constitutes an emergency. We 
have not deviated from this position and ask that if it is 
found that our request cannot be funded within the budgetary 
caps that have been set, that it be funded as the emergency 
that it clearly is.
    It is also important to point out, finally, that as serious 
an issue as it is, HIV and AIDS is just one symptom of all that 
is wrong in our communities. Many of these problems come under 
the purview of this subcommittee. The funding we are seeking 
will only be successful in the long-term if the underpinnings 
of our community is also strengthened.
    Thank you again, Mr. Chairman, for allowing me to appear 
before you today. I look forward to working with you and the 
subcommittee on our request.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Representative Christian-
Christensen. We appreciate your testimony.
    You have now been joined by our colleague, Representative 
Carrie Meek of Florida, a member of the Appropriations 
Committee, Representative Maxine Waters of California for her 
second appearance before the committee today, and 
Representative John Lewis of Georgia.
    Why don't you introduce the people you have brought with 
you because I am not sure who is who? Then proceed in any order 
you wish.
    Congresswoman Waters will have to go next.
    Accompanying us on the panel we have Sandra McDonald, who 
is sitting next to me, the founder and president of Outreach, 
Incorporated from Atlanta Georgia; Stacy Robinson, a director 
of the Player Development Department with the National Football 
League Players Association; Pellom McDaniels of the Atlanta 
Falcons.
    Thank you, Mr. Chairman.
    Ms. Waters. Thank you, Mr. Chairman.
    You are right. This is my second appearance here today. And 
let me just say that I admire your stamina. It must not be easy 
to sit here with everyone coming with their wish lists, have to 
listen to it, and basically know what your boundaries are, and 
yet work at figuring out how you can do something for most of 
us. You have done a good job in the past. I commend you again 
for doing that. And I thank you again for allowing us to be 
here today to testify on an issue that is very, very important 
to all of us.
    I am delighted that Ms. Pelosi is back. She has been a 
leader on this issue. She has been someone we could count on. 
And I know that she has talked to you many times, based on not 
only her fabulous knowledge of AIDS and HIV infection and what 
is happening with it in this country, but she has been a 
spokesperson for the Congressional Black Caucus on this issue 
in a lot of arenas, the least of which is not this one.
    Let me just say that this is one of the priority issues of 
the Congressional Black Caucus. Mr. Clyburn, who is not here 
today, has relied upon our task force Chair, Donna Christian-
Christensen, to take this issue and continue to organize around 
the funding and the appropriations that we need to continue 
with her outreach for educating not only our population but the 
country about the plight of African-Americans as it relates to 
HIV and AIDS.
    She has done an excellent and commendable job. And she has 
brought in African-American health care professionals at every 
level to engage them more and help them understand further 
their responsibility of incorporating AIDS education in their 
work. I am very appreciative for the leadership she has 
provided.
    Let me just say that I am going to submit my statement for 
the record, but I simply want to not repeat what she said--
because she really said it all in terms of identifying the need 
and following up on the work that was started under the 105th 
Congress when I served as Chair of the Congressional Black 
Caucus. We said to the Department of Health and Human Services 
and the President that HIV and AIDS must be declared an 
emergency.
    While we did not get the actual declaration, it was 
declared a crisis and you helped with the funding that followed 
the identification. I know the negotiations and the work that 
went into that. Again, I thank you.
    Ms. McDonald, who is here, the founder and president of 
Outreach, played an important role with all of our 
organizations that were trying to provide services in the 
African-American community and helping us to strategize and 
plan in ways that got us that first additional funding. She is 
still on the case.
    She comes today accompanied by someone that I know will get 
the attention of the men, if nobody else, because when football 
players speak, everybody listens. My husband is a former 
football player and I know he still gets requests for 
autographs even though he has been out of the business for 
many, many years. He is an old man now. [Laughter.]
    I want you to know that I am appreciative of them because 
they could be doing a lot of other things. They are 
celebrities, you know.
    We are delighted that they are here.
    Let me just wrap this up by saying that when we tried to 
get AIDS declared an emergency, we discovered a lot of things: 
that we needed to build capacity, that there were areas in the 
United States where people were suffering from HIV and AIDS and 
we had no service deliverers. We also discovered that we had 
good people willing to do a lot of work but needed some 
technical assistance so that they could respond to requests for 
proposal.
    We also knew that we were doing less than we could do with 
outreach, education, and prevention. We did begin to understand 
in a most profound way that because health services had been 
less than what they should have been for so many years, 
traditionally, in our communities that it exacerbated the 
problem. People did not have regular doctor visits. They were 
not getting regular check-ups. Services were still being 
provided in the emergency rooms.
    So what we have now is a crisis, but people who were not 
likely to see a doctor, to be in a health care setting because 
they had not had access to it--the lack of insurance and all 
that. So it made our problems worse.
    But you helped us. This Congress helped us and responded to 
our plea and our call for additional funding so that we could 
deal with all these gaps and we could try and get to the point 
where we at least had the service providers, we had the 
vehicles by which to educate and outreach, and all of that.
    So we are back again asking you to continue in that vein. 
We are going to lick this thing. We really are. We must. We 
cannot afford not to. If we don't, we will be wiped out.
    I was alarmed when I got into this as Chair of the 
Congressional Black Caucus and discovered that 62 percent of 
all the pediatric AIDS were African-American babies, that 
African-American women were at great risk, that we were 16 
times higher infected HIV and over 40 percent of the AIDS 
cases. That is why we are here. We appreciate your kind and 
responsive ear and we look forward to continuing to work in 
every way that we can.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Maxine, thank you.
    I will tell you that both you and I will be disappointed 
with the House numbers because our allocation will not be 
nearly good enough to meet the needs. But we will do our very 
best through the whole process to make it come out right at the 
end. I know that you are exactly right. Nancy Pelosi has been 
one of the really great advocates and has guided this 
subcommittee to put HIV and AIDS--all aspects of treatment, 
prevention, education, drugs--all of it--at a very high 
priority. We are going to do the best we can to get there. But 
it probably is going to be a little curved road, rather than a 
straight line.
    Ms. Waters. I appreciate it. I know that you will do 
everything you can.
    Mr. Porter. Ms. Pelosi.
    Ms. Pelosi. I thank the chairman for his generosity as well 
as the gentlewoman from California for her leadership.
    I just want to make two points.
    First of all, when Congresswoman Waters was the Chair of 
the Black Caucus, she was relentless in pursuit of this 
minority AIDS initiative. When people said it couldn't be done, 
she would never take no for an answer. We had to work out the 
money and the politics and the rest. And it happened because of 
her persistence and because of Lou Stokes, who used to sit 
right here.
    Ms. Waters. Oh, yes. We miss him, too.
    Ms. Pelosi. He was very much a part of it--the whole 
committee--and of course, Chairman Porter and Ranking Member 
Obey--everyone was a part of it.
    I would like to make two points.
    We must have access to universal health care for all 
Americans and then some of these problems are not exacerbated, 
whether cardiovascular disease or AIDS or whatever it is. And 
you mention that in your testimony.
    And we never intended the minority AIDS initiative to be 
the pot for minorities. The pot is the big pot. This is sort of 
the ante to get into the game, through the outreach. And we had 
to make this clear in our community. Don't confine yourself to 
this, take advantage of this, but understand that this is the 
bridge to the bigger pie. That is the way we want people to 
think of it.
    Ms. Waters. That is absolutely correct.
    Ms. Pelosi. I commend you for all your leadership and hard 
work. Welcome to all of you.
    And to Donna Christian-Christensen, thank you for your 
extraordinary leadership as well.
    Thank you, Mr. Chairman.
    Mr. Porter. Ms. Meek.
    Ms. Meek. Thank you very much, Mr. Chairman. And I thank 
you, too, Ms. Pelosi. I certainly can associate myself with 
Maxine's remarks because you have always been a point person on 
AIDS on this subcommittee, and the chairman has helped me on 
lupus every year. I owe each of you a debt of gratitude and we 
want to thank you.
    I am here today because we have a leader, Donna Christian-
Christensen, who has directed our path in terms of where we go 
as a Caucus on health issues. She has done an outstanding job. 
We miss Lou, but he has been replaced, Mr. Chairman, by a very, 
very good person. I thank her for her efforts.
    I feel very proud to be here among these two wonderful 
young men who are showing the kind of leadership in our 
community that we deserve and guided by the sister here from 
Atlanta. I feel very privileged today, Mr. Chairman.
    I am here to ask this subcommittee for $10 million to be 
used for a media AIDS campaign in the Black community. It will 
be a grassroots strategy very similar to the one that the 
Office of the Drug Czar has done. And no one can tell me that 
media campaigns don't help. They help in prevention. We talk a 
lot about treatment and rehabilitation, but the segment that 
the Caucus is looking at in addition to the others is 
prevention.
    We get so many new cases of AIDS in our community, and we 
feel if we use this strategy and use it well, the message will 
get to them. Many times, you see how well we have done with 
cigarettes. We have done an outstanding job with media with 
cigarettes. We have done our standard job with drugs in our 
community. Now we are asking to use this strategy, which has 
been tested and proven to be effective, to be used against this 
scourge of AIDS. We are asking for $10 million to do that. We 
think it would be a very good preventive strategy and to go 
along with the other kinds of things we are doing with AIDS.
    I don't need to talk to you about the incidence of AIDS 
because you know about it. So in terms of the medical 
dimension, we know that it has a very high incidence, both in 
morbidity as well as mortality in our community. It is a 
scourge among our young people. That is why I am here today.
    I want to save the rest of my remarks for the record, Mr. 
Chairman. And I want to thank you and emphasize that we need a 
preventive piece, and that is a $10 million media campaign, 
which Donna has endorsed and will see to it that we do the 
right thing.
    Thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Representative Meek, I think that is a 
wonderful idea. Every dollar that is spent on prevention that 
prevents a person from getting the infection saves hundreds of 
thousands of dollars down the line. If $10 million will buy us 
that kind of campaign and will reach the community you want to 
reach with the message you want to get to them, then I think we 
ought to make that investment.
    Ms. Meek. Thank you, Mr. Chairman. Amen.
    Mr. Porter. John Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman and Ms. 
Pelosi. Thank you very much for having us here.
    Mr. Chairman, I just want to take a moment to say that 
earlier today I had an opportunity to meet in my office with 
Sandra McDonald from the city of Atlanta in the State of 
Georgia, who has been out there on the front line on the 
battlefield for some years. She may look very young, but she 
started as a teeny-bopper fighting to prevent HIV and AIDS. She 
has done some unbelievable work in the city of Atlanta, the 
State of Georgia, and around our Nation.
    I also had an opportunity to spend a great deal of time 
with Sandra and Pellom McDaniels of the Atlanta Falcons. This 
young man is committed to using his talent, his visibility to 
help combat AIDS and HIV. I am happy to see Stacy Robinson 
here.
    Mr. Chairman, I cannot add anything to what others have 
said about Donna. She has been a real leader within the Black 
Caucus to bring this issue to the forefront.
    I want to take this opportunity to thank you for your 
support last year in addressing HIV and AIDS in minority 
communities. Though progress has been made, much remains to be 
done. It is critical that we again have your support as you 
consider your fiscal year 2001 Labor, HHS, and Education 
Appropriations Bill. I join my colleagues in asking that you 
include $539.4 million for the CBC Minority HIV/AIDS 
Initiative.
    In a country such as ours with so many resources, so much 
wealth, I think we have to find a way, make a way, create a way 
to end the disparities between the minority population and the 
larger population, not when it just comes to AIDS but for other 
diseases that affect the minority population and the larger 
population. My people are dying before their time. We have to 
find a way to find the necessary resources to make it happen.
    In my own State of Georgia, we do have an emergency. In 
Georgia, African-Americans comprise 60.4 percent of the total 
AIDS cases, while Whites account for only 37.6 percent. In 
fact, AIDS is the leading cause of death among African-American 
women between the age of 20 and 44 in the State of Georgia.
    I would like think that somehow or someway, as a Congress 
and as a Nation, we should find a way and make a commitment--
the same way that President Kennedy made a commitment to go to 
the moon--we should make a commitment to end the disparity 
between the minority population and the majority population. We 
should find a way. We should make that commitment to see that 
all of our people live healthier and longer lives.
    Again, thank you for your efforts last year to address HIV 
and AIDS in minority communities. Again, I ask you to look 
hard, long, and dig deep. I know you will. You and Ms. Pelosi 
have been there. But we must not give up or give in or give 
out. We must solve this problem and deal with it in our own 
country. If not, I don't think the spirit of history will be 
kind to us.
    Thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, John.
    Ms. McDonald, do you want to proceed first?
    Ms. McDonald. Good afternoon. It is a pleasure to be among 
my colleagues on the left who represent the National Football 
League and the wonderful, wonderful leadership of the 
Congressional Black Caucus.
    I started doing this work 14 years ago. Let me start by 
saying, Ms. Pelosi, you are our hero. We love you and 
appreciate all of your efforts on our behalf.
    Mr. Chairman, 14 years ago, out of the trunk of my car, I 
decided that our community needed to know about AIDS. There 
were three African-Americans diagnosed in our State. Our 
community didn't know we were at risk. It was difficult work 
then, I thought. And I thought if we got the message out and 
people learned about this disease we might be able to prevent 
it.
    That did not happen. Today we have 4,000 clients, a staff 
of 30. Everyone on our staff is in recovery and living with 
HIV.
    Devastated is not even a word we can use anymore. It is 
worse than that. The good news is that the support of the 
Congressional Black Caucus, the wonderful leadership of Donna 
Christian-Christensen. I thought we had energy when we came to 
say that we needed this. When we ran into this level of energy 
and support, we just knew that we were on the right track.
    The funding has been tremendous on the community level. We 
are getting people into care. There is a group of African-
American Aids Service executive directors that we started 2 
years ago. We have tracked our progress since the beginning of 
the Congressional Black Caucus funding. Ten agencies have 
served 100,000 people.
    We are doing good work. We are trying our best to live up 
to all the demands on us to perform for our community.
    But let me say that my heart goes out to you because you 
have to hear a lot about devastation of a lot of different 
health issues. I know it is not easy to make decisions, but 
there is nothing easy about AIDS. It is not easy to be 
diagnosed with AIDS. It is not easy to realize that it is still 
in many communities a shame-based disease. We are ashamed and 
don't want anybody to know. Our youngest clients are 13-year-
old twins--females--their mother's only children, who made a 
mistake early about a sexual decision and they are both 
positive. Our oldest client is an 85-year-old widower who just 
got involved with someone who was younger who was positive. It 
is the whole spectrum of our community.
    I know the road is going to be crooked, but this funding 
will give us an ability to get in front of the effort. Every 
time we do care, we think we are doing prevention.
    I knew I needed some help in our community to get this word 
out. What better help, or what better persons to get involved, 
than the National Football League Players Association located 
here in Washington, D.C. Mr. Stacy Robinson is my partner in 
this work. We have been doing this work together for 7 years 
and this year embrace the concept of getting a public service 
campaign out. It has begun in six cities with 155 NFL players 
who are doing radio and television commercials about this. 
Those players have produced 4,000 calls from folks around the 
country who have heard them and want to know about them and how 
to get tested.
    So I am here to say thank you. Thank you is never enough to 
say. I am here to ask for your support. We know it is tough, 
but I will make a commitment that I will return in 12 months 
and bring you an excellent report from the front to at least 
say that we have at least tried to contain the epidemic we are 
seeing every day.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. McDonald. I now will introduce Mr. Stacy Robinson, 
National Football League Players Association.
    Mr. Robinson. Thank you, Sandra.
    It is obvious why I got involved in this. It is tough to 
say no to Sandra. I met Sandra a little over 6 years ago when 
she used to do training for the National Football League 
Players at rookie symposiums and different drug symposiums. It 
became apparent to me at that time about this disease. Of 
course, you start to hear the basics about it, but sometimes 
things don't really sink in until it hits home.
    A few years ago, we got invited to a fight. I played in the 
National Football League for the New York Giants for 6 years. I 
had an opportunity to play in and win two super bowls. But that 
challenge does not compare to the challenge that I perceived 
and understood that is before us right now.
    I want to thank you for your time and consideration in 
this. It is kind of nice to put a face with the individuals who 
are championing this cause. When I realized how important it 
was, I went out and got some help. Thanks to my boss, Gene 
Upshaw--the good thing I like about Gene is that he is not a 
micromanager. He tells you what your job is and what you're 
supposed to do. One of our jobs, from an organizational 
standpoint, is to provide players with opportunities to get 
involved with community activities. So often you hear about the 
negative things that go on out there.
    When I first started calling players to try to get them 
involved in doing something like these public service 
announcements, I was surprised at the response. As Sandra 
indicated, it is a shame-based disease. But I was surprised at 
the maturity and sense of urgency I perceived within the 
players for them to step up the plate.
    And a lot of that had to do with the fact that many of them 
were touched personally. They realized and understood that the 
people who were dying from this were people who look like 
them--their mothers, their sisters, their nieces. So they began 
to feel that sense of urgency.
    Brian Mitchell from the Washington Redskins, who did the 
public service announcement that is in this area, was not able 
to be here with us today. But it is people like that. It is 
people like Pellom McDaniels, Tim Brown from the Raiders, 
Charles Way from the New York Giants, Ray Buchanan--and we also 
got a number of calls from players who want to get involved.
    Contrary to popular belief, the majority of players out 
there want to get involved in their community and are looking 
for opportunities to get involved.
    As I stated before, I had a very fulfilling time as a 
professional athlete. But you reach a time in life when you 
need other challenges. I never perceived that it would be a 
challenge of this magnitude, but the important thing to note is 
that I see that I am not alone. I appreciate all the help we 
are going to receive in fighting this battle.
    I want to say publicly that you have our commitment from 
myself and the NFL Players Association.
    In closing, I would like to leave you with a poem that 
stood with me as I look at this challenge that we have ahead of 
us, and life in general.
    ``I have only just a minute, only 60 seconds in it. It was 
forced upon me, I can't refuse it. I didn't seek it, I didn't 
choose it. But it's up to me to use it. I must suffer if I 
abuse it, give an account if I lose it. Just a tiny little 
minute, yet eternity is in it.''
    This is my colleague here, Mr. Pellom McDaniels from the 
Atlanta Falcons.
    Mr. McDaniels. Good afternoon, everyone. I am glad to be 
here. This is not my first trip to Washington, D.C. to speak on 
behalf of the NFL Players Association and that which concerns a 
community.
    I think we all can say here that this is a disease that has 
passed the point of being embarrassed. And I think a lot of the 
guys who have become involved with the campaign feel that it 
has impacted our communities very hard. I have had family 
members die of AIDS. So it is close to home to me, and these 
people were in their 20s and 30s. How they got it doesn't 
matter. It is a disease that doesn't have a face. It can impact 
anyone.
    As Stacy was saying, we have taken this opportunity as the 
National Football League Players to become the role models that 
we need in our community. We have said that we will be the big 
brothers that we need now to the kids that we work with every 
day--not just on the weekends or summer football camps.
    I started a foundation in 1993 called the Archer Smarts 
Foundation. We work with kids from 8 to 18. It is disheartening 
to think that these kids may possibly be HIV positive by the 
age of 13, that they may not have a chance to live a full dream 
or the dreams we tell them they can live, that they can grow 
old with a family and have grandkids and live by a lake and 
swing on a swing with their grandkids. It is disheartening to 
hear stories about twins who are 13 years old who are HIV 
positive, who may not be able to go to college. It is very 
disheartening, especially when it is in your community.
    In 1986, when I went off to college, a study came out that 
said that African-American males 18 to 24 were an endangered 
species, that we were more likely to be shot by gang violence 
or some kind of violence associated with drugs than to graduate 
from college. Now that I am 32, the statistics say that I will 
die of HIV or AIDS by 45.
    This is something that runs not just in a racial barrier. 
This is something that we have to handle now because we are all 
affected by it. We have to do something about it. In the NFL 
Players Association, we have stepped up. We have said that we 
are going to be the role models that these kids need, so we are 
going to do more than just football camps. We are going to do 
health and football camps. We are going to try to do 
screenings. We are going to try to educate the kids on taking 
the best risk behavior out there, not to do something that is 
going to be bad for them.
    We have already decided that this is a worthy cause because 
we are affected directly by it. These children who trust us, 
these parents who send their kids with us for an hour, depend 
on us to help them make the right decisions.
    I am here on behalf of all the guys who have already 
stepped up, all the guys who will step up--not just the NFL, 
but I am pretty sure the other leagues as well--that we will be 
the role models, the big brothers out there that will help our 
little brothers and little sisters be able to grow old and live 
a nice, full, long life.
    Mr. Porter. Ms. McDonald, Mr. Robinson, Mr. McDaniels, I 
just think it is wonderful the leadership you are providing. 
Obviously, our job is to provide some resources so that you can 
bring that home to people. All I can say is that we are going 
to do our best to do that.
    Thank you for that role model you are providing. That makes 
all the difference to young people and makes a difference 
throughout their lives. I think it is wonderful you are here to 
be advocates and to take that position home to people.
    Thank you so much.
    Ms. McDonald. Mr. Chairman, I was remiss to say that 
Congressman Lewis has always been our role model. Just seeing 
what he has done with his life has made such a difference. I 
think his life was probably one of the reasons I had guts 
enough to get into AIDS.
    Mr. Porter. That's wonderful. He has made a difference in a 
lot of our lives.
    Ms. Pelosi. I was going to seek recognition before Sandra 
spoke and say it is an honor for us anytime Mr. Lewis comes to 
our committee. Thank you for your considerable leadership in so 
many areas, including this one.
    Mr. Chairman, when Donna Christian-Christensen brings 
something to us, it is the result of so much work on the part 
of the Caucus to bring us to----
    Ms. Christian-Christensen. And all our partners.
    Ms. Pelosi. And all your partners. It is a remarkable 
organizational feat, Mr. Chairman. I have been to some of their 
meetings. I have seen people come from all over the country. 
Thank you for building the consensus, attracting the talent to 
deliver the message--and of course, Sandra is a legend already 
for all her work. Thank you very much.
    Thank you, Mr. Lewis.
    Thank you, all of you. I appreciate it very much.
                              ----------                              

                                         Wednesday, April 12, 2000.

                     HEALTH CARE NEEDS AND PROBLEMS


                               WITNESSES

HON. DONNA M. CHRISTIAN-CHRISTENSEN, A DELEGATE IN CONGRESS FROM THE 
    U.S. VIRGIN ISLANDS
HON. ROBERT A. UNDERWOOD, A DELEGATE IN CONGRESS FROM GUAM
HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Porter. Now Representative Christian-Christensen can't 
leave because she is on the next panel as well.
    She will be joined by Representative Robert Underwood of 
Guam and Representative Ciro Rodriguez of Texas to testify on 
health care needs and problems.
    Gentlemen, welcome. Who is going to be our lead here?
    Ms. Christian-Christensen. Thank you again, Chairman Porter 
and Congresswoman Pelosi. Thank you for all you have done in 
the past. We look forward to working with you to see what we 
can do for the next fiscal year.
    This time I am pleased to be here with my colleagues from 
the Hispanic and Asian and Pacific Islander Caucuses to present 
our recommendations for funding in fiscal year 2001 to address 
health disparities in general among communities of color.
    Our health is a necessary underpinning of everything else 
that we aspire to accomplish to make our communities whole and 
prepared to meet the challenges of the next century. As we have 
just talked about, HIV and AIDS have been our focus, but in 
addition to HIV and AIDS, African-Americans also die and are 
disabled in far greater proportions than our representation in 
the population from other diseases such as heart disease, 
cancer, diabetes, infant mortality, stroke, and other chronic 
diseases--more than the other minority population groups 
combined.
    Responding to the disparities in health care among 
minorities is also an emergency. And in this regard, I would 
like to outline a few facts.
    Black men and women have the lowest life expectancies of 
any people of color, of any population group at all in the 
country. African-Americans have the highest death rate from 
heart disease and stroke. We are second to Native Americans in 
death rate from diabetes. And though we have a lower incidence 
of most cancers, our death rate is higher than all groups.
    Black infants die at twice the rate of White infants, even 
when the mother's level of education is at a high level.
    In 1998, African-Americans and Latinos accounted for two-
thirds of new AIDS cases and 81 percent of children with AIDS 
are Black and Hispanic. About 24 percent of African-Americans, 
24 percent of Asian-Americans, and 38 percent of Hispanics are 
uninsured. Several recent published studies have demonstrated a 
clear bias in the medical care offered to African-Americans and 
other people of color. On the other hand, there is an 
increasing body of information that says that when the doctor 
and patient are of similar ethnic and racial background, the 
patients have better outcomes.
    Mr. Chairman, the legacy of slavery and many years of 
racism, ethnic bias, and discrimination have left us with a 
fractured dysfunctional system of health care that has resulted 
in these disparities for HIV, AIDS, and the other diseases.
    But today, we find ourselves in a time of unprecedented 
plenty. As a result, we have an opportunity that may never come 
again in quite the same way to right the wrongs of the past and 
to make the kind of investment in our people that will level 
the playing field in health for all Americans. We are therefore 
asking for additional funding to begin this necessary and 
important process in several areas.
    People of color make up less than 10 percent of all 
physicians. And our representation is no better in the other 
health care fields. It is critical that we increase the number 
of health care providers of color to meet the needs of our 
increasingly diverse society. We are therefore asking for 
increased funding for the Health Careers Opportunities Program 
and the National Health Service Corps.
    This in itself will not address the need for diversity in 
the immediate time frame, so we also request that funding be 
appropriated to fully fund the provisions of H.R. 3250, the 
Health Care Fairness Act introduced by Congressman John Lewis. 
This bill would provide many of the tools we need as this 
country begins to address the health care needs of our multi-
racial and multi-ethnic population.
    There are two other bills which seek to reduce health 
disparities. The first is H.R. 1860, the Medically Underserved 
Act which I introduced. This bill, in addition to requiring 
plans that serve Medicare and Medicaid patients to contract 
with physicians for medically underserved areas and physicians 
that reflect the diversity of those communities. It would also 
provide grants to help increase access of outpatients as well 
as providers to managed care.
    The other bill is Representative Jesse Jackson's bill, H.R. 
2391, which is incorporated into H.R. 3250, that would create a 
national center for research on domestic health disparities. 
This is a critical piece of our request and does not require a 
great deal of funding.
    Last year, the Department of Health and Human Services 
created the Racial and Ethnic Approach to Community Health 
Programs to help communities develop initiatives which would 
improve our health outcomes. These programs, which empower our 
communities to be agents of wellness, need an additional $162 
million to be expanded beyond the 32 communities it now 
reaches.
    Communities of color also have more low birth weight babies 
than Caucasian communities. Because of this, we have an infant 
mortality that closely approximates those of developing 
countries. Further, low birth weight is directly related to 
poor outcomes in our children in the later years. So making 
sure that our children have the best possible start in life is 
critical to their development and to our future.
    The Healthy Start Program is to be folded into the Maternal 
and Child Health Program. This means that these critical life 
lines will be lost for some communities. So we request 
continued funding for our communities' children who need a 
healthy start.
    On a related and equally important issue regarding our 
children, we have written to the committee and to Chairman 
Porter to request that they approve pneumococcal vaccine for 
children up to the age of 5 be fully funded at $60 million. The 
President's request only partially funds this program because 
it was only after his submission that the ACIP expanded the 
recommendation and the FDA approved the availability of this 
particular vaccine, which is important to African-American, 
Native American, and Alaska Native children who are 
disproportionately infected and likely to have complications at 
the higher ages. We also support the funding that was requested 
earlier for community health centers.
    You will be pleased to know, Mr. Chairman, that our final 
request does not require funding. In 1994, this committee 
directed the Secretary of Health and Human Services to fund 
Offices of Minority Health throughout the Department and up to 
.5 percent of that agency's budget. To date, none of those 
offices have a line item budget within the Department. So we 
ask that the Secretary be directed to comply with the intent of 
the committee.
    Again, Mr. Chairman, we thank you for your continued 
support for the health care of people of color and all 
Americans. Adding this vital funding to close the gaps in 
health care for all Americans would add a worthy caveat to your 
already distinguished years of service to this Congress and the 
Nation. I know you will do your very best to help us, as you 
always have.
    I will be happy to answer any questions you and any other 
colleagues might have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Ms. Christian-Christensen.
    Mr. Underwood.
    Mr. Underwood. Thank you, Chairman Porter and Ms. Pelosi, 
for this opportunity to testify before the Subcommittee on 
Labor, Health and Human Services, and Education. I am here 
today in my capacity as Chair of the Congressional Asian 
Pacific Caucus to discuss the health of our minority 
communities, and in particularly, the Asian-American and 
Pacific Islander communities.
    In recent years, advances in the prevention, diagnosis, and 
treatment of disease has improved the health status and quality 
of medical care to the overall U.S. population. However, while 
we are experiencing remarkable improvements in the health 
status of the overall population of our country, we find that 
this has not translated into similar benefits for all 
Americans.
    In fact, minority Americans continue to experience 
disproportionate rates of disease, morbidity, and mortality. 
Studies upon studies have shown that race and ethnicity 
correlate with persistent and often increasing health 
disparities among U.S. populations. This alarming disparity 
deserves our utmost attention and a call to action. I am proud 
to join with leaders of our fellow minority caucuses to call 
your attention to these disparities.
    Sometimes the Asian-American and Pacific Islander 
communities, which includes indigenous and immigrant 
populations, comprises 10.4 million or approximately 5 percent 
of the U.S. population, but the fastest growing and most 
diverse racial and ethnic group in the U.S. Sometimes we are 
seen as a model minority, experiencing few health or social or 
educational problems.
    However, this label is a misrepresentation of the overall 
population. Emerging data reveals significant health 
disparities and barriers to health care and social service 
access.
    For example, Department of Health and Human Services data 
shows that Asian-Americans and Pacific Islanders lack health 
insurance at a higher rate than the entire U.S. population. 
Asian-Pacific Americans experience the highest incidence of 
tuberculosis than any other population. Although the numbers of 
new cancer cases declined for all racial and ethnic groups from 
1990 to 1995, the rates for Asian-American women remained 
level.
    If you look at particular populations, some statistics are 
very startling. Cervical cancer incidence rates are 5 times 
higher for Vietnamese women than they are for White women. 
Liver cancer among Vietnamese is found to be 11 times higher 
than in Whites.
    The death rate for Native Hawaiians is twice the overall 
death rate for the U.S. population. Diabetes affects Guamanians 
at five times the national average. And infant mortality rates 
in the U.S. Pacific insular areas are more than double the 
national average.
    It is clear that the face of America is becoming 
increasingly diverse as its minority populations continue to 
increase. And as our minority populations increase, so will the 
complexity of our health situation. Therefore, I urge your 
strengthened commitment to support programs that develop 
comprehensive strategies to address health disparities among 
ethnic and minority groups. I think the whole issue of 
disparities are evidence of fundamental problems and health 
care access. The way we think of health care, the way we do 
research, the kinds of treatment we employ--sometimes 
culturally and linguistically amiss--but certainly there is a 
whole constellation of issues there which lack of access to 
health care and health care disparities I think indicate that 
we need to take dramatic action.
    As Chair of the Asian Pacific Caucus, I urge your support 
of the following DHHS priorities.
    To support an increase to the Administration's 
appropriation of $39 million for the Office of Minority Health. 
An increase in funding would enable OMH to carry out the full 
scope of its mission to improve the health status for minority 
Americans.
    Support the Administration's proposal to provide $6.5 
billion in funding over the next 10 years, giving States the 
option of providing health care to qualified legal immigrants. 
Children and pregnant women, regardless of their arrival date, 
may be covered under the State Children's Health Insurance 
Program and Medicaid. This also restores access to SSI and 
Medicaid benefits to disabled immigrants and expands coverage 
for parents of children eligible for Medicaid.
    Support an increase to the Administration's proposed 
funding for the Office for Research on Minority Health within 
the National Institutes of Health. This is very important, from 
our point of view. The Trans-NIH Strategic Plan for Research on 
Health Disparities enjoins all components of the NIH's 
biomedical and behavioral research, outreach, research 
training, and the resulting advances that improve health status 
and quality of life for all Americans.
    In addition, we urge considering raising the ORMH to center 
status to ensure that the NIH research is targeted toward 
minorities. This initiative has already been proposed in two 
House bills, which have been outlined and referred by Donna 
Christian-Christensen.
    Support a proposal to increase funding for the Minority 
HIV/AIDS Initiative, which has already been referred to earlier 
in a very stirring and dramatic fashion.
    Support the Administration's proposal to provide $171 
million for the National Breast and Cervical Cancer Early 
Screening Detection Program. This program is vital to providing 
the expansion of screening, diagnostic, and case management 
services to women at risk, especially minority women.
    And support the Administration's $30 million initiative to 
implement State-based Diabetes Control Programs administered by 
the Centers for Disease Control in minority communities. This 
will be a special benefit to areas with high levels of 
diabetes, especially U.S. insular areas like Guam, the 
Commonwealth of the Northern Mariana Islands, and Puerto Rico.
    As Chair of the Congressional Asian Pacific Caucus, I 
strongly urge your support and commitment to bridge the gap 
which denies minority Americans from receiving proper access to 
health care and other quality of life services.
    It is proven that populations of minority Americans are 
growing. It is evident that the face of the United States is 
quickly changing. It is clear that much needs to be done to 
improve the health status of all our communities of color.
    I thank you for the opportunity to present these ideas.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Porter. Thank you, Mr. Underwood.
    I might say to both of you that the legislation you 
referred to is authorizing legislation and we don't have 
jurisdiction to include that. But I have, in respect to 
Representative Jackson's bill, talked to the authorizing 
subcommittee chairman and told him that we would be happy to 
carry the bill in our bill if they will sign off on it.
    I would suggest that you bring the other pieces of 
legislation to their attention and see if you can get some kind 
of progress made through those that have jurisdiction in the 
first instance. If you do, of course, then we will put them in 
our bill and try to provide the funding as well.
    Representative Rodriguez?
    Mr. Rodriguez. Mr. Chairman and fellow colleagues, first of 
all let me thank you for allowing us the opportunity to be 
before you. It is a pleasure for me to be here with both Donna 
Christian-Christensen of the Black Caucus and Bob Underwood 
with the Asian Pacific Caucus.
    I have submitted my entire testimony for the record and I 
would like to take this opportunity to highlight some of the 
key things that I feel are critical.
    I am here on behalf of the Hispanic Task Force on Health 
Care. I want to be able to make those comments.
    The Congressional Hispanic Caucus has aimed its agenda at 
meeting the needs of the growing and diverse Hispanic 
community. In September of 1999 the Congressional Hispanic 
Caucus held hearings during Hispanic Health Awareness Week to 
focus on the disparities that exist within our community. The 
hearings indicated the broader view of the challenges that we 
face and that we must meet to effectively address the health 
care needs of Hispanic-Americans and those of color.
    These five areas we identified based on the testimony.
    Number one, access to health care and how critical it is. 
Number two, the area funding that continues to be a difficult 
area. Number three, the culturally competent information.
    Just to give you an example on number three--we have talked 
about AIDS--this woman provided testimony. It was a doctor 
telling us about this individual who was told that she was 
positive. In Spanish, positive means ``positivo,'' very similar 
to English. But when she was told that she was positive, she 
assumed everything was okay and that it was good news, until 
later when her child became infected. So cultural competent 
information is critical from a Hispanic perspective.
    Number four, representation in the health profession is 
indicated. We don't have enough Hispanics in the health 
profession from dentists to nurses to doctors. In addition to 
that, number five, one of the areas of concern we also have is 
that of data collection. We will officially release a report 
tomorrow at a press conference--you can receive an advance copy 
today--of the hearings we conducted and the data we collected 
and some of the recommendations we are making.
    Our findings within the report are specific to the Hispanic 
community. And I promise you I won't go more than 3 or 4 more 
minutes
    Our findings within the report are specific to the Hispanic 
community. But these disparities exist among the communities of 
color, whether diabetes, HIV, AIDS, cancer, or mental health. 
Given our findings, the Congressional Hispanic Caucus has 
pulled together specific budgetary priorities and funding 
requests.
    Diabetes affects our community and many communities of 
color, with type two diabetes affecting Latinos twice as much 
as non-Hispanics. So in that area, also, by the way, 90 to 95 
percent of the cases in America are type two diabetes.
    In addressing these serious diseases, we request an 
increase to the CDC's Office of Diabetes so that they may 
increase education efforts using the National Diabetes 
Educational Program. Increasing funding will also allow the 
office to strengthen State programs.
    Along these lines, we also request that funding be made 
available to the National Institutes of Health so that the 
recommendations from the Diabetes Research Working Group can be 
implemented this fiscal year.
    Of great concern in our communities is the great number of 
uninsured. As you well know, we have the largest number of 
uninsured. Since we are the largest uninsured minority 
population, we are specifically concerned about programs aimed 
at providing access to care, programs aimed at meeting the 
needs of communities including health care access for the 
uninsured programs and community health centers, for which we 
requested an increase of $250 million.
    We are also concerned with the lack of funding support 
given to the Office of Civil Rights with HHS, which has been 
level funding for the last few years. In fact, for the last 10 
years, nothing has happened in that office. We feel it is a 
critical area to which we need to respond. We request an 
increase in funding to help the office meet the new and 
additional responsibilities they have been given.
    Cultural and linguistic competency has long fallen by the 
wayside, yet this is an issue that is critical for our 
community. To meet the needs of our community, the 
Congressional Hispanic Caucus requests the funding of the 
Office of Minority Health through the Center for Linguistics 
and Cultural Competence, which has long been underfunded.
    Last and certainly not least is the issue of HIV and AIDS 
that we have been talking about. The growing number of HIV 
cases has continued to grow, and it is frightening. As a 
representative from the various caucuses, we have heard the 
testimony before us. There is a need for additional funding in 
this specific area.
    Last week, we heard the news that the renowned Rudy 
Galindo, a Mexican-American, was diagnosed with HIV/AIDS. He is 
the face of the growing number of HIV/AIDS cases throughout our 
community, and that is evident in terms of the need. I think 
the fact is that the largest increases in new cases have been 
in the Hispanic community. The largest proportion is African-
American who suffer, but the largest number of rising cases is 
Hispanic. We cannot emphasize enough the need to increase 
funding to our communities of color, specifically for education 
and prevention.
    Not only is it key to provide the services, but it is also 
important to provide the education. I worked in a pharmacy and 
I cannot overemphasize the fact that people don't realize and a 
lot of people don't know what to do and assume that by doing 
certain things everything is okay. There are some real crazy 
recommendations out there where people say--I remember 
delivering prescriptions for a pharmacy and someone said, ``I 
was told that if I take aspirin and drink Coke, everything will 
be okay.'' Just things such as that.
    I want to take this opportunity again to thank you for 
allowing us the opportunity to be before you. We are willing to 
respond to any questions.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Dickey [assuming Chair]. Do you have any questions?
    Ms. Pelosi. I don't have any questions, Mr. Chairman, but 
thank you for the recognition.
    I want to commend this very distinguished panel for the 
hard work of each of your caucuses for the presentations you 
have brought before us. The fundamental issue is universal 
access to quality health care. It would make a great big 
difference in the disparities you talk about. Absent that--and 
even when we have that--we have to make a special effort in 
appropriateness of care, appropriateness of care givers, and 
the training of minorities, and impacted communities to have a 
confidence. They do better when they are talking to people who 
understand their situations.
    I commend you for what you have done, for your excellent 
testimony, and I know our chairman will do his best--as he said 
earlier--to accommodate your request. But thank you for your 
hard work and your excellent presentations.
    Thank you, Mr. Chairman.
    Mr. Dickey. I would like to ask a question.
    You said that African-Americans have the greatest 
percentage of AIDS, but not as many Hispanic?
    Mr. Rodriguez. There is a larger percentage in terms of the 
increase in cases, not the largest number of people that suffer 
from AIDS.
    Mr. Dickey. The reason I am asking is that I went to Africa 
on a trip, and AIDS was the biggest subject we looked at in 
each of the three countries. It was overwhelming to the point 
of despair to even observe it, and the fact that they don't 
even know what they are dying of. They think it is 
tuberculosis, then they think it is something else, then the 
problem of not being able to educate them as to what can be 
done, and then the problem of not being able to afford the 
drugs--it is a small world when you think about the concern 
that we need to have for people who are underprivileged.
    Mr. Rodriguez. And it is a lot of young people. A lot of 
professionals. We are losing a lot of them in their 30s and 
20s.
    Mr. Dickey. Thank you all so much.
    I like being chairman, and now it is just such a short 
period of time. [Laughter.]
    [The following statements were submitted for the record:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
